b                               Today’s Achievements Assure Tomorrow’s Success




    Today’s Achievements Assure Tomorrow’s Success
                                                             Department of the Navy
                                                         Fiscal Year 2008
                          Annual Financial Report
Message from the Secretary of the Navy .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3
Message from the Assistant Secretary of the Navy (Financial Management & Comptroller) .  .  .  .  .  .  .  .  5
Management’s Discussion and Analysis .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
Department of the Navy Certification of Financial Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37
Department of the Navy General Fund  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 41
       Principal Statements  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 41
       Notes to the Principal Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 51
       Required Supplementary Stewardship Information  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 93
       Required Supplementary Information .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 99
       Other Accompanying Information  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 109
Navy Working Capital Fund .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .           113
       Principal Statements  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .        113
       Notes to the Principal Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                 123
       Required Supplementary Information .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                         151
       Other Accompanying Information  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                      153
Subsidiary Financial Statements
	       United States Marine Corps General Fund .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  155
        Principal Statements  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 155
        Notes to the Principal Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 165
        Required Supplementary Stewardship Information  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 201
        Required Supplementary Information .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 205
        Other Accompanying Information  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 211
	       Navy Working Capital Fund - Marine Corps  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 213
        Principal Statements  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 213
        Notes to the Principal Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 223
        Required Supplementary Information .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 249
        Other Accompanying Information  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 251
Audit Opinions .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  253
Photo Cover Credits .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 288

                                                                                                                                                                                 1
2                                   Today’s Achievements Assure Tomorrow’s Success




    The Honorable Donald C. Winter
            Secretary of the Navy
Department of the Navy 2008 Annual Financial Report   3
4                                        Today’s Achievements Assure Tomorrow’s Success




    The Honorable Douglas A. Brook
       The Assistant Secretary of the Navy
        (Financial Management and Comptroller)
Department of the Navy 2008 Annual Financial Report   5
6   Today’s Achievements Assure Tomorrow’s Success
        Management’s Discussion and Analysis




     2008
     2008
Management’s Discussion and Analysis




     2008
                             Department of the Navy 2008 Annual Financial Report   7
8                                                                                 Today’s Achievements Assure Tomorrow’s Success


    OCTOBER and NOVEMBER 2007




    An Aviation Warfare Systems Specialist 3rd Class, attached        A Corporal attached to 2D Marine Logistics Group shakes hands
    to Helicopter Sea Combat Squadron (HSC) 85, searches for a        with a little girl while on a security patrol. U.S. Marine Corps
    burning target to dump 420 gallons of water. U.S. Navy photo by   photo by Lance Cpl. Robert S. Morgan.
    Mass Communication Specialist 3rd Class Dustin Kelling.




    Sailors and Marines board a CH-46E Sea Knight, assigned           Secretary of the Navy Donald C. Winter (left) arrives on board
    to Marine Medium Helicopter Squadron (HMM) 265, after the         Naval Support Activity Bahrain. U.S. Navy photo by Mass
    amphibious assault ship USS Essex (LHD 2) arrived off the coast   Communication Specialist 1st Class Jennifer Stride.
    of Sihanoukville, Kingdom of Cambodia. U.S. Navy photo by
    Mass Communication Specialist 2nd Class Drae Parker.
                                               DECEMBER 2007 and JANUARY 2008




The Theodore Roosevelt Honor Guard parades the colors at the   Sailors aboard the amphibious assault ship USS Kearsarge
Great White Fleet Gala aboard USS Theodore Roosevelt (CVN      (LHD 3) look out at the amphibious assault ship USS Tarawa
71). U.S. Navy photo by Mass Communications Specialist 2nd     (LHA 1) as the two ships pass each other. U.S. Navy photo by
Class Nathan Laird.                                            Lt. James R. Hoeft.




This photograph was taken from a high-speed video camera       Africa Partnership Station (APS) pulled into Lome, Togo aboard
during a record-setting firing of an electromagnetic railgun   High Speed Vessel (HSV) 2 Swift, as the first U.S. Navy ship to
(EMRG) at Naval Surface Warfare Center, Dahlgren, Virginia.    visit Togo in 15 years. U.S. Navy photo by Mass Communication
U.S. Navy Photograph.                                          Specialist 2nd Class Elizabeth Merriam.



                                                                   Department of the Navy 2008 Annual Financial Report           9
10
10                                                                                  Today’s Achievements Assure Tomorrow’s Success


     FEBRUARY and MARCH 2008




     The amphibious assault ship USS Nassau (LHA 4) leads a             A single modified tactical Standard Missile-3 (SM-3) launches
     formation of ships during an Atlantic Ocean crossing of the        from the U.S. Navy AEGIS cruiser USS Lake Erie (CG 70). U.S.
     Nassau Expeditionary Strike Group. U.S. Navy photo by Mass         Navy photo.
     Communication Specialist 2nd Class Andrew King.




     A Corpsman 3rd Class maintains security with 3rd Battalion, 5th    Members of the Navy Band perform during the christening
     Marines, Regimental Combat Team 1 while on a patrol in the Al      ceremony of Pre-Commissioning Unit New York (LPD 21). New
     Sina district of Fallujah. U.S. Marine Corps photo by Lance Cpl.   York is the fifth of nine San Antonio Class amphibious transport
     Grant T. Walker.                                                   dock ships, but the first to be named in remembrance of the
                                                                        victims of the September 11, 2001 terrorist attacks. U.S. Navy
                                                                        photo by Mass Communication Specialist 1st Class Tiffini M.
                                                                        Jones.
                                                                                  APRIL and MAY 2008




The Mine Resistant Ambush Protected (MRAP) vehicle will           A U.S. Navy Ceremonial Guardsman pours waters from the Seven
provide deployed Marine units with protection from improvised     Seas and Great Lakes into the U.S. Navy Memorial fountain in
explosive devices. U.S. Navy photo by Mass Communication          Washington, DC during the 17th annual Blessing of the Fleets
Specialist 2nd Class Michael B. Lavender.                         celebration. U.S. Navy photo by Mass Communication Specialist 2nd
                                                                  Class Erin Kerby.




Newly commissioned officers from the U.S. Naval Academy           The mother of Navy SEAL Lt. Michael Murphy cuts the ribbon
Class of 2008 celebrate the conclusion of their graduation and    during a dedication ceremony for her son on May 7, 2008. U.S.
commissioning ceremony with the traditional hat toss. U.S. Navy   Navy photo by Mass Communication Specialist 2nd Class Kevin
photo by Mass Communication Specialist 3rd Class Matthew          S. O’Brien.
Ebarb.


                                                                      Department of the Navy 2008 Annual Financial Report             11
12
12                                                                                    Today’s Achievements Assure Tomorrow’s Success


     JUNE and JULY 2008




     Pre-Commissioning Unit (PCU) New Hampshire (SSN 778) sits           An SH-60B assigned to Helicopter Anti-Submarine Squadron Light
     moored to the pier in Groton, Connecticut after its christening     (HSL) 42 prepares to depart the guided-missile cruiser USS Vella
     ceremony. It is scheduled to be commissioned in October 2008.       Gulf (CG 72) during the Iwo Jima Expeditionary Strike Group (ESG)
     U.S. Navy photo by John Narewski.                                   composite unit training exercise (COMPTUEX). U.S. Navy photo by Mass
                                                                         Communication Specialist Seaman Chad R. Erdmann.




     Sailors assigned to Riverine Squadron (RIVRON) 3 and Marines        President George W. Bush and other Department of Defense
     assigned to the civil affairs group of 2nd Battalion, 11th Marine   officials break ground for the new Walter Reed National Military
     Regiment are patrolling Lake Quadsiyah near Haditha, Iraq. U.S.     Medical Center during a ceremony at Bethesda Naval Hospital
     Marine Corps photo by Cpl. Seth Maggard.                            in Maryland on July 3, 2008. U.S. Air Force photo by Tech. Sgt.
                                                                         Jerry Morrison.
                                                                     AUGUST and SEPTEMBER 2008




Civilians watch as the littoral combat ship USS Freedom (LCS 1) goes to      The amphibious transport dock ship USS San Antonio (LPD
sea to begin acceptance trials. The littoral combat ship was designed to     17) transits the Atlantic Ocean. U.S. Navy photo by Mass
provide the U.S. Navy with greater flexibility and capability in operating   Communication Specialist 2nd Class Jason R. Zalasky.
in the littoral or “green water” coastal areas. U.S. Navy photo by Mass
Communication Specialist 3rd Class Jhi L. Scott.




Sailors assigned to Amphibious Construction Battalion                        Medical personnel from the amphibious assault ship USS
(ACB) 2, embarked aboard the amphibious assault ship USS                     Kearsarge (LHD 3) carry medical supplies to a nearby church
Nassau (LHA 4), clean debris left behind from Hurricane Ike                  in Marose, Haiti. U.S. Navy photo by Mass Communication
at Cloverfield Airport in Galveston, Texas. U.S. Navy photo by               Specialist Seaman Apprentice Joshua Adam Nuzzo.
Mass Communication Specialist 3rd Class Kenneth R. Hendrix.


                                                                                 Department of the Navy 2008 Annual Financial Report       13
14                                                                    Today’s Achievements Assure Tomorrow’s Success

     Introduction
     The Department of the Navy (DON) has made significant strides in its transformation efforts. We are
     evolving our portfolio of Naval capabilities to defend our Nation against current and future challenges
     in support of our maritime strategy, A Cooperative Strategy for 21st Century Seapower. Construction of next
     generation ships, the consolidation and recapitalization of our naval aircraft, and enhancement of Navy
     and Marine Corps special operations represent our commitment to ensuring capabilities evolve to remain
     ahead of emerging threats. We have embraced continuous process improvement as the means to increase
     efficiency, effectiveness, and to ensure the responsible use of resources. These and other achievements will
     help us to sustain U.S. maritime superiority and assure our future success in building a sound business
     operating environment.

     The Fiscal Year (FY) 2008 Management’s Discussion and Analysis (MD&A) provides perspective on the
     breadth and depth of the DON’s mission and the resources appropriated to it. The FY 2008 MD&A is
     organized as follows:

           n	   Organization and Mission
           n	   Strategic Management
           n	   Management Assurances
           n	   Financial Condition and Results of Operations
           n	   Looking Forward


     Organization and Mission
     The DON is a large and complex organization with over 630,000 U.S. Navy and U.S. Marine Corps personnel
     and over 190,000 Navy and Marine Corps civilians located worldwide. Headquartered at the Pentagon,
     DON is organized under the Secretary of the Navy, a civilian appointed by the President, who conducts
     all Department affairs under the authority,
     direction, and control of the Secretary of
     Defense. Under the purview of the Secretary
     of the Navy are the Under Secretary of the
     Navy, four Assistant Secretaries of the Navy,
                                                         T   o maintain, train, and equip
                                                             combat-ready Naval forces
                                                       capable of winning wars, deterring
     the General Counsel, and two key military
     leaders—the Chief of Naval Operations,            aggression, and maintaining
     a four-star Admiral, responsible for the          freedom of the seas.
     command and operating efficiency of the U.S.
     Navy and the Commandant of the Marine                                      - Department of the Navy Mission

     Corps, a four-star General, responsible for
     the performance of the U.S. Marine Corps.

     The U.S. Navy and the U.S. Marine Corps have numerous major commands that operate under the
     authority and responsibility of a commander or other designated official and typically support a network
     of subordinate commands. Each major command has a clearly defined mission that supports the overall
     DON mission in support of the Department of Defense’s responsibilities. Both Services provide ready forces
     to support the U.S. joint military commands in conducting their worldwide missions (www.defenselink.mil/
     specials/unifiedcommand).
                                                                    Founded April 30, 1798
                                                                Title 10 U.S. Code, Section 5061


                                                             SECRETARY OF THE NAVY
                                                              UNDER SECRETARY OF THE NAVY




     Assistant Secretary                 Assistant Secretary                 Assistant Secretary              Assistant Secretary             General Counsel of
        of the Navy                         of the Navy                          of the Navy                     of the Navy                   the Department
    (Research, Development                    (Manpower                     (Financial Management                    (Installations
         & Acquisition)                    & Reserve Affairs)                    & Comptroller)                     & Environment)               of the Navy




                                 CHIEF OF NAVAL                                                                      COMMANDANT OF THE
                                  OPERATIONS                                                                           MARINE CORPS



                                                                                                                                                  U.S. Marine Corps
         U.S. Navy                      U.S. Navy                   U.S. Navy                   U.S. Marine Corps         U.S. Marine Corps
                                                                                                                                                     Supporting
    Shore Establishment                 Reserves                 Operating Forces               Operating Forces              Reserves
                                                                                                                                                    Establishment


*Dashed line signifies collaboration of the U.S. Navy and the U.S. Marine Corps operating forces.



The chart above is a simplified illustration of the DON organizational structure. The full structure is shown
online at www.navy.mil under “About the Navy.”

	                          United States Navy	                                                  United States Marine Corps
	                          Founded October 13, 1775	                                            Founded November 10, 1775
	                          Title 10 U.S. Code, Section 5062	                                    Title 10 U.S. Code, Section 5063




                                                                                                    Department of the Navy 2008 Annual Financial Report               15
16                                                       Today’s Achievements Assure Tomorrow’s Success




                                                           U.S. Navy photo by Robert Cole (Released)




                  Personnel Data as of Fiscal Year Ended September 30, 2008

     Navy Civilians: 170,995                   Marine Corps Civilians: 19,209
     (Full-time Equivalents)                   (Full-time Equivalents)

     U.S. Navy Active: 332,228                 U.S. Marine Corps Active: 198,505
     (Officers, Enlisted, & Midshipmen)        (Officers & Enlisted)

     U.S. Navy Reserve: 68,136                 U.S. Marine Corps Reserve: 37,523
     (Drilling Reserve & Full-time Support)    (Drilling Reserve & Full-time Support)
Strategic Management
The DON is focused on improving core capabilities that support our maritime strategy, A Cooperative Strategy
for 21st Century Seapower. Certain capabilities are critical to U.S. maritime power and reflect an increased
emphasis on those activities that prevent war and build partnerships—forward presence, deterrence, sea
control, power projection, maritime security, and humanitarian assistance and disaster response.

The cooperative strategy, guided by the objectives articulated in the National Strategy for Maritime Security,
National Security Strategy, National Defense Strategy, and National Military Strategy, was developed to be a
unified and enduring strategy that will apply maritime power to the crucial responsibility of protecting U.S.
vital interests in an increasingly interconnected and uncertain world. It binds the three maritime services—
U.S. Navy, U.S. Marine Corps, and U.S. Coast Guard—closer together than ever before in a mission to more
fully safeguard maritime interests at home and abroad.

The Department of the Navy Objectives for FY 2008 and Beyond (listed below) support our maritime strategy by
focusing on key efforts that will increase our effectiveness, improve the lives of our Sailors and Marines, and
result in greater security for the U.S. A summary of key accomplishments by objective is provided below.

Objective 1:	 Provide a Total Naval Workforce Capable and Optimized to Support
		            the National Defense Strategy
The DON continued to focus on sizing, shaping, and stabilizing the total force, applying the right skill sets
to projected requirements in the most cost efficient manner. The DON also continued to ensure that our
wounded Sailors and Marines and their families receive the highest priority care, respect, and treatment
for their sacrifices. Representative examples of DON initiatives for improving care for our people include
Comprehensive Casualty Care; Wounded Warrior and Safe Harbor; and family support programs.

      U.S. Navy
      The Navy continued to reshape its forces to enhance its ability to meet the deployment requirements
      of the Global War on Terrorism, Homeland Defense, and stability operations. From FY 2004 to FY
      2008, the Navy reduced the size of its active and reserve components by 11% and 18%, respectively.
      All assigned missions were accomplished at this level as a result of force structure changes, efficiencies
      gained through technology, altering the workforce mix, and new manning practices.

                                                 USN End Strength

       400000     373,197            362,941
                                                        350,197            337,547            332,228

       300000

       200000

                            82,558             76,473
       100000                                                     70,500             69,933             68,136


             0
                      2004               2005               2006                2007               2008

                                                Fiscal Year Ending September 30                           Active
                                                                                                          Reserve




                                                                  Department of the Navy 2008 Annual Financial Report   17
18                                                                             Today’s Achievements Assure Tomorrow’s Success

           U.S. Marine Corps
           The Marine Corps continued to grow the force to meet the increasing demands of the Global War on
           Terrorism and to provide trained forces in support of other contingencies. From FY 2004 to FY 2008,
           the Marine Corps increased the size of its active component by 11.8%. The Marine Corps is on track
           to meet the goal of 202,000 active component Marines by FY 2009.

                                                    USMC End Strength
                                                                                                    198,505
            200000    177,480            180,029            180,416              186,492


            150000

            100000

                                39,658             39,858             39,486               39,908             37,523
             50000

                  0
                          2004               2005               2006                 2007               2008

                                                    Fiscal Year Ending September 30                            Active
                                                                                                               Reserve


           Navy and Marine Corps Civilian Personnel
           The size of the civilian workforce remains stable. In FY 2008, 30,315 civilian employees were converted
           to the National Security Personnel System pay for performance system. See section, “National Security
           Personnel System,” for more information.

                                               Civilian Personnel FTEs
            200000    177,642            172,509            170,785              168,126            170,995

            150000

            100000

             50000
                                17,033             17,794             18,147               18,687             19,209

                  0
                          2004               2005               2006                 2007               2008

                                                    Fiscal Year Ending September 30                     Navy
                                                                                                        Marine Corps



     Objective 2:	 Use the Navy-Marine Corps Team to Aggressively Prosecute the
     		            Global War on Terrorism
     The Navy and Marine Corps team continued to answer our Nation’s call, both in the Global War on Terrorism
     and in the establishment of stability and security in the world’s trouble spots. From combat operations in
     Iraq and Afghanistan to humanitarian assistance and disaster relief throughout the world, the DON has
     proven ready to meet any task and answer any challenge.
Fleet Response Plan
The Navy’s focus continued to be providing ready naval forces, from individual units to strike groups,
that are forward deployed and capable of providing a substantial surge force. The readiness for this
capability is enabled by the Fleet Response Plan (FRP), which supports the National Military Strategy.
The FRP provides adaptable, flexible and sustainable naval forces necessary not only to fight the
Global War on Terror, but also to support the needs of the Combatant Commanders to maintain a
global forward presence or provide for any other evolving national defense requirements. Battle force
ships are integral to the FRP, which is structured to provide six ready carriers in less than 30 days with
an additional surge in 90 days. The DON’s goal is to sustain a fleet of 313 ships.

                                             Battle Force Ships

   300
               292                 281                280                 279                  279
   200


   100


     0
              2004                 2005              2006               2007               2008

                                         Fiscal Year Ending September 30


Marine Corps Operating Forces
During 2008, Marines operated from Iraq to Afghanistan to the Horn of Africa displaying the
flexibility and responsiveness of the Marine Air-Ground Task Force as well as maintaining forward
presence and security cooperation deterrence in the Western Pacific and the Central Command Area
of Responsibility. These forces, along with the deployment of numerous Fleet Anti-terrorism Security
Teams, continued to display the versatility and dependability of Marine Forces.

To support the operational tempo of the Global War on Terrorism, the Marine Corps has embarked on
a program of growing the force to 202,000 Marines. This growth in end strength is specifically targeted
to ensure Marines are able to prepare for current and future contingencies and improve the quality of
life of the individual Marine. Part of this Grow the Force program has been the addition of an active
duty Infantry Battalion to bring the total to 27 Active Infantry Battalions in 2008. These battalions joined
with the three active Air Wings and three Logistics Groups to comprise the three Marine Expeditionary
Forces (MEFs). Each MEF provides a highly trained, versatile expeditionary force capable of rapid
response to global contingencies. The inherent flexibility of the MEF organization, combined with
Maritime Prepositioning Force assets, allows for the rapid deployment of appropriately sized and
equipped forces.

                Marine Corps Land Forces                                   2007           2008
                Marine Expeditionary Forces                                    3           3
                Active Infantry Battalions                                     26          27
                Reserve Infantry Battalions                                    9           9




                                                            Department of the Navy 2008 Annual Financial Report   19
20                                                                       Today’s Achievements Assure Tomorrow’s Success

     Objective 3:	 Build the Navy-Marine Corps Force for Tomorrow
     The DON is committed to finding solutions that allow the Navy and Marine Corps to balance our current
     requirements and operational realities with the likely needs of the future. We strive to maintain an agile
     and flexible force that not only contributes to winning our Nation’s wars but also deters future conflict to the
     maximum extent possible—whether through persuading by strength or support for humanitarian relief.

     To build our future Navy-Marine Corps Force today, DON continued to invest in a new generation of
     warfighting capabilities. A brief discussion of ship construction, aircraft procurement, and acquisition
     governance and execution follows.

           Ship Construction
           The future fleet of ships, as represented in our 30-year shipbuilding plan, will sustain operations in
           forward areas longer, be able to respond more quickly to emerging contingencies, and generate more
           sorties and simultaneous attacks against greater numbers of multiple targets and with greater effect
           than our current fleet. Examples of ship construction programs include:

           n	   Dry cargo and ammunition ship (T-AKE)
           n	   Guided missile destroyers (DDG)
           n	   Ford Class (CVN 21), next generation of aircraft carrier
           n	   Nuclear-powered attack submarine (SSN)
           n	   Amphibious platform dock ship (LPD 17)
           n	   Littoral combat ship (LCS)

           Aircraft Procurement
           The DON is in the midst of an extensive, long-term consolidation and recapitalization of all naval
           aircraft in order to develop the optimum balance between requirements and usage. To sustain global
           air superiority, the DON has invested in naval aviation acquisition programs. Examples of aircraft
           procured are listed below.

           Navy Aircraft:
           	 n	 F/A-18 E/F Super Hornet – long-range, multi-mission, all-weather strike fighter
           	 n	 EA-18G Growler – next-generation electronic attack aircraft
           	 n	 MH-60S Knighthawk, MH-60R Seahawk – multi-mission support/combat helicopters
           	 n	 MQ-8B Fire Scout – vertical take-off and landing tactical unmanned aerial vehicle

           Marine Corps Aircraft:
           	 n	 MV-22B Osprey – vertical/short take-off and landing, multi-purpose tactical transport
           	 n	 AH-1Z / UH-1Y – utility and attack helicopters
           	 n	 KC-130J – multi-mission, tactical aerial refueler/transport aircraft

           Acquisition Governance and Execution
           The DON continued to address challenges in the governance and oversight of major weapons systems
           acquisition. Improvements made in the Virginia-class submarine acquisition and shipbuilding process
           are contributing to early deliveries and reduced costs. Improvements were also made that increased
           rate of production and delivery of Mine Resistant Ambush Protected (MRAP) and Counter-Improvised
           Explosive Devices (C-IED) capabilities. Additionally, the Gate Review process implemented in FY 2008
           has provided guidance and discipline for acquisition programs through the review and enforcement
           of program health criteria.
Objective 4:	 Safeguard the People and Resources of the Navy-Marine Corps Team
Fundamental to taking care of Sailors, Marines, and DON civilian employees is establishing a culture and
environment where safety is an intrinsic component of all decision-making, both on- and off-duty. Safety
and risk management are integrated into on- and off-duty evolutions to maximize mission readiness and
to establish DON as a world-class safety organization where no mishap is accepted as the cost of doing
business.

In FY 2008, in coordination with the Motorcycle Safety Foundation and Commandant of the Marine Corps
(Safety Division), the Naval Safety Center developed the Military Sport Bike Rider Course (MSRC). This
course is providing Sailors and Marines with the knowledge and skills needed to operate motorcycles safely,
and is being adopted by the other Services.

The Naval Safety Center also established a working group to promote a more open environment within
the afloat community in the reporting of hazards, near mishaps, and lessons learned. Major Command
representatives and several ship Safety Officers participate in monthly round-table discussions at the Naval
Safety Center. The identification and dissemination of hazard information directly supports the maintenance
of the Navy’s warfighting readiness by contributing to mishap reduction.




       A volunteer motorcycle safety instructor gives feedback to
       an Aviation Boatswain’s Mate (Handling) 2nd Class during
       the first Military Sport Bike Course in Norfolk, Virginia.




                                                                    Department of the Navy 2008 Annual Financial Report   21
22                                                                      Today’s Achievements Assure Tomorrow’s Success

     Objective 5:	 Strengthen Ethics as a Foundation of Exemplary Conduct within the
     		            Department of the Navy
     The DON continues to strengthen ethics as a foundation of exemplary conduct by teaching and enforcing
     ethics, DON Core Values, and standards of exemplary conduct, starting at the earliest career stages.
     During FY 2008, the Office of the Naval Inspector General briefed 1,019 individuals to reinforce ethics as
     the foundation of conduct within the DON. The recipients included 124 Flag/SES and 427 Commanding
     Officers. The briefing provided relative examples and reference material to reinforce ethical standards.

     Objective 6:	 Provide First-Rate Facilities to Support Stationing, Training, and
     		            Operations of Naval Forces
     The DON continues to invest in military construction projects to keep pace with evolving mission
     requirements. The DON established the Joint Guam Program Office (JGPO) under the auspices of the
     Defense Policy Review Initiative with Japan. The mission of the JGPO is to facilitate, manage, and execute
     requirements associated with rebasing Marine Corps assets from Okinawa to Guam and to establish a Joint
     Base on Guam. The Marine Corps is working with JGPO, the Secretary of the Navy, and Commander, U.S.
     Pacific Command to ensure plans meet operational requirements.

     Additionally, the DON continues to invest in its infrastructure to support the Grow the Force and quality of
     life initiatives. New construction and replacement of existing facilities on Marine Corps installations within
     the United States will support the Marine Corps growth in end strength. Replacement of inadequate family
     and bachelor housing will continue through public-private ventures the DON has used to leverage capital
     investment and private sector expertise. Construction of wounded warrior barracks at Camp Lejeune and
     Camp Pendleton will ensure quality and accessible living quarters for our wounded Marines.

     Business Transformation
     As a separate and supporting element of our strategic objectives, DON is committed to transforming the
     way we do business by using our people, processes, and systems more effectively. The DON Financial
     Improvement Program is the integrating financial element of the DON’s business transformation strategy,
     and a supporting initiative of the Department of Defense (DoD) Financial Improvement and Audit Readiness
     plan. Lean Six Sigma, Navy Enterprise Resource Planning, and National Security Personnel System are
     supporting components of the DON’s business transformation strategy.

           DON Financial Improvement Program
           The DON Financial Improvement Program (FIP) and the Marine Corps Financial Improvement
           Initiative (FII) are multi-year Department-wide efforts to modernize Navy-Marine Corps financial
           processes and systems to better serve worldwide operations. The goal of the FIP and FII is to produce
           financial management information with greater accuracy, reliability, and accessibility. With improved
           information, DON managers can allocate the Department’s resources in a more precise way. Also,
           with improved financial information, the DON will move closer to audit readiness.

           The DON has conducted and completed significant discovery and documentation efforts across
           select key business processes that affect financial management. The documentation, and subsequent
           evaluation of internal controls, serves as a basis for assertion of audit readiness. To date, the DoD
           Inspector General has examined the FY 2007 Cash and Other Monetary Assets line item and the
           weapons systems portion of the Environmental Liabilities line item. The weapons systems portion
           was based on Naval Sea Systems Command’s disposal estimation process for active and inactive DON
           ships.
Additionally, the FIP and FII are using an internal control methodology to confirm effectiveness
of internal controls over financial reporting. The DON is on track to correct all known material
weaknesses over financial reporting by FY 2014.

Additional accomplishments for FY 2008 are identified below:

n	   Asserted qualified audit readiness for the Naval Research Laboratory (NRL), a component of
     the Navy Working Capital Fund Research and Development business area. Additionally, NRL
     developed and implemented a sustainable methodology to assess internal control effectiveness
     and the validity of financial statement balances, including the use of an information management
     tool to capture internal control testing results.

n	   Completed documentation and an internal control evaluation of DON processes for recognizing,
     estimating, and reporting Environmental Liabilities. DON plans to assert audit readiness of
     Environmental Liabilities in FY 2009.

n	   Completed documentation and an internal control evaluation of Collection and Disbursement
     processes, in association with Defense Finance and Accounting Service, Cleveland. Collection
     and Disbursement processes comprise major business event drivers that impact the DON Fund
     Balance with Treasury.

n	   Tested key internal controls for the civilian pay process at the Commander, Naval Installations
     Command (CNIC) and Office of Naval Intelligence (ONI). The testing methodology used at
     CNIC and ONI sets the stage for all DON commands that will begin testing their civilian pay
     processes in FY 2009.

n	   Asserted audit readiness of the General Fund Contingent Liabilities for existing or pending
     litigation.

n	   Completed validation activities for the Military Sealift Command’s (MSC) business processes as
     a step towards completing audit readiness activities. MSC is a component of the Navy Working
     Capital Fund Transportation business area.

n	   Maintained internal controls testing for the DON’s previously asserted Weapons Systems
     component of Environmental Liabilities, General Fund Investments, and General Fund Cash
     and Other Monetary Assets.

n	   Developed a methodology to test internal controls over financial reporting and a strategy to
     support more comprehensive internal controls testing in FY 2009.

n	   Executed the initial implementation of the financially compliant Navy Enterprise Resource
     Planning Program, an integrated business application supporting a large percentage of the Naval
     Aviation Enterprise.

Marine Corps Financial Improvement Initiative
The Marine Corps, a subsidiary reporting entity within the DON, has strengthened business processes
to improve the accuracy, timeliness, and reliability of financial information. This year, the Marine
Corps asserted audit readiness for financial statement compilation, Fund Balance with Treasury, and
the General Fund Statement of Budgetary Resources. The Marine Corps anticipates an audit of its


                                                    Department of the Navy 2008 Annual Financial Report   23
24                                                                Today’s Achievements Assure Tomorrow’s Success

     Statement of Budgetary Resources to occur in FY 2009.

     The Marine Corps is the first major operational war fighting organization to achieve audit readiness
     over a broad part of its business operations. During this process, the Marine Corps has quantified the
     direct resource contribution that audit readiness has made and the proportion of each appropriated
     dollar that buys war fighting capability.

     The newly formed DON Audit Committee, created to monitor the audit’s execution and value, will
     continue to monitor and measure the value of the audit process to the war fighter. Together with the
     Marine Corps, the DON Audit Committee will jointly seek ways to use the audit process to add value
     to the Marine Corps war fighting capabilities. They will also work with the Office of the Secretary
     of Defense Audit Committee to streamline and improve the audit process to the benefit of the entire
     Department of Defense.

     Navy Enterprise Resource Planning
     The Navy Enterprise Resource Planning (ERP) is the key automated system driver of DON business
     transformation. On October 1, 2007, the Naval Air Systems Command became the first of the DON
     major commands to implement Navy ERP. Navy ERP will integrate and improve Navy processes
     for logistics, acquisition, and financial operations. It will be a major component of the Navy’s Global
     Combat Support System (GCSS) family of systems and provide a critical link between operating
     forces and the Navy’s support echelons. The Navy ERP program will reduce overall Navy costs by
     applying proven industry best practices and processes and replacing legacy information technology
     systems; facilitating an end-to-end solution for receiving requests for resources and processing them to
     fulfillment; replacing stove-piped systems used for financial management and inventory management
     with an integrated system that provides a financial “backbone” for business operations.

     The Navy is expanding the Navy ERP program throughout the Navy Enterprise. Some of the DON
     major commands scheduled for ERP implementation are the Naval Supply Systems Command (FY
     2009); Space and Naval Warfare Systems Command (FY 2010); and the Naval Sea Systems Command
     (FY 2011-2012).

     National Security Personnel System
     The National Security Personnel System (NSPS) is the key people driver of DON business
     transformation. Authorized by Congress, NSPS provides Department of Defense leaders the
     right tools to manage the civilian workforce, facilitate competition for high quality talent, offer
     compensation competitive with the private sector, and reward outstanding service. The NSPS
     supports the enterprise-wide objective to provide a total Naval workforce capable and optimized to
     support the National Defense Strategy (see “Strategic Management,” Objective 1).

     The DON continued transition of its workforce to NSPS during FY 2008. Strategic Systems Program
     and the Naval Historical Center (under Field Support Activity) successfully completed NSPS
     conversion during FY 2008. Among the commands that continued NSPS conversion efforts in FY 2008
     were: Bureau of Medicine and Surgery; Bureau of Naval Personnel; Commander, Naval Installations
     Command; Fleet Forces Command; Naval Sea Systems Command; Naval Supply Systems Command;
     Pacific Fleet; Space and Naval Warfare Systems Command; Naval Special Warfare Command; and
     U.S. Marine Corps.
      Continuous Process Improvement
      The DON is committed to Continuous Process Improvement (CPI) as the means toward increasing
      readiness and utilizing our resources more efficiently and effectively. The DON continues to champion
      use of Lean Six Sigma (LSS) as the primary toolset of CPI. The LSS supports the enterprise-wide
      objective to provide a total Naval workforce capable and optimized to support the National Defense
      Strategy (see “Strategic Management,” Objective 1).

      The Secretary of the Navy challenged departmental leadership to complete LSS Green Belt training,
      undertake projects, and accelerate training in their organizations. As a result, DON has trained over
      4,800 Senior Leaders; 9,300 Green Belts; 1,200 Black Belts; and 60 Master Black Belts. The DON has
      completed over 6,700 projects and is currently engaged in over 2,200 projects. For example, the Bureau
      of Medicine and Surgery completed 20 projects, including a web-based tracking system to provide
      real-time medical readiness data. In addition, DON has begun implementing a family of CPI software
      that will allow for transparency of reporting projects and savings benefits across DON.


Management Assurances
Commanders and managers throughout the DON must ensure the integrity of their programs and
operations. Part of this responsibility entails compliance with Federal requirements for financial reporting,
financial management systems, and internal controls. These requirements promote the production of more
timely, reliable, and accessible financial information, supported by the development and implementation
of more effective internal controls. More useful financial information and effective controls enhance public
confidence in DON’s stewardship of public resources, which are critical for the protection and sustainment
of our Nation and vital U.S. interests.

Below is a brief discussion of DON compliance with Federal requirements in FY 2008.

Financial Statement Certification
Effective in FY 2008, the Office of the Under Secretary of Defense (Comptroller) established a requirement
that the senior leaders of Department of Defense (DoD) components attest to the accuracy, reliability, and
completeness of their quarterly financial statements and related note disclosures. For the fiscal year ended
September 30, 2008, we provided limited assurance over the DON financial statements taken as a whole.
The Secretary of the Navy’s Certification follows the MD&A.

Federal Financial Management Improvement Act
The Federal Financial Management Improvement Act (FFMIA) of 1996 requires agencies to implement
and maintain financial management systems that comply substantially with Federal financial management
systems requirements, applicable Federal accounting standards, and the U.S. Standard General Ledger
(SGL) at the transaction level. The DON legacy financial management systems and feeder systems are
not substantially compliant with Federal financial management systems requirements, generally accepted
accounting principles, and the USSGL at the transaction level. While FFMIA compliancy requires a solid
systems element, the improvements in process documentation and internal control testing being made
through the DON FIP, combined with the ongoing deployment of the Navy ERP, will move DON toward
this goal over the next five to seven years. The Navy ERP will be compliant with the DoD Standard Financial
Information Structure (SFIS), which includes support for the USSGL at the transaction level. The SFIS is DoD’s
common business language that supports standardization of financial reporting across DoD Components.

                                                            Department of the Navy 2008 Annual Financial Report   25
26                                                                        Today’s Achievements Assure Tomorrow’s Success

     Federal Managers’ Financial Integrity Act
     The Federal Managers’ Financial Integrity Act (FMFIA) of 1982 requires agencies to evaluate their system
     of internal accounting and administrative controls and to report on the effectiveness of these controls in an
     annual statement of assurance. The FMFIA was the model for the Sarbanes-Oxley Act of 2002, which applies
     to publicly traded companies. Application of the Sarbanes-Oxley Act led to the Federal Government’s
     reevaluation of internal control policies under FMFIA, including the subsequent revision of OMB Circular
     A-123 in December 2004, “Management’s Responsibility for Internal Control.” Appendix A of the revised
     circular requires agencies to provide a separate statement of assurance on the effectiveness of internal
     controls over financial reporting (ICOFR).

           FMFIA Over Non-Financial Operations
           The DON’s system of administrative and operational internal controls overall, in effect as of June 30,
           2008, provided qualified assurance, with the exception of eight material weaknesses, that controls are
           in place, operating effectively, and being used. The DON has planned aggressive corrective action to
           strengthen internal controls, including targeting six of the material weaknesses for closure during FY
           2009. The DON will continue to emphasize internal controls in its operational and business processes
           to improve operating efficiency, promote good stewardship, enhance decision-making capability,
           and comply with Office of the Secretary of Defense policy. The increased self-reporting activity and
           resulting transparency of the reporting process have served to ensure DON controls are reasonably
           sound and relevant to the overall DON mission.

           Internal Controls Over Financial Reporting
           The DON remains committed to improving the quality of its financial information and ultimately
           achieving audit readiness. Beginning in FY 2006, in response to the addition of Appendix A to
           OMB Circular A-123, the DON increased its emphasis on the documentation and testing of internal
           controls over financial reporting. As of June 30, 2008, not all significant internal controls over financial
           reporting for the DON General Fund and Navy Working Capital Fund have been tested and as a
           result, the DON was unable to comprehensively determine their operating effectiveness. Also, the
           DON identified several weaknesses requiring corrective action. The DON has planned aggressive
           corrective action to strengthen its controls over financial reporting to include expansion of coverage
           by a reporting network that monitors controls over financial reporting.

           Through recently concluded internal control assessments, the Marine Corps is able to highlight
           financial and business practice reliability for much of the Marine Corps General Fund Balance Sheet
           and Statement of Budgetary Resources. The scope of testing and the degree of confidence achieved
           also demonstrate steady progress toward asserting audit readiness in FY 2009. Therefore, internal
           controls over financial reporting for the Marine Corps General Fund, in effect as of June 30, 2008,
           provided qualified assurance, with the exception of three material weaknesses, that controls are in
           place, operating effectively, and being used. The Marine Corps has planned aggressive corrective
           action to strengthen its controls.

     The FY 2008 FMFIA Annual Statement of Assurance is available at http://www.fmo.navy.mil /mic/soa_index.htm.
Improper Payments Information Act
The Improper Payments Information Act (IPIA) of 2002 seeks to reduce improper payments throughout
the Federal Government by requiring agencies to report on programs and activities that are susceptible to
improper payments. Improper payments are those that should not have been made or that were disbursed
in incorrect amounts. Pursuant to the IPIA, several DON major commands must report non-Defense Travel
System travel payments on a quarterly basis and other vendor payments and civilian payroll payments
made by DON entities other than the Defense Finance and Accounting Service (DFAS) on an annual basis.
The DON has chartered an IPIA working group to standardize, validate, and improve the current overall
DON IPIA reporting process. Note, however, that DFAS performs the vast majority of DON’s entitlement
computation and disbursement functions.

For FY 2008, DON identified $767 thousand of potentially improper payments. While no amount of
improper payments is ever acceptable to management, this amount falls below the 2.5% error rate threshold
established by the Office of Management and Budget (OMB). DON is examining root causes and instituting
more internal controls, where applicable, to reduce improper payments.


Financial Condition and Results of Operations
The accompanying financial statements and related disclosures represent DON’s enduring commitment to
fiscal accountability and transparency. Through the DON FIP and related business transformation initiatives
discussed earlier, the DON has made significant progress toward improving the quality and timeliness of its
financial information. However, the DON is currently unable to fully implement all elements of Generally
Accepted Accounting Principles and OMB Circular A-136, Financial Reporting Requirements, due to limitations
of its financial and non-financial management processes and systems feeding into the financial statements.
Because of these limitations, the Department of Defense, Office of Inspector General was unable to express
an opinion on the FY 2008 DON financial statements.

It should be noted that these limitations exist primarily in our proprietary accounting processes, and less so
in the budgetary accounting performed to manage and report on the application of budget authority to the
purposes and programs approved in appropriations acts. Despite documented material weaknesses and
because of compensating measures and close oversight, the DON believes the budgetary information used
for decision-making is accurate and reliable.

For financial reporting purposes, the DON is organized into two reporting entities: DON General Fund (GF)
and Navy Working Capital Fund (NWCF), which include financial information for both the U.S. Navy and
the U.S. Marine Corps (USMC). Each reporting entity has its own set of financial statements and related
notes. The USMC also has a separate set of subsidiary financial statements and related notes, which are
included in this annual financial report.

DON General Fund
The DON GF supports overall Departmental operations. Enacted appropriations comprise the majority of
the GF account structure, which includes five major appropriation groups:

      n	   Operation and Maintenance
      n	   Military Personnel

                                                            Department of the Navy 2008 Annual Financial Report   27
28                                                                        Today’s Achievements Assure Tomorrow’s Success

          n	   Procurement
          n	   Research, Development, Test, and Evaluation
          n	   Military Construction

     Enacted appropriations flow through OMB and the Office of the Secretary of Defense to the Office of
     the Secretary of the Navy where they are allocated to administering offices and major commands. The
     administering offices and major commands, which in turn obligate the appropriations to fund operational
     expenses and capital investments, are required to exercise a system of effective control over financial
     operations.

          Major Sources and Uses of Funds
          Enacted appropriations increased by $11.9 billion, or 7%, for a total of $162.7 billion, when compared
          with FY 2007. The majority of the $11.9 billion increase was in the Operation and Maintenance, and
          Procurement accounts. Though general categories of funds use remained relatively stable, Contractual
          Services and Personnel remain the largest groups, followed by procurement of Durable Goods and
          Equipment.

          More information on DON GF budgetary resources is available in the Combined Statement of
          Budgetary Resources and Note 20.

                   DON General Fund Major Sources of Funding in FY 2008 ($ in Billions)

                                             $18.3       $2.9
                                                                                          $42.4




                  $48.2
                                                                                            $51.0



                          Military Personnel                    Operation and Maintenance
                          Procurement                           Research, Development, Test, and Evaluation
                          Military Construction


                     DON General Fund Major Uses of Funding in FY 2008 ($ in Billions)
                                                        $3.3
                           $41.0                                                           $50.7




                $10.0
                    $3.3 $3.3                                                  $52.0



                       Personnel                     Contractual Services
                       Other Gov’t Agencies          Travel & Transportation
                       Consumable Purchases          Durable Goods/Equip
                       Land & Structures
Financial Position
The DON GF continued to report a positive net position on its Consolidated Balance Sheet. Net
position is the difference between total assets (what we own) and total liabilities (what we owe). As
of September 30, 2008, net position totaled $357.3 billion, which represents an increase of $26.2 billion,
or 8%, from fiscal year ended 2007. Increases of $27.3 billion in total assets and $1.1 billion in total
liabilities resulted in the overall increase in net position.

Primary contributors of the increase in total assets were General Property, Plant, Equipment (GPP&E)
and Fund Balance with Treasury (FBWT). The addition of new aircraft and ships during FY 2008
resulted in an increase of $12.9 billion in Military Equipment, a component of GPP&E. Supplemental
appropriations related to the Global War on Terrorism drove an increase of $10.9 billion in FBWT. The
supplemental appropriations included $7.8 billion in multi-year funds for procurement of aircraft,
weapons, and ammunition, much of which remained unexpended at fiscal year-end; the DON received
the supplemental funding in 4th Quarter, FY 2008.

A primary contributor of the increase in total liabilities was Other Liabilities (Nonfederal).
Contingent liabilities, a component of Other Liabilities (Nonfederal) increased $1.8 billion due to
the implementation of a more accurate process to estimate probable legal liabilities.

More information on DON GF financial position is available in the Consolidated Balance Sheet and
related notes.

                   FY 2008 Total Assets, DON General Fund ($ in Billions)
                                                                            $118.2




                                                                                                      $0.1
                                                                                               $4.0
        $202.5                                                                          $8.9
                                                                        $60.8


           Fund Balance with Treasury              Accounts Receivable
           Other Assets                            Inventory & Related Property
           General Property, Plant & Equipment     Cash & Other Monetary Assets; Investments



                 FY 2008 Total Liabilities, DON General Fund ($ in Billions)
                                                                $3.7
        $18.3




                                                                                               $13.5
                                                              $1.7
            Accounts Payable
            Other Liabilities
            Military Retirement and Other Federal Employment Benefits
            Environmental and Disposal Liabilities


                                                           Department of the Navy 2008 Annual Financial Report   29
30                                                                      Today’s Achievements Assure Tomorrow’s Success

     Navy Working Capital Fund
     The NWCF is a revolving fund established to meet the diverse requirements of the Navy and Marine Corps
     operating forces. Under the revolving fund concept, an appropriation or a transfer of funds finances initial
     NWCF operations. General or appropriated fund payments from customers for goods delivered or services
     performed subsequently replenish this initial working capital investment and sustain a continuous cycle of
     operations, minimizing the need for additional annual appropriations by Congress.

     The goal of NWCF is to break even over time by matching revenues earned to costs incurred. Achievement of
     this goal is occasionally complicated by the requirement that NWCF business areas maintain stable budget-
     driven prices for goods and services, to protect customers from unforeseen price fluctuations.

                       Navy Working Capital Fund Business Activities By Business Area

     Supply Management                                       Depot Maintenance
     Supply Management, Navy                                 Depot Maintenance, Aviation
     (https://www.navsup.navy.mil)                           (http://www.navair.navy.mil)

     Supply Management, Marine Corps                         Depot Maintenance, Marine Corps
     (http://www.logcom.usmc.mil)                            (http://www.logcom.usmc.mil)
     Base Support                                            Transportation
     Facilities Engineering Commands                         Military Sealift Command
     (https://portal.navfac.navy.mil)                        (http://www.msc.navy.mil)

     Naval Facilities Engineering Service Center
     (https://portal.navfac.navy.mil)

                                          Research and Development
     Naval Research Laboratory*                              Naval Air Warfare Center
     (http://www.nrl.navy.mil)                               (http://www.navair.navy.mil)

     Naval Surface Warfare Center                            Space and Naval Warfare Systems Centers
     (http://www.navsea.navy.mil)                            (http://enterprise.spawar.navy.mil)

     Naval Undersea Warfare Center                           *Also see Office of Naval Research
     (http://www.navsea.navy.mil)                            (http://www.onr.navy.mil)


           Major Sources and Uses of Funds
           Revenue increased $0.4 billion, or 1.8%, and total costs increased $0.5 billion, or 2.1%, between FY 2007
           and FY 2008. Major sources and uses of funding in FY 2008 are displayed below.

           More information on NWCF revenue and costs is available in the Consolidated Statement of Net Cost
           and Note 18.
    Navy Working Capital Fund Major Sources of Funding in FY 2008 ($ in Billions)
                             $1.2     $1.6
                    $0.4                                                                           $10.8
      $0.3

   $2.4



             $0.6
                                    $3.4                                $3.6


                      DON Operation and Maintenance                            DON Procurement
                      DON Research, Development, Test, and Evaluation          Other Navy Appropriations
                      Working Capital Fund                                     Army Appropriations
                      Air Force Appropriations                                 Other DoD Appropriations
                      Non-DoD Fund Sources




      Navy Working Capital Fund Major Uses of Funding in FY 2008 ($ in Billions)

                                    $4.8                 $0.2
                                                                                            $7.3
    $0.7




      $2.7
                $0.5
                                                                                         $8.9



                     Personnel                       Contractual Services / Purchases
                     Travel / Transportation         Materials & Supplies
                     Other Intrafund Purchases       Inventory Procurement
                     Depreciation


Financial Position
The NWCF continued to report a positive net position on its Consolidated Balance Sheet. Net
position is the difference between total assets (what we own) and total liabilities (what we owe). As
of September 30, 2008, net position totaled $10.0 billion, which represents a decrease of $2.0 billion,
or 17%, from fiscal year ended 2007. Decreases of $2.0 billion in total assets and $0.07 billion in total
liabilities resulted in the overall decrease in net position.

Primary contributors of the decrease in total assets were Inventory and Related Property and Fund
Balance with Treasury (FBWT). Inventory clean-up initiatives to improve the categorization and
reporting of inventory resulted in lower inventory values due to a revaluation of inventory held for
sale. These reclassification and revaluation efforts contributed to a $1.6 billion decrease in Inventory
and Related Property. Authorized transfers of funds from NWCF to DON GF drove a decrease of $0.4
billion in FBWT. Included in this authorized transfer was a reprogramming action of $0.1 billion in
support of the accelerated Maritime Domain Awareness Initiative, which is a key enabler of the Global
War on Terrorism and Homeland Defense Operations.



                                                                 Department of the Navy 2008 Annual Financial Report   31
32                                                                    Today’s Achievements Assure Tomorrow’s Success

     The decrease in total liabilities is primarily attributed to DON financial improvement efforts in
     liquidating $43.8 million of unsupported accruals at the Naval Sea Systems Command.

     More information on NWCF financial position is available in the Consolidated Balance Sheet and
     related notes.

                    FY 2008 Total Assets, Navy Working Capital Fund ($ in Billions)
                                                                              $3.2

                                                                                                        $0.8


                                                                                                        $0.9

                                                                                                 $0.3
              $11.1



                Fund Balance with Treasury               Accounts Receivable
                Other Assets                             Inventory & Related Property
                General Property, Plant & Equipment




                FY 2008 Total Liabilities, Navy Working Capital Fund ($ in Billions)
                          $2.0




             $1.0                                                                       $3.3



                Accounts Payable
                Other Liabilities; Debt
                Military Retirement and Other Federal Employment Benefits




     Cash Management
     The DON manages working capital fund cash at the Departmental level. It must maintain cash levels
     at seven to ten days of operational costs, plus have sufficient cash reserves to meet six months of
     projected capital outlays, as required by the Department of Defense Financial Management Regulation.
     For FY 2008, the seven-day cash requirement was $749.0 million and the ten-day requirement was
     $1.024 billion. The NWCF finished FY 2008 with an ending cash balance of $784.6 million.
          Navy Working Capital Fund Cash Balances, October 1, 2007 to September 30, 2008
                                        ($ in Thousands)

        1,500,000



        1,000,000



          500,000



                   0
                          Sep       Oct        Nov        Dec         Jan        Feb       Mar        Apr        May         Jun           Jul   Aug   Sep


      Note: Cash balances above represent the combined total of monthly cash balances for five business areas and the corporate account.


      In FY 2008, the NWCF received fuel supplemental funding of $250.7 million; transferred cash of $102.8
      million for the Maritime Domain Awareness reprogramming; and completed three net zero internal
      NWCF cash realignments to establish and maintain accurate cash balances at the business activity
      level.

      During the transition to the Navy Enterprise Resource Planning (ERP) system, the Naval Air Warfare
      Center estimated monthly cash collections. By the end of the fiscal year, system deficiencies had been
      corrected and normal billing processes were in place.

      Cash Management Initiative
      As part of the DON Financial Management Strategic Plan business transformation effort, the NWCF
      Cash Management Team deployed the Cash Management Tool and a new Cash Management System.
      The Cash Management Tool increases the capability of NWCF activities to model cash trends. It also
      automatically populates the Cash Management System to produce the Cash and Revenue/Expense
      phasing plans in the proper budget submission format. In addition, the Cash Management System
      produces monthly cash variance reports for each of the NWCF activity groups. Use of the tool and
      system has resulted in more transparency, improved reporting, and enhanced the development of
      rates charged to customers.


Looking Forward
The DON’s achievements during FY 2008 established a firm foundation that will assure future success in
executing its mission and building a sound business operating environment. In FY 2009 and beyond, DON
will remain focused on areas that increase its effectiveness, improve the lives of Sailors and Marines, and
result in greater security for the U.S. Below is a brief discussion of a few key areas of emphasis.

Maritime Strategy
The DON, in collaboration with the U.S. Coast Guard, will continue to reinforce and expand core capabilities
that prevent war and build partnerships—forward presence, deterrence, sea control, power projection,
maritime security, and humanitarian assistance and disaster response. More information on our maritime
strategy is available at http://www.navy.mil/maritime.

                                                                                                Department of the Navy 2008 Annual Financial Report          33
34                                                                    Today’s Achievements Assure Tomorrow’s Success

     Infrastructure Investment
     Support for the DON’s 21st century mission is dependent on a reliable, capable, and secure information
     technology infrastructure. The Navy and Marine Corps have planned several programs to deliver agile
     and interoperable network-centric capabilities. These programs include the Next Generation Enterprise
     Network, which will replace the Navy Marine Corps Intranet (NMCI), and the Marine Corps’ Command
     and Control Harmonization Strategy. These emerging capabilities will ensure our forces have accurate
     situational awareness to enable decision superiority within a secure information environment.

     Environmental Stewardship
     The DON will build upon its gains in alternative fuel implementation. The DON’s new Petroleum Reduction
     and Alternative Fuel Vehicle Strategy will challenge the Navy and Marine Corps to meet and exceed the
     established federal goals contained in Executive Order 13423 and the Energy Independence and Security Act
     of 2007. In FY 2009, the DON will lay the groundwork for a testing and certification program for alternative
     fuel use.

     The DON will continue to afford significant protection to marine mammals while preserving its ability to
     train using mid-frequency active (MFA) sonar. The tactical use of MFA sonar is the best means of detecting
     potentially hostile, quiet, diesel-electric submarines. The Navy, working with the National Marine Fisheries
     Service, is engaged in a three-year controlled exposure study of sound on whales. This study, along with
     other research, development, test, and evaluation efforts, will provide further information to effectively
     mitigate the effects of MFA on marine mammals.

     Business Transformation
     Through more effective management of Business Transformation initiatives, DON will continue to improve
     the support its business operations provide warfighters. The DON has begun rapidly developing its model
     for promoting these initiatives and integrating them within DON; an enterprise perspective is necessary
     for projects that have enterprise-wide implications. The motivation for the Business Transformation
     movement resulted from the need to improve both vertical alignment with Department of Defense-wide
     transformation initiatives and horizontal integration of DON enterprise initiatives across functional stove-
     pipes. This effort also complies with current congressional guidance. Moreover, Business Transformation
     management is advancing because investment in and expansion of these initiatives will result in improved
     use of these resources. During FY 2008, the Under Secretary of the Navy was designated the DON Chief
     Management Officer (CMO), and the DON Business Transformation Council met several times to ratify
     operating guidelines for the CMO. In FY 2009, DON will form a Business Transformation Office reporting
     to the CMO. This office will draft plans identifying transformation objectives and identifying the future
     enterprise business system environment required to support these objectives.
U.S. Navy photo by Mass Communication Specialist 2nd Class Kevin S. O’Brien (Released)




                                     Department of the Navy 2008 Annual Financial Report   35
36   Today’s Achievements Assure Tomorrow’s Success
Department of the Navy Certification of Financial
Statements
Pursuant to Office of the Under Secretary of Defense (Comptroller) (OUSD(C)) policy, effective Second
Quarter Fiscal Year 2008, the Secretary of the Navy has attested to the accuracy, reliability, and completeness
of the Fiscal Year 2008 Department of the Navy General Fund and Navy Working Capital Fund financial
statements in a signed certification statement (see next page). The purpose of the OUSD(C) policy is to
increase accountability and to more closely align Department of Defense requirements for internal controls
over financial reporting with tenets of the Sarbanes-Oxley Act of 2002 (Public Law No. 107-204, Section
302). Sarbanes-Oxley has been the impetus for improved policies relating to internal controls over financial
reporting, as reflected in OMB Circular A-123.




                                                            Department of the Navy 2008 Annual Financial Report   37
38   Today’s Achievements Assure Tomorrow’s Success
Department of the Navy 2008 Annual Financial Report   39
40   Today’s Achievements Assure Tomorrow’s Success
       General Fund Principal Statements




  2008
  2008
General Fund Principal Statements




  2008
                           Department of the Navy 2008 Annual Financial Report   41
42                                                                General Fund




     Limitations to the Financial
     Statements
     The principal financial statements have been prepared
     to report the financial position and results of operations
     of the entity, pursuant to the requirements of 31 United
     States Code 3515 (b). While the statements have been
     prepared from the books and records of the entity
     in accordance with Generally Accepted Accounting
     Principles for Federal entities and the formats prescribed
     by Office of Management and Budget, the statements are
     in addition to the financial reports used to monitor and
     control budgetary resources which are prepared from
     the same books and records. The statements should be
     read with the realization that they are for a component
     of the U.S. Government, a sovereign entity.
Principal Statements
The Fiscal Year 2008 Department of the Navy General Fund principal statements and related notes are
presented in the format prescribed by the Department of Defense Financial Management Regulation 7000.14,
Volume 6B. The statements and related notes summarize financial information for individual funds and
accounts within the General Fund for the fiscal year ending September 30, 2008, and are presented on a
comparative basis with information previously reported for the fiscal year ending September 30, 2007.

The following statements comprise the Department of the Navy General Fund principal statements:

      n	   Consolidated Balance Sheet

      n	   Consolidated Statement of Net Cost

      n	   Consolidated Statement of Changes in Net Position

      n	   Combined Statement of Budgetary Resources


The principal statements and related notes have been prepared to report financial position pursuant to the
requirements of the Chief Financial Officers Act of 1990, as amended by the Government Management Reform
Act of 1994. The accompanying notes should be considered an integral part of the principal statements.




                                                          Department of the Navy 2008 Annual Financial Report   43
44                                                                                                                 General Fund



        Department of Defense
        Department of the Navy General Fund
        CONSOLIDATED BALANCE SHEET
        As of September 30, 2008 and 2007
           ($ in Thousands)


                                                                                        2008 Consolidated     2007 Consolidated
            ASSETS (Note 2)
             Intragovernmental:
              Fund Balance with Treasury (Note 3)                                   $         118,168,348 $         107,344,399
              Investments (Note 4)                                                                 10,356                 9,756
              Accounts Receivable (Note 5)                                                        393,989               206,091
              Other Assets (Note 6)                                                               302,751               400,261
                 Total Intragovernmental Assets                                               118,875,444           107,960,507

             Cash and Other Monetary Assets (Note 7)                                              137,277               142,971
             Accounts Receivable, Net (Note 5)                                                  3,648,029             3,613,512
             Inventory and Related Property, Net (Note 9)                                      60,804,137            58,249,650
             General Property, Plant and Equipment, Net (Note 10)                             202,484,326           189,054,744
             Other Assets (Note 6)                                                              8,560,975             8,175,144
             Stewardship Property, Plant and Equipment (Note 10) *
            TOTAL ASSETS                                                                      394,510,188           367,196,528

            LIABILITIES (Note 11)
             Intragovernmental:
              Accounts Payable (Note 12)                                                        1,434,076             1,495,517
              Other Liabilities (Note 15 & Note 16)                                             4,430,067             4,642,819
                 Total Intragovernmental Liabilities                                            5,864,143             6,138,336

             Accounts Payable (Note 12)                                                         2,270,814             2,948,867
             Military Retirement and Other Federal
              Employment Benefits (Note 17)                                                     1,650,038             1,648,124
             Environmental and Disposal Liabilities (Note 14)                                  18,291,417            18,789,725
             Other Liabilities (Note 15 & Note 16)                                              9,131,795             6,594,994
             Commitments and Contingencies (Note 16) *
            TOTAL LIABILITIES                                                                  37,208,207            36,120,046

            NET POSITION
             Unexpended Appropriations - Other Funds                                          121,305,364           109,221,612
             Cumulative Results of Operations - Earmarked Funds                                    24,230                24,258
             Cumulative Results of Operations - Other Funds                                   235,972,387           221,830,612
            TOTAL NET POSITION                                                                357,301,981           331,076,482

            TOTAL LIABILITIES AND NET POSITION                                      $         394,510,188 $         367,196,528




           * - Disclosure but no value required per Federal Accounting Standards.




     The accompanying notes are an integral part of these statements.

 The accompanying notes are an integral part of these statements.
     Department of Defense
     Department of the Navy General Fund
     CONSOLIDATED STATEMENT OF NET COST
     For the Years Ended September 30, 2008 and 2007
        ($ in Thousands)


                                                                           2008 Consolidated       2007 Consolidated
        Program Costs
          Gross Costs                                                  $           144,511,881 $           152,141,735
          Less: Earned Revenue                                                      (4,606,524)             (4,375,830)
          Net Program Costs                                                       139,905,357             147,765,905
        Net Cost of Operations                                         $          139,905,357 $           147,765,905




  The accompanying notes are an integral part of these statements.
                                                                     Department of the Navy 2008 Annual Financial Report   45
The accompanying notes are an integral part of these statements.
46                                                                                                          General Fund



       Department of Defense
       Department of the Navy General Fund
       CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
       For the Years Ended September 30, 2008 and 2007
           ($ in Thousands)


                                                                            2008 Earmarked Funds       2008 Other Funds
           CUMULATIVE RESULTS OF OPERATIONS
            Beginning Balances                                          $                24,258    $         221,830,612
            Prior Period Adjustments
            Beginning Balances, as adjusted                                              24,258              221,830,612
            Budgetary Financing Sources:
             Appropriations used                                                              0              150,491,563
             Nonexchange revenue                                                            620                        0
             Donations and forfeitures of cash and cash equivalents                      24,216                        0
             Transfers in/out without reimbursement (+/-)                                     0                  102,833
            Other Financing Sources:
             Transfers in/out without reimbursement (+/-)                                     0                  348,312
             Imputed financing from costs absorbed by others                                  0                  678,845
             Other (+/-)                                                                     (2)               2,400,717
            Total Financing Sources                                                      24,834              154,022,270
            Net Cost of Operations (+/-)                                                 24,863              139,880,494
            Net Change                                                                      (29)              14,141,776
            Cumulative Results of Operations                            $                24,229 $            235,972,388

           UNEXPENDED APPROPRIATIONS
            Beginning Balances                                          $                     0    $         109,221,611
            Prior Period Adjustments (+/-)
            Beginning Balances, as adjusted                                                   0              109,221,611
            Budgetary Financing Sources:
             Appropriations received                                                          0              162,715,443
             Appropriations transferred-in/out (+/-)                                          0                2,403,645
             Other adjustments (rescissions, etc) (+/-)                                       0               (2,543,772)
             Appropriations used                                                              0             (150,491,563)
            Total Budgetary Financing Sources                                                 0               12,083,753
            Unexpended Appropriations                                                         0              121,305,364
            Net Position                                                $                24,229    $         357,277,752




     The accompanying notes are an integral part of these statements.

 The accompanying notes are an integral part of these statements.
     Department of Defense
     Department of the Navy General Fund
     CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
     For the Years Ended September 30, 2008 and 2007
        ($ in Thousands)


                                                                                2008 Consolidated       2007 Consolidated
        CUMULATIVE RESULTS OF OPERATIONS
         Beginning Balances                                                 $         221,854,870   $          223,851,891
         Prior Period Adjustments
         Beginning Balances, as adjusted                                              221,854,870              223,851,891
         Budgetary Financing Sources:
          Appropriations used                                                         150,491,563              139,861,973
          Nonexchange revenue                                                                 620                      461
          Donations and forfeitures of cash and cash equivalents                           24,216                   22,172
          Transfers in/out without reimbursement (+/-)                                    102,833                  166,189
         Other Financing Sources:
          Transfers in/out without reimbursement (+/-)                                    348,312                   91,282
          Imputed financing from costs absorbed by others                                 678,845                  730,190
          Other (+/-)                                                                   2,400,715                4,896,617
         Total Financing Sources                                                      154,047,104              145,768,884
         Net Cost of Operations (+/-)                                                 139,905,357              147,765,905
         Net Change                                                                    14,141,747               (1,997,021)
         Cumulative Results of Operations                                   $         235,996,617   $          221,854,870

        UNEXPENDED APPROPRIATIONS
         Beginning Balances                                                 $         109,221,611   $           99,699,301
         Prior Period Adjustments (+/-)
         Beginning Balances, as adjusted                                              109,221,611               99,699,301
         Budgetary Financing Sources:
          Appropriations received                                                      162,715,443             150,734,232
          Appropriations transferred-in/out (+/-)                                        2,403,645                 (21,826)
          Other adjustments (rescissions, etc) (+/-)                                    (2,543,772)             (1,328,122)
          Appropriations used                                                         (150,491,563)           (139,861,973)
         Total Budgetary Financing Sources                                              12,083,753               9,522,311
         Unexpended Appropriations                                                     121,305,364             109,221,612
         Net Position                                                       $          357,301,981 $           331,076,482




  The accompanying notes are an integral part of these statements.
                                                                     Department of the Navy 2008 Annual Financial Report      47
The accompanying notes are an integral part of these statements.
48                                                                                                    General Fund



      Department of Defense
      Department of the Navy General Fund
      COMBINED STATEMENT OF BUDGETARY RESOURCES
      For the Years Ended September 30, 2008 and 2007
          ($ in Thousands)


                                                                            2008 Combined        2007 Combined
         BUDGETARY FINANCING ACCOUNTS
         Budgetary Resources:
           Unobligated balance, brought forward, October 1              $         23,934,546 $         20,835,975
           Recoveries of prior year unpaid obligations                            20,966,590           16,508,300
           Budget Authority:
              Appropriations received                                            162,740,229          150,757,067
           Spending authority from offsetting collections:
              Earned
                Collected                                                          7,252,127            7,690,260
                Change in receivables from Federal sources                           262,649              317,620
              Change in unfilled customer orders
                Advances received                                                     435,937               50,491
                Without advance from Federal sources                                  305,473                7,319
             Subtotal                                                            170,996,415          158,822,757
           Nonexpenditure Transfers, net, anticipated and actual                    2,506,478              144,174
           Permanently not available                                              (2,543,773)          (1,328,122)
           Total Budgetary Resources                                             215,860,256          194,983,084

         Status of Budgetary Resources:
           Obligations incurred:
              Direct                                                             179,361,449          163,297,807
              Reimbursable                                                         8,470,011            7,750,730
              Subtotal                                                           187,831,460          171,048,537
           Unobligated balance:
              Apportioned                                                         25,329,935           21,765,826
              Exempt from apportionment
              Subtotal                                                            25,329,935           21,765,826
           Unobligated balances not available                                      2,698,861            2,168,721
           Total Status of Budgetary Resources                          $        215,860,256 $        194,983,084




     The accompanying notes are an integral part of these statements.

The accompanying notes are an integral part of these statements.
     Department of Defense
     Department of the Navy General Fund
     COMBINED STATEMENT OF BUDGETARY RESOURCES
     For the Years Ended September 30, 2008 and 2007
        ($ in Thousands)


                                                                                 2008 Combined           2007 Combined
        RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
        Change in Obligated Balance:
         Obligated balance, net
            Unpaid obligations, brought forward, October 1                   $           86,191,077 $            78,088,020
            Less: Uncollected customer payments from
               Federal sources, brought forward, October 1                               (3,296,095)             (2,971,157)
            Total Unpaid Obligated Balance                                                82,894,982             75,116,863
         Obligations incurred, net (+/-)                                                 187,831,460            171,048,537
         Less: Gross outlays                                                           (159,279,403)          (146,437,179)
         Less: Recoveries of prior year unpaid obligations, actual                      (20,966,590)           (16,508,300)
         Change in uncollected customer
            payments from Federal sources (+/-)                                           (568,123)               (324,938)
         Obligated balance, net, end of period
            Unpaid obligations                                                           93,776,544              86,191,077
            Less: Uncollected customer payments from
               Federal sources                                                           (3,864,218)            (3,296,095)
            Total Unpaid Obligated Balance, net, end of period                           89,912,326             82,894,982

        Net Outlays:
         Gross Outlays                                                                  159,279,403             146,437,179
         Less: Offsetting collections                                                    (7,688,063)             (7,740,753)
         Less: Distributed Offsetting receipts                                                98,060               (270,572)
        Net Outlays                                                          $          151,689,400 $           138,425,854




  The accompanying notes are an integral part of these statements.
                                                                     Department of the Navy 2008 Annual Financial Report       49
The accompanying notes are an integral part of these statements.
50   General Fund
           General Fund Notes to the Principal Statements




         2008
         2008
General Fund Notes to the Principal Statements




         2008
                                      Department of the Navy 2008 Annual Financial Report   51
52                                                                                                  General Fund

     Note 1.	 Significant Accounting Policies
     1.A.	 Basis of Presentation
     These financial statements have been prepared to report the financial position and results of operations
     of the Department of the Navy (DON) General Fund (GF), as required by the Chief Financial Officers
     (CFO) Act of 1990, expanded by the Government Management Reform Act (GMRA) of 1994, and other
     appropriate legislation. The financial statements have been prepared from the books and records of
     DON GF in accordance with the Department of Defense (DoD), Financial Management Regulation (FMR),
     the Office of Management and Budget (OMB) Circular A-136, Financial Reporting Requirements, and to the
     extent possible generally accepted accounting principles (GAAP). The accompanying financial statements
     account for all resources for which DON GF is responsible unless otherwise noted.

     Information relative to classified assets, programs, and operations is excluded from the statements or
     otherwise aggregated and reported in such a manner that it is not discernable.

     The DON GF is unable to fully implement all elements of GAAP and the OMB Circular A-136, due to
     limitations of its financial and nonfinancial management processes and systems that feed into the financial
     statements. The DON GF derives its reported values and information for major asset and liability categories
     largely from nonfinancial systems, such as inventory and logistic systems. These systems were designed
     to support reporting requirements for maintaining accountability over assets and reporting the status of
     federal appropriations rather than preparing financial statements in accordance with GAAP. The DON GF
     continues to implement process and system improvements addressing these limitations.

     The DoDIG has identified several financial statement material weaknesses (i.e., Financial Management
     Systems; Intragovernmental Eliminations; Unsupported Accounting Entries; Accounts Payable; Accounts
     Receivable; Fund Balance with Treasury; and the Statement of Net Cost). The DON GF (as identified in the
     DON FY 2008 Annual Statement of Assurance dated August 28, 2008) recognizes those weaknesses as well
     as weaknesses associated with Collections and Disbursements and Procure to Pay Processes; Environmental
     Liabilities; General Equipment; Military Equipment; and Real Property as related to the General Property,
     Plant and Equipment (GPP&E) line on the Balance Sheet; and Operating Materials and Supplies (OM&S)
     (and the associated weaknesses with Inventory).

     1.B. 	 Mission of the Reporting Entity
     The DON was created on April 30, 1798 by an act of Congress (I Stat. 533; 5 U.S.C. 411-12). The overall
     mission of DON is to maintain, train, and equip combat-ready Navy and Marine Corps forces capable of
     winning wars, deterring aggression, and maintaining freedom of the seas.

     1.C. 	 Appropriations and Funds
     The DON receives its appropriations and funds as general, working capital (revolving), trust, special, and
     deposit funds. The DON uses these appropriations and funds to execute its missions and subsequently
     report on resource usage.

     General funds are used for financial transactions funded by congressional appropriations, including
     personnel, operation and maintenance, research and development, procurement, and military construction
     accounts.
The National Defense Sealift Fund is DON GF’s only revolving fund. Revolving funds are generally
established for the purpose of carrying out specific activities. Revolving funds are financed through an
appropriation or a transfer to establish a corpus and are replenished through charges made for goods or
services without fiscal year limitations. The National Defense Sealift Fund is unique because it receives an
annual appropriation and has no corpus.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying
out specific purposes or programs in accordance with the terms of the donor, trust agreement, or statute.
Certain trust and special funds may be designated as earmarked funds. Earmarked funds are financed by
specifically identified revenues, required by statute to be used for designated activities, benefits, or purposes,
and remain available over time. Earmarked funds also have a requirement to account for and report on
the receipt, use, and retention of revenues and other financing sources that distinguish them from general
revenues.

Special fund accounts are used to record government receipts reserved for a specific purpose.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or
public entity. The DON GF is acting as an agent or a custodian for funds awaiting distribution.

The DON GF is a party to allocation transfers with other federal agencies as a transferring (parent) entity
and/or a receiving (child) entity. Allocation transfers are legal delegations by one agency of its authority to
obligate budget authority and outlay funds for another agency. Generally, all financial activity related to
these allocation transfers (e.g., budget authority, obligations, outlays) is reported in the financial statements
of the parent entity. Exceptions to this general rule apply to specific funds for which OMB has directed that
all activity be reported in the financial statements of the child entity. Exceptions include all U.S. Treasury-
Managed Trust Funds, Executive Office of the President (EOP), and all other funds specifically designated
by OMB.

The DON GF is a party to allocation transfers as the child for the following agencies: the EOP for the Foreign
Military Financing Program, as well as for the International Military Education and Training program. These
funds meet the OMB exception; however, activities for these funds are reported separately from the DoD
financial statements. The DON GF also receives allocation transfers, as the child, from the U.S. Forest Service
and the Federal Highway Administration and reports financial activity for those funds to the parent.

1.D. 	 Basis of Accounting
For FY 2008, DON GF’s financial management systems are unable to meet all of the requirements for full
accrual accounting. Many of DON’s financial and nonfinancial feeder systems and processes were designed
and implemented prior to the issuance of GAAP for federal agencies. These systems were not designed to
collect and record financial information on the full accrual accounting basis as required by GAAP. Most
of DON’s (financial and nonfinancial) legacy systems were designed to record information on a budgetary
basis.

The DoD has undertaken efforts to determine the actions required to bring its financial and nonfinancial
feeder systems and processes into compliance with GAAP. One such action is the current revision of its
accounting systems to record transactions based on the U.S. Standard General Ledger (USSGL). Until all of


                                                              Department of the Navy 2008 Annual Financial Report    53
54                                                                                                     General Fund

     DON GF’s financial and nonfinancial feeder systems and processes are updated to collect and report financial
     information as required by GAAP, DON GF’s financial data will be derived from budgetary transactions
     (obligations, disbursements and collections), transactions from nonfinancial feeder systems, and accruals
     made of major items such as payroll expenses, accounts payable, and environmental liabilities.

     1.E. 	 Revenues and Other Financing Sources
     The DON GF receives congressional appropriations as financing sources for general funds on either an
     annual or multi-year basis. When authorized by legislation, these appropriations are supplemented by
     revenues generated by sales of goods or services. The DON GF recognizes revenue as a result of costs
     incurred for goods or services provided to other federal agencies and the public. Full cost pricing is the DON
     GF’s standard policy for services provided as required by OMB Circular A-25, Transmittal Memorandum #1,
     User Charges. The DON GF recognizes revenue when earned within the constraints of current system
     capabilities. In some instances, revenue is recognized when bills are issued.

     The DON GF does not include nonmonetary support provided by U.S. allies for common defense and
     mutual security in amounts reported in the Statement of Net Cost and Note 21, Reconciliation of Net Cost
     of Operations to Budget. The U.S. has cost sharing agreements with other countries. Examples include
     countries where there is a mutual or reciprocal defense agreement, where U.S. troops are stationed, or where
     the U.S. Fleet is in a port.

     1.F. 	 Recognition of Expenses
     For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period
     incurred. However, because DON GF’s financial and nonfinancial feeder systems were not designed to
     collect and record financial information on the full accrual accounting basis, accruals are made for major
     items such as payroll expenses, accounts payable, environmental liabilities, and unbilled revenue. In the
     case of OM&S, operating expenses are generally recognized when the items are purchased. Subsequent
     adjustments to operating expenses are recognized when OM&S is inventoried. Efforts are underway to
     transition towards the consumption method for recognizing OM&S expenses.

     1.G. 	 Accounting for Intragovernmental Activities
     Preparation of reliable financial statements requires the elimination of transactions occurring among entities
     within DoD or between two or more federal agencies. However, DON GF cannot accurately eliminate
     intragovernmental transactions by customer because DON GF’s systems do not track at the transaction level.
     Generally, seller entities within DoD provide summary seller-side balances for revenue, accounts receivable,
     and unearned revenue to the buyer-side internal DoD accounting offices. In most cases, the buyer-side
     records are adjusted to agree with DoD seller-side balances. Intra-DoD intragovernmental balances are
     then eliminated. The volume of intragovernmental transactions is so large that after-the-fact reconciliations
     cannot be accomplished effectively with existing or foreseeable resources. The DoD is developing long-term
     system improvements to ensure accurate intragovernmental information and to include sufficient up-front
     edits and controls eliminating the need for after-the-fact reconciliations.

     The U.S. Treasury Financial Management Service is responsible for eliminating transactions between DoD
     and other federal agencies. The U.S. Treasury Financial Manual, Part 2 – Chapter 4700, “Agency Reporting
     Requirements for the Financial Report of the United States Government,” and the U.S. Treasury’s “Federal
     Intragovernmental Transactions Accounting Policy Guide,” provide guidance for reporting and reconciling
intragovernmental balances. While DON GF is unable to fully reconcile intragovernmental transactions
with all federal partners, DON GF is able to reconcile balances pertaining to investments in federal securities,
borrowings from the U.S. Treasury and the Federal Financing Bank, Federal Employees’ Compensation Act
transactions with the Department of Labor, and benefit program transactions with the Office of Personnel
Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not
included. The Federal Government does not apportion debt and its related costs to federal agencies. The
DoD’s financial statements, therefore, do not report any portion of the public debt or interest thereon, nor do
the statements report the source of public financing whether from issuance of debt or tax revenues.

Financing for the construction of DoD facilities is obtained through appropriations. To the extent this
financing ultimately may have been obtained through the issuance of public debt, interest costs have not
been capitalized since the U.S. Treasury does not allocate such interest costs to the benefiting agencies.

1.H. 	 Transactions with Foreign Governments and International Organizations
Each year, the DON sells defense articles and services to foreign governments and international organizations
under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act, DoD has
authority to sell defense articles and services to foreign countries and international organizations generally
at no profit or loss to the U.S. Government. Payment in U.S. dollars is required in advance.

1.I. 	 Funds with the U.S. Treasury
The DON GF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of the
Defense Finance and Accounting Service (DFAS), the Military Services, the U.S. Army Corps of Engineers
(USACE), and the Department of State’s financial service centers process the majority of DON’s cash
collections, disbursements, and adjustments worldwide. Each disbursing station prepares monthly reports
to the U.S. Treasury on check issues, electronic fund transfers, interagency transfers, and deposits.

In addition, DFAS sites and the USACE Finance Center submit reports to the U.S. Treasury by appropriation
on interagency transfers, collections received, and disbursements issued. The U.S. Treasury records these
transactions to the applicable Fund Balance with Treasury (FBWT) account. The DON GF’s recorded balance
in FBWT accounts and U.S. Treasury’s FBWT accounts must balance monthly.

1.J. 	 Foreign Currency
Cash is the total of cash resources under the control of DoD, which includes coin, paper currency, negotiable
instruments, and amounts held for deposit in banks and other financial institutions. Foreign currency
consists of the total U.S. dollar equivalent of both purchased and nonpurchased foreign currencies held in
foreign currency fund accounts.

The majority of cash and all foreign currency is classified as nonentity and is restricted. Amounts reported
consist primarily of cash and foreign currency held by disbursing officers to carry out their paying, collecting,
and foreign currency accommodation exchange missions.

The DON GF conducts a significant portion of its operations overseas. The Congress established a special


                                                             Department of the Navy 2008 Annual Financial Report    55
56                                                                                                       General Fund

     account to handle the gains and losses from foreign currency transactions for five general fund appropriations:
     operations and maintenance, military personnel, military construction, family housing operations and
     maintenance, and family housing construction. The gains and losses are computed as the variance between
     the exchange rate current at the date of payment and a budget rate established at the beginning of each
     fiscal year. Foreign currency fluctuations related to other appropriations require adjustments to the original
     obligation amount at the time of payment. The DON GF does not separately identify foreign currency
     fluctuation transactions.

     1.K. 	 Accounts Receivable
     As presented in the Balance Sheet, accounts receivable includes three categories: accounts, claims, and
     refunds receivable from other federal entities or from the public. Allowances for uncollectible accounts due
     from the public are based upon analysis of collection experience by fund type. The DoD does not recognize
     an allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal
     agencies are to be resolved between the agencies in accordance with dispute resolution procedures defined
     in the Intragovernmental Business Rules published in the U.S. Treasury Financial Manual.

     1.L. 	 Direct Loans and Loan Guarantees
     Not applicable.

     1.M. 	 Inventories and Related Property
     Related property is comprised of Operating Materiel and Supplies (OM&S) and stockpile materials. The
     DON GF uses both the consumption method and the purchase method of accounting for OM&S. Items
     that are centrally managed and stored, such as ammunition and engines, are generally recorded using the
     consumption method and are reported on the Balance Sheet as OM&S. When current systems cannot fully
     support the consumption method, the DON GF uses the purchase method. Under this method, materiel and
     supplies are expensed when purchased. During FY 2008, DON GF expensed significant amounts using the
     purchase method because the systems could not support the consumption method or management deemed
     that the item was in the hands of the end user. This is a material weakness for DoD and long-term system
     corrections are in process. Once the proper systems are in place, these items will be accounted for using the
     consumption method of accounting.

     The DON GF manages only military or government specific materiel under normal conditions. Materiel is
     a unique term that relates to military force management, and includes all items (including ships, tanks, self-
     propelled weapons, aircraft, etc., and related spares, repair parts, and support equipment, but excluding real
     property, installations, and utilities) necessary to equip, operate, maintain, and support military activities
     without distinction as to its application for administrative or combat purposes. Items commonly used in
     and available from the commercial sector are not managed in DON GF’s materiel management activities.
     Operational cycles are irregular and the military risks associated with stock-out positions have no commercial
     parallel. The DON GF holds materiel based on military need and support for contingencies.

     The DON GF values OM&S assets using several cost valuation methods. Most OM&S is valued at an
     approximation of historical cost using latest acquisition cost adjusted for holding gains and losses. The latest
     acquisition cost method is used because legacy logistics systems were designed for materiel management
     rather than accounting purposes. Although these systems provide visibility and accountability over inventory
     and related property items, they do not maintain historical cost data necessary to comply with Statement of
Federal Financial Accounting Standards (SFFAS) No. 3, “Accounting for Inventory and Related Property.”
Additionally, these legacy inventory systems cannot produce financial transactions using the USSGL, as
required by the Federal Financial Management Improvement Act of 1996 (P.L. 104-208). By utilizing new
systems development processes, DON is continuing to transition OM&S to the moving average cost method.
However, since the on-hand balances, which were transitioned, were not, for the most part, baselined to
auditable historical cost, the reported values remain noncompliant with SFFAS No. 3 and GAAP.

The DON determined that the recurring high dollar value of OM&S in need of repair is material to the
financial statements and required a separate reporting category. Many high dollar items, such as aircraft
engines, are categorized as OM&S rather than military equipment.

The DON GF recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.” The cost of disposal
is greater than the potential scrap value; therefore, the net value of condemned materiel is zero. Potentially
redistributed materiel, presented in previous years as “Excess, Obsolete, and Unserviceable,” is included in
the “Held for Use” or “Held for Repair” categories according to its condition.

1.N. 	 Investments in U.S. Treasury Securities
The DON GF reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts.
Premiums or discounts are amortized over the term of the investment using the effective interest rate method
or another method obtaining similar results. The DON GF’s intent is to hold investments to maturity, unless
they are needed to finance claims or otherwise sustain operations. Consequently, a provision is not made
for unrealized gains or losses on these securities.

The DON GF invests in nonmarketable market-based U.S. Treasury securities. These are U.S. Treasury
securities issued by the Bureau of Public Debt to federal agencies. They are not traded on any securities
exchange but mirror the prices of particular U.S. Treasury securities traded in the government securities
market.

1.O. 	 General Property, Plant, and Equipment
The DON GF uses the estimated historical cost for valuing military equipment. The DoD identified the
universe of military equipment by accumulating information relating to program funding and associated
military equipment, equipment useful life, program acquisitions, and disposals to establish a baseline. The
military equipment baseline is updated using expenditure, acquisition, and disposals information.

The DON GF’s General Property, Plant, & Equipment (PP&E) capitalization threshold is $100 thousand
except for real property, which is $20 thousand. The DON GF has not implemented the threshold for real
property. The DON GF is currently using the capitalization threshold of $100 thousand for all General
PP&E.

General PP&E assets are capitalized at historical acquisition cost when an asset has a useful life of two or
more years and when the acquisition cost equals or exceeds the DoD capitalization threshold. The DoD also
requires the capitalization of improvements to existing General PP&E assets if the improvements equal or
exceed the DoD capitalization threshold and extend the useful life or increase the size, efficiency, or capacity
of the asset. The DoD depreciates all General PP&E, other than land, on a straight-line basis.


                                                             Department of the Navy 2008 Annual Financial Report   57
58                                                                                                       General Fund

     General PP&E previously capitalized at amounts below $100 thousand was written off DON GF financial
     statements in FY 1998.

     When it is in the best interest of the government, DON GF provides government property to contractors
     when deemed necessary to complete contract work. The DON GF either owns or leases such property, or
     it is purchased directly by the contractor for the government based on contract terms. When the value of
     contractor-procured General PP&E exceeds the DoD capitalization threshold, federal accounting standards
     require that it be reported on DON GF’s Balance Sheet.

     The DoD is developing new policies and a contractor reporting process for Government Furnished Equipment
     that will provide appropriate General PP&E information for future financial statement reporting purposes.
     Accordingly, DON GF reports only government property in the possession of contractors that is maintained
     in DON GF’s property systems. The DoD has issued new property accountability and reporting requirements
     that require DON to maintain, in their property systems, information on all property furnished to contractors.
     This action and other DoD proposed actions are structured to capture and report the information necessary
     for compliance with federal accounting standards.

     1.P. 	 Advances and Prepayments
     When advances are permitted by law, legislative action, or presidential authorization, the DoD’s policy is
     to record advances or prepayments in accordance with GAAP. As such, payments made in advance of the
     receipt of goods and services should be reported as an asset on the Balance Sheet. The DoD’s policy is to
     expense and/or properly classify assets when the related goods and services are received. The DON GF has
     not implemented this policy, primarily due to system limitations.

     1.Q. 	 Leases
     Lease payments for the rental of operating facilities are classified as either capital or operating leases. When
     a lease is essentially equivalent to an installment purchase of property (a capital lease), DON GF records
     the applicable asset and liability if the value equals or exceeds the current capitalization threshold. The
     DON GF records the amount as the lesser of the present value of the rental and other lease payments during
     the lease term (excluding portions representing executory costs paid to the lessor) or the asset’s fair market
     value. The discount rate for the present value calculation is either the lessor’s implicit interest rate or the
     government’s incremental borrowing rate at the inception of the lease. The DON GF, as the lessee, receives
     the use and possession of leased property, for example real estate, from a lessor in exchange for a payment
     of funds. An operating lease does not substantially transfer all the benefits or risk of ownership. Payments
     for operating leases are charged to expense over the lease term as it becomes payable.

     Office space and leases entered into by DON GF in support of contingency operations are the largest component
     of operating leases. These costs were gathered from existing leases, General Services Administration (GSA)
     bills, and Interservice Support Agreements. Future year projections use the Consumer Price Index (CPI)
     rather than the DoD inflation factor. The CPI impacts increases to the leases, especially those at commercial
     lease sites.

     1.R. 	 Other Assets
     Other assets include those assets, such as military and civil service employee pay advances, travel advances,
     and certain contract financing payments that are not reported elsewhere on DON GF’s Balance Sheet.
The DON GF conducts business with commercial contractors under two primary types of contracts: fixed
price and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term
contracts can cause, DON GF may provide financing payments. Contract financing payments are defined in
the Federal Acquisition Regulations, Part 32, as authorized disbursements of monies to a contractor prior to
acceptance of supplies or services by the Government. Contract financing payments clauses are incorporated
in the contract terms and conditions and may include advance payments, performance-based payments,
commercial advance and interim payments, progress payments based on cost, and interim payments under
certain cost-reimbursement contracts.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and
rental payments, or progress payments based on a percentage or stage of completion, which the Defense
Federal Acquisition Regulation Supplement authorizes only for construction of real property, shipbuilding,
and ship conversion, alteration, or repair. Progress payments for real property and ships are reported as
Construction in Progress. It is DoD policy to record certain contract financing payments as Other Assets.

1.S. 	 Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12,
“Recognition of Contingent Liabilities Arising from Litigation,” defines a contingency as an existing
condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss. The
uncertainty will be resolved when one or more future events occur or fail to occur. The DON GF recognizes
contingent liabilities when past events or exchange transactions occur, a future loss is probable, and the loss
amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not
exist but there is at least a reasonable possibility of incurring a loss or additional losses. Examples of loss
contingencies include the collectability of receivables, pending or threatened litigation, and possible claims
and assessments. The DON GF’s risk of loss and resultant contingent liabilities arise from pending or
threatened litigation or claims and assessments due to events such as aircraft, ship, and vehicle accidents;
medical malpractice; property or environmental damages; and contract disputes.

Other liabilities arise as a result of anticipated disposal costs for DON’s assets. This type of liability has two
components: environmental and nonenvironmental. Consistent with SFFAS No. 6, “Accounting for Property,
Plant, and Equipment,” recognition of an anticipated environmental disposal liability begins when the asset
is placed into service. Nonenvironmental disposal liabilities are recognized for assets when management
decides to dispose of the asset based upon DoD policy, which is consistent with SFFAS No. 5, “Accounting
for Liabilities of the Federal Government.” The DoD recognizes nonenvironmental disposal liabilities for
military equipment nuclear-powered assets when placed into service. Such amounts are developed in
conjunction with, and not easily identifiable from, environmental disposal costs.

1.T. 	 Accrued Leave
The DON GF reports as liabilities, military leave and civilian earned leave, except sick leave, that has been
accrued and not used as of the Balance Sheet date. Sick leave is expensed as taken. The liability reported at
the end of the accounting period reflects the current pay rates.




                                                              Department of the Navy 2008 Annual Financial Report    59
60                                                                                                       General Fund

     1.U. 	 Net Position
     Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
     Appropriations represent the amounts of authority that are unobligated and have not been rescinded or
     withdrawn. Unexpended Appropriations also represent amounts obligated for which legal liabilities for
     payments have not been incurred. Cumulative Results of Operations represent the net difference, since
     inception of an activity, between expenses and losses and financing sources (including appropriations,
     revenue, and gains). Beginning with FY 1998, the cumulative results also include donations and transfers in
     and out of assets that were not reimbursed.

     1.V. 	 Treaties for Use of Foreign Bases
     The DoD has the use of land, buildings, and other overseas facilities that are obtained through various
     international treaties and agreements negotiated by the Department of State. The DON purchases capital
     assets overseas with appropriated funds; however, the host country retains title to land and improvements.
     Generally, treaty terms allow DON continued use of these properties until the treaties expire. In the event
     treaties or other agreements are terminated, whereby use of the foreign bases is prohibited, losses are recorded
     for the value of any nonretrievable capital assets. The settlement due to the U.S. or host nation is negotiated
     and takes into account the value of capital investments and may be offset by the cost of environmental
     cleanup.

     1.W. 	 Comparative Data
     The DON GF’s financial statements and notes are presented on a comparative basis.

     1.X. 	 Unexpended Obligations
     The DON GF obligates funds to provide goods and services for outstanding orders not yet delivered. Unless
     the title has passed, the financial statements do not reflect a liability for payment for goods and services not
     yet delivered. Unexpended obligations includes both obligations for which goods and services have been
     delivered (title passed) and a liability recognized, and obligations for which no delivery has occurred and
     no liability recognized. The balance of unexpended obligations appears immediately before net outlays in
     the Statement of Budgetary Resources, and is referred to as “Total, Unpaid Obligated Balance, net, end of
     period.”

     1.Y. 	 Undistributed Disbursements and Collections
     Undistributed disbursements and collections represent the difference between disbursements and collections
     matched at the transaction level to a specific obligation, payable, or receivable in the activity field records
     as opposed to those reported by the U.S. Treasury. These amounts should agree with the undistributed
     amounts reported on the monthly accounting reports. In-transit payments are those payments that have
     been made but not recorded in the fund holder’s accounting records. These payments are applied to the
     entities’ outstanding accounts payable balance. In-transit collections are those collections from other agencies
     or entities that have not been recorded in the accounting records. These collections are also applied to the
     entities’ accounts receivable balance.

     The DoD policy is to allocate supported undistributed disbursements and collections between federal and
     nonfederal categories based on the percentage of distributed federal and nonfederal accounts payable
     and accounts receivable. Unsupported undistributed disbursements are recorded in accounts payable.
     Unsupported undistributed collections are recorded in other liabilities.
1.Z. 	 Significant Events
During FY 2008, DON began conversion to Navy Enterprise Resource Planning (ERP). In 1st Quarter,
FY 2008, the Naval Air Systems Command was the first command to convert to the new system. Though
the reporting process improved by year end, the limited data feed from ERP had an effect on the financial
statements throughout the year. The standardization of systems and processes in financial functions and
acquisition programs is the backbone of Navy ERP and will provide the foundation for subsequent releases.
The system will provide financial transparency and total asset visibility, key ingredients for improved
enterprise management. Additional commands will convert to ERP in FY 2009 and thereafter.

1.AA. Data Collection Approach
The DON GF financial statements include information from both financial systems and nonfinancial
feeder systems. The Defense Finance and Accounting Service, Cleveland (DFAS-CL) collects the financial
system information and incorporates it into the financial statements for both the Navy and United States
Marine Corps. The DON GF collects financial information from nonfinancial feeder systems through a
data call process and submits it to DFAS-CL for incorporation into the financial statements. On behalf
of DON GF, DFAS also collects information from multiple sources, such as intragovernmental data from
DON GF’s trading partners, which is incorporated into the financial statements. Beginning in FY 2007,
DON GF completed migration from the DON Data Collection Instrument to the Defense Departmental
Reporting System (DDRS) Data Collection Module (DCM). The DDRS DCM captures certain required
financial information from feeder systems for the DON GF financial statements. The DDRS DCM identifies
the information requirements to the source provider, provides an audit trail, and integrates data into the
financial statement preparation process.


Note 2.	 Nonentity Assets
As of September 30                                         2008                              2007
(Amounts in thousands)

1. Intragovernmental Assets
   A. Fund Balance with Treasury               $                       417,049     $                  516,593
   B. Accounts Receivable                                                    0                              0
   C. Total Intragovernmental Assets           $                       417,049     $                  516,593

2. Nonfederal Assets
   A. Cash and Other Monetary Assets           $                       137,277     $                  142,971
   B. Accounts Receivable                                            3,339,850                      3,303,128
   C. Other Assets                                                           0                              0
   D. Total Nonfederal Assets                  $                     3,477,127     $                3,446,099


3. Total Nonentity Assets                      $                     3,894,176     $                3,962,692

4. Total Entity Assets                         $                   390,616,012     $              363,233,836


5. Total Assets                                $                   394,510,188     $              367,196,528




                                                          Department of the Navy 2008 Annual Financial Report   61
62                                                                                                    General Fund

     Nonentity assets are assets for which the Department of the Navy (DON) maintains stewardship accountability
     and responsibility to report, but are not available for DON’s normal operations.

     Intragovernmental Fund Balance with Treasury.
     This nonentity asset category represents amounts in DON’s deposit fund accounts, such as the savings plans
     that were established by Congress to benefit deployed sailors and Marines, and receipts fund accounts such
     as the General Fund Proprietary Receipts account that is used to temporarily hold amounts until they are
     remitted to the U.S. Treasury. Amounts in deposit and receipt accounts are not available for DON’s use in
     normal operations.

     Cash and Other Monetary Assets.
     This nonentity asset category represents disbursing officers’ cash, foreign currency, and undeposited
     collections as reported on the Disbursing Officer’s Statement of Accountability. These assets are held by DON
     disbursing officers as agents of the U.S. Treasury and are not available for DON’s use in normal operations.

     Nonentity Nonfederal Accounts Receivable (Public).
     The primary component of nonentity accounts receivable is an advance payment made to a contractor,
     and associated accrued interest, which remains in litigation. These receivable balances are being reported
     in nonentity accounts receivable since the original appropriation year has been cancelled, and any funds
     collected as a result of this litigation would be remitted to the U.S. Treasury.


     Note 3.	 Fund Balance with Treasury
     As of September 30                                                  2008                     2007
     (Amounts in thousands)


     1. Fund Balances
        A. Appropriated Funds                                    $         116,157,423   $          105,133,424
        B. Revolving Funds                                                   1,574,364                1,678,815
        C. Trust Funds                                                          17,171                   13,182
        D. Special Funds                                                         2,341                    2,385
        E. Other Fund Types                                                    417,049                  516,593
        F. Total Fund Balances                                   $         118,168,348   $          107,344,399


     2. Fund Balances Per Treasury Versus Agency
        A. Fund Balance per Treasury                             $         119,501,677   $          108,480,114
        B. Fund Balance per DON                                            118,168,348              107,344,399

     3. Reconciling Amount                                       $           1,333,329   $            1,135,715

     The total reconciling amount of $1.3 billion in Fund Balance with Treasury (FBWT) is primarily due to
     cancelled appropriations. Cancelled appropriations are not available as of the end of the reporting period;
     therefore, they are excluded from the Department of the Navy’s (DON) FBWT but remained in fund balance
     reported by U.S. Treasury.

     Other Fund Types (Line 1.E) consists primarily of amounts in the following deposit and receipt accounts:
     General Fund Proprietary Receipts, Pay of the Navy Deposit Fund, and Pay of the Marine Corps Deposit
     Fund.
Status of Fund Balance with Treasury
As of September 30                                           2008                             2007
(Amounts in thousands)
1. Unobligated Balance
   A. Available                                 $                    25,329,935   $                  21,765,826
   B. Unavailable                                                     2,698,861                       2,168,721


2. Obligated Balance not yet Disbursed          $                    93,776,544   $                  86,191,076


3. Nonbudgetary FBWT                            $                      237,359    $                     524,455


4. NonFBWT Budgetary Accounts                   $                   (3,874,351)   $                  (3,305,679)


5. Total                                        $                   118,168,348   $                107,344,399


The Status of FBWT reflects the budgetary resources to support the FBWT.

Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to
cover outstanding obligations. Unobligated Balance is classified as available or unavailable and is associated
with appropriations expiring at fiscal year end that remain available only for obligation adjustments until
the account is closed.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not been
received, services that have not been performed, and goods and services that have been delivered/received
but not yet paid.

Nonbudgetary FBWT includes entity and nonentity FBWT accounts that represent adjustments that do not
have budgetary authority, such as unavailable receipt accounts or clearing accounts. For DON General
Fund (GF), Nonbudgetary FBWT consists of balances in receipt accounts and clearing accounts.

NonFBWT Budgetary Accounts represent adjustments to budgetary accounts that do not affect FBWT.
For DON GF, Non FBWT Budgetary Accounts include Trust Fund investments in U.S. Treasury securities,
unfilled customer orders without advance, and reimbursements receivable. This category reduces the Status
of FBWT.

Unobligated balances are segregated to show available and unavailable amounts in the note schedule.
Unobligated, Unavailable balances are restricted to future use and are not apportioned for current use.

Although funds have been appropriated, expired single year appropriations, such as Operations and
Maintenance and Military Personnel accounts, are not generally available for obligation because the period
for obligation established by law in the applicable appropriation act has lapsed. Multi-year accounts and
“X” or no year accounts are restricted based on their appropriation type. Trust funds and earmarked funds
are restricted to their intended use.



                                                            Department of the Navy 2008 Annual Financial Report    63
64                                                                                                                            General Fund

     Note 4.	 Investments and Related Interest
     As of September 30                                                                   2008
                                                                 Amortization        Amortized                            Market Value
                                                    Cost                                               Investments, Net
                                                                   Method       (Premium) / Discount                       Disclosure
     (Amounts in thousands)
     1. Intragovernmental Securities
        A. Nonmarketable, Market-
           Based
          1. Military Retirement Fund           $           0                   $                  0   $              0   $            0
          2. Medicare Eligible Retiree Health
             Care Fund                                       0                                     0                  0                0
          3. US Army Corps of Engineers                   0                                        0                 0                 0
          4. Other Funds                             10,301                                     (51)            10,250            10,279
          5. Total Nonmarketable,
             Market-Based                            10,301                                     (51)            10,250            10,279

        B. Accrued Interest                                106                                                      106              106
        C. Total Intragovernmental
           Securities                           $    10,407                     $               (51)   $        10,356    $       10,385

     2. Other Investments
        A. Total Other Investments              $            0                  $                  0   $              0              N/A


     As of September 30                                                                   2007
                                                                 Amortization        Amortized                            Market Value
                                                    Cost                                               Investments, Net
                                                                   Method       (Premium) / Discount                       Disclosure

     (Amounts in thousands)
     3. Intragovernmental Securities
        A. Nonmarketable, Market-
           Based
          1. Military Retirement Fund           $           0                   $                  0   $              0   $            0
          2. Medicare Eligible Retiree Health
             Care Fund                                    0                                        0                  0                0
          3. US Army Corps of Engineers                   0                                        0                  0                0
          4. Other Funds                              9,630                                     (14)              9,616            9,657
          5. Total Nonmarketable,
             Market-Based                             9,630                                     (14)              9,616            9,657

        B. Accrued Interest                                140                                                      140              140

        C. Total Intragovernmental
           Securities                           $     9,770                     $               (14)   $          9,756   $        9,797

     4. Other Investments
        A. Total Other Investments              $            0                  $                  0   $              0              N/A




     Intragovernmental Investments for Earmarked Funds.
     The Federal Government does not set aside assets to pay future benefits and expenditures associated with
     earmarked funds. The cash generated from earmarked funds is deposited in the U.S. Treasury, which uses
     the cash for general Government purposes. U.S. Treasury securities are issued as evidence of earmarked
     fund receipts. The U.S. Treasury securities are an asset to the Department of the Navy (DON) and a liability
     to the U.S. Treasury. Because DON and the U.S. Treasury are both parts of the Government, these assets
     and liabilities offset each other from the standpoint of the Government as a whole. For this reason, they
do not represent an asset or a liability in the U.S. Governmentwide financial statements. The U.S. Treasury
securities provide DON with authority to draw upon the U.S. Treasury to make future benefit payments
or other expenditures. When DON requires redemption of these securities, the Government finances the
securities out of accumulated cash balances, by raising taxes or other receipts, by borrowing from the public,
by repaying less debt, or by curtailing other expenditures. This is the same way that the Government finances
all other expenditures.

Other Funds (Line 1.A.4) represents DON Trust Fund holdings in interest-bearing securities for the Naval
Academy General Gift Fund and the Navy General Gift Fund. These investments are Nonmarketable Market-
Based U.S. Treasury securities reported at cost, net of amortized premiums and discounts. In accordance
with the Statement of Federal Financial Accounting Standards No. 27, “Identifying and Reporting Earmarked
Funds,” DON Trust Funds are reported as earmarked funds.


Note 5.	 Accounts Receivable
As of September 30                                                         2008                                  2007
                                                                         Allowance For
                                                      Gross Amount                          Accounts          Accounts
                                                                           Estimated
                                                          Due                             Receivable, Net   Receivable, Net
                                                                         Uncollectibles
(Amounts in thousands)

1. Intragovernmental Receivables                  $       393,989                 N/A     $     393,989     $      206,091
2. Nonfederal Receivables (From the
   Public)                                        $     3,677,354    $      (29,325)      $   3,648,029     $   3,613,512

3. Total Accounts Receivable                      $     4,071,343    $      (29,325)      $   4,042,018     $   3,819,603




Note 6.	 Other Assets
As of September 30                                                         2008                             2007
(Amounts in thousands)

1. Intragovernmental Other Assets
   A. Advances and Prepayments                                  $                   302,751      $                 400,261
   B. Other Assets                                                                        0                              0
   C. Total Intragovernmental Other Assets                      $                   302,751      $                 400,261

2. Nonfederal Other Assets
   A. Outstanding Contract Financing Payments                   $                 7,807,128      $              7,757,776
   B. Advances and Prepayments                                                      743,840                       407,362
   C. Other Assets (With the Public)                                                 10,007                        10,006
   D. Total Nonfederal Other Assets                             $                 8,560,975      $              8,175,144


3. Total Other Assets                                           $                 8,863,726      $              8,575,405




                                                                Department of the Navy 2008 Annual Financial Report           65
66                                                                                                   General Fund

     Nonfederal Other Assets - Outstanding Contract Financing Payments.
     Contract terms and conditions for certain types of contract financing payments convey certain rights to
     the Department of the Navy (DON) that protect the contract work from state or local taxation, liens or
     attachment by the contractor’s creditors, transfer of property, or disposition in bankruptcy; however, these
     rights should not be misconstrued to mean that ownership of the contractor’s work has transferred to the
     Government. The Government does not have the right to take the work, except as provided in contract
     clauses related to termination or acceptance, and DON is not obligated to make payments to the contractor
     until delivery and acceptance.

     The Outstanding Contract Financing Payment balance of $7.8 billion is comprised of $7.5 billion in contract
     financing payments and an additional $289.3 million in estimated future payments that will be paid to
     the contractor upon future delivery and Government acceptance of a satisfactory product. (See additional
     discussion in Note 15, Other Liabilities).

     Nonfederal Other Assets, Other Assets (With the Public).
     Other Assets (With the Public) includes advance pay to DON military personnel, travel advances to military
     and civilian personnel, and miscellaneous advances to contractors that are not considered outstanding
     contract financing payments.


     Note 7.	 Cash and Other Monetary Assets
     As of September 30                                                          2008               2007
     (Amounts in thousands)

     1. Cash                                                               $        106,883   $        107,615
     2. Foreign Currency                                                             30,394             35,356
     3. Other Monetary Assets                                                             0                  0

     4. Total Cash, Foreign Currency, & Other Monetary Assets              $        137,277   $        142,971



     Cash and Foreign Currency consists primarily of cash held by Department of the Navy (DON) Disbursing
     Officers to carry out their payment, collection, and foreign currency accommodation exchange mission.
     Foreign currency is also held in overseas banks in support of contingency operations. The primary source
     of the amounts reported is the Disbursing Officers Statements of Accountability. DON Disbursing Officers
     are agents of the U.S. Treasury.

     Restriction on Cash, Foreign Currency, and Other Monetary Assets.
     Total Cash, Foreign Currency, and Other Monetary Assets reported are nonentity assets that are not available
     for DON’s use in normal operations. Therefore, the $137.3 million in Cash and Foreign Currency is restricted
     as to its use.


     Note 8.	 Direct Loan and Loan Guarantees
     Not applicable.
Note 9.	 Inventory and Related Property
As of September 30                                                        2008                                             2007
(Amounts in thousands)

1. Inventory, Net                                        $                                   0         $                                   0
2. Operating Materiel & Supplies, Net                                               60,804,137                                    58,249,650
3. Stockpile Materiel, Net                                                                   0                                             0

4. Total                                                 $                          60,804,137         $                          58,249,650




Inventory, Net
Not applicable.


Operating Materiel and Supplies, Net
As of September 30                                                 2008                                         2007
                                            OM&S                 Revaluation
                                                                                       OM&S, Net               OM&S, Net       Valuation Method
                                          Gross Value            Allowance
(Amounts in thousands)

1. OM&S Categories
  A. Held for Use                     $    54,867,199        $                 0   $    54,867,199         $    52,673,072     SP, LAC, MAC
  B. Held for Repair                         7,296,002            (1,359,064)            5,936,938               5,576,578     SP, LAC, MAC
  C. Excess, Obsolete, and
     Unserviceable                             597,471              (597,471)                      0                       0        NRV


  D. Total                            $    62,760,672        $    (1,956,535)      $    60,804,137         $    58,249,650

Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses               NRV = Net Realizable Value
SP = Standard Price                                                                         MAC = Moving Average Cost



Restrictions on the Use of Operating Materiel and Supplies (OM&S).
There are no known restrictions on the use of OM&S.

General Composition of OM&S.
OM&S includes spare and repair parts, ammunition, conventional missiles, torpedoes, aircraft configuration
pods, and centrally managed aircraft engines. The general composition of OM&S is Ammunitions and
Munitions, Principal End and Secondary Items, Sponsor Owned Materiel (SOM), Realtime Reutilization
Asset Management (RRAM) Materiel and Other OM&S.

Ammunition and Munitions are maintained in the Department of the Navy (DON) Ordnance Information
System and valued at latest acquisition cost.

Principal End and Secondary Items include OM&S such as shipboard hull, mechanical and electronic
equipment, and uninstalled aircraft engines. They are items of such importance that central inventory

                                                                               Department of the Navy 2008 Annual Financial Report                67
68                                                                                                    General Fund

     control is required. They normally possess one of the following characteristics: essential for combat or
     training; high dollar value; difficult to procure or produce; or critical basic materiel or components.

     SOM is defined as programmatic materiel required in support of Program Managers’ mission requirements
     for production, life cycle maintenance, and installation of systems and equipment. The materiel usage
     may involve, but is not limited to: item fabrication, assembly, testing, manufacture, development, repair, or
     research and development.

     Materiel maintained and valued in RRAM is considered excess to the owner, or materiel manager responsible
     for the materiel, but may not be excess to DON. Standard price is used to value all stock-numbered items.
     Part-numbered items are valued by best available information.

     Other OM&S consists primarily of Fleet Hospitals held by the Bureau of Medicine and Surgery and War
     Reserve materiel in possession of the U.S. Coast Guard.

     Decision Criteria for Identifying the Category to Which Operating Materiel and Supplies Are Assigned.
     The DON GF assigns Inventory items to a category based upon the type and condition of the asset. Inventory
     Available and Purchased for Resale includes spare and repair parts, clothing and textiles, and petroleum
     products. Inventory Held for Repair consists of damaged materiel held as inventory that is more economical
     to repair than to dispose. Excess, Obsolete, and Unserviceable Inventory consists of scrap materiel or items
     that cannot be economically repaired and are awaiting disposal. Raw Materials consists of items consumed
     in the production of goods for sale or in the provision of services for a fee.


     Stockpile Materiel, Net
     Not applicable.
Note 10.	 General PP&E, Net
As of September 30                                                    2008                                                       2007
                              Depreciation/                                         (Accumulated
                                               Service        Acquisition                                   Net Book           Prior FY Net
                              Amortization                                          Depreciation/
                                                Life            Value                                        Value             Book Value
                                Method                                              Amortization)
(Amounts in thousands)


1. Major Asset Classes
   A. Land                        N/A           N/A       $        601,649                      N/A     $       601,649    $        603,841
   B. Buildings,
      Structures, and
      Facilities                  S/L         20 or 40         33,163,260       $     (20,582,861)           12,580,399          12,497,355
   C. Leasehold                                 lease
      Improvements                S/L            term               7,283                 (1,457)                 5,826               6,191
   D. Software                    S/L         2-5 or 10            11,171                 (9,571)                 1,600               1,998
   E. General Equipment           S/L          5 or 10         11,048,453             (6,018,065)             5,030,388           4,776,227
   F. Military Equipment          S/L          Various        326,702,773           (145,367,183)           181,335,590         168,419,982
   G. Assets Under                              lease
      Capital Lease               S/L            term                       0                       0                  0                      0
   H. Construction-in-
      Progress                    N/A           N/A              2,928,874                      N/A           2,928,874           2,749,150
   I. Other                                                              0                        0                   0                   0
   J. Total General
      PP&E                                                $   374,463,463       $    (171,979,137)      $   202,484,326    $    189,054,744

  Note 15 for additional information on Capital Leases
 Legend for Valuation Methods:
 S/L = Straight Line       N/A = Not Applicable



Restrictions on the Use or Convertibility of General Property, Plant, & Equipment (PP&E).
The Department of the Navy (DON) has the use of land, buildings, and other overseas facilities that are
obtained through various international treaties and agreements negotiated by the Department of State.
Generally, treaty terms allow DON continued use of these properties until the treaties expire. There are no
other known restrictions on General PP&E.

Adjustments Resulting from Changes in the Accounting Standards for Military Equipment.
DON estimates values for Capitalized Military Equipment using department internal records. In 4th Quarter,
FY 2007, DON GF implemented the revised DoD definition of military equipment, which excludes training
devices and simulators. Implementing the new definition resulted in a reduction of $4.2 billion in the net
book value of Military Equipment with an offsetting increase to General Equipment.

Relationship of Heritage Assets to DON’s Mission.
The overall mission of DON is to control and maintain freedom of the seas, project power beyond the sea,
and influence events and advance U.S. interests across the full spectrum of military operations. As this
mission has been executed, DON has become a large-scale owner of historic buildings, structures, districts,
archeological sites and artifacts, ships, aircraft, other cultural resources, and several hundred installations to
include stewardship land. Protection of these components of the nation’s heritage assets and stewardship land
is an essential part of DON’s mission; DON is committed to responsible cultural resources stewardship.

Stewardship Policies for Heritage Assets and Description of Each Major Category of Heritage Assets.
The overall policy for DON’s stewardship policies for heritage assets is contained in the Secretary of the
Navy Instruction 4000.35A, “DON Cultural Resources Program.” Heritage Assets are items of historical,

                                                                            Department of the Navy 2008 Annual Financial Report                   69
70                                                                                                         General Fund

     natural, cultural, educational, or artistic significance; or items with significant architectural characteristics.
     Heritage Assets are expected to be preserved indefinitely. Monetary values are not required for Heritage
     Asset reporting; only physical units of measure are reported.

           n	    Heritage Assets are items that are unique for one or more of the following reasons: historical
                 or natural significance; cultural, educational, or artistic importance; or significant architectural
                 characteristics. The process used to define items as having heritage significance varies between
                 categories and type of assets being evaluated.

           n	    Consultation, as appropriate, is initiated with State Historic Preservation Officers, Tribal Historic
                 Preservation Officers, Advisory Council on Historic Preservation, Native Americans, Native
                 Hawaiians, and other interested agencies whenever DON conducts or supports undertakings
                 that may affect any National Register resource. Preservation considerations are incorporated
                 into routine DON management of historic buildings, structures, districts, sites, ships, aircraft,
                 and other cultural resources.

           n	    Archaeological Sites are locations that contain the remains of past human activity of various
                 sorts that are listed or eligible for listing on the National Register of Historic Places. These sites
                 are excavated only to the extent required for evaluation and identification. DON currently has
                 17,699 Archaeological sites.

           n	    Buildings and Structures are listed as or determined eligible for listing on the National Register
                 of Historic Places, including Multi-Use Heritage Assets. DON currently has 4,956 Buildings and
                 Structures.

           n	    Cemeteries are government owned burial grounds on which gravesites of prominent historical
                 figures may be located in addition to other gravesites. DON currently has 62 Cemeteries.

           n	    Major Collections include archeological artifacts that are maintained and inventoried by cubic
                 feet, archival items that are maintained and inventoried by linear feet, and artwork and historical
                 artifacts that are maintained and inventoried by individual items. Refer to DON’s Required
                 Supplementary Information for a detailed breakout of Major Collections.

           n	    Monuments and Memorials are those items that are built or placed to commemorate a person
                 or event, preserve the memory of a historical event, or are shown or maintained for its historical
                 interest. DON currently has 537 Monuments and Memorials.

     Stewardship Land Policy.
     The DON Stewardship Land policy is the same as that which DON maintains over all land and installations.
     The DON strives to be a responsible steward of the land and to maintain it in a way that both protects human
     health and the environment and allows training and support of fleet readiness. For DON, Stewardship Land
     includes land acquired through public domain, land set aside, and donated land. Some of this land is used
     as a buffer around the perimeter of DON installations and may include, but is not limited to, grazing lands
     and forestry maintenance areas.

     The DON’s heritage asset system does not identify the method by which heritage assets were obtained nor
     does it maintain costs, therefore we are unable to determine the number and value of heritage assets, other
     than land, that may have been obtained through donation or devise. Examples of heritage assets that are
     obtained on a regular basis include artwork and historical artifacts, such as papers and mementos that have
     been donated by former sailors, Marines, and their families.
Assets Under Capital Lease
Not applicable.


Note 11.	 Liabilities Not Covered by Budgetary Resources
As of September 30                                             2008                            2007
(Amounts in thousands)

1. Intragovernmental Liabilities
   A. Accounts Payable                             $                           0   $                           0
   B. Debt                                                                     0                               0
   C. Other                                                            3,899,279                       3,938,842
   D. Total Intragovernmental Liabilities          $                   3,899,279   $                   3,938,842

2. Nonfederal Liabilities
   A. Accounts Payable                             $                     60,712    $                     10,568
   B. Military Retirement and
      Other Federal Employment Benefits                                1,650,038                       1,646,486
   C. Environmental Liabilities                                       18,291,417                      18,305,233
   D. Other Liabilities                                                7,114,125                       5,052,597
   E. Total Nonfederal Liabilities                 $                  27,116,292   $                  25,014,884

3. Total Liabilities Not Covered by
   Budgetary Resources                             $                  31,015,571   $                  28,953,726

4. Total Liabilities Covered by Budgetary
   Resources                                       $                   6,192,636   $                   7,166,320

5. Total Liabilities                               $                  37,208,207   $                  36,120,046



Liabilities Not Covered by Budgetary Resources are those liabilities that are not considered covered by
realized budgetary resources as of the balance sheet date. Budgetary Authority to satisfy these liabilities is
expected to be provided in a future Department of Defense Appropriations Act. When that future budgetary
authority is provided, these respective liabilities will be recorded as Covered by Budgetary Resources with
an associated funded expense.

Conversely, Liabilities Covered by Budgetary Resources are those that are incurred by the reporting entity,
which are covered by realized budgetary resources as of the balance sheet date. Budgetary resources
encompass not only new budget authority, but also other resources available to cover liabilities for specified
purposes in a given year.

Accounts payable not covered by budgetary resources is related to cancelled year accounts payable that are
not budgeted. Military retirement and other federal employment benefits are future actuarial liabilities.
Environmental liabilities are estimates related to future events, such as cleanup of nuclear powered assets
that will be budgeted for when those assets are removed from service. Finally, other liabilities for annual
leave, estimated legal contingent liabilities, and the disposal of excess structures are not currently budgeted
for but will become funded as future events occur.


                                                            Department of the Navy 2008 Annual Financial Report    71
72                                                                                                           General Fund

     Intragovernmental Liabilities – Other (Not Covered by Budgetary Resources) (Line 1.C) consists primarily
     of liabilities to U.S. Treasury related to nonentity assets, and Federal Employees’ Compensation Act (FECA)
     liabilities due to the Department of Labor.

     Military Retirement and Other Federal Employment Benefits not covered by budgetary resources are
     comprised of FECA actuarial liabilities not due and payable during the current fiscal year. Refer to Note 17,
     Military Retirement and Other Federal Employment Benefits, for additional details and disclosures.

     Nonfederal Liabilities – Other (Not Covered by Budgetary Resources) (Line 2.D) consists primarily of
     liabilities for annual leave and estimated legal contingencies.


     Note 12.	 Accounts Payable
     As of September 30                                                  2008                                2007
                                                                  Interest, Penalties,
                                                      Accounts
                                                                  and Administrative         Total            Total
                                                      Payable
                                                                         Fees
     (Amounts in thousands)


     1. Intragovernmental Payables                $   1,434,076   $        N/A           $   1,434,076   $   1,495,517
     2. Nonfederal Payables (to the Public)           2,270,741                    73        2,270,814       2,948,867

     3. Total                                     $   3,704,817   $                73    $   3,704,890   $   4,444,384



     Department of the Navy (DON) General Fund (GF) accounting systems do not track intragovernmental
     transactions by customer at the transaction level, which is required to facilitate reconciliation of
     intragovernmental accounts payable to the related intragovernmental accounts receivable on other agencies’
     records that generated the DON GF payable. Therefore, DON GF buyer-side accounts payable and expense
     balances were adjusted to match seller-side accounts receivable and revenue balances. This is accomplished
     by reclassifying amounts between federal and nonfederal cost categories, and accruing additional costs
     when necessary.

     In FY 2007, the Department recognized accounts payable balances of the Mechanization of Contract
     Administration Services system at gross value without reductions for partial, progress payments, and non-
     accounts payable records overstating accounts payable and expenses. The overstated balances for FY 2007
     were undeterminable due to system limitations; therefore, no corrections have been made. Balances at
     FY 2008 are properly reported net of non-accounts payable records, partial and progress payments of
     $154.3 billion.


     Note 13.	 Debt
     Not applicable.
Note 14.	 Environmental Liabilities and Disposal Liabilities
As of September 30                                                                  2008                               2007
                                                             Current             Noncurrent
                                                                                                      Total            Total
                                                             Liability            Liability
 (Amounts in thousands)

 1. Environmental Liabilities--Nonfederal
  A. Accrued Environmental Restoration Liabilities
   1. Active Installations—Installation Restoration
      Program (IRP) and Building Demolition and
      Debris Removal (BD/DR)                             $      250,056      $     2,122,876      $    2,372,932   $    2,251,651
   2. Active Installations—Military Munitions Response
      Program (MMRP)                                             49,079              850,870            899,949          779,757
   3. Formerly Used Defense Sites—IRP and BD/DR                       0                    0                  0                0
   4. Formerly Used Defense Sites--MMRP                               0                    0                  0                0

 B. Other Accrued Environmental Liabilities—Non-
    BRAC
  1. Environmental Corrective Action                              4,373              121,543            125,916           45,976
  2. Environmental Closure Requirements                           1,102              623,856            624,958          728,896
  3. Environmental Response at Operational Ranges                     0               19,767             19,767           25,565
  4. Asbestos                                                         0                    0                  0                0
  5. Non-Military Equipment                                           0               60,024             60,024                0
  6. Other                                                            0                  990                990              971

 C. Base Realignment and Closure Installations
  1. Installation Restoration Program                          321,822             1,241,811           1,563,633        1,679,695
  2. Military Munitions Response Program                        20,563               110,874             131,437          148,760
  3. Environmental Corrective Action / Closure
     Requirements                                                19,422               19,250              38,672          40,291
  4. Asbestos                                                         0                    0                   0               0
  5. Non-Military Equipment                                           0                    0                   0               0
  6. Other                                                            0                    0                   0               0

 D. Environmental Disposal for Military Equipment /
    Weapons Programs
  1. Nuclear Powered Military Equipment / Spent
     Nuclear Fuel                                               164,248           12,091,494          12,255,742       12,883,022
  2. Non-Nuclear Powered Military Equipment                           0                    0                   0                0
  3. Other National Defense Weapons Systems                       1,490              195,907             197,397          205,141
  4. Other                                                            0                    0                   0                0

 E. Chemical Weapons Disposal Program
  1. Chemical Agents and Munitions Destruction
     (CAMD)                                                              0                    0               0                0
  2. CAMD Assembled Chemical Weapons
     Assessment (ACWA)                                                   0                    0               0                0
  3. Other                                                               0                    0               0                0

 2. Total Environmental Liabilities                      $      832,155      $    17,459,262      $   18,291,417   $   18,789,725




The “Other” type of environmental liabilities under Other Accrued Environmental Costs (Line 1.B.6)
represents an environmental estimate for disposal of Polychlorinated Biphenyls (PCBs) transformers located
at various Naval installations.

In addition to the liabilities reported above, the Department of Navy (DON) has the potential to incur costs
for restoration initiatives in conjunction with returning overseas Defense facilities to host nations. The DON
is unable to provide a reasonable estimate at this time because the extent of restoration required is not
known.


                                                                         Department of the Navy 2008 Annual Financial Report        73
74                                                                                                     General Fund

     1. Applicable Laws and Regulations of Cleanup Requirements
     The following is a summary of significant laws that affect DON’s conduct of environmental policy and
     regulations.

     The National Environmental Policy Act (NEPA) of 1970 requires DON to consider the environmental
     impacts of proposed actions in the decision making process. Per DON regulations, the action proponent
     will determine the level or amount of NEPA documentation required. The Resource Conservation and
     Recovery Act (RCRA) of 1976 as amended by the Hazardous and Solid Waste Amendments of 1984, was the
     first comprehensive federal effort to deal with safe disposal of all types of hazardous wastes, and provides
     for “cradle to grave” tracking of hazardous wastes. Permits are required for treatment, storage, or disposal.
     Requirements for underground storage tanks are also contained in RCRA.

     The Comprehensive Environmental Response, Compensation, and Liability Act of 1980 (CERCLA),
     commonly referred to as the Superfund legislation, provided Federal agencies authority to respond to the
     release or the substantial threat of release of hazardous substances into the environment. CERCLA was
     amended several times; one of which was the Superfund Amendments and Reauthorization Act of 1986.
     It established procedures to ensure that actual or threatened hazardous substance releases have proper
     responses. Another amendment to CERCLA was the Community Environmental Response Facilitation Act
     of 1992. The DON must identify real property on each facility that is not contaminated and that offers the
     greatest opportunity for expedited reuse and redevelopment. When property is transferred, DON is still
     responsible for any remediation or corrective action or any response action found to be necessary after the
     transfer.

     The Clean Water Act (CWA) of 1977, Section 405 Disposal of Sewage Sludge, amended the Federal Water
     Pollution Control Act. The purpose of CWA is to restore and maintain the integrity of the nation’s waters and
     the implementing regulations established closure and post closure requirements for sewage sludge disposal.
     To help protect the nation’s drinking water supply, including underground injections through a permitting
     scheme, the Safe Drinking Water Act of 1974 (Well Head Protection Areas) was created. The Clean Air Act
     of 1990 established standards/limitations to prevent and control air pollutant discharges that could harm
     human health and natural resources. Requirements ensure that units can no longer operate when they are
     shut down. Finally, the Toxic Substances Control Act of 1976 was implemented to understand the health
     risks of chemical substances by developing production and health risk data from the manufacturers. The
     control of PCBs is a good example.

     For the nuclear powered aircraft carriers and submarines, other nuclear powered ships, and spent nuclear
     fuel, the following significant laws affect DON’s conduct of environmental policy and regulations. The
     Atomic Energy Act of 1954, as amended, assures the proper management of source, special nuclear, and
     byproduct material. As in all cases with nuclear power, DON coordinates all actions with the Department of
     Energy (DOE). The Nuclear Waste Policy Act of 1982 required all owners and generators of high-level nuclear
     waste and spent nuclear fuel to pay their respective shares of the full cost of the program. Finally, the Low
     Level Radioactive Waste Policy Amendments Act of 1986 provides for the safe and efficient management of
     low-level radioactive waste.

     2. Methods for Assigning Total Cleanup Costs to Current Operating Periods
     Accrued Environmental Restoration (Defense Environmental Restoration Program (DERP) Funded
     Liabilities).

     Active Installations – Environmental Restoration: Accrued restoration (cleanup) liabilities represent the cost
     to correct past environmental areas that are funded under the Defense Environmental Restoration Program
     in accordance with “Management Guidance for DERP,” and “Environmental and Non-Environmental
Liabilities,” Chapter 13 of Volume 4 of Department of Defense Financial Management Regulation (DoD
FMR). These liabilities relate to Plant, Property, and Equipment, including acquired land and Stewardship
Land, as those major asset categories are described in Chapter 6 of Volume 4 of DoD FMR. Environmental
restoration activities may be conducted at operating installations, at Formerly Used Defense Sites, and at
Closed, Transferred, and Transferring Ranges. Environmental restoration measurements involve the use
of cost estimates that consider, on a current cost basis, the anticipated costs of the level of effort required
to affect the restoration, as well as applicable legal and/or regulatory requirements. Program management
and support costs are included in the estimates. The estimates are based on DON’s cost-to-complete (CTC)
module of the Normalization of Data System (NORM). Verification, validation, and accreditation of CTC
module was completed in FY 2002. Such cost estimates are based on the current technology available.
The DON, as the baseline for environmental restoration (cleanup) liability measurement (i.e., the current
cost to acquire the required services), used the site inventory and estimated cost data prepared for DERP
report to the Congress. The Accrued Environmental Restoration (Cleanup) Costs do not include the costs of
environmental compliance; pollution prevention, conservation activities, contamination, or spills associated
with current operations or treaty obligations, all of which are accounted for as part of ongoing operations.
The DON Environmental Restoration Program includes 3,725 clean-up sites at active installations while
those installations covered by Base Realignment and Closure (BRAC) funding include 1,129 IRP sites and
32 MMRP sites. The Marine Corps is included in these programs. In addition, the DON Environmental
Corrective Action Program at BRAC installations includes 608 sites.

Active Installations – Military Munitions Response Program: This area represents the environmental
liabilities associated with the identification, investigation and removal and remedial actions to address
environmental contamination at ranges that were closed prior to September 30, 2002. The contamination
may include munitions, chemical residues from military munitions and munitions scrap at ranges on
active installations that pose a threat to human health or the environment. The amount reported is the
portion of the liability that can be estimated based on site level investigations and characterizations. The
estimate produced is based on site-specific information and use of cost models validated in accordance with
DoD Instruction 5000.61, “DoD Modeling and Simulation, Verification, Validation, and Accreditation” of
May 2003. Total liabilities (CTC) are not estimated until there is sufficient site-specific data available to
estimate the total liability. However, DON uses the cost of the study as the estimate until the study is
completed. Beginning in FY 2001, DON began an inventory of closed ranges and transferring ranges
under the Military Munitions Response Program (MMRP) or Unexploded Ordnance (UXO) program and
completed it in September 2002. Currently there are 251 closed range sites at active installations and 32 sites
MMRP sites at BRAC installations.

Environmental Disposal for Weapons Systems Programs: this area represents environmental liabilities
associated with the Nuclear Powered Aircraft Carriers and Submarines, Other Nuclear Powered Ships,
Conventional Ships, and Spent Nuclear Fuel. During FY 2006, under DON Financial Improvement Program
(FIP), DON completed a review of the estimating methodology for determining the cost for disposal of ships
and submarines. This review resulted in an environmental and nonenvironmental liability estimate that
more accurately reflects the true costs of disposal. The estimating methodology is based on average cost per
class of ship rather than an average applied to all ships regardless of class.

3. Description of the Types of Environmental Liabilities and Disposal Liabilities
Accrued Environmental Restoration (DERP Funded) Liabilities.
The DON Environmental Restoration includes those sites that have been identified as legacy cleanup
sites. For FY 2008, DON estimated and reported $3.3 billion for environmental restoration liabilities. This
amount is comprised of $2.4 billion in Active Installations – Installation Restoration Program (IRP) liabilities
and $899.9 million in Active Installations – MMRP, liabilities, which represents UXO. The DoD FMR,

                                                             Department of the Navy 2008 Annual Financial Report   75
76                                                                                                       General Fund

     Volume 6B, Chapter 10 requires that “any estimate produced must be based on site specific information
     and use cost models validated in accordance with DoD Instruction 5000.61.” The DON is supporting this
     requirement by continuing to validate its range inventory as well as by pursuing the process of obtaining
     valid cost estimates for each range.

     Other Accrued Environmental Costs (Non-BRAC funds).
     The DON defines Non-BRAC environmental units as those sites associated with on-going operations such
     as solid waste management unit cleanup, landfill closure, permitted facilities, removal, replacement, retro
     fill, and/or disposal of PCBs transformers, underground storage tank remedial investigation and closure. As
     part of the DON FIP efforts, the Navy completed surveying, identifying, and estimating, Non-BRAC units
     and began recognizing the estimated environmental liability 1st Quarter, FY 2007. For FY 2008, the total
     Other Accrued Environmental Liabilities is $831.6 million. Of the total, the Navy portion is $569.2 million
     while the Marine Corps portion is $262.4 million.

     Base Realignment and Closure.
     BRAC environmental sites are environmental sites at DON installations that are or will be closed under
     the congressionally mandated BRAC process. For FY 2008, DON estimated and reported $1.7 billion
     for BRAC funded environmental liabilities. This amount includes $1.6 billion for IRP, $131.4 million for
     MMRP, and $38.7 million for environmental corrective action and closure requirements. MMRP includes
     military munitions, chemical residues from military munitions, and munitions scrap at locations on a BRAC
     installation.

     Environmental Disposal for Weapons Systems Programs.
     Environmental Disposal for Weapons Systems are those estimates associated with the environmental
     disposal costs for DON Nuclear Weapons Programs that includes Nuclear Powered Aircraft Carriers and
     Submarines and Other Nuclear Powered Ships, Conventional Ships, and Spent Nuclear Fuel. The DON
     reported an environmental disposal liability for Weapons Systems Programs of $12.5 billion in FY 2008.
     This amount includes Nuclear Powered Ships of $9.3 billion, Non-Nuclear Powered Ships of $228.7 million,
     Other Weapons Systems of $197.4 million, and Spent Nuclear Fuel of $2.7 billion.

     4. Nature of Estimates and the Disclosure of Information Regarding Possible Changes due to Inflation,
     Deflation, Technology, or Applicable Laws and Regulations
     Estimated environmental liabilities are adjusted for price growth (inflation) and increases in labor rates and
     materials. Currently, there are no indications that any of the environmental liabilities for any category will
     be adjusted due to deflation. As of FY 2008, there are no changes to the environmental liability estimates
     due to changes in laws, regulations, and agreements with regulatory agencies. The DON does not have any
     estimates that were changed due to advances in technology.

     5. Description of the Level of Uncertainty Regarding the Accounting Estimates used to calculate the
     Reported Environmental Liabilities
     The environmental liabilities for DON are based on accounting estimates that require certain judgments
     and assumptions that DON believes are reasonable based upon information available to us at the time of
     calculating the estimates. The actual results may vary materially from the accounting estimates if agreements
     with regulatory agencies require remediation to a different degree than anticipated when calculating the
     estimates. The liabilities can be further impacted if further investigation of the environmental sites discloses
     contamination different than known at the time of the estimates.

     Overall, DON has a reasonable level of confidence in the estimates recognized on the face of the financial
     statements. This reasonable level of confidence in the estimates is because the estimates for DERP/BRAC
     programs are based on the CTC module of the NORM System. A verification, validation, and accreditation
were completed by a third party for CTC module of NORM, while the environmental program managers
continue to validate the data.

For the weapons systems, the environmental program managers base their environmental disposal estimates
on actual costs for similar projects. A change in the overall methodology in weapons systems reflects a more
accurate estimate of what it will cost to dispose of the weapons systems. Given the fact that the planned
date for opening DOE’s planned waste repository has been delayed, there is uncertainty associated with the
estimate for spent nuclear fuel. As DOE’s plans are solidified, DON’s estimates for spent nuclear fuel will
change accordingly.

The DON believes that the current environmental liabilities for BRAC are reasonable, based upon information
available at the time in calculating the estimates. However, as the FY 2005 BRAC closure activities are
implemented over the next several fiscal years, the actual results may vary materially from the required
accounting estimates. The variance will depend on additional information gleaned from planned or ongoing
studies of the extent and concentration of site environmental contamination. In addition to the possibility
of the estimates changing on current identified sites, DON may incur additional environmental cleanup and
restoration costs if new sites are identified as BRAC activities are implemented.

The DON believes that the environmental liabilities for Other Accrued Environmental Liabilities (Non-DERP)
for FY 2008 are reasonable, based upon the information available at the time in calculating the estimates
and completing the fence to fence survey. However, as internal controls are implemented to sustain this
effort, changes to some of the estimates could occur. In addition to the possibility of some of the estimates
changing for the current list of identified units, DON may incur additional units and changes to estimates as
the inventory of units are reviewed annually.


Environmental Disclosures
As of September 30                                                             2008                 2007

 (Amounts in thousands)
   A. The unrecognized portion of the estimated total cleanup costs
      associated with general property, plant, and equipment.                    1,590,838           1,521,867
   B. Changes in total cleanup costs due to changes in laws,
      regulations, and/or technology.                                                     0                      0
   C. Portion of the changes in estimated costs due to changes in
      laws and technology that is related to prior periods.                               0                      0



Line A. The unrecognized portion of the estimated total cleanup costs is associated with Nuclear Powered
Carriers and Submarines, Conventional Ships, Spent Nuclear Fuel, and Non-BRAC. Of the total $1.6 billion,
$1.4 billion is associated with Nuclear Powered Carriers and Submarines and Spent Nuclear Fuel, $43.7 million
is associated with conventional ships while the remainder of $97.2 million is associated with Non-BRAC.




                                                           Department of the Navy 2008 Annual Financial Report       77
78                                                                                                                 General Fund

     Note 15.	 Other Liabilities
      As of September 30                                                       2008                                2007
                                                       Current               Noncurrent
                                                                                                  Total             Total
                                                       Liability              Liability
      (Amounts in thousands)
      1. Intragovernmental
         A. Advances from Others                   $        57,611       $                0   $       57,611   $            0
         B. Deposit Funds and Suspense
            Account Liabilities                           417,049                         0         417,049           516,593
         C. Disbursing Officer Cash                       139,608                         0         139,608           142,971
         D. Judgment Fund Liabilities                           0                         0               0                 0
         E. FECA Reimbursement to the
            Department of Labor                          152,091                  198,470            350,561          559,940
         F. Custodial Liabilities                      3,337,519                        0          3,337,519        3,303,128
        G. Employer Contribution and
            Payroll Taxes Payable                           54,414                        0           54,414           42,452
        H. Other Liabilities                                73,305                        0           73,305           77,735

         I. Total Intragovernmental Other
            Liabilities                            $   4,231,597         $        198,470     $    4,430,067   $    4,642,819

      2. Nonfederal
         A. Accrued Funded Payroll and Benefits    $        981,664      $                0   $     981,664    $     818,017
         B. Advances from Others                            634,361                       0         634,361          256,035
         C. Deferred Credits                                      0                       0               0                0
         D. Deposit Funds and Suspense
            Accounts                                         (9,152)                      0          (9,152)            4,173
         E. Temporary Early Retirement
            Authority                                                0                    0               0                 0
         F. Nonenvironmental Disposal
            Liabilities
             (1) Military Equipment (Nonnuclear)               7,748              244,509           252,257          271,142
             (2) Excess/Obsolete Structures                 116,171               616,611           732,782          662,973
             (3) Conventional Munitions
             Disposal                                                0                    0               0                 0
         G. Accrued Unfunded Annual Leave                2,550,357                        0        2,550,357        2,386,889

         H. Capital Lease Liability                               0                     0                 0                 0
          I. Contract Holdbacks                             104,823                11,077           115,900           171,814
         J. Employer Contribution and
             Payroll Taxes Payable                             5,576                    0              5,576            4,331
         K. Contingent Liabilities                            10,539            3,857,511          3,868,050        2,019,620
         L. Other Liabilities                                      0                    0                  0                0

         M. Total Nonfederal Other Liabilities     $     4,402,087       $      4,729,708     $    9,131,795   $    6,594,994


      3. Total Other Liabilities                   $     8,633,684       $      4,928,178     $   13,561,862   $   11,237,813




     Intragovernmental Other Liabilities (Line 1.H) consists primarily of Unemployment Compensation unfunded
     liabilities.

     Contingent Liabilities includes $289.3 million in estimated future contract financing payments that will be
     paid to the contractors upon delivery and Government acceptance. In accordance with contract terms,
specific rights to the contractor’s work vests with the Government when a specific type of contract financing
payments is made. This action protects taxpayer funds in the event of contract nonperformance. These
rights should not be misconstrued as the rights of ownership. The Department of the Navy (DON) General
Fund (GF) is under no obligation to pay the contractor for amounts greater than the amounts authorized
in the contract until delivery and Government acceptance. Because it is probable that the contractor will
complete its efforts and deliver a satisfactory product to DON and the amount of potential future payments
is estimable, DON GF has recognized a contingent liability for estimated future payments, which are
conditional pending delivery and Government acceptance.


Capital Lease Liability
Not applicable.


Note 16.	 Commitments and Contingencies
The Department of the Navy (DON) is a party in various administrative proceedings and legal actions,
with claims including environmental damage claims, equal opportunity matters, and contractual bid
protests which may ultimately result in settlements or decisions adverse to the Federal Government. These
proceedings and actions arise in the normal course of operations and their ultimate disposition is unknown.
The DON will accrue contingent liabilities for legal actions in those instances where DON’s Office of General
Counsel considers an adverse decision probable and the amount of loss is measurable. In the event of an
adverse judgment against the Government, some of the liabilities may be payable from the Judgment Fund.
Others may be payable from DON’s resources, either directly or by reimbursement to the Judgment Fund.
The DON records Judgment Fund liabilities in Note 12, “Accounts Payable.” See Note 12 for details.

For FY 2008, DON General Fund (GF) materiality threshold for reporting litigation, claims, or assessments
is $64.8 million. The DON Office of General Counsel conducts a review of litigation and claims threatened
or asserted involving DON General Fund to which Office of General Counsel attorneys devoted substantial
attention in the form of legal consultation or representation.

The DON currently has 12 cases that meet the existing FY 2008 DON GF materiality threshold of
$64.8 million. DON legal counsel was unable to express an opinion concerning the likely outcome of 10 of
12 cases. Based on information contained in the FY 2008 preliminary and final Legal Representation Letters,
management does not have sufficient reason to believe that it is likely that the Government will be liable for
the amounts claimed in individual or aggregated cases.

Methodology used for Estimated Legal Contingent Liabilities
Due to the inherent uncertainties of litigation, lawyers generally refrain from expressing judgments as
to outcomes except in those relatively few clear cases. In response to a Department of Defense (DoD),
Inspector General Audit, “DoD Process for Reporting Contingent Legal Liabilities,” DON developed a
methodology to determine an estimate for contingent legal liabilities. Beginning with 1st Quarter, FY 2007
DON recognized and disclosed an estimate for contingent legal liabilities. The methodology considers the
likelihood of an unfavorable outcome or potential liability is provided as an overall assessment of all cases
currently pending and not on an individual case basis. The likelihood of an unfavorable or potential liability
was determined by using an average of the data from the current year-to-date and the preceding four years.


                                                            Department of the Navy 2008 Annual Financial Report   79
80                                                                                                                                      General Fund

     The total dollar amount of the cases closed was divided by the total dollar amount claimed in those closed
     cases for each of the last four years plus current year which were then used to calculate the average. This
     average is based entirely on historical data and represents the percentage that has historically been paid on
     claims. The merits of each individual case have not been taken into consideration. The estimate for those
     cases considered reasonably possible to result in an adverse judgment against DON is $17.7 billion. Until
     sufficient historical data can be collected for the Navy Working Capital Fund, the DON GF estimate will
     consider all DON funding sources together. The estimate for those cases considered probable to result in an
     adverse judgment against DON is $3.5 billion. This amount has been recorded in Note 15 as a contingent
     liability.

     The DON is a party in numerous individual contracts that contain clauses, such as price escalation, award fee
     payments, or dispute resolution, that may or may not result in a future outflow of expenditures. Currently,
     DON does not have a systemic process by which it captures or assesses these potential contingent liabilities;
     therefore, the amounts reported may not fairly present DON contingent liabilities.
     	
     The DON GF has recorded in Note 12 a contingent liability in the amount of $60.7 million for obligations
     related to cancelled appropriations.

     The DON GF has recorded in Note 15 a contingent liability in the amount of $94.3 million for Contract
     Incentives.


     Note 17.	 Military Retirement and Other Federal
     		        Employment Benefits
     As of September 30                                                                   2008                                           2007
                                                                              Assumed       (Less: Assets
                                                                                                                  Unfunded
                                                            Liabilities        Interest    Available to Pay                             Liabilities
                                                                                                                  Liabilities
                                                                              Rate (%)        Benefits)

     (Amounts in thousands)


     1. Pension and Health Actuarial Benefits
       A. Military Retirement Pensions                  $                 0               $               0   $                 0   $                 0
       B. Military Retirement Health Benefits                             0                               0                     0                     0
       C. Military Medicare-Eligible Retiree Benefits                     0                               0                     0                     0
       D. Total Pension and Health Actuarial
          Benefits                                      $                 0               $               0   $                 0   $                 0

     2. Other Actuarial Benefits
       A. FECA                                          $    1,650,038                    $               0   $    1,650,038        $    1,646,486
       B. Voluntary Separation Incentive Programs                    0                                    0                0                     0
       C. DoD Education Benefits Fund                                0                                    0                0                     0
       D. Total Other Actuarial Benefits                $    1,650,038                    $               0   $    1,650,038        $    1,646,486

     3. Other Federal Employment Benefits               $                 0               $               0   $                 0   $          1,638

     4. Total Military Retirement and Other
        Federal Employment Benefits:                    $    1,650,038                    $               0   $    1,650,038        $    1,648,124
Federal Employees’ Compensation Act.
Actuarial Cost Method Used and Assumptions:
The DON’s actuarial liability for workers’ compensation benefits is developed by the Department of Labor
and provided to DON only at the end of each fiscal year. The liability for future workers’ compensation
benefits includes the expected liability for death, disability, medical, and miscellaneous costs for approved
compensation cases, plus a component for incurred but not reported claims. The liability is determined
using a method that utilizes historical benefit payment patterns related to a specific incurred period to
predict the ultimate payments related to that period. Consistent with past practice, these projected annual
benefit payments have been discounted to present value using the Office of Management and Budget’s
economic assumptions for 10-year U.S. Treasury notes and bonds. Interest rate assumptions utilized for
discounting were as follows:

		              Discount Rates
		              4.368% in Year 1
		              4.770% in Year 2, and thereafter

To provide more specifically for the effects of inflation on the liability for future workers compensation
benefits, wage inflation factors (cost of living adjustments or COLAs) and medical inflation factors (consumer
price index medical or CPIMs) were applied to the calculation of projected future benefits. The actual rates
for these factors for the charge back year (CBY) 2008 were also used to adjust the methodology’s historical
payments to current year constant dollars. The compensation COLAs and CPIMs used in the projections
for various CBYs were as follows:

		              CBY 		           COLA 		           CPIM
		              2008 		          3.03%		           4.71%
		              2009 		          3.87%		           4.01%
		              2010 		          2.73% 		          3.86%
		              2011 		          2.20% 		          3.87%
		              2012		           2.23%		           3.93%
		              2013+		          2.30%		           3.93%

The model’s resulting projections were analyzed to ensure that the estimates were reliable. The analysis
was based on four tests: (1) a sensitive analysis of the model to economic assumptions; (2) a comparison of
the percentage change in the liability amount by agency to the percentage change in the actual incremental
payments; (3) a comparison of the incremental paid losses per case (a measure of case-severity) in CBY 2008
to the average pattern observed during the most current three CBYs; and (4) a comparison of the estimated
liability per case in the 2008 projection to the average pattern for the projections of the most recent three
years.

Other Federal Employment Benefits
Other federal employment benefits (Line 3) consist primarily of voluntary separation incentive pay for
former employees.




                                                            Department of the Navy 2008 Annual Financial Report   81
82                                                                                                    General Fund

     Note 18.	 General Disclosures Related to the Statement of
     		        Net Cost
      Intragovernmental Costs and Exchange Revenue
      As of September 30
                                                                2008                           2007

     (Amounts in thousands)


     1. Intragovernmental Costs                     $                   42,702,854   $              40,664,719
     2. Public Costs                                                   101,809,027                 111,477,016
     3. Total Costs                                 $                  144,511,881   $             152,141,735

     4. Intragovernmental Earned Revenue            $                  (3,526,762)   $                (3,466,409)
     5. Public Earned Revenue                                          (1,079,762)                      (909,421)
     6. Total Earned Revenue                        $                  (4,606,524)   $                (4,375,830)


     7. Net Cost of Operations                      $                  139,905,357   $             147,765,905



     Intragovernmental costs and revenues are related to transactions made between the Department of the Navy
     General Fund (DON GF) and another federal entity within the Federal Government.

     Public costs and revenues are exchange transactions made between DON GF and a nonfederal entity.

     The DON GF’s financial management systems are unable to meet all of the requirements for full accrual
     accounting. Many of DON’s financial and nonfinancial feeder systems and processes were designed and
     implemented prior to the issuance of generally accepted accounting principles (GAAP) for federal agencies.
     Most of DON’s legacy systems were designed to record information on a budgetary basis, and do not
     track intragovernmental transactions by customer at the transaction level. Considering these systems
     limitations, the DON GF is unable to accurately compare its intragovernmental costs and revenues with the
     corresponding balances of its intragovernmental trading partners. Therefore, DON GF buyer-side accounts
     payable and expense balances were adjusted to match seller-side accounts receivable and revenue balances.
     This is accomplished by reclassifying amounts between federal and public cost categories, and accruing
     additional costs when necessary.

     The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal
     Government supported by appropriations or other means. The intent of the SNC is to provide gross and net
     cost information related to the amount of output or outcome for a given program or organization administered
     by a responsible reporting entity. The DON’s current processes and systems do not capture and report
     accumulated costs for major programs based upon the performance measures as required by the Government
     Performance and Results Act. The DON is in the process of reviewing available data and developing a cost
     reporting methodology as required by the Statement of Federal Financial Accounting Standards (SFFAS)
     No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government.”

     The DON’s accounting systems do not capture information relative to Heritage Assets separately and
     distinctly from normal operations.
Note 19.	 Disclosures Related to the Statement of
		        Changes in Net Position
Appropriations Received on the Statement of Changes in Net Position (SCNP) does not agree with
Appropriations Received on the Statement of Budgetary Resources (SBR) due to differences between
proprietary and budgetary accounting concepts and reporting requirements. The difference of $24.8 million
is due to Trust Funds and Special Receipt Accounts included in the Appropriations Received line of the SBR.
Refer to Note 20 for additional details.

In the SCNP, all offsetting balances (i.e. transfers-in and transfers-out, revenues, and expenses) for
intradepartment activity between earmarked and other (nonearmarked) funds are reported on the same
lines. This results in an eliminations column, which appears to contain no balances. In reality, the column
contains all appropriate elimination entries, but all net to zero within each respective line except for
intraentity imputed financing costs.

Description of Other Lines on the SCNP
Other Financing Sources – Other (Line 5.D) represents net gains and losses recorded in relation to the
capitalization of assets, such as Real Property, Construction in Progress, Operating Materiel and Supplies,
and Military Equipment.

Other Adjustments (Line 13.C) represents reductions to budget authority and rescissions in accordance with
Public Law.


Note 20.	 Disclosures Related to the Statement of
		        Budgetary Resources
As of September 30                                            2008                           2007
(Amounts in thousands)

1. Net Amount of Budgetary Resources
   Obligated for Undelivered Orders at the End
   of the Period                                   $                 97,204,927   $                88,903,894

2. Available Borrowing and Contract Authority
   at the End of the Period                                                   0                                 0


Apportionment Categories for Obligations Incurred.
On the Statement of Budgetary Resources (SBR): Obligations Incurred includes $179.4 billion of Direct
Program Obligations and $8.4 billion of Reimbursable Program Obligations.

On the Report on Budget Execution (SF-133):

      n	   Direct Obligations, Category A, amounts apportioned quarterly, are $99.7 billion.

      n	   Direct Obligations, Category B, amounts apportioned on a basis other than quarterly, are
           $79.0 billion.

                                                          Department of the Navy 2008 Annual Financial Report       83
84                                                                                                   General Fund

           n	   Total Direct Obligations are therefore $178.7 billion.

           n	   The $693.5 million difference in direct obligations between the SBR and SF-133 is due to
                adjustments on the SBR to recognize fringe benefits, reclassify reimbursable obligations as noted
                below, and recognize other adjustments not captured in the field accounting systems.

           n	   Category B Reimbursable Obligations are $8.5 billion.

           n	   The $51.1 million difference in reimbursable obligations between the SBR and SF-133 results
                from a reclassification adjustment to record trading partner data.

     Other Disclosures.
     The SBR includes intraentity transactions because the statements are presented as combined.

     As noted above, in terms of obligations, differences exist between the SF-133 and the SBR for a number of
     reasons; including accruals recorded for fringe benefits, liabilities recorded for the Judgment Fund, and
     accruals recorded for trading partner advances and liabilities.

     Appropriations Received on the Statement of Changes in Net Position (SCNP) does not agree with
     Appropriations Received on the SBR due to differences between proprietary and budgetary accounting
     concepts and reporting requirements. The difference of $24.8 million is due to the values for Trust Funds
     and Special Receipt Accounts not being included in the Appropriations Received line of the SCNP.

     Legal limitations and restrictions affect the use of the unobligated balance of budget authority based upon
     program and fiscal year in the applicable appropriation language or in the alternative provisions section at
     the end of the appropriations act.

     Permanent, Indefinite Appropriations.
     The National Defense Sealift Fund (NDSF) is operated under the authority of 10 U.S. Code 2218, which
     provides for the construction (including design of vessels), purchase, alteration, and conversion of
     Department of Defense (DoD) sealift vessels; operation, maintenance, and lease or charter of DoD vessels for
     national defense purposes; installation and maintenance of defense features for national defense purposes
     on privately owned and operated vessels that are constructed in the United States and documented under
     the laws of the United States; research and development relating to national defense sealift; and expenses
     for maintaining the National Defense Reserve Fleet, including the acquisition, alteration or conversion of
     vessels. For FY 2008, no transfers to or from NDSF occurred.

     The Environmental Restoration, Navy (ER, N) appropriation is a transfer account that funds environmental
     restoration, reduction, and recycling of hazardous waste, removal of unsafe buildings and debris, and
     similar purposes. Funds remain available until transferred and remain available for the same purpose and
     same time period as the appropriations to which transferred. For FY 2008, four transfers from ER, N for
     $312.6 million to the Operations and Maintenance, Navy appropriation was recorded; no transfers to ER, N
     occurred.
Note 21.	 Reconciliation of Net Cost of Operations to
		        Budget
As of September 30                                                      2008                2007
(Amounts in thousands)


Resources Used to Finance Activities:
Budgetary Resources Obligated:
1. Obligations incurred                                           $   187,831,460     $   171,048,537
2. Less: Spending authority from offsetting                           (29,222,776)        (24,573,990)
   collections and recoveries (-)
3. Obligations net of offsetting collections                      $    158,608,684    $    146,474,547
    and recoveries
4. Less: Offsetting receipts (-)                                            98,060            (270,572)
5. Net obligations                                                $    158,706,744    $    146,203,975
Other Resources:
6. Donations and forfeitures of property                                         0                   0
7. Transfers in/out without reimbursement (+/-)                            348,312              91,282
8. Imputed financing from costs absorbed by others                         678,845             730,190
9. Other (+/-)                                                           2,400,715           4,896,617
10. Net other resources used to finance activities                $      3,427,872    $      5,718,089
11. Total resources used to finance activities                    $    162,134,616    $    151,922,064
Resources Used to Finance Items not Part of the Net Cost of
Operations:
12. Change in budgetary resources obligated for
    goods, services and benefits ordered but not yet
    provided:
    12a. Undelivered Orders (-)                                   $     (8,299,836)   $     (5,855,322)
    12b. Unfilled Customer Orders                                           741,410              57,810
13. Resources that fund expenses recognized in prior                      (750,198)         (4,161,568)
     Periods (-)
14. Budgetary offsetting collections and receipts that                     (98,060)            270,572
     do not affect Net Cost of Operations
15. Resources that finance the acquisition of assets (-)              (27,771,911)          (9,847,856)
16. Other resources or adjustments to net obligated
     resources that do not affect Net Cost of
     Operations:
     16a. Less: Trust or Special Fund Receipts                                    0                      0
            Related to exchange in the Entity’s Budget (-)
     16b. Other (+/-)                                                   (2,749,027)         (4,987,899)
17. Total resources used to finance items not part                $   (38,927,622)    $   (24,524,263)
     of the Net Cost of Operations
18. Total resources used to finance the Net Cost of               $    123,206,994    $    127,397,801
     Operations




                                                   Department of the Navy 2008 Annual Financial Report       85
86                                                                                                         General Fund

      As of September 30                                                                 2008               2007
      (Amounts in thousands)

      Components of the Net Cost of Operations that will
      not Require or Generate Resources in the Current Period:

      Components Requiring or Generating Resources in Future Period:
      19. Increase in annual leave liability                                      $        163,468   $      1,808,214
      20. Increase in environmental and disposal liability                                  37,808          1,522,737
      21. Upward/Downward reestimates of credit subsidy                                          0                  0
          expense (+/-)
      22. Increase in exchange revenue receivable from                                           0                  0
          the public (-)
      23. Other (+/-)                                                                    1,952,276          3,727,419
      24. Total components of Net Cost of Operations that                         $      2,153,552   $      7,058,370
          will Require or Generate Resources in future
          periods

      Components not Requiring or Generating Resources:
      25. Depreciation and amortization                                           $     11,958,197   $      8,560,724
      26. Revaluation of assets or liabilities (+/-)                                     (519,521)             36,616
      27. Other (+/-)
          27a. Trust Fund Exchange Revenue                                                       0                  0
          27b. Cost of Goods Sold                                                                0                  0
          27c. Operating Material and Supplies Used                                      3,098,196          4,665,050
          27d. Other                                                                         7,939             47,344
      28. Total Components of Net Cost of Operations that                         $     14,544,811   $     13,309,734
          will not Require or Generate Resources

      29. Total components of Net Cost of Operations                              $     16,698,363   $     20,368,104
          that will not Require or Generate Resources in
          the current period

      30. Net Cost of Operations                                                  $   139,905,357    $   147,765,905



     The Reconciliation of Net Cost of Operations to Budget is designed to provide information about the total
     resources used by an entity, to explain how those resources were used to finance orders for goods and
     services not yet delivered, to acquire assets and liabilities, and to fund the entity’s net cost of operations. It
     is designed to report the differences and facilitate the reconciliation of accrual based amounts used in the
     Statement of Net Cost (SNC) and obligation-based amounts used in the Statement of Budgetary Resources.
     The computations and presentation of items in the Reconciliation of Net Cost of Operations to Budget
     demonstrate that the budgetary and proprietary information in an entity’s financial management system
     agrees.

     Due to DON financial system limitations, budgetary data is not in agreement with proprietary expenses
     and assets capitalized. Differences between budgetary and proprietary data are a previously identified
     deficiency. This causes a difference in net cost between the SNC and the Reconciliation of Net Cost of
     Operations to Budget that requires an adjustment to the Reconciliation of Net Cost of Operations to Budget.
     For 4th Quarter, FY 2008, an adjustment of $1.3 thousand was made to Resources that Finance the Acquisition
     of Assets so that proprietary accounts reconcile with the budgetary accounts.
The Reconciliation of Net Cost of Operations to Budget is presented as a consolidated statement. However,
the following lines are presented as combined instead of consolidated due to interagency budgetary
transactions not being eliminated:

      n	   Obligations Incurred

      n	   Less: Spending Authority from Offsetting Collections and Recoveries

      n	   Obligations Net of Offsetting Collections and Recoveries

      n	   Less: Offsetting Receipts

      n	   Net Obligations

      n	   Undelivered Orders

      n	   Unfilled Customer Orders

Description of Other Lines.
Resources Used to Finance Activities – Budgetary Resources Obligated –
The balance of $2.4 billion represents net gains and losses recorded in relation to the capitalization of
assets such as Real Property, Construction in Progress, Operating Materiel and Supplies, and Military
Equipment.

Resources Used to Finance Items not Part of the Net Cost of Operations –
The balance of $2.8 billion reflects net gains and losses recorded in relation to the net change of the value of
assets such as Military Construction, Ammunition, Real Property, and Shipbuilding and Conversion.

Components Requiring or Generating Resources in Future Periods –
The balance of $2.0 billion consists primarily of accrued expenses for contingent legal liabilities.

Components not Requiring or Generating Resources –
The balance of $7.9 million consists primarily of bad debt expense and expenses not requiring budgetary
resources.


Note 22.	 Disclosures Related to Incidental Custodial
		        Collections
Not applicable.




                                                             Department of the Navy 2008 Annual Financial Report   87
88                                                                                                                              General Fund

     Note 23.	 Earmarked Funds
                                                                                          2008
     BALANCE SHEET
     As of September 30                        Military         Medicare Eligible
                                                                                     Other Earmarked
                                              Retirement       Retiree Health Care                           Eliminations         Total
     (Amounts in thousands)                                                               Funds
                                                Fund                  Fund


     ASSETS
     Fund balance with Treasury               $            0 $                   0 $          19,512 $                      0 $      19,512
     Investments                                           0                     0            10,356                        0        10,356
     Accounts and Interest Receivable                      0                     0                     0                    0               0
     Other Assets                                          0                     0                 23                       0              23
     Total Assets                             $            0 $                   0 $          29,891 $                      0 $      29,891
     LIABILITIES and NET POSITION
     Military Retirement Benefits and Other
     Federal Employment Benefits              $            0 $                   0 $                   0 $                  0 $             0
     Other Liabilities                                     0                     0             5,661                        0         5,661
     Total Liabilities                        $            0 $                   0 $           5,661 $                      0 $       5,661


     Unexpended Appropriations                             0                     0                     0                    0               0
     Cumulative Results of Operations                      0                     0            24,230                        0        24,230


     Total Liabilities and Net Position       $            0 $                   0 $          29,891 $                      0 $      29,891


     STATEMENT OF NET COST
     For the year ended September 30

     Program Costs                            $            0 $                   0 $          24,863 $                      0 $      24,863
     Less Earned Revenue                                   0                     0                 0                        0             0
     Net Program Costs                        $            0 $                   0 $          24,863 $                      0 $      24,863
     Less Earned Revenues Not Attributable
     to Programs                                           0                     0                 0                        0             0
     Net Cost of Operations                   $            0 $                   0 $          24,863 $                      0 $      24,863


                                                                                          2008
     STATEMENT OF CHANGES IN NET
     POSITION                                  Military         Medicare Eligible
                                                                                     Other Earmarked
     For the year ended September 30          Retirement       Retiree Health Care
                                                                                          Funds
                                                                                                             Eliminations         Total
                                                Fund                  Fund



     Net Position Beginning of the Period     $            0 $                   0 $          24,258 $                      0 $      24,258
     Net Cost of Operations                                0                     0            24,863                        0        24,863
     Budgetary Financing Sources                           0                     0            24,837                        0        24,837
     Other Financing Sources                               0                     0                (2)                       0              (2)
     Change in Net Position                   $            0 $                   0 $             (28) $                     0 $           (28)
     Net Position End of Period               $            0 $                   0 $          24,230 $                      0 $      24,230
                                                                                2007

BALANCE SHEET                                         Medicare Eligible       Other
                                          Military
As of September 30                   Retirement Fund
                                                     Retiree Health Care    Earmarked            Eliminations           Total
(Amounts in thousands)                                      Fund              Funds


ASSETS
Fund balance with Treasury            $            0 $                0 $        15,568 $                       0   $           15,568
Investments                                        0                  0           9,756                         0                9,756
Accounts and Interest Receivable                   0                  0                  0                      0                   0
Other Assets                                       0                  0                 22                      0                  22
Total Assets                          $            0 $                0 $        25,346 $                       0   $           25,346
LIABILITIES and NET POSITION
Military Retirement Benefits and
Other Federal Employment Benefits $                0   $              0 $               0 $ 0                       $               0
Other Liabilities                                  0                  0           1,088          0                               1,088

Total Liabilities                     $            0   $              0 $         1,088 $ 0                         $            1,088


Unexpended Appropriations                          0                  0                 0        0                                  0
Cumulative Results of Operations                   0                  0          24,258          0                              24,258


Total Liabilities and Net Position    $            0   $              0 $        25,346 $ 0                         $           25,346


STATEMENT OF NET COST
For the year ended September 30

Program Costs                         $            0   $              0 $        18,958 $ 0                         $           18,958
Less Earned Revenue                                0                  0                 0        0                                  0
Net Program Costs                     $            0   $              0 $        18,958 $ 0                         $           18,958
Less Earned Revenues Not
Attributable to Programs                           0                  0               0   0                                          0
Net Cost of Operations                $            0 $                0 $        18,958 $ 0                         $           18,958


                                                                                2007
STATEMENT OF CHANGES IN
                                                      Medicare Eligible
NET POSITION                              Military
                                                     Retiree Health Care
                                                                         Other Earmarked
                                                                                                 Eliminations           Total
For the year ended September 30      Retirement Fund                          Funds
                                                            Fund

Net Position Beginning of the
Period                                $            0   $              0 $        20,393      $                  0   $           20,393


Net Cost of Operations                             0                  0          18,958                         0               18,958
Budgetary Financing Sources                        0                  0          22,823                         0               22,823
Other Financing Sources                            0                  0                  0                      0                    0
Change in Net Position                $            0   $              0 $         3,865      $                  0   $            3,865


Net Position End of Period            $            0   $              0 $        24,258      $                  0   $           24,258




                                                                    Department of the Navy 2008 Annual Financial Report                  89
90                                                                                                      General Fund

     Earmarked funds are financed by specifically identified revenues and are required by statute to be used
     for designated activities or purposes. The Department of the Navy (DON) has seven earmarked funds.
     Four are categorized as Special Funds and three are categorized as Trust Funds. A list of these earmarked
     funds and a brief description of each follows below. There have been no changes in legislation during or
     subsequent to the reporting period that significantly changes the purpose of any of the seven funds or that
     redirects a material portion of the accumulated balances of any of the seven funds. Generally, revenues for
     the DON’s earmarked funds are inflows of resources to the Government.

     Special Earmarked Funds.
     Wildlife Conservation, Military Reservations, Navy –
     This fund, authorized by 16 United States Code 670b, provides for the development and conservation of
     fish and wildlife and recreational facilities on military installations. Proceeds from the sale of fishing and
     hunting permits are used for these programs at Navy and Marine Corps installations charging such user
     fees. These programs are carried out through cooperative plans agreed upon by the local representatives of
     the Secretary of Defense, the Secretary of the Interior, and the appropriate agency of the State in which the
     installation is located.

     Kaho’olawe Island Conveyance, Remediation and Environmental Restoration Fund, Navy –
     This fund, authorized by 107 Statute 1483, was established to recognize and fulfill the commitments made
     on behalf of the United States to the people of Hawaii and to return to the State of Hawaii the Island of
     Kaho’olawe. Congress has found it to be in the national interest and an essential element in the Federal
     Government’s relationship with the State of Hawaii the conveyance, clearance, or removal of unexploded
     ordnance, environmental restoration, control of access to the Island and future use of the Island be undertaken
     in a manner consistent with the enhancement of that relationship, the Department of Defense’s military
     mission, the federal interest, and applicable provisions of law. This fund is financed by congressional
     appropriations.

     Rossmoor Liquidating Trust Settlement Account –
     The Rossmoor Liquidating Trust account was established by Section 2208 of Public Law 104-106; the National
     Defense Authorization Act of 1996. Per the statute, monies awarded the United States when litigation is
     settled in favor of the Rossmoor Liquidating Trust is deposited into this account. The monies are made
     available to DON solely for the acquisition or construction of military family housing in, or in the vicinity
     of San Diego, California.

     Ford Island Improvement Account –
     The Ford Island Improvement fund is authorized by 10 United States Code 2814 and was established to
     carry out improvements to property and facilities that will deliver overall benefits to DON at the Pearl
     Harbor Naval Complex at Ford Island, Hawaii. Ford Island is a central feature in the Pearl Harbor National
     Historic Landmark. The Ford Island legislation allows DON to sell or lease properties in Hawaii and use
     the proceeds to develop Ford Island.

     Trust Earmarked Funds.
     DON General Gift Fund –
     This trust fund is authorized by 10 United States Code 2601. Under the provisions of this statute, the
     Secretary of the Navy may accept, hold, administer, and spend any gift, devise, or bequest of real or personal
     property, made on the condition that they be used for the benefit, or in connection with the establishment,
operation, or maintenance of a school, hospital, library, museum, cemetery, or other institution under the
jurisdiction of the DON.

Ships Stores Profit, Navy –
This trust fund is authorized by 10 United States Code 7220. Deposits to this fund are derived from profits
realized through the operation of ships’ stores and from gifts accepted for providing recreation, amusement,
and contentment for enlisted members of the Navy and Marine Corps.

U.S. Naval Academy General Gift Fund –
This trust fund is authorized by 10 United States Code 6973. Under the provisions of this statute, the Secretary
of the Navy may accept, hold, administer, and spend any gift, devise, or bequest of personal property, made
on the condition that it be used for the benefit, or in connection with the United States Naval Academy, or
the Naval Academy Museum, its collections, or its services.


Note 24.	 Other Disclosures
                                                                                 2008
As of September 30
                                                                             Asset Category
                                                         Land and
                                                                          Equipment           Other             Total
                                                         Buildings
(Amounts in thousands)

1. ENTITY AS LESSEE-Operating Leases
   Future Payments Due
   Fiscal Year
    2009                                                     46,189                   0               941          47,130
    2010                                                     46,750                   0                89          46,839
    2011                                                     47,811                   0                91          47,902
    2012                                                     48,897                   0                94          48,991
    2013                                                     50,008                   0                96          50,104
    After 5 Years                                            51,144                   0                98          51,242

   Total Future Lease Payments Due                   $      290,799   $               0   $      1,409      $     292,208




Note 25.	 Restatements
For FY 2008, the Department of the Navy General Fund does not have any restatements.




                                                               Department of the Navy 2008 Annual Financial Report          91
92   General Fund
         General Fund Required Supplementary Stewardship Information




           2008
           2008
General Fund Required Supplementary Stewardship
                  Information




           2008
                                          Department of the Navy 2008 Annual Financial Report   93
94                                                                                                          General Fund

                                      Investments in Research and Development
                                    Yearly Investment in Research and Development
                                            For Fiscal Years 2004 through 2008
                                                       ($ in Millions)

      Categories                                                FY 08      FY 07      FY 06      FY 05         FY 04
      Basic Research                                               $ 452      $ 448      $ 449      $ 437         $ 431
      Applied Research                                              748        781        739        692           686
      Development
          Advanced Technology Development                           752        801        912        951           967
          Advanced Component Development and Prototypes            3,329      3,229      3,223      3,030         2,361
          System Development and Demonstration                     8,141      8,731      7,819      7,094         6,115
          Research, Development, Test, and Evaluation
          Management Support                                       1,112      1,034      1,022       955           906
          Operational Systems Development                          3,943      3,810      3,399      3,775         1,820
      Totals                                                    $ 18,477   $ 18,834   $ 17,563   $ 16,934      $ 13,286


     Narrative Statement:
     Investments in Research and Development
     Investment values are based on Research and Development (R&D) outlays (expenditures). Outlays are used
     because current Department of the Navy (DON) systems are unable to fully capture and summarize costs in
     accordance with standards promulgated by the Federal Accounting Standards Advisory Board.

     Research and Development programs are classified as Basic Research, Applied Research, and Development.
     The definition of each R&D category and subcategory are explained below.

     A. Basic Research
     Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of
     phenomena and of observable facts without specific applications, processes, or products in mind. Basic
     Research involves the gathering of a fuller knowledge or understanding of the subject under study. Major
     outputs are scientific studies and research papers.

     The following are two representative program examples for the Basic Research category.

     2008 Chief of Naval Research Challenge Draws the Best and Brightest in Science and Technology
     The annual Chief of Naval Research (CNR) Challenge offers a monetary reward to participants who submit
     the best science and technology ideas that could significantly contribute to future military force capabilities.
     The 2008 CNR Challenge required participants to demonstrate potential and relevance to one of six themes:
     Fighting at Hypervelocity and Light Speed; Next Generation Hull, Propulsion and Power; Dominating the
     Electromagnetic Spectrum; Dominating the Battle in Littorals; Out-Thinking and Out-Adapting the Enemy;
     and Adaptable Autonomous Systems. The Office of Naval Research (ONR) selected 12 finalists out of more
     than 200 participants who submitted white papers. The large quantity and high caliber of ideas received for
     the 2008 CNR Challenge emphasize how ONR is perceived as a leader in science and technology.
Naval Research Laboratory to Design Telescope for Peering into Dark Ages
A team of scientists and engineers led by the Naval Research Laboratory (NRL) will study how to design
a telescope based on the far side of the Moon for peering into the first 100 million years of the Universe’s
existence. This telescope concept, known as the Dark Ages Lunar Interferometer (DALI), is part of a series
of studies sponsored by the National Aeronautics and Space Administration that focus on next-generation
space missions for astronomy. The Dark Ages refer to a time in the Universe’s history in which no stars
existed.

This telescope concept involves using signals from hydrogen atoms, which are imperceptible to the human
eye. Hydrogen is the most abundant element in the Universe and the raw material from which stars,
planets, and people are formed. If these first signals from hydrogen atoms in the Dark Ages can be detected,
astronomers can essentially probe how the first stars, the first galaxies, and ultimately the modern Universe
evolved.

With no atmosphere and the Earth as a shield, the far side of the Moon presents a nearly ideal environment
for a sensitive Dark Ages telescope. In NRL’s DALI concept, scientists and engineers will investigate
novel antenna constructions, methods to deploy the antennas, electronics that can survive the harsh lunar
environment, and related technology in preparation for developing a roadmap for research and development
of a lunar telescope over the next decade.

B. Applied Research
Applied Research is the systematic study to gain knowledge or understanding necessary for determining
the means by which a recognized and specific need may be met. It is the practical application of such
knowledge or understanding for the purpose of meeting the recognized need. This research points toward
specific military needs with a view toward developing and evaluating the feasibility and practicability of
proposed solutions and determining their parameters. Major outputs are scientific studies, investigations,
and research papers, hardware components, software codes, and limited construction of, or part of, a weapon
system to include nonsystem specific development efforts.

The following are two representative program examples for the Applied Research category.

Transformable Craft to be Developed
The U.S. Navy plans to have a Transformable Craft (T-Craft) developed that will be capable of ferrying
heavy tanks from ships at sea, through the surf, and onto beachheads around the world. The T-Craft is part
of the Sea Base Connector Transformable-Craft program. This program is an integral part of the military’s
“sea basing” concept, in which floating bases fill in where land bases are unfeasible. This allows U.S. forces
to reduce reliance on foreign ports.

ONR has developed design requirements for the T-Craft. It must travel at 40 knots, carry at least six tanks,
and be able to survive 57-knot winds and 60-foot waves. It must mitigate wave motion to allow for the
transfer of vehicles from one ship to the other. It must also allow for the rapid transfer of military equipment
ashore.

Infrared Free Electron Laser to be Developed
ONR has long been interested in the potential of directed energy weapons for shipboard defense at the
speed of light. ONR has funded development of a laser that can operate in a maritime environment and

                                                             Department of the Navy 2008 Annual Financial Report   95
96                                                                                                     General Fund

     be consistent with the Navy’s planned all-electric ship. One promising technology, the high average power
     infrared free electron laser (FEL), provides intense beams of laser light that can be tuned to atmosphere-
     penetrating wavelengths.

     ONR has sponsored FEL research at several national laboratories and universities. A laser housed at a
     national laboratory delivered 10 kilowatts of infrared laser light, making it the most powerful tunable laser
     in the world. This beam power continues to increase as further development work is done. The use of
     a superconducting radio frequency accelerator and an energy-recovering electron recirculator provide
     significant savings in energy consumption and operating costs.

     ONR will sponsor further studies on topics, including laser materials damage and atmospheric propagation
     to assess the potential of new laser-based shipboard defense strategies. Free electron lasers show promise for
     a wide array of applications in defense and manufacturing, and they support advanced studies of chemistry,
     physics, biology, and medical science.

     The U.S. Navy is also interested in the ultraviolet and terahertz light that the FEL can produce at world-
     record powers. The Navy plans to leverage its laboratory partnerships and support of the FEL, scaling to
     the megawatt power level needed for speed-of-light shipboard defense.

     C. Development
     Development takes what has been discovered or learned from basic and applied research and uses it to
     establish technological feasibility, assessment of operability, and production capability. Development is
     comprised of five stages, as defined below.

           1. 	 Advanced Technology Development is the systematic use of the knowledge or understanding
                gained from research directed toward proof of technological feasibility and assessment of
                operational and production rather than the development of hardware for service use. It employs
                demonstration activities intended to prove or test a technology or method.

           2. 	 Advanced Component Development and Prototypes evaluates integrated technologies in
                as realistic an operating environment as possible to assess the performance or cost reduction
                potential of advanced technology. Programs in this phase are generally system specific. Major
                outputs of Advanced Component Development and Prototypes are hardware and software
                components or complete weapon systems ready for operational and developmental testing and
                field use.

           3. 	 System Development and Demonstration concludes the program or project and prepares it for
                production. It consists primarily of preproduction efforts, such as logistics and repair studies.
                Major outputs are weapons systems finalized for complete operational and developmental
                testing.

           4. 	 Research, Development, Test, and Evaluation Management Support is support for installations
                and operations for general research and development use. This category includes costs associated
                with test ranges, military construction maintenance support for laboratories, operation and
                maintenance of test aircraft and ships, and studies and analyses in support of the Research and
                Development program.

           5. 	 Operational Systems Development is concerned with development projects in support of
           programs or upgrades that are still in engineering and manufacturing development. These
           projects have received approval for production, for which production funds have been budgeted
           in subsequent fiscal years.

The following are two representative program examples each for the DON and United States Marine Corps
for the Development category.

RATTLRS Technology Creates New Standard for Time-Critical Strike Weaponry
Meeting the needs of the future joint warfighter demands collaborative efforts. The Revolutionary Approach
to Time-critical Long Range Strike (RATTLRS) technology demonstration program, led by the Office of Naval
Research and supported by the U.S. Air Force, National Aeronautics and Space Administration, and the
Defense Advanced Research Projects Agency, will create a new standard for time-critical strike weaponry.

RATTLRS, using the unique capability of turbine power systems, can be launched from Navy and Air
Force platforms, including surface ships, submarines, and aircraft, at subsonic speeds, without a booster,
and accelerate on its own accord to cruise speeds in excess of Mach 3. RATTLRS will also combine the
latest technological advances in accuracy and targeting with high performance non-afterburning turbine
technology found in the YJ102R. This turbine offers supersonic speed, extended range, high fuel efficiency,
and the ability to trade speed for increased range.

With its speed, accuracy, range, and responsiveness, RATTLRS will be able to address a wide variety of target
types, including mobile, time-critical, hard, or buried targets. RATTLRS will give tomorrow’s warfighters a
leap ahead in capability and greater flexibility without increased logistical burden.

Electromagnetic Rail Gun Will Provide High-Volume, Precise, Time-Critical Fires
The Electromagnetic Rail Gun (EMRG) will provide high-volume, precise, and time-critical fires in all-
weather conditions. The goal of the Office of Naval Research EMRG project is to develop and smoothly
transition a prototype system that can deliver fires with high accuracy and lethality at distances greater than
200 nautical miles. The rounds will contain little or no high explosive material. Instead, they will inflict
damage through high-velocity impact. With no explosives or propellants, the logistics of supporting the
weapon will be simplified and crew and safety will be enhanced.

The EMRG barrel contains a pair of metal conducting rails embedded in a structure made of composite
materials. Very strong opposing magnetic fields are generated within the launcher by a high current pulse
that flows through the rails and a bridging armature positioned behind the projectile when the rail gun is
fired. These fields create a propulsive force that accelerates the armature and projectile out of the barrel. The
Global Positioning System (GPS)-guided projectile will exit the launcher at approximately 2500 meters per
second. On the way to its target, the projectile will leave the Earth’s atmosphere, making it less susceptible
to jamming or interception, and minimizing interference with friendly aircraft upon re-entry into airspace.

Key tasks of the EMRG project are the development of a launcher, rail gun modeling and simulation toolset,
GPS-guided projectile, pulse power system, and integration into a yet-to-be-determined ship class. A 100-
shot bore demonstration is planned for 2011 and a long-range integrated system demonstration is planned for
2015. A fully functioning weapon system aboard a deployable ship is planned in the 2020-2025 timeframe.



                                                             Department of the Navy 2008 Annual Financial Report    97
98                                                                                                    General Fund

     Marine Corps Will Field Next Generation of Assault Vehicles
     The Expeditionary Fighting Vehicle (EFV) Program will field a successor to the Marine Corps’ current
     amphibious vehicle, the Assault Amphibious Vehicle Model 7A1. The EFV will provide the principal means
     of tactical surface mobility for the Marine Air Group Task Force during both ship-to-objective maneuvers
     and sustained combat operations ashore.

     The EFV program is an Acquisition Category-1D program managed by the Marine Corps. The EFV is the
     next generation of Marine Corps Assault Vehicles being developed to satisfy the requirements of the 21st
     Century Marine War Fighters. Along with the Landing Craft Air Cushion and the MV-22 Osprey, the EFV
     will provide the Marine Corps with the tactical mobility assets required within the Expeditionary Maneuver
     Warfare capstone. Acquisition of the EFV is critical to the Marine Corps.

     During FY 2008, the EFV program continued engineering and logistics efforts to support design development,
     manufacturing planning, and design enhancements of both the EFV Command and Personnel variants. The
     program continued developmental and reliability test support as well as the design, integration and testing
     of vehicle modifications that will support the Milestone C Operational Assessment. Developmental Testing
     and Reliability/Availability/Maintainability (RAM) testing were conducted during FY 2008 that included a
     water gunnery demo, direction stability demo, amphibious launch and recovery operations with USS New
     Orleans (PLD-18), and system level shock testing. The Design for Reliability effort continued during this
     period and followed the established systems engineering processes. Test spares were procured and the
     System Development Demonstration (SDD) prototypes began to be manufactured.

     The SDD-2 contract was awarded during FY 2008. This follow-on SDD Phase will include continued design,
     development, and reliability upgrades; increased RAM testing; modification of existing SDD prototypes;
     and manufacture and testing of up to seven additional SDD prototype vehicles.

     Joint Light Tactical Vehicle Will Be Developed and Tested for the Army and Marine Corps
     The Joint Light Tactical Vehicle (JLTV) capabilities represent a shift to adapt from a threat-based, Cold War
     garrison force focused on containment to a capabilities-based expeditionary force focused on flexibility,
     survivability, force protection, responsiveness, and agility. The JLTV Family of Vehicles must be capable of
     operating across a broad spectrum of terrain and weather conditions. The Military Services and the U.S.
     Special Operations Command require enhanced capabilities, greater than those provided by the existing
     High Mobility Multipurpose Wheeled Vehicle (HMMWV) to support the Joint Functional Concepts of
     Battlespace Awareness Force Application, and Focused Logistics. To that end, the approved JLTV Initial
     Capabilities Document, and the JLTV Capability Development Document identifies required capabilities
     for the next generation of JLTVs needed to support Joint Forces across the full Range of Military Operations
     and provide a vital force enabler, multiplier and extender. The initial production of JLTVs will provide
     the Marine Air Group Task Force commander a family of tactical wheeled vehicles capable of providing
     combat forces protected, sustained, and netted mobility in irregular warfare operations and enhancing its
     contribution to the integrated Joint Task Force.

     NON-FEDERAL PHYSICAL PROPERTY
     The DON does not fund this type of Activity.
           General Fund Required Supplementary Information




          2008
          2008
General Fund Required Supplementary Information




          2008
                                      Department of the Navy 2008 Annual Financial Report   99
100                                                                                                                                                           General Fund

                                                                  Department of the Navy
                                                          General Property, Plant, and Equipment
                                                           Real Property Deferred Maintenance
                                                          For Fiscal Year Ended September 30, 2008
                                                                       ($ in Thousands)

                                                                         1. Plant Replacement                2. Required Work
       Property Type                                                             Value                    (Deferred Maintenance)                     3. Percentage
       Category 1: Enduring Facilities
              Navy                                                                     $ 104,392,918                       $ 23,507,822                                22.5%
              Marine Corps                                                               $38,040,907                         $ 1,070,560                                2.8%
       Category 2: Excess Facilities or Planned for Replacement
              Navy                                                                        $ 1,679,847                          $ 549,494                               32.7%
              Marine Corps                                                                $1,050,183                                    $0                              0.0%
       Category 3: Heritage Assets
              Navy                                                                      $ 23,958,467                         $ 5,237,923                               21.9%
              Marine Corps                                                                $3,133,442                             $88,182                                2.8%

      NOTE: In the table above, Navy real property deferred maintenance data represent both Department of the Navy (DON) General Fund and Navy Working Capital Fund (NWCF).
      Similarly, Marine Corps real property deferred maintenance data represent both the United States Marine Corps (USMC) General Fund and NWCF-Marine Corps.



      Narrative Statement:
               1. 	 The method used to assess facilities conditions is a facilities inspection, which categorizes
                    buildings as Adequate, Substandard or Inadequate. Those ratings are converted to Quality
                    ratings (Q-ratings) of 100%-90% Q1; 90%-80% Q2; 80%-60% Q3; and less than 60% Q4 by assessing
                    facilities that are rated as Adequate and less than 25 years old as Q1; facilities that are over 25
                    years old and rated as Adequate as Q2; facilities rated as Substandard as Q3; and Inadequate
                    facilities as Q4.

               2. 	 During Fiscal Years (FY) 2005 through 2008, the Navy transitioned to the Facility Condition
                    Assessment Program. The Navy derived its FY 2008 Q-ratings from a combination of facilities
                    inspections and building condition modeling software. Prior to FY 2008, the Navy derived its
                    Q-ratings from inspections of maintenance and repair backlog. The FY 2008 target Q-rating
                    value representing acceptable operating condition for the Navy is Q1.

               3. 	 The Department of the Navy (DON) follows the Office of the Secretary of Defense installation
                    strategic plan goal of having facilities at a Q2 level on average as an acceptable rating. This
                    represents an average level of 15% of Plant Replacement Value (PRV) as an acceptable level
                    of deferred maintenance. The table above shows that deferred maintenance for the Navy is
                    valued at 22.5%, 32.7%, and 21.9% of PRV for categories 1 through 3, respectively. The deferred
                    maintenance estimates are based on the facility Q-ratings found in the Navy’s real property
                    inventory. The PRV and deferred maintenance estimates are reported for the following
                    Maintenance Fund Sources:

                        n	      Operation and Maintenance, Navy
                        n	      Operation and Maintenance, Navy Reserve
                        n	      Research, Development, Test, and Evaluation
           n	   Other Department of Defense
           n	   Defense Logistics Agency
           n	   Navy Working Capital Fund
           n	   Nonappropriated Fund

The table above also shows that deferred maintenance for the Marine Corps is valued at 2.81% of PRV for
categories 1 and 3. The percentage for category 1 and 3 facilities is the same because we cannot separate
deferred maintenance between those categories at this time. Category 2 is zero because we do not hold
deferred maintenance backlogs on facilities to be demolished.

Description of Property Type categories:
      n	   Category 1 – Buildings, Structures, and Utilities that are enduring and required to support an
           ongoing mission, including multi-use Heritage Assets.

      n	   Category 2 – Buildings, Structures, and Utilities that are excess to requirements or planned for
           replacement or disposal, including multi-use Heritage Assets.

      n	   Category 3 – Buildings, Structures, and Utilities that are Heritage Assets.


                                Military Equipment Deferred Maintenance
                                 For Fiscal Year Ended September 30, 2008
                                              ($ in Thousands)

                       Major Category                                               Amount
                           1. Aircraft                                               $ 77,787
                           2. Automotive Equipment                                       987
                           3. Combat Vehicles                                         12,973
                           4. Construction Equipment                                   1,981
                           5. Electronics and Communications Systems                     204
                           6. Missiles                                                48,582
                           7. Ships                                                   29,878
                           8. Ordnance Weapons and Munitions                          19,545
                           9. General Purpose Equipment                                     -
                           10. All Other Items Not Identified Above                   48,557
                       Total                                                        $ 240,494


Narrative Statement:
Aircraft Deferred Maintenance
Four sub-categories comprise aircraft deferred maintenance: airframe rework and maintenance (active and
reserve), engine rework and maintenance (active and reserve), component repair, and software maintenance.
The airframe rework deferred maintenance calculation reflects unfunded requirements, which represent
aircraft that failed Aircraft Service Period Adjustment (ASPA) inspections or reached fixed Period End Date
(PED) at year-end. The engine rework deferred maintenance calculation reflects year-end actual requirements


                                                                Department of the Navy 2008 Annual Financial Report   101
102                                                                                                    General Fund

      minus actual funded units. Component repair deferred maintenance represents the difference between the
      validated requirements minus corresponding funding.

      Airframe rework and maintenance (active and reserve) is currently performed under both the Standard
      Depot Level Maintenance (SDLM) and Integrated Maintenance Concept (IMC) programs. Currently, the
      AV-8B, C-130, C-2, E-2, E-6, EA-6B, F-5, F/A-18, H-1, H-46, H-53, H-60, P-3, and S-3 aircraft programs have
      been incorporated under the IMC concept. The IMC concept uses Planned Maintenance Intervals (PMI),
      performing more frequent depot maintenance, but with smaller work packages, thereby reducing out-of-
      service time. The goal of this program is to improve readiness while reducing operating and support costs.
      The Naval Air Systems Command’s (NAVAIR) Industrial Strategy is to maintain the minimum level of
      organic capacity, consistent with force levels, that is necessary to sustain peacetime readiness and maintain
      fighting surge capability. NAVAIR works in partnership with private industry to make maximum use of
      industry’s production capabilities and for non-core related aviation depot maintenance.

      Combat Vehicles Deferred Maintenance
      The combat vehicles category refers to deferred vehicle maintenance for the active and reserve Marine Corps
      assets. The combat vehicle category consists of weapons systems such as the M1A1 Tank, the Amphibious
      Assault Vehicle, the Hercules Recovery Vehicle, and the Light Armored Vehicle. The total requirement
      is the planned quantity of combat vehicles that require depot level maintenance in a year as determined
      by program managers and the operating forces with requirements validated by a modeling process. The
      deferred maintenance is the difference between the validated requirements and funding received for that
      fiscal year.

      Missiles Deferred Maintenance
      Four categories are used to determine missile maintenance: missiles, tactical missiles, software maintenance,
      and other. Deferred maintenance is defined as the difference between the total weapon maintenance
      requirement as determined by requirements modeling processes and the weapon maintenance that is funded
      in accordance with the annual budget controls for the missile maintenance program. The maintenance
      requirements model projects the quantity of missiles and missile components per weapon system that are
      required to be maintained or reworked annually.

      Ships Deferred Maintenance
      Fleet Type Commanders provide deferred ship maintenance data. Data is collected from the Current Ships’
      Maintenance Plan (CSMP) database, which captures maintenance actions at all levels (organizational,
      intermediate, depot) for active and reserve ships. Only depot level deferred maintenance is provided in the
      calculation of ship deferred maintenance. This includes maintenance actions deferred from actual depot
      maintenance work-packages as well as maintenance deferred before inclusion in a work package due to
      fiscal, operational, or capacity constraints. Although there are some deferred maintenance actions, no ships
      fall into the category of “unacceptable operating condition.” Any ship that would be at risk of being in
      unacceptable operating condition would receive priority for maintenance funding to maintain acceptable
      operating condition.

      Ordnance Weapons and Munitions Deferred Maintenance
      Ordnance weapons and munitions are part of a broader category, Other Weapons Systems. This category
      is comprised of ordnance, end item maintenance for support equipment, camera equipment, landing aids,
      calibration equipment, air traffic control equipment, target systems, expeditionary airfield equipment,
      special weapons, target maintenance, and repair of repairable components. Three categories define ordnance
maintenance: ordnance maintenance, software maintenance, and other. Although the various programs vary
in the methodology in defining requirements, all programs define deferred maintenance as the difference
between validated requirements and funding.

Deferred Maintenance on All Other Items Not Identified Above
This category comprises deferred maintenance for software, radar equipment, arrest gear, lighting and
surfacing equipment, and EFTM (external fuel transfer module). The deferred maintenance is the difference
between the validated requirements and funding received for that fiscal year.

Software maintenance includes the operational and system test software that runs in the airborne avionics
systems (e.g., mission computer, display computer, radar) and the software that runs the ground-based
support labs used to perform software sustainment (e.g., compilers, editors, simulation, configuration
management).

                                                        Heritage Assets
                                           For Fiscal Year Ended September 30, 2008

                            (a)                   (b)           (c)            (d)             (e)         (f)         (g)
                                            Measurement       As of       Adjustments                                 As of
                      Categories             Quantity        10/01/07         (+/-)         Additions   Deletions    9/30/08
    Buildings and Structures a                    Each         3,771           34             1,797        21         5,581
    Archeological Sites                           Each        18,296            0              441        1,068      17,669
    Museum Collection Items (Fine Art)            Each        38,728         (7,647)           152        102        31,131
    Museum Collection Items (Objects)      See table, “Museum Collection Items (Objects)”

a
    See table, “Buildings & Structures.”



Narrative Statement:
The DON is required to report Heritage Assets in accordance with the following public laws and
regulations:

             n	      Antiquities Act of 1906
             n	      Historic Sites Act of 1935
             n	      USC 470 National Historic Preservation Act of 1966
             n	      National Environmental Policy Act of 1969
             n	      American Indian Religious Freedom Act of 1978
             n	      Archeological Resources Protection Act of 1979
             n	      Native American Graves Protection & Repatriation Act of 1990
             n	      Presidential Memorandum for Heads of Executive Departments and Agencies: Government to
                     Government Relations with Native American Tribal Governments Act of 1994
             n	      36 CFR 79 – Curation of Federally Owned and Administered Archeological Collections
             n	      36 CFR 60.4 – National Register of Historic Places


                                                                         Department of the Navy 2008 Annual Financial Report   103
104                                                                                                         General Fund

             n	     Federal Accounting Standards Advisory Board (FASAB) Standard No. 29, “Heritage Assets and
                    Stewardship Land”
             n	     Executive Order 13287 – Preserve America – of 2003
             n	     Executive Order 13327 – Federal Real Property Asset Management – of 2004
             n	     SECNAVINST 5755.1A – Navy Museums – of 1992

      Heritage Assets are items of historical, natural, cultural, educational, or artistic significance; or items with
      significant architectural characteristics. Heritage Assets are expected to be preserved indefinitely. Monetary
      values are not required for Heritage Asset reporting; only physical units of measure are reported.

      Process Used to Define Assets as Heritage Assets
      The processes used to define items as having heritage significance vary among categories and type of assets
      being evaluated. Subject matter experts, including historians and curators, play a significant role in the
      definition process in addition to other criteria, such as a listing in the National Register of Historic Places. In
      all cases, a myriad of federal statutes, service regulations, and other guidelines mandate heritage significance
      or provide guidance in its determination.

      Multi-Use Heritage Assets
      Per DoD FMR Volume 6B, “Form and Content of the Department of Defense Audited Financial Statements,”
      Multi-Use Heritage Assets are reported as Heritage Assets in the Required Supplementary Information and
      on the Balance Sheet as General Property, Plant and Equipment.

      Information Pertaining to the Condition of DON Heritage Assets
      The methodology used to report the condition of the heritage assets was a combination of visual assessment
      of the objects, historic value to the DON collection, and general display and storage standards for historic
      collections. The overall condition of the collection objects is good.

                                                      Buildings & Structures
                                             For Fiscal Year Ended September 30, 2008

                    (a)               (b)              (c)             (d)          (e)          (f)            (g)
                                  Measurement                      Adjustments
              Categories           Quantity       As of 10/01/07       (+/-)     Additions    Deletions    As of 9/30/08
       Buildings and Structures      Each             3,164             0          1,792          0            4,956
       Cemeteries                    Sites             62               0            0            0             62
       Monuments & Memorials         Each              519             34            5           21             537
       Museums                       Each              26               0            0            0             26
                                     Total            3,771            34          1,797         21            5,581
                                               Museum Collection Items (Objects)
                                             For Fiscal Year Ended September 30, 2008

            (a)                        (b)             (c)                  (d)                  (e)               (f)         (g)
                               Measurement                              Adjustments
       Categories               Quantity          As of 10/01/07            (+/-)             Additions      Deletions    As of 9/30/08
Archeological Artifacts             Cubic Ft         35,184               (12,500)              1,015               0        23,699
Archival                            Linear Ft        98,312               73,572                 485               12        172,357
Historic Artifacts                    Item          1,142,544             (3,074)               1,973              168      1,141,275


Description of Heritage Assets Categories:
      n	     Buildings and Structures – Includes buildings and structures that are listed on, or eligible for
             listing on, the National Register of Historic Places, including Multi-use Heritage Assets.

      n	     Archeological Sites – Sites that have been identified, evaluated, and determined to be eligible for
             listing on, or are listed on, the National Register of Historic Places.

      n	     Museum Collection Items – Items that are unique for one or more of the following reasons:
             historical or natural significance; cultural, educational, or artistic importance; or significant
             technical or architectural characteristics. Museum collection items are divided into two
             subcategories: Objects and Fine Art. Objects are current use, excess, obsolete, or condemned
             material; war trophies; personal property, such as uniforms, medals, or diaries; and military
             equipment. Fine art includes paintings, sculptures, and other three-dimensional art.

                                                         Stewardship Land
                                             For Fiscal Year Ended September 30, 2008
                                                         (Acres in Thousands)

      (a)                           (b)                          (c)                    (d)                  (e)              (f)
 Facility Code                Facility Title             As of 10/01/07              Additions            Deletions      As of 9/30/08
     9110            Government Owned Land                      2,093                    1                   82             2,012
     9111            State Owned Land                             -                      -                    -                -
     9120            Withdrawn Public Land                        -                      -                    -                -
     9130            Licensed and Permitted Land                  -                      -                    -                -
     9140            Public Land                                  -                      -                    -                -
     9210            Land Easement                                -                      -                    -                -
     9220            In-Leased Land                               -                      -                    -                -
     9230            Foreign Land                                 -                      -                    -                -
                     Totals                                     2,093                   1                    82             2,012


Narrative Statement:
Stewardship Land comprises land and land rights owned by the Federal Government but not acquired for,
or in connection with, items of General Property, Plant, and Equipment (PP&E).

The DON categorizes Stewardship Land pursuant to DoD Instruction 4165.14, Real Property Inventory and
Forecasting.

                                                                               Department of the Navy 2008 Annual Financial Report        105
106                                                                                                                                           General Fund

      Department of Defense
      Department of the Navy
      DISAGGREGATED STATEMENT OF BUDGETARY RESOURCES
      For the Years Ended September 30, 2008 and 2007
      ($ in Thousands)

                                                                                               Research,
                                                                                                                   Operation and
                                                                      Other                Development, Test                             Procurement
                                                                                                                   Maintenance
                                                                                             & Evaluation
      BUDGETARY FINANCING ACCOUNTS
      BUDGETARY RESOURCES
      Unobligated balance, brought forward, October 1             $            10,121 $              2,533,037 $           1,493,085 $         18,122,631
      Recoveries of prior year unpaid obligations                               2,366                1,527,360             4,581,342            7,890,220
      Budget authority
        Appropriation                                                         325,244               18,284,632            50,643,329           48,169,412
        Borrowing authority                                                         0                        0                     0                    0
        Contract authority                                                          0                        0                     0                    0
        Spending authority from offsetting collections
             Earned
                Collected                                                     (45,318)                287,381              4,973,184             983,442
                Change in receivables from Federal sources                       1,186                 93,076                 55,703              47,640
             Change in unfilled customer orders
                Advance received                                              57,611                    22,187               282,146                    0
                Without advance from Federal sources                               0                  (43,126)              (87,348)               41,225
             Anticipated for rest of year, without advances                        0                         0                     0                    0
             Previously unavailable                                                0                         0                     0                    0
             Expenditure transfers from trust funds                                0                         0                     0                    0
        Subtotal                                                            338,723                 18,644,150            55,867,014           49,241,719
      Nonexpenditure transfers, net, anticipated and actual               (312,578)                    629,487               497,688            1,357,328
      Temporarily not available pursuant to Public Law                             0                         0                     0                    0
      Permanently not available                                              (1,492)                 (273,627)           (1,014,001)          (1,158,550)
      Total Budgetary Resources                                   $           37,140 $              23,060,407 $          61,425,128 $         75,453,348

      Status of Budgetary Resources:
      Obligations incurred:
         Direct                                                   $            23,855 $             20,096,735 $          54,125,840 $        52,867,759
         Reimbursable                                                               0                  395,065             5,653,380           1,050,664
         Subtotal                                                              23,855               20,491,800            59,779,220          53,918,423
      Unobligated balance:
         Apportioned                                                           13,285                2,244,832               120,621          21,136,530
         Exempt from apportionment                                                  0                        0                     0                   0
         Subtotal                                                              13,285                2,244,832               120,621          21,136,530
      Unobligated balance not available                                             0                  323,775             1,525,287             398,396
      Total status of budgetary resources                         $            37,140 $             23,060,407 $          61,425,128 $        75,453,349
      Change in Obligated Balance:
      Obligated balance, net
         Unpaid obligations, brought forward, October 1                        71,882                9,332,998            21,041,317           51,054,445
         Less: Uncollected customer payments                      $             1,186 $              (340,556) $         (1,656,654) $          (181,964)
         from Federal sources, brought forward, October 1
         Total unpaid obligated balance                                         73,068               8,992,442            19,384,663           50,872,481
      Obligations incurred net (+/-)                              $             23,855 $            20,491,800 $          59,779,220 $         53,918,422
      Less: Gross outlays                                                     (19,783)            (18,872,226)          (54,666,632)         (40,152,888)
      Obligated balance transferred, net
         Actual transfers, unpaid obligations (+/-)                                 0                       0                      0                   0
         Actual transfers, uncollected customer                                     0                       0                      0                   0
          payments from Federal sources (+/-)
         Total Unpaid obligated balance transferred, net                             0                       0                     0                    0
      Less: Recoveries of prior year unpaid obligations, actual                (2,366)             (1,527,360)           (4,581,342)          (7,890,220)
      Change in uncollected customer                                           (1,186)                (49,950)                31,646             (88,865)
          payments from Federal sources (+/-)
      Obligated balance, net, end of period
         Unpaid obligations                                                    73,588                9,425,212            21,572,563          56,929,760
         Less: Uncollected customer payments (+/-)                                  0                (390,505)           (1,625,008)           (270,829)
          from Federal sources (-)
         Total, unpaid obligated balance, net, end of period                   73,588                9,034,707            19,947,555          56,658,931
      Net Outlays
      Net Outlays:
         Gross outlays                                                          19,783              18,872,226            54,666,632          40,152,888
         Less: Offsetting collections                                         (12,293)               (309,569)           (5,255,330)           (983,442)
         Less: Distributed Offsetting receipts                                  98,060                       0                     0                   0
         Net Outlays                                              $            105,550 $            18,562,657 $          49,411,302 $        39,169,446
Department of Defense
Department of the Navy
DISAGGREGATED STATEMENT OF BUDGETARY RESOURCES
For the Years Ended September 30, 2008 and 2007
($ in Thousands)

                                                                                            Military
                                                                Military Personnel        Construction/         2008 Combined         2007 Combined
                                                                                         Family Housing
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1             $               274,873 $            1,500,799 $           23,934,546 $          20,835,975
Recoveries of prior year unpaid obligations                               6,933,843                 31,459             20,966,590            16,508,300
Budget authority
  Appropriation                                                          42,393,986              2,923,626            162,740,229           150,757,067
  Borrowing authority                                                             0                      0                      0                     0
  Contract authority                                                              0                      0                      0                     0
  Spending authority from offsetting collections
       Earned
          Collected                                                         395,400                658,036              7,252,127             7,690,260
          Change in receivables from Federal sources                          2,553                 62,492                262,649               317,620
       Change in unfilled customer orders
          Advance received                                                        5                 73,988                 435,937                50,491
          Without advance from Federal sources                             (18,308)                413,030                 305,473                 7,319
       Anticipated for rest of year, without advances                             0                      0                       0                     0
       Previously unavailable                                                     0                      0                       0                     0
       Expenditure transfers from trust funds                                     0                      0                       0                     0
  Subtotal                                                               42,773,636              4,131,172            170,996,415           158,822,757
Nonexpenditure transfers, net, anticipated and actual                       355,345               (20,792)               2,506,478               144,174
Temporarily not available pursuant to Public Law                                  0                      0                       0                     0
Permanently not available                                                  (83,740)               (12,362)             (2,543,773)           (1,328,122)
Total Budgetary Resources                                   $            50,253,957 $            5,630,276 $          215,860,256 $         194,983,084

Status of Budgetary Resources:
Obligations incurred:
   Direct                                                   $            49,536,618 $            2,710,643 $          179,361,449 $         163,297,807
   Reimbursable                                                             379,201                991,701              8,470,011             7,750,730
   Subtotal                                                              49,915,819              3,702,344            187,831,460           171,048,537
Unobligated balance:
   Apportioned                                                               34,703              1,779,963             25,329,935            21,765,826
   Exempt from apportionment                                                      0                      0                      0                     0
   Subtotal                                                                  34,703              1,779,963             25,329,935            21,765,826
Unobligated balance not available                                           303,435                147,968              2,698,861             2,168,721
Total status of budgetary resources                         $            50,253,957 $            5,630,275 $          215,860,256 $         194,983,084
Change in Obligated Balance:
Obligated balance, net
   Unpaid obligations, brought forward, October 1                         1,968,411               2,722,024            86,191,077            78,088,020
   Less: Uncollected customer payments                      $              (41,814) $           (1,076,294) $         (3,296,095) $         (2,971,157)
   from Federal sources, brought forward, October 1
   Total unpaid obligated balance                                          1,926,597              1,645,730            82,894,982            75,116,863
Obligations incurred net (+/-)                              $             49,915,818 $            3,702,344 $         187,831,460 $         171,048,537
Less: Gross outlays                                                     (43,332,342)            (2,235,533)         (159,279,403)         (146,437,179)
Obligated balance transferred, net
   Actual transfers, unpaid obligations (+/-)                                     0                       0                     0                     0
   Actual transfers, uncollected customer                                         0                       0                     0                     0
    payments from Federal sources (+/-)
   Total Unpaid obligated balance transferred, net                                 0                     0                      0                     0
Less: Recoveries of prior year unpaid obligations, actual                (6,933,843)              (31,459)           (20,966,590)          (16,508,300)
Change in uncollected customer                                                15,755             (475,522)              (568,123)             (324,938)
    payments from Federal sources (+/-)
Obligated balance, net, end of period
   Unpaid obligations                                                     1,618,044               4,157,377            93,776,544            86,191,077
   Less: Uncollected customer payments (+/-)                               (26,059)             (1,551,816)           (3,864,218)           (3,296,095)
    from Federal sources (-)
   Total, unpaid obligated balance, net, end of period                    1,591,985              2,605,561             89,912,326            82,894,982
Net Outlays
Net Outlays:
   Gross outlays                                                         43,332,342              2,235,533            159,279,403           146,437,179
   Less: Offsetting collections                                           (395,405)              (732,024)             (7,688,063)           (7,740,753)
   Less: Distributed Offsetting receipts                                          0                      0                  98,060             (270,572)
   Net Outlays                                              $            42,936,937 $            1,503,509 $          151,689,400 $         138,425,854




                                                                                         Department of the Navy 2008 Annual Financial Report               107
108   General Fund
          General Fund Other Accompanying Information




        2008
        2008
General Fund Other Accompanying Information




        2008
                                   Department of the Navy 2008 Annual Financial Report   109
110                                                                                        General Fund

      Appropriations, Funds, and Accounts Included in the
      Principal Statements
      Entity Accounts
      General Funds
      17X0380 	   Coastal Defense Augmentation, Navy
      17 0703 	   Family Housing, Navy and Marine Corps
      17 0730 	   Family Housing Construction, Navy and Marine Corps
      17 0735 	   Family Housing Operation and Maintenance, Navy and Marine Corps
      17X0810 	   Environmental Restoration, Navy
      17 1000 	   Medicare Eligible Retiree Health Care Fund, Military Personnel Navy
      17 1001 	   Medicare Eligible Retiree Health Care Fund, Military Personnel Marine Corps
      17 1002 	   Medicare Eligible Retiree Health Care Fund, Reserve Personnel Navy
      17 1003 	   Medicare Eligible Retiree Health Care Fund, Reserve Personnel Marine Corps
      17 1105 	   Military Personnel, Marine Corps
      17 1106 	   Operation and Maintenance, Marine Corps
      17 1107 	   Operation and Maintenance, Marine Corps Reserve
      17 1108 	   Reserve Personnel, Marine Corps
      17 1109 	   Procurement, Marine Corps
      17 1205 	   Military Construction, Navy and Marine Corps
      17 1235 	   Military Construction, Naval Reserve
      17 1236 	   Payments to Kaho Olawe Island Conveyance, Remediation and Environmental Restoration
                  Fund, Navy
      17 1319 	   Research, Development, Test and Evaluation, Navy
      17 1405 	   Reserve Personnel, Navy
      17 1453 	   Military Personnel, Navy
      17 1506 	   Aircraft Procurement, Navy
      17 1507 	   Weapons Procurement, Navy
      17 1508 	   Procurement of Ammunition, Navy and Marine Corps
      17 1611 	   Shipbuilding and Conversion
      17 1804 	   Operation and Maintenance, Navy
      17 1806 	   Operation and Maintenance, Navy Reserve
      17 1810 	   Other Procurement, Navy

      Revolving Funds
      17X4557	    National Defense Sealift Fund, Navy

      Earmarked Trust Funds
      17X8716	    Department of the Navy General Gift Fund
      17X8723	    Ships Stores Profits, Navy
      17X8733	    United States Naval Academy General Gift Fund

      Earmarked Special Funds
      17X5095	    Wildlife Conservation, Military Reservations, Navy
      17X5185	    Kaho Olawe Island Conveyance, Remediation and Environmental Restoration Fund, Navy
      17X5429	    Rossmoor Liquidating Trust Settlement Account
      17X5562	    Ford Island Improvement Account
General Fund Non- Entity Accounts
17 1XXX	     Receipt Accounts
17 3XXX	     Receipt Accounts
17X6XXX	     Deposit Funds

Parent-Child (Allocation) Transfer Accounts
17 11 1081	 International Military Education and Training Funds, appropriated to the President
17 11X1081	 International Military Education and Training Funds, appropriated to the President
17 11 1082	 Foreign Military Financing Program, Funds appropriated to the President
17 12X1105B	 State and Private Forestry, Forest Service
17 69X8083	 Federal-Aid Highways (Liquidation of Contract Authorization), Federal Highway
              Administration




                                                        Department of the Navy 2008 Annual Financial Report   111
112   General Fund
          Navy Working Capital Fund Principal Statements




         2008
         2008
Navy Working Capital Fund Principal Statements




         2008
                                     Department of the Navy 2008 Annual Financial Report   113
114                                                                Navy Working Capital Fund




      Limitations to the Financial
      Statements
      The principal financial statements have been prepared
      to report the financial position and results of operations
      of the entity, pursuant to the requirements of 31 United
      States Code 3515 (b). While the statements have been
      prepared from the books and records of the entity
      in accordance with Generally Accepted Accounting
      Principles for Federal entities and the formats prescribed
      by the Office of Management and Budget, the statements
      are in addition to the financial reports used to monitor
      and control budgetary resources which are prepared
      from the same books and records. The statements
      should be read with the realization that they are for a
      component of the U.S. Government, a sovereign entity.
Principal Statements
The Fiscal Year 2008 Navy Working Capital Fund principal statements and related notes are presented in the
format prescribed by the Department of Defense Financial Management Regulation 7000.14, Volume 6B. The
statements and related notes summarize financial information for individual funds and accounts within the
Navy Working Capital Fund for the fiscal year ending September 30, 2008, and are presented on a comparative
basis with information previously reported for the fiscal year ending September 30, 2007.

The following statements comprise the Navy Working Capital Fund principal statements:

      n	   Consolidated Balance Sheet

      n	   Consolidated Statement of Net Cost

      n	   Consolidated Statement of Changes in Net Position

      n	   Combined Statement of Budgetary Resources


The principal statements and related notes have been prepared to report financial position pursuant to the
requirements of the Chief Financial Officers Act of 1990, as amended by the Government Management Reform
Act of 1994. The accompanying notes should be considered an integral part of the principal statements.




                                                          Department of the Navy 2008 Annual Financial Report   115
116                                                                                                      Navy Working Capital Fund



          Department of Defense
          Navy Working Capital Fund
          CONSOLIDATED BALANCE SHEET
          As of September 30, 2008 and 2007
            ($ in Thousands)


                                                                                          2008 Consolidated      2007 Consolidated
             ASSETS (Note 2)
              Intragovernmental:
               Fund Balance with Treasury (Note 3)                                    $              784,593 $            1,156,401
               Accounts Receivable (Note 5)                                                          854,151                698,039
               Other Assets (Note 6)                                                                   2,303                  3,886
                  Total Intragovernmental Assets                                                   1,641,047              1,858,326

              Cash and Other Monetary Assets (Note 7)                                                 (3,353)                     0
              Accounts Receivable, Net (Note 5)                                                        11,635                86,078
              Inventory and Related Property, Net (Note 9)                                        11,064,646             12,671,057
              General Property, Plant and Equipment, Net (Note 10)                                 3,210,420              3,404,310
              Other Assets (Note 6)                                                                  293,597                294,072
              Stewardship Property, Plant and Equipment (Note 10) *
             TOTAL ASSETS                                                                         16,217,992             18,313,843

             LIABILITIES (Note 11)
              Intragovernmental:
               Accounts Payable (Note 12)                                                            168,350                207,232
               Debt (Note 13)                                                                         16,881                 70,697
               Other Liabilities (Note 15 & Note 16)                                                 420,131                179,553
                  Total Intragovernmental Liabilities                                                605,362                457,482

              Accounts Payable (Note 12)                                                           3,070,115              3,381,559
              Military Retirement and Other Federal
               Employment Benefits (Note 17)                                                       1,035,874              1,047,589
              Other Liabilities (Note 15 & Note 16)                                                1,551,549              1,445,842
              Commitments and Contingencies (Note 16) *
             TOTAL LIABILITIES                                                                     6,262,900              6,332,472

             NET POSITION
              Unexpended Appropriations - Other Funds                                                 60,156                 33,595
              Cumulative Results of Operations - Other Funds                                       9,894,936             11,947,776
             TOTAL NET POSITION                                                                    9,955,092             11,981,371

             TOTAL LIABILITIES AND NET POSITION                                       $           16,217,992 $           18,313,843



             * - Disclosure but no value required per Federal Accounting Standards.




      The accompanying notes are an integral part of these statements.


  The accompanying notes are an integral part of these statements.
     Department of Defense
     Navy Working Capital Fund
     CONSOLIDATED STATEMENT OF NET COST
     For the Years Ended September 30, 2008 and 2007
         ($ in Thousands)


                                                                            2008 Consolidated       2007 Consolidated
         Program Costs
           Gross Costs                                                  $            24,912,489 $            23,582,179
           Less: Earned Revenue                                                    (21,840,461)            (22,257,566)
           Net Program Costs                                                         3,072,028               1,324,613
         Net Cost of Operations                                         $            3,072,028 $             1,324,613




The accompanying notes are an integral part of these statements.
                                                                   Department of the Navy 2008 Annual Financial Report    117
The accompanying notes are an integral part of these statements.
118                                                                                          Navy Working Capital Fund



        Department of Defense
        Navy Working Capital Fund
        CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
        For the Years Ended September 30, 2008 and 2007
            ($ in Thousands)


                                                                             2008 Consolidated        2007 Consolidated
            CUMULATIVE RESULTS OF OPERATIONS
             Beginning Balances                                          $          11,947,778    $          12,928,685
             Prior Period Adjustments
             Beginning Balances, as adjusted                                        11,947,778               12,928,685
             Budgetary Financing Sources:
              Appropriations used                                                      158,111                   85,166
              Nonexchange revenue                                                       50,323                        0
              Transfers in/out without reimbursement (+/-)                            (102,832)                 112,504
             Other Financing Sources:
              Transfers in/out without reimbursement (+/-)                              (66,968)                 17,242
              Imputed financing from costs absorbed by others                           429,565                 475,066
              Other (+/-)                                                               550,987                (346,274)
             Total Financing Sources                                                  1,019,186                 343,704
             Net Cost of Operations (+/-)                                             3,072,028               1,324,613
             Net Change                                                              (2,052,842)               (980,909)
             Cumulative Results of Operations                            $            9,894,936 $            11,947,776




      The accompanying notes are an integral part of these statements.


 The accompanying notes are an integral part of these statements.
     Department of Defense
     Navy Working Capital Fund
     CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
     For the Years Ended September 30, 2008 and 2007
        ($ in Thousands)


                                                                               2008 Consolidated        2007 Consolidated
        UNEXPENDED APPROPRIATIONS
         Beginning Balances                                                $               33,595   $                2,896
         Prior Period Adjustments (+/-)
         Beginning Balances, as adjusted                                                   33,595                    2,896
         Budgetary Financing Sources:
          Appropriations received                                                         286,072                 116,192
        Appropriations transferred-in/out                                                 (80,000)
          Other adjustments (rescissions, etc) (+/-)                                      (21,400)                    (327)
          Appropriations used                                                            (158,111)                 (85,166)
         Total Budgetary Financing Sources                                                 26,561                   30,699
         Unexpended Appropriations                                                         60,156                   33,595
         Net Position                                                      $            9,955,092 $             11,981,371




  The accompanying notes are an integral part of these statements.
                                                                     Department of the Navy 2008 Annual Financial Report      119
The accompanying notes are an integral part of these statements.
120                                                                                          Navy Working Capital Fund



       Department of Defense
       Navy Working Capital Fund
       COMBINED STATEMENT OF BUDGETARY RESOURCES
       For the Years Ended September 30, 2008 and 2007
           ($ in Thousands)


                                                                             2008 Combined         2007 Combined
          BUDGETARY FINANCING ACCOUNTS
          Budgetary Resources:
            Unobligated balance, brought forward, October 1              $          1,525,166 $             2,547,953
            Recoveries of prior year unpaid obligations                                85,626                  31,229
            Budget Authority:
               Appropriations received                                                286,074                 116,192
               Contract authority                                                   6,014,993               5,673,309
            Spending authority from offsetting collections:
               Earned
                 Collected                                                         24,398,770              23,784,389
                 Change in receivables from Federal sources                           274,593                 263,324
               Change in unfilled customer orders
                 Advances received                                                     20,881                   (4,720)
                 Without advance from Federal sources                                 703,403                (357,667)
               Anticipated for rest of year, without advances                                                         0
              Subtotal                                                             31,698,714              29,474,827
            Nonexpenditure Transfers, net, anticipated and actual                    (182,833)                 112,504
            Permanently not available                                              (5,701,987)             (6,597,645)
            Total Budgetary Resources                                              27,424,686              25,568,868

          Status of Budgetary Resources:
            Obligations incurred:
               Direct                                                                 144,111                     599
               Reimbursable                                                        24,457,687              24,043,103
               Subtotal                                                            24,601,798              24,043,702
            Unobligated balance:
               Apportioned                                                          2,773,872               1,525,168
               Exempt from apportionment                                               44,445                (60,183)
               Subtotal                                                             2,818,317               1,464,985
            Unobligated balances not available                                          4,571                  60,181
            Total Status of Budgetary Resources                          $         27,424,686 $            25,568,868




      The accompanying notes are an integral part of these statements.

The accompanying notes are an integral part of these statements.
     Department of Defense
     Navy Working Capital Fund
     COMBINED STATEMENT OF BUDGETARY RESOURCES
     For the Years Ended September 30, 2008 and 2007
        ($ in Thousands)


                                                                                 2008 Combined           2007 Combined
        RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
        Change in Obligated Balance:
         Obligated balance, net
            Unpaid obligations, brought forward, October 1                   $           12,129,800 $            12,112,506
            Less: Uncollected customer payments from
               Federal sources, brought forward, October 1                               (7,281,919)            (7,376,260)
            Total Unpaid Obligated Balance                                                 4,847,881              4,736,246
         Obligations incurred, net (+/-)                                                  24,601,798             24,043,702
         Less: Gross outlays                                                            (24,820,298)           (23,995,180)
         Less: Recoveries of prior year unpaid obligations, actual                          (85,627)               (31,229)
         Change in uncollected customer
            payments from Federal sources (+/-)                                            (978,001)                 94,343
         Obligated balance, net, end of period
            Unpaid obligations                                                           11,825,673              12,129,800
            Less: Uncollected customer payments from
               Federal sources                                                           (8,259,920)             (7,281,919)
            Total Unpaid Obligated Balance, net, end of period                             3,565,753               4,847,881

        Net Outlays:
         Gross Outlays                                                                    24,820,298             23,995,180
         Less: Offsetting collections                                                   (24,419,646)           (23,779,670)
        Net Outlays                                                          $               400,652 $              215,510




   The accompanying notes are an integral part of these statements.
                                                                      Department of the Navy 2008 Annual Financial Report      121
The accompanying notes are an integral part of these statements.
122   Navy Working Capital Fund
Navy Working Capital Fund Notes to the Principal Statements




   2008
   2008
   Navy Working Capital Fund
Notes to the Prinicpal Statements




   2008
                                 Department of the Navy 2008 Annual Financial Report   123
124                                                                                       Navy Working Capital Fund

      Note 1.	 Significant Accounting Policies
      1.A. 	 Basis of Presentation
      These financial statements have been prepared to report the financial position and results of operations of
      the Navy Working Capital Fund (NWCF), as required by the Chief Financial Officers (CFO) Act of 1990,
      expanded by the Government Management Reform Act of 1994, and other appropriate legislation. The
      financial statements have been prepared from the books and records of the NWCF in accordance with the
      Department of Defense (DoD), Financial Management Regulation (FMR), Office of Management and Budget
      (OMB) Circular A-136, Financial Reporting Requirements, and to the extent possible, generally accepted
      accounting principles (GAAP). The accompanying financial statements account for all resources for which
      the NWCF is responsible unless otherwise noted.

      The NWCF is unable to fully implement all elements of GAAP and OMB Circular A-136, due to limitations
      of its financial and nonfinancial management processes and systems that feed into the financial statements.
      The NWCF derives its reported values and information for major asset and liability categories largely from
      nonfinancial systems, such as inventory and logistic systems. These systems were designed to support
      reporting requirements for maintaining accountability over assets and reporting the status of federal
      appropriations rather than preparing financial statements in accordance with GAAP. The NWCF continues
      to implement process and system improvements addressing these limitations.

      The NWCF currently has 7 auditor identified financial statement material weaknesses: (1) Financial
      Management Systems, (2) Fund Balance with Treasury, (3) Accounts Receivable, (4) Inventory and Related
      Property, (5) General Equipment, (6) Accounts Payable, and (7) Other Liabilities.

      1.B. 	 Mission of the Reporting Entity
      The Department of the Navy (DON) was created on April 30, 1798 by an act of Congress (I Stat. 533; 5 U.S.C.
      411-12). The overall mission of DON is to maintain, train, and equip combat-ready Navy and Marine Corps
      forces capable of winning wars, deterring aggression, and maintaining freedom of the seas. The NWCF
      provides goods, services, and infrastructure to DON and other DoD customers to help ensure our military
      forces are mobile, ready, and have the most advanced technology.

      1.C. 	 Appropriations and Funds
      The NWCF receives its appropriations and funds as working capital (revolving) funds. The NWCF uses
      these appropriations and funds to execute its mission and subsequently report on resource usage.

      Working capital funds (WCF) received funding to establish an initial corpus through an appropriation or a
      transfer of resources from existing appropriations or funds. The corpus finances operations which result in
      transactions that flow through the fund. The WCF resources the goods and services sold to customers on a
      reimbursable basis and maintains the corpus. Reimbursable receipts fund future operations and generally are
      available in their entirety for use without further congressional action. At various times, Congress provides
      additional appropriations to supplement the WCF as an infusion of cash when revenues are inadequate to
      cover costs within the corpus.

      1.D. 	 Basis of Accounting
      For FY 2008, the NWCF’s financial management systems are unable to meet all of the requirements for full
accrual accounting. Many of the NWCF’s financial and nonfinancial feeder systems and processes were
designed and implemented prior to the issuance of GAAP for federal agencies. These systems were not
designed to collect and record financial information on the full accrual accounting basis as required by
GAAP. Most of the NWCF’s (financial and nonfinancial) legacy systems were designed to record information
on a proprietary basis.

The DoD has undertaken efforts to determine the actions required to bring its financial and nonfinancial
feeder systems and processes into compliance with GAAP. One such action is the current revision of its
accounting systems to record transactions based on the U.S. Standard General Ledger (USSGL). Until all
of the NWCF’s financial and nonfinancial feeder systems and processes are updated to collect and report
financial information as required by GAAP, the NWCF’s financial data will be derived from proprietary
transactions, transactions from nonfinancial feeder systems, and accruals made of major items, such as
payroll expenses and accounts payable.

1.E. 	 Revenues and Other Financing Sources
Depot Maintenance WCF activities recognize revenue according to the percentage of completion method.
Supply Management WCF activities recognize revenue from the sale of inventory items. Research and
Development activities recognize revenue according to the percentage of completion method or as actual
costs are incurred and billed. Revenue is recognized at the time service is rendered for Base Support WCF
activities. The Transportation WCF activity, Military Sealift Command, recognizes revenue on either a
reimbursable or per diem basis. The preponderance of per diem projects are billed and collected in the
month services are rendered. In the case of remaining per diem projects, revenue is accrued in the month
the services are rendered. For reimbursable projects, costs and revenue are recognized in the month services
are rendered. MSC does not generate bills until actual invoiced costs on the project are recorded.

The NWCF does not include nonmonetary support provided by U.S. allies for common defense and
mutual security in amounts reported in the Statement of Net Cost and Note 21, Reconciliation of Net Cost
of Operations to Budget. The U.S. has cost-sharing agreements with other countries. Examples include
countries where there is a mutual or reciprocal defense agreement, where U.S. troops are stationed, or where
the U.S. Fleet is in a port.

1.F. 	 Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period
incurred. However, because the NWCF’s financial and nonfinancial feeder systems were not designed to
collect and record financial information on the full accrual accounting basis, accruals are made for major
items, such as payroll expenses, accounts payable, and unbilled revenue. In the case of Operating Materiel
and Supplies (OM&S), operating expenses are generally recognized when the items are purchased. Efforts
are underway to transition towards the consumption method for recognizing OM&S expenses.

1.G. 	 Accounting for Intragovernmental Activities
Preparation of reliable financial statements requires the elimination of transactions occurring among entities
within DoD or between two or more federal agencies. However, the NWCF cannot accurately eliminate
intragovernmental transactions by customer because the NWCF’s systems do not track at the transaction
level. Generally, seller entities within the DoD provide summary seller-side balances for revenue, accounts


                                                            Department of the Navy 2008 Annual Financial Report   125
126                                                                                          Navy Working Capital Fund

      receivable, and unearned revenue to the buyer-side internal DoD accounting offices. In most cases, the buyer-
      side records are adjusted to agree with DoD seller-side balances. IntraDoD intragovernmental balances are
      then eliminated. The volume of intragovernmental transactions is so large that after-the-fact reconciliation
      cannot be accomplished effectively with existing or foreseeable resources. The DoD is developing long-term
      system improvements to ensure accurate intragovernmental information, to include sufficient up-front edits
      and controls eliminating the need for after-the-fact reconciliations.

      The U.S. Treasury Financial Management Service is responsible for eliminating transactions between DoD
      and other federal agencies. The Treasury Financial Manual Part 2 – Chapter 4700, “Agency Reporting
      Requirements for the Financial Report of the United States Government,” and the U.S. Treasury’s “Federal
      Intragovernmental Transactions Accounting Policy Guide” provide guidance for reporting and reconciling
      intragovernmental balances. While the NWCF is unable to fully reconcile intragovernmental transactions
      with all federal partners, the NWCF is able to reconcile balances pertaining to borrowings from the Federal
      Financing Bank, Federal Employees’ Compensation Act transactions with the Department of Labor, and
      benefit program transactions with the Office of Personnel Management.

      The DoD’s proportionate share of public debt and related expenses of the Federal Government is not
      included. The Federal Government does not apportion debt and its related costs to federal agencies. The
      DoD’s financial statements, therefore, do not report any portion of the public debt or interest thereon, nor do
      the statements report the source of public financing whether from issuance of debt or tax revenues.

      Financing for the construction of DoD facilities is obtained through appropriations. To the extent this
      financing ultimately may have been obtained through the issuance of public debt, interest costs have not
      been capitalized since the U.S. Treasury does not allocate such interest costs to the benefiting agencies.

      1.H. 	 Transactions with Foreign Governments and International Organizations
      Each year, the NWCF sells defense articles and services to foreign governments and international organizations
      under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act, DoD has
      authority to sell defense articles and services to foreign countries and international organizations generally
      at no profit or loss to the U.S. Government. Payment in U.S. dollars is required in advance.

      1.I. 	 Funds with the U.S. Treasury
      The NWCF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of the
      Defense Finance and Accounting Service (DFAS), the Military Services, the U.S. Army Corps of Engineers
      (USACE), and the Department of State’s financial service centers process the majority of the NWCF’s cash
      collections, disbursements, and adjustments worldwide. Each disbursing station prepares monthly reports
      that provide information to the U.S. Treasury on check issues, electronic fund transfers, interagency transfers,
      and deposits.

      In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation
      on interagency transfers, collections received, and disbursements issued. The U.S. Treasury records these
      transactions to the applicable Fund Balance with Treasury (FBWT) account. The NWCF’s recorded balance
      in FBWT accounts and U.S. Treasury’s FBWT accounts must balance monthly.

      1.J. 	 Foreign Currency
      Not applicable.
1.K. 	 Accounts Receivable
As presented in the Balance Sheet, accounts receivable includes three categories: accounts, claims, and
refunds receivable from other federal entities or from the public. Allowances for uncollectible accounts due
from the public are based upon analysis of collection experience by fund type. The DoD does not recognize
an allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal
agencies are to be resolved between the agencies in accordance with dispute resolution procedures defined
in the Intragovernmental Business Rules published in the Treasury Financial Manual.

1.L. 	 Direct Loans and Loan Guarantees
Not applicable.

1.M. 	 Inventories and Related Property
The NWCF values 100% of its inventories at an approximation of historical cost using latest acquisition cost
adjusted for holding gains and losses. The latest acquisition cost method is used because legacy inventory
systems were designed for materiel management rather than accounting. Although these systems provide
visibility and accountability over inventory items, they do not maintain historical cost data necessary to
comply with the Statement of Federal Financial Accounting Standards (SFFAS) No. 3, “Accounting for
Inventory and Related Property.” Additionally, these systems cannot produce financial transactions using
the USSGL, as required by the Federal Financial Management Improvement Act of 1996 (P.L. 104-208). At
the current time, NWCF does not report any inventory using the moving average cost method. However,
by utilizing new system development processes, the NWCF will be transitioning to the moving average cost
method with the implementation of the Navy Enterprise Resource Planning (ERP).

The NWCF manages only military or government specific materiel under normal conditions. Materiel is a
unique term that relates to military force management and includes all items (including ships, tanks, self-
propelled weapons, aircraft, etc., and related spares, repair parts, and support equipment, but excluding real
property, installations, and utilities) necessary to equip, operate, maintain, and support military activities
without distinction as to its application for administrative or combat purposes. Items commonly used in
and available from the commercial sector are not managed in the NWCF materiel management activities.
Operational cycles are irregular and the military risks associated with stock-out positions have no commercial
parallel. The NWCF holds materiel based on military need and support for contingencies. The DoD does
not attempt to account separately for “inventory held for sale” and “inventory held in reserve for future
sale” based on SFFAS No. 3 definitions, unless otherwise noted.

Related property includes OM&S and stockpile materials. The OM&S, including munitions not held for sale,
are valued at standard purchase price. The NWCF uses both the consumption method and the purchase
method of accounting for OM&S. Items that are centrally managed and stored, such as ammunition and
engines, are generally recorded using the consumption method and are reported on the Balance Sheet as
OM&S. When current systems cannot fully support the consumption method, the NWCF uses the purchase
method. Under this method, materiel and supplies are expensed when purchased. During FY 2008, the
NWCF expensed significant amounts using the purchase method because the systems could not support
the consumption method or management deemed that the item was in the hands of the end user. This is a
material weakness for the DoD and long-term system corrections are in process. Once the proper systems
are in place, these items will be accounted for under the consumption method of accounting.


                                                            Department of the Navy 2008 Annual Financial Report   127
128                                                                                          Navy Working Capital Fund

      The NWCF recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.” The cost of disposal
      is greater than the potential scrap value; therefore, the net value of condemned materiel is zero. Potentially
      redistributed materiel, presented in previous years as “Excess, Obsolete, and Unserviceable,” is included in
      the “Held for Use” or “Held for Repair” categories according to its condition.

      Inventory available and purchased for resale includes consumable spare and repair parts and repairable
      items owned and managed by the NWCF. This inventory is retained to support military or national
      contingencies. Inventory held for repair is damaged inventory that requires repair to make suitable for
      sale. Often, it is more economical to repair these inventory items rather than to procure these items. The
      NWCF often relies on weapon systems and machinery no longer in production. As a result, the NWCF
      supports a process that encourages the repair and rebuilding of certain items. This repair cycle is essential to
      maintaining a ready, mobile, and armed military force. Work in process balances include costs related to the
      production or servicing of items, including direct material, direct labor, applied overhead, and other direct
      costs. Work in process also includes the value of finished products or completed services that are yet to be
      placed in service and transferred to an asset account. Work in process includes munitions in production and
      depot maintenance work with its associated labor, applied overhead, and supplies used in the delivery of
      maintenance services.

      1.N. 	 Investments in U.S. Treasury Securities
      Not applicable.

      1.O. 	 General Property, Plant and Equipment
      The NWCF’s General Property Plant & Equipment (PP&E) capitalization threshold is $100 thousand except
      for real property which is $20 thousand. The NWCF has not implemented the threshold for real property.
      The NWCF is currently using the capitalization threshold of $100 thousand for all General PP&E.

      General PP&E assets are capitalized at historical acquisition cost when an asset has a useful life of two or
      more years and when the acquisition cost equals or exceeds the DoD capitalization threshold. The DoD also
      requires the capitalization of improvements to existing General PP&E assets if the improvements equal or
      exceed DoD capitalization threshold and extend the useful life or increase the size, efficiency, or capacity of
      the asset. The DoD depreciates all General PP&E, other than land, on a straight-line basis.

      The WCF capitalizes all General PP&E used in the performance of their mission. These capitalized assets are
      categorized as General PP&E, whether or not it meets the definition of any other General PP&E categories.

      When it is in the best interest of the government, the NWCF provides government property to contractors
      to complete contract work. The NWCF either owns or leases such property, or it is purchased directly by
      the contractor for the government based on contract terms. When the value of contractor-procured General
      PP&E exceeds the DoD capitalization threshold, federal accounting standards require that it be reported on
      the NWCF’s Balance Sheet.

      The DoD is developing new policies and a contractor reporting process for Government Furnished Equipment
      that will provide appropriate General PP&E information for future financial statement reporting purposes.
      Accordingly, NWCF reports only government property in the possession of contractors that is maintained in
      NWCF’s property systems. The DoD has issued new property accountability and reporting requirements that
      require NWCF to maintain, in their property systems, information on all property furnished to contractors.
This action and other DoD proposed actions are structured to capture and report the information necessary
for compliance with federal accounting standards.

1.P. 	 Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, the DoD’s policy is
to record advances and prepayments in accordance with GAAP. As such, payments made in advance of
the receipt of goods and services are reported as an asset on the Balance Sheet. The DoD’s policy is to
expense and/or properly classify assets when the related goods and services are received. The NWCF has
not implemented this policy primarily due to system limitations.

1.Q. 	 Leases
Lease payments for the rental of operating facilities are classified as either capital or operating leases. When
a lease is essentially equivalent to an installment purchase of property (a capital lease), NWCF records the
applicable asset and liability if the value equals or exceeds the current capitalization threshold. The NWCF
records the amounts as the lesser of the present value of the rental and other lease payments during the
lease term (excluding portions representing executory costs paid to the lessor) or the asset’s fair market
value. The discount rate for the present value calculation is either the lessor’s implicit interest rate or the
government’s incremental borrowing rate at the inception of the lease. The NWCF as the lessee receives the
use and possession of leased property, for example real estate, from a lessor in exchange for a payment of
funds. An operating lease does not substantially transfer all the benefits and risk of ownership. Payments
for operating leases are charged to expense over the lease term as it becomes payable.

Office space and leases entered into by NWCF in support of contingency operations are the largest component
of operating leases. These costs were gathered from existing leases, General Services Administration (GSA)
bills, and Interservice Support Agreements. Future year projections use the Consumer Price Index (CPI)
rather than the DoD inflation factor. The CPI impacts increases to the leases, especially those at commercial
lease sites.

1.R. 	 Other Assets
Other assets include those assets, such as military and civil service employee pay advances, travel advances,
and certain contract financing payments that are not reported elsewhere on NWCF’s Balance Sheet.

The NWCF conducts business with commercial contractors under two primary types of contracts: fixed
price and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term
contracts can cause, NWCF may provide financing payments. Contract financing payments are defined in
the Federal Acquisition Regulations, Part 32, as authorized disbursements of monies to a contractor prior to
acceptance of supplies or services by the Government. Contract financing payments clauses are incorporated
in the contract terms and conditions and may include advance payments, performance-based payments,
commercial advance and interim payments, progress payments based on cost, and interim payments under
certain cost-reimbursement contracts.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and
rental payments, or progress payments based on a percentage or stage of completion, which the Defense
Federal Acquisition Regulation Supplement authorizes only for construction of real property, shipbuilding,


                                                             Department of the Navy 2008 Annual Financial Report   129
130                                                                                         Navy Working Capital Fund

      and ship conversion, alteration, or repair. Progress payments for real property and ships are reported as
      Construction in Progress. It is DoD policy to record certain contract financing payments as other assets.

      1.S. 	 Contingencies and Other Liabilities
      The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No.
      12, “Recognition of Contingent Liabilities Arising from Litigation,” defines a contingency as an existing
      condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss. The
      uncertainty will be resolved when one or more future events occur or fail to occur. The NWCF recognizes
      contingent liabilities when past events or exchange transactions occur, a future loss is probable, and the loss
      amount can be reasonably estimated.

      Financial statement reporting is limited to disclosure when conditions for liability recognition do not
      exist but there is at least a reasonable possibility of incurring a loss or additional losses. Examples of
      loss contingencies include the collectability of receivables, pending or threatened litigation, and possible
      claims and assessments. The NWCF’s risk of loss and resultant contingent liabilities arise from pending or
      threatened litigation or claims and assessments due to events such as aircraft, ship, and vehicle accidents;
      medical malpractice; property or environmental damages; and contract disputes.

      1.T. 	 Accrued Leave
      The NWCF reports as liabilities military leave and civilian earned leave, except sick leave, that has been
      accrued and not used as of the Balance Sheet date. Sick leave is expensed as taken. The liability reported at
      the end of the accounting period reflects the current pay rates.

      1.U. 	 Net Position
      Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
      Appropriations represent the amounts of authority that are unobligated and have not been rescinded or
      withdrawn. Unexpended Appropriations also represent amounts obligated for which legal liabilities for
      payments have not been incurred. Cumulative Results of Operations represent the net difference, since
      inception of an activity, between expenses and losses and financing sources (including appropriations,
      revenue, and gains). Beginning with FY 1998, the cumulative results also include donations and transfers in
      and out of assets that were not reimbursed.

      1.V. 	 Treaties for Use of Foreign Bases
      The DoD has the use of land, buildings, and other overseas facilities that are obtained through various
      international treaties and agreements negotiated by the Department of State. The NWCF purchases capital
      assets overseas with appropriated funds; however, the host country retains title to land and improvements.
      Generally, treaty terms allow the NWCF continued use of these properties until the treaties expire. In the
      event treaties or other agreements are terminated, whereby use of the foreign bases is prohibited, losses
      are recorded for the value of any nonretrievable capital assets. The settlement due to the U.S. or host
      nation is negotiated and takes into account the value of capital investments and may be offset by the cost of
      environmental cleanup.

      1.W. 	 Comparative Data
      The NWCF financial statements and notes are presented on a comparative basis.
1.X. 	 Unexpended Obligations
The NWCF obligates funds to provide goods and services for outstanding orders not yet delivered. Unless
the title has passed, the financial statements do not reflect a liability for payment for goods and services not
yet delivered. Unexpended obligations includes both obligations for which goods and services have been
delivered (title passed) and a liability recognized, and obligations for which no delivery has occurred and
no liability recognized. The balance of unexpended obligations appears immediately before net outlays in
the Statement of Budgetary Resources, and is referred to as “Total, unpaid obligated balances, net, end of
period.”

1.Y. 	 Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections
matched at the transaction level to a specific obligation, payable, or receivable in the activity field records
as opposed to those reported by the U.S. Treasury. These amounts should agree with the undistributed
amounts reported on the monthly accounting reports. In-transit payments are those payments that have
been made but have not been recorded in the fund holder’s accounting records. These payments are applied
to the entities’ outstanding accounts payable balance. In-transit collections are those collections from other
agencies or entities that have not been recorded in the accounting records. These collections are applied to
the entities’ accounts receivable balance.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and
nonfederal categories based on the percentage of distributed federal and nonfederal accounts payable
and accounts receivable. Unsupported undistributed disbursements are recorded in accounts payable.
Unsupported undistributed collections are recorded in other liabilities.

1.Z. 	 Significant Events
During FY 2008, DON began conversion to Navy ERP. In 1st Quarter, FY 2008, the Naval Air Systems
Command was the first command to convert to the new system. The DON anticipated some issues associated
with implementing ERP but the future benefits (greater asset visibility, business process standardization,
improved funds management and improved planning efficiencies) of ERP far outweigh these issues.
The implementation of ERP materially affected many accounts (e.g. collections, disbursements, accounts
receivable, accounts payable, and other liabilities) causing them to be misstated during FY 2008. The DON is
currently working these issues and should see improvement in the near future. Additional commands will
convert to ERP in FY 2009 and thereafter.




                                                             Department of the Navy 2008 Annual Financial Report   131
132                                                                                      Navy Working Capital Fund

      Note 2.	 Nonentity Assets
      As of September 30                                        2008                             2007
      (Amounts in thousands)

      1. Intragovernmental Assets
         A. Fund Balance with Treasury               $                           0   $                         0
         B. Accounts Receivable                                                  0                             0
         C. Total Intragovernmental Assets           $                           0   $                         0

      2. Nonfederal Assets
         A. Cash and Other Monetary Assets           $                          0    $                         0
         B. Accounts Receivable                                             3,369                          3,031
         C. Other Assets                                                        0                              0
         D. Total Nonfederal Assets                  $                      3,369    $                     3,031


      3. Total Nonentity Assets                      $                      3,369    $                     3,031

      4. Total Entity Assets                         $                 16,214,623    $               18,310,812


      5. Total Assets                                $                 16,217,992    $               18,313,843



      Nonentity assets are assets for which the Navy Working Capital Fund (NWCF) maintains stewardship
      accountability and responsibility to report, but are not available for NWCF operations.

      The Nonentity Accounts Receivable amount represents interest, penalties, fines and administrative fees.
      These fees do not belong to NWCF and will be distributed directly to the U.S. Treasury.


      Note 3.	 Fund Balance with Treasury
      As of September 30                                                  2008                      2007
      (Amounts in thousands)


      1. Fund Balances
         A. Appropriated Funds                                    $                    0     $                  0
         B. Revolving Funds                                                      784,593                1,156,401
         C. Trust Funds                                                                0                        0
         D. Special Funds                                                              0                        0
         E. Other Fund Types                                                           0                        0
         F. Total Fund Balances                                   $              784,593     $          1,156,401


      2. Fund Balances Per Treasury Versus Agency
         A. Fund Balance per Treasury                             $              784,593     $          1,156,401
         B. Fund Balance per NWCF                                                784,593                1,156,401

      3. Reconciling Amount                                       $                      0   $                 0
Status of Fund Balance with Treasury
 As of September 30                                           2008                              2007
 (Amounts in thousands)
 1. Unobligated Balance
    A. Available                                   $                   2,818,318     $                 1,464,986
    B. Unavailable                                                         4,571                          60,181

 2. Obligated Balance not yet Disbursed            $                  11,825,672     $               12,129,800

 3. Nonbudgetary FBWT                              $                            0    $                            0

 4. NonFBWT Budgetary Accounts                     $                 (13,863,968)    $              (12,498,566)

 5. Total                                          $                     784,593     $                 1,156,401



The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support FBWT.

Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to
cover outstanding obligations. Unobligated Balance is classified as available or unavailable and is associated
with appropriations expiring at fiscal year end that remain available only for obligation adjustments until
the account is closed.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not yet
been received, services that have not been performed, and goods and services that have been delivered/
received but not yet paid.

Nonbudgetary FBWT includes entity and nonentity FBWT accounts which represent adjustments that do
not have budgetary authority, such as unavailable receipt accounts or clearing accounts.

NonFBWT Budgetary Accounts represent adjustments to budgetary accounts that do not affect FBWT. This
amount is comprised of contract authority, accounts receivable, and unfilled orders without advance from
customers for the Navy Working Capital Fund (NWCF). This category reduces the Status of FBWT.

All unobligated unavailable balances are restricted to future use and are not apportioned for current use.
The unavailable balance consists of contract and budgetary authority from closed NWCF activities as a
result of the financial closure process.


Note 4.	 Investments and Related Interest
Not applicable.




                                                            Department of the Navy 2008 Annual Financial Report       133
134                                                                                                 Navy Working Capital Fund

      Note 5.	 Accounts Receivable
      As of September 30                                                      2008                                    2007
                                                                          Allowance For
                                                                                               Accounts             Accounts
                                                   Gross Amount Due        Estimated
                                                                                            Receivable, Net      Receivable, Net
                                                                          Uncollectibles
      (Amounts in thousands)

      1. Intragovernmental Receivables             $      854,151                    N/A    $       854,151      $     698,039
      2. Nonfederal Receivables (From the
         Public)                                   $       11,664     $              (29)   $           11,635   $       86,078


      3. Total Accounts Receivable                 $      865,815     $              (29)   $       865,786      $     784,117



      Note 6.	 Other Assets
      As of September 30                                                           2008                          2007
      (Amounts in thousands)

      1. Intragovernmental Other Assets
         A. Advances and Prepayments                                      $                     2,303    $                 3,886
         B. Other Assets                                                                            0                          0
         C. Total Intragovernmental Other Assets                          $                     2,303    $                 3,886

      2. Nonfederal Other Assets
         A. Outstanding Contract Financing Payments                       $                  21,583      $               27,116
         B. Advances and Prepayments                                                        241,231                     150,244
         C. Other Assets (With the Public)                                                   30,783                     116,712
         D. Total Nonfederal Other Assets                                 $                 293,597      $              294,072

      3. Total Other Assets                                               $                 295,900      $              297,958


      Other Assets (With the Public) consists of outstanding debt principal, prepayments made to vendors, and
      travel advances.

      Contract terms and conditions for certain types of contract financing payments convey certain rights to the
      Navy Working Capital Fund (NWCF) that protect the contract work from state or local taxation, liens or
      attachment by the contractor’s creditors, transfer of property, or disposition in bankruptcy; however, these
      rights should not be misconstrued to mean that ownership of the contractor’s work has transferred to the
      Federal Government. The Federal Government does not have the right to take the work, except as provided
      in contract clauses related to termination or acceptance, and NWCF is not obligated to make payment to the
      contractor until delivery and acceptance of a satisfactory product.

      The Contract Financing Payment balance of $21.6 million is entirely comprised of estimated future funded
      payments that will be paid to the contractor upon future delivery and Federal Government acceptance of a
      satisfactory product. See additional discussion in Note 15, Other Liabilities.

      The outstanding debt principal amount in Other Assets (With the Public) is reported in order to reconcile
with the amount incorrectly reported by the Federal Financing Bank (FFB). As required by the Office of
Under Secretary of Defense (Comptroller) memorandum of January 22, 1999, Transportation, Military Sealift
Command is correctly recording payments to FFB as operating expense. The misclassification by FFB has
generated this long-standing reporting problem. See additional discussion in Note 13, Debt.


Note 7.	 Cash and Other Monetary Assets
 As of September 30                                                               2008               2007
 (Amounts in thousands)

 1. Cash                                                                  $         (3,353)    $                 0
 2. Foreign Currency                                                                      0                      0
 3. Other Monetary Assets                                                                 0                      0

 4. Total Cash, Foreign Currency, & Other Monetary Assets                 $         (3,353)    $                 0



Cash has an abnormal balance of $3.4 million due to a posting issue within a feeder system used by the Naval
Facilities Engineering Command (NAVFAC). The Department of Navy (DON) is currently researching the
issue and will resolve in 2nd Quarter, FY 2009.


Note 8.	 Direct Loan and Loan Guarantees
Not applicable.


Note 9.	 Inventory and Related Property
As of September 30                                     2008                                   2007
(Amounts in thousands)

1. Inventory, Net                         $                    10,802,686     $                      12,313,482
2. Operating Materiel & Supplies, Net                             261,960                               357,575
3. Stockpile Materiel, Net                                              0                                     0

4. Total                                  $                    11,064,646     $                      12,671,057




                                                           Department of the Navy 2008 Annual Financial Report       135
136                                                                                                                Navy Working Capital Fund

      Inventory, Net
      As of September 30                                                2008                                      2007
                                                      Inventory,        Revaluation       Inventory,                                 Valuation
                                                                                                               Inventory, Net
                                                    Gross Value         Allowance            Net                                      Method


      (Amounts in thousands)

      1. Inventory Categories
         A. Available and Purchased for
            Resale                              $      31,796,212   $    (22,927,668)      8,868,544       $       3,472,486         LAC,MAC
         B. Held for Repair                             5,656,646         (4,017,038)      1,639,608               8,533,061         LAC,MAC
         C. Excess, Obsolete, and
            Unserviceable                                 930,548           (930,548)                  0                        0      NRV
         D. Raw Materiel                                        0                   0                  0                        0   MAC,SP,LAC
         E. Work in Process                               294,534                     0     294,534                  307,935           AC


          F. Total                              $      38,677,940   $    (27,875,254)     10,802,686       $     12,313,482
      Legend for Valuation Methods:
      Legend for Valuation Methods:
      Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses          NRV = Net Realizable Value
      SP = Standard Price                                                                    AC = Actual Cost
      MAC = Moving Average Cost


      There are no restrictions on the use, sale, or disposition of inventory except in the following situations:

             1) 	 Distributions without reimbursement are made when authorized by Department of Defense
                  (DoD) directives;

             2) 	 War reserve materiel in the amount of $84.3 million includes repair items that are considered
                  restricted; and

             3) 	 Inventory, with the exception of safety stocks, may be sold to foreign, state, and local governments;
                  private parties; and contractors in accordance with current policies and guidance or at the
                  direction of the President.

      There are no known restrictions on disposition of inventory as related to environmental or other liabilities.

      Inventory available and purchased for resale includes consumable spare and repair parts as well as repairable
      items owned and managed by the Navy Working Capital Fund (NWCF) and includes all materiel available
      for customer purchase. Inventory held for repair consists of damaged materiel that requires repair to make it
      usable and all economically repairable materiel. Excess inventory includes scrap materiels or items that are
      uneconomical to repair and are awaiting disposal. Work in process includes costs related to the production
      or servicing of items, including direct materiel, direct labor, applied overhead, and other direct costs. Work
      in process also includes the value of finished products or completed services pending the submission of bills
      to the customer.

      Federal Accounting Standards require disclosure of the amount of inventory held for “future sale.” The
      NWCF currently has no inventory held for future sale reported for 4th Quarter, FY 2008 in Inventory Held
      for Sale, Net. All inventory is currently planned for sale next fiscal year.

      Inventory is assigned to categories based upon condition of the inventory items, or in the case of raw materiel
      and work-in-process based upon stage of fabrication.
The Supply Management, Navy’s inventory is reported using the approximation of historical cost method
as discussed in the Financial Management Regulation (FMR) Volume 11B, Chapter 55. The approximation
of historical cost is calculated by using the latest acquisition cost less the allowance for holding gains and
losses. Legacy inventory systems were designed to capture materiel management information rather than
accounting data. Although these systems provide visibility and accountability over inventory items, they
do not maintain historical cost data necessary to comply with the Statement of Federal Financial Accounting
Standards (SFFAS) No. 3, “Accounting for Inventory and Related Property.” Since the implementation of the
Office of Under Secretary of Defense, Comptroller (OUSD (C)) Cost of Goods Sold Model, prior year values
in equity, inventory, and inventory allowance accounts have been impacted and remain noncompliant with
SFFAS No. 3 and generally accepted accounting principles. The Navy Enterprise Resource Planning System
will value inventory at moving average cost and will be compliant with necessary guidance.


Operating Materiel and Supplies, Net
 As of September 30                                                           2008                             2007
                                                          OM&S            Revaluation                                         Valuation
                                                                                          OM&S, Net           OM&S, Net
                                                        Gross Value       Allowance                                            Method
 (Amounts in thousands)

 1. OM&S Categories
                                                                                                                              SP, LAC,
   A. Held for Use                                  $        261,960      $          0   $    261,960     $      357,575       MAC
                                                                                                                              SP, LAC,
   B. Held for Repair                                                 0              0                0                   0    MAC

   C. Excess, Obsolete, and Unserviceable                             0              0                0                   0    NRV


   D. Total                                         $        261,960      $          0   $    261,960     $      357,575

 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses           NRV = Net Realizable Value
 SP = Standard Price                                                                     MAC = Moving Average Cost



Operating Materiel and Supplies (OM&S) held for use consists of property that is consumed during normal
operations and includes consumable spare and repair parts for use on customer work by various activities.

The NWCF determines categories to which OM&S are assigned based upon readiness for issue and use as
determined by condition of the individual inventory items.

Federal Accounting Standards require disclosure of the amount of OM&S held for “future use.” The NWCF
reports that $4.3 million of OM&S is held for future use and is included in the “held for use” category. These
items are not readily available in the market and there is a more than remote chance that they will eventually
be needed.

There are no restrictions with regard to the use, sale, or disposition of OM&S applicable to NWCF
activities.




                                                                          Department of the Navy 2008 Annual Financial Report             137
138                                                                                                             Navy Working Capital Fund

      Stockpile Materiel, Net
      Not applicable.


      Note 10.	 General PP&E, Net
      As of September 30                                                      2008                                                 2007
                                         Depreciation/                                      (Accumulated
                                                          Service        Acquisition                            Net Book         Prior FY Net
                                         Amortization                                       Depreciation/
                                                           Life            Value                                 Value           Book Value
                                           Method                                           Amortization)
      (Amounts in thousands)

      1. Major Asset Classes
         A. Land                             N/A           N/A       $         39,335                 N/A   $       39,335   $         41,681
         B. Buildings, Structures, and
            Facilities                       S/L         20 or 40           6,338,727   $     (4,391,877)       1,946,850           1,956,094
                                                           lease
          C. Leasehold Improvements          S/L            term                  348               (289)              59                  50
          D. Software                        S/L         2-5 or 10            489,163           (347,044)         142,119             157,300
          E. General Equipment               S/L          5 or 10           2,596,306         (2,104,726)         491,580             610,504
          F. Military Equipment              S/L          Various                   0                   0               0                   0
          G. Assets Under Capital                          lease
             Lease                           S/L            term                   0                    0               0                  0
          H. Construction-in- Progress       N/A            N/A              588,192                  N/A         588,192            635,879
          I. Other                                                             2,285                    0           2,285              2,802
          J. Total General PP&E                                      $    10,054,356    $     (6,843,936)   $   3,210,420    $     3,404,310

      1
       Note 15 for additional information on Capital Leases
      Legend for Valuation Methods:
      S/L = Straight Line      N/A = Not Applicable



      There are no known restrictions on the use or convertibility of General Property, Plant and Equipment
      (PP&E) nor are there any adjustments resulting from changes in the accounting standards.

      Military equipment is reported on the financial statements of the Department of the Navy General Fund
      (DON GF).

      Heritage assets and stewardship land are reported on the financial statements of the DON GF.

      General PP&E, Other consists of assets awaiting disposal.


      Assets Under Capital Lease
      Not applicable.
Note 11.	 Liabilities Not Covered by Budgetary Resources
 As of September 30                                            2008                            2007
 (Amounts in thousands)

 1. Intragovernmental Liabilities
    A. Accounts Payable                            $                          0    $                           0
    B. Debt                                                                   0                                0
    C. Other                                                            214,104                            3,031
    D. Total Intragovernmental Liabilities         $                    214,104    $                       3,031

 2. Nonfederal Liabilities
    A. Accounts Payable                            $                           0   $                              0
    B. Military Retirement and
       Other Federal Employment Benefits                              1,035,873                       1,047,588
    C. Environmental Liabilities                                              0                               0
    D. Other Liabilities                                                      0                               0
    E. Total Nonfederal Liabilities                $                  1,035,873    $                  1,047,588

 3. Total Liabilities Not Covered by
    Budgetary Resources                            $                  1,249,977    $                  1,050,619

 4. Total Liabilities Covered by Budgetary
    Resources                                      $                  5,012,923    $                  5,281,853

 5. Total Liabilities                              $                  6,262,900    $                  6,332,472



Liabilities not covered by budgetary resources are liabilities for which congressional action is needed before
budgetary resources can be provided.

Other Intragovernmental Liabilities consist of custodial liabilities for interest, penalties, fines and
administrative fees receivable held on behalf of the U.S Treasury. These fees will be distributed directly to
the U.S. Treasury when collected, and the corresponding liabilities reduced.

Military Retirement and Other Federal Employment Benefits not covered by budgetary resources are
comprised of various employee actuarial liabilities not due and payable during the current fiscal year. These
liabilities are primarily comprised of Federal Employees’ Compensation Act Actuarial liability of $1.0 billion.
See Note 17, Military Retirement and Other Federal Employment Benefits, for additional disclosures.




                                                            Department of the Navy 2008 Annual Financial Report       139
140                                                                                                                Navy Working Capital Fund

      Note 12.	 Accounts Payable
      As of September 30                                                          2008                                            2007
                                                                                    Interest,
                                                                                  Penalties, and
                                                      Accounts Payable                                        Total                   Total
                                                                                  Administrative
                                                                                      Fees

      (Amounts in thousands)


      1. Intragovernmental Payables               $             168,350       $          N/A           $      168,350        $         207,232

      2. Nonfederal Payables (to the Public)                  3,070,115                            0         3,070,115             3,381,559

      3. Total                                    $           3,238,465       $                    0   $     3,238,465       $     3,588,791


      The Navy Working Capital Fund’s (NWCF) systems do not track Intragovernmental transactions by customer
      at the transaction level. Therefore, internal Department of Defense buyer-side balances are adjusted to agree
      with internal seller-side balances for revenue, accounts receivable and unearned revenue. Accounts payable
      were adjusted by reclassifying amounts between federal and nonfederal accounts payable.


      Note 13.	 Debt
      As of September 30                                                     2008                                           2007
                                                            Beginning           Net                Ending                              Ending
                                                                                                                Net Borrowing
                                                             Balance         Borrowing             Balance                             Balance

      (Amounts in thousands)

      1. Agency Debt (Intragovernmental)
         A. Debt to the Treasury                        $           0    $            0        $         0     $              0   $            0
         B. Debt to the Federal Financing Bank                 70,697          (53,816)             16,881            (102,527)           70,697
         C. Total Agency Debt                           $      70,697    $     (53,816)        $    16,881     $      (102,527)   $       70,697

      2. Total Debt                                     $      70,697    $     (53,816)        $    16,881     $      (102,527)   $       70,697


      The Afloat Prepositioning Force program, with congressional approval, provides ships for time charter to
      meet requirements not available in the marketplace. These ships are built or converted by private interim
      vessel owners using private, nongovernment financing obtained from various banking institutions. There
      were no payments made by the government during the building/conversion phase. Afloat Prepositioning
      Force program time charters are for five years with four option renewal periods of five years each, for a total
      of 25 years. At the end of the contract, each ship returns to the vessel’s owner.

      The Federal Financing Bank (FFB) is one of the institutions that provided loans to the vessel owners. The
      FFB reports that Transportation, Military Sealift Command (MSC) has a debt in the amount of $16.9 million,
      which represents an outstanding principal balance of $16.6 million and accrued interest payable of $257.7
      thousand. MSC does not owe this debt to FFB. This debt is a public debt owed by the private vessel
      owners. In order to simplify the payments to FFB and to meet its requirements, FFB cross disburses the
      semi-annual principal and interest payments directly from the Navy Working Capital Fund (NWCF). This is
      done instead of having MSC make capital hire payments to the vessel owners, who would in turn make loan
      obligation payments to FFB. It is not uncommon for the Federal Government to make payments directly
      to the bank (FFB) and mirrors other time charters where payment is assigned directly to a bank. However,
when establishing the loan, FFB coded the loan as a government debt instead of a public debt. This coding
shall remain until the loan has been liquidated.

As required by the Office of the Under Secretary of Defense (Comptroller) memorandum of January 22, 1999,
MSC is correctly recording these payments as an operating expense. The outstanding debt principal amount
is reported on NWCF Balance Sheet as an other asset in order to reconcile with the amount incorrectly
reported by FFB. The misclassification by FFB has generated this long-standing reporting problem. See
Note 6 for additional disclosures.

As required by the Department of Defense Appropriations Act passed in December 1985, ten percent of the
fifth year termination value of the vessels must be obligated from Operation and Maintenance, Navy funds.
This was completed as each vessel was delivered.


Note 14.	 Environmental Liabilities and Disposal Liabilities
Not applicable.


Environmental Disclosures
The Navy Working Capital Fund Environmental Liabilities are reported under the Department of the Navy
General Fund.




                                                         Department of the Navy 2008 Annual Financial Report   141
142                                                                                                  Navy Working Capital Fund

      Note 15.	 Other Liabilities
       As of September 30                                                        2008                               2007
                                                           Current             Noncurrent
                                                           Liability            Liability           Total           Total
       (Amounts in thousands)


       1. Intragovernmental
           A. Advances from Others                     $      164,922      $                0   $    164,922    $     145,647
           B. Deposit Funds and Suspense
               Account Liabilities                                     0                    0               0                  0
           C. Disbursing Officer Cash                                  0                    0               0                  0
           D. Judgment Fund Liabilities                                0                    0               0                  0
           E. FECA Reimbursement to the
               Department of Labor                             91,672              119,064           210,736                    0
           F. Custodial Liabilities                             3,369                    0             3,369                3,031
           G. Employer Contribution and
               Payroll Taxes Payable                           41,104                       0         41,104           30,875
           H. Other Liabilities                                     0                       0              0                0

           I.   Total Intragovernmental Other
                Liabilities                            $      301,067      $       119,064      $    420,131    $     179,553

       2. Nonfederal
           A. Accrued Funded Payroll and Benefits      $      816,488      $                0   $    816,488    $     703,169
           B. Advances from Others                            248,959                       0        248,959          247,232
           C. Deferred Credits                                      0                       0              0                0
           D. Deposit Funds and Suspense
               Accounts                                      (11,756)                       0        (11,756)          (9,881)
           E. Temporary Early Retirement Authority                  0                       0               0                0
           F. Nonenvironmental Disposal Liabilities
            (1) Military Equipment (Nonnuclear)                        0                    0               0                  0
            (2) Excess/Obsolete Structures                             0                    0               0                  0
            (3) Conventional Munitions Disposal                        0                    0               0                  0
           G. Accrued Unfunded Annual Leave                            0                    0               0                  0

           H. Capital Lease Liability                                  0                    0               0                   0
            I. Contract Holdbacks                                      0                    0               0               (215)
           J. Employer Contribution and
               Payroll Taxes Payable                                0                    0                 0                0
           K. Contingent Liabilities                          474,675               21,583           496,258          505,537
           L. Other Liabilities                                 1,600                    0             1,600                0


           M. Total Nonfederal Other Liabilities       $   1,529,966       $        21,583      $   1,551,549   $   1,445,842


       3. Total Other Liabilities                      $   1,831,033       $       140,647      $   1,971,680   $   1,625,395



      Deposit funds and suspense accounts consist of an abnormal unsupported undistributed collections balance
      of $12.0 million for this reporting period. During FY 2008, the Navy Working Capital Fund (NWCF) and
      the Defense Finance and Accounting Service (DFAS) reconciled unsupported undistributed collections
      and disbursements, and per Office of Under Secretary of Defense (Comptroller) policy, 26 NWCF activities
      cleared stabilized unsupported undistributed collections and disbursements. The Military Sealift Command
      (MSC) has completed reconciliation of their abnormal balance in unsupported undistributed collections;
      however, their unsupported undistributed collection must be stable for a four-month period before they can
submit a write-off package. The MSC expects write-off to occur in 4th Quarter, FY 2009.

Nonfederal Other Liabilities consist of liabilities for depot level repairable carcass returns and liability for
future contract financing payments.

Contingent Liabilities includes $21.6 million in estimated future contract financing payments that will be paid
to the contractors upon delivery and Federal Government acceptance. In accordance with contract terms,
specific rights to the contractor’s work vest with the Federal Government when a specific type of contract
financing payment is made. This action protects taxpayer funds in the event of contract nonperformance.
These rights should not be misconstrued as the rights of ownership. The NWCF is under no obligation
to pay the contractor for amounts greater than the amounts authorized in the contract until delivery and
Federal Government acceptance. Because it is probable that the contractor will complete its efforts and
deliver a satisfactory product to NWCF and the amount of potential future payments is estimable, NWCF
has recognized a contingent liability for estimated future payments, which are conditional pending delivery
and Federal Government acceptance.


Note 16.	 Commitments and Contingencies
The Department of the Navy (DON) is a party in various administrative proceedings and legal actions,
with claims including environmental damage claims, equal opportunity matters, and contractual bid
protests which may ultimately result in settlements or decisions adverse to the Federal Government. These
proceedings and actions arise in the normal course of operations and their ultimate disposition is unknown.
The DON will accrue contingent liabilities for legal actions in those instances where DON’s Office of General
Counsel (OGC) considers an adverse decision probable and the amount of loss is measurable. In the event
of an adverse judgment against the Government, some of the liabilities may be payable from the Judgment
Fund. Others may be payable from DON’s resources, either directly or by reimbursement to the Judgment
Fund. The DON records Judgment Fund liabilities in Note 12, “Accounts Payable.” See Note 12 for details.

The Navy Working Capital Fund (NWCF) currently has 3 cases that meet the existing FY 2008 NWCF
materiality threshold of $4.1 million. The DON OGC was unable to express an opinion concerning the
likely outcome of 2 of the 3 cases. Based on information contained in the FY 2008 preliminary and final
Legal Representation Letters, management does not have sufficient reason to believe that it is likely the
Government will be liable for the amounts claimed in individual or aggregated cases.

Due to the inherent uncertainties of litigation, lawyers generally refrain from expressing judgments as to
outcomes except in those relatively few clear cases. In response to a Department of Defense (DoD), Inspector
General Audit, “DoD Process for Reporting Contingent Legal Liabilities,” DON developed a methodology to
determine an estimate for contingent legal liabilities. Beginning with 1st Quarter, FY 2007 DON recognized
and disclosed an estimate for contingent legal liabilities. The methodology considers the likelihood of an
unfavorable outcome or potential liability and is provided as an overall assessment of all cases currently
pending and not on an individual case basis. The likelihood of an unfavorable or potential liability was
determined by using an average of the data from the current year-to-date and the preceding four years. The
total dollar amount of the cases closed was divided by the total dollar amount claimed in those closed cases
for each of the last four years plus current year, which were then used to calculate the average. This average
is based entirely on historical data and represents the percentage that has historically been paid on claims


                                                             Department of the Navy 2008 Annual Financial Report   143
144                                                                                                       Navy Working Capital Fund

      for all DON cases. The merits for each individual case have not been taken into consideration. As a result,
      estimates cannot be allocated between NWCF and DON General Fund (GF), thus the entire $3.5 billion
      probable liability is recognized in Note 15 of the DON GF.


      Note 17.	 Military Retirement and Other Federal
      		        Employment Benefits
      As of September 30                                                      2008                                           2007
                                                                  Assumed       (Less: Assets
                                                                                                      Unfunded
                                                Liabilities        Interest    Available to Pay                             Liabilities
                                                                                                      Liabilities
                                                                  Rate (%)        Benefits)

      (Amounts in thousands)
      1. Pension and Health Actuarial
         Benefits
        A. Military Retirement Pensions     $                 0                $              0   $                 0   $                 0
        B. Military Retirement Health
           Benefits                                           0                               0                     0                     0
        C. Military Medicare-Eligible
           Retiree Benefits                                   0                               0                     0                     0
        D. Total Pension and Health
           Actuarial Benefits               $                 0                $              0   $                 0   $                 0

      2. Other Actuarial Benefits
        A. FECA                             $     1,035,874                    $              0   $     1,035,874       $     1,047,589
        B. Voluntary Separation Incentive
           Programs                                       0                                   0                 0                     0
        C. DoD Education Benefits Fund                    0                                   0                 0                     0
        D. Total Other Actuarial Benefits   $     1,035,874                    $              0   $     1,035,874       $     1,047,589

      3. Other Federal Employment
         Benefits                           $                 0                $              0   $                 0   $                 0

      4. Total Military Retirement and
         Other Federal Employment
         Benefits:                          $     1,035,874                    $              0   $     1,035,874       $     1,047,589



      The Department of the Navy (DON) actuarial liability for workers’ compensation benefits is developed by
      the Department of Labor and provided to DON at the end of each fiscal year. The liability is distributed
      between the Navy Working Capital Fund and DON General Fund based upon the number of civilian
      employees funded in each entity as reported in the Navy Budget Tracking System. The liability includes the
      expected liability for death, disability, medical, and miscellaneous costs for approved compensation cases.
      The liability is determined using a method that utilizes historical benefit payment patterns to predict the
      ultimate payments.

      The assumptions relate to Federal Employees’ Compensation Act (FECA). The projected annual benefit
      payments are discounted to the present value using Office of Management and Budget’s economic
      assumptions for ten year U.S. Treasury notes and bonds. Cost of living adjustments and medical inflation
      factors are also taken into consideration when calculating projected future benefits.
The interest rate assumptions utilized when discounting were as follows:

	                 2008
	                 4.3680% in Year 1
	                 4.770% in Year 2 and thereafter

To provide more specificity concerning the effects of inflation on the liability for future workers’ compensation
benefits, wage inflation factors (cost of living adjustments or COLAs) or medical inflation factors (consumer
price index medical or CPIMs) were applied to the calculation of projected future benefits. The actual rates
for these factors for the charge back year (CBY) 2008 were also used to adjust the methodology’s historical
payments to current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

	                 CBY	               COLA	              CPIM
	                 2008	              3.03%	             4.71%
	                 2009	              3.87%	             4.01%
	                 2010	              2.73%	             3.86%
	                 2011	              2.20%	             3.87%
	                 2012	              2.23%	             3.93%
	                 2013+	             2.30%	             3.93%

The model’s resulting projections were analyzed to ensure that the estimates were reliable. The analysis was
based on four tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of
the percentage change in the liability amount by agency to the percentage change in the actual incremental
payments, (3) a comparison of the incremental paid losses per case (a measure of case-severity) in CBY 2008
to the average pattern observed during the most current three charge back years, and (4) a comparison of
the estimated liability per case in the 2008 projection to the average pattern for the projections of the most
recent three years.

There have been no changes in the calculation of actuarial liability since last reporting period.




                                                                   Department of the Navy 2008 Annual Financial Report   145
146                                                                                        Navy Working Capital Fund

      Note 18.	 General Disclosures Related to the Statement of
      		        Net Cost
      As of September 30                                         2008                            2007

      (Amounts in thousands)


      1. Intragovernmental Costs                     $                    5,091,758    $                 4,803,661
      2. Public Costs                                                    19,820,731                     18,778,518
      3. Total Costs                                 $                   24,912,489    $                23,582,179

      4. Intragovernmental Earned Revenue            $                  (20,784,013)   $             (20,966,636)
      5. Public Earned Revenue                                           (1,056,448)                  (1,290,930)
      6. Total Earned Revenue                        $                  (21,840,461)   $             (22,257,566)


      7. Net Cost of Operations                      $                    3,072,028    $                 1,324,613

      Intragovernmental costs and revenues are related to transactions made between two reporting entities
      within the Federal Government.

      Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal
      entity.

      The Navy Working Capital Fund’s (NWCF) financial management systems do not track intragovernmental
      transactions by customer at the transactional level. Therefore, internal Department of Defense buyer-side
      balances are adjusted to agree with internal seller-side balances for revenue or by other means. Expenses
      were adjusted by reclassifying amounts between federal and nonfederal expenses.

      The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal
      Government supported by appropriations or other means. The intent of the SNC is to provide gross and
      net cost information related to the amount of output or outcome for a given program or organization
      administered by a responsible reporting entity. The Department’s current processes and systems do not
      capture and report accumulated cost for major programs based upon the performance measures as required
      by the Government Performance and Results Act. The Department is in the process of reviewing available
      data and developing a cost reporting methodology as required by the Statement of Federal Financial
      Accounting Standards (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal
      Government.”


      Note 19.	 Disclosures Related to the Statement of
      		        Changes in Net Position
      The Cumulative Results of Operations, Other Financing Sources, Other consists of gains and losses associated
      with the financial closure of Navy Working Capital Fund activities.

      The Cumulative Results of Operations, Budgetary Financing Sources, Other adjustments (rescissions, etc)
      consists of a rescission of an appropriation.
Note 20.	 Disclosures Related to the Statement of
		        Budgetary Resources
 As of September 30                                                        2008                   2007
 (Amounts in thousands)

 1. Net Amount of Budgetary Resources Obligated for
    Undelivered Orders at the End of the Period                     $         7,794,257     $        7,875,259

 2. Available Borrowing and Contract Authority at the End of
    the Period                                                                         0                         0


The Navy Working Capital Fund (NWCF) received contributed capital of $250.7 million in supplemental
funding for fuel costs and $14.0 million for inventory augmentation.

The NWCF reports all amounts for obligations incurred under apportionment category B. Category B
apportionments typically distribute budgetary resources by activities, projects, objects or a combination of
these categories. The NWCF direct and reimbursable obligations incurred totaled $144.1 million and $24.5
billion, respectively.

The Statement of Budgetary Resources (SBR) includes intraentity transactions, which have not been
eliminated because the statements are presented as combined.




                                                           Department of the Navy 2008 Annual Financial Report       147
148                                                                             Navy Working Capital Fund

      Note 21.	 Reconciliation of Net Cost of Operations to
      		        Budget
      As of September 30                                                    2008             2007
      (Amounts in thousands)

      Resources Used to Finance Activities:
      Budgetary Resources Obligated:
      1. Obligations incurred                                       $    24,601,798    $    24,043,702
      2. Less: Spending authority from offsetting
         collections and recoveries (-)                                 (25,483,273)       (23,716,555)
      3. Obligations net of offsetting collections
          and recoveries                                            $     (881,475)    $       327,147
      4. Less: Offsetting receipts (-)                                            0                  0
      5. Net obligations                                            $     (881,475)    $       327,147
      Other Resources:
      6. Donations and forfeitures of property                                     0                  0
      7. Transfers in/out without reimbursement (+/-)                       (66,968)             17,242
      8. Imputed financing from costs absorbed by others                    429,565             475,066
      9. Other (+/-)                                                        550,987           (346,274)
      10. Net other resources used to finance activities            $       913,584    $       146,034
      11. Total resources used to finance activities                $        32,109    $       473,181
      Resources Used to Finance Items not Part of the Net Cost of
           Operations:
      12. Change in budgetary resources obligated for
          goods, services and benefits ordered but not yet
          provided:
          12a. Undelivered Orders (-)                               $        81,002    $      (176,039)
          12b. Unfilled Customer Orders                                     724,284           (362,387)
      13. Resources that fund expenses recognized in prior
           Periods (-)                                                      (11,715)          (137,451)
      14. Budgetary offsetting collections and receipts that
           do not affect Net Cost of Operations                                    0                  0
      15. Resources that finance the acquisition of assets (-)           (4,402,419)        (4,263,853)
      16. Other resources or adjustments to net obligated
           resources that do not affect Net Cost of
           Operations:
           16a. Less: Trust or Special Fund Receipts
                  Related to exchange in the Entity’s Budget (-)                  0                  0
           16b. Other (+/-)                                               (484,020)            329,032
      17. Total resources used to finance items not part
           of the Net Cost of Operations                            $    (4,092,868)   $    (4,610,698)
      18. Total resources used to finance the Net Cost
           of Operations                                            $    (4,060,759)   $    (4,137,517)
 As of September 30                                                                2008                2007
 (Amounts in thousands)

 Components of the Net Cost of Operations that will
 not Require or Generate Resources in the Current Period:

 Components Requiring or Generating Resources in Future Period:
 19. Increase in annual leave liability                                       $               0   $                0
 20. Increase in environmental and disposal liability                                         0                    0
 21. Upward/Downward reestimates of credit subsidy
     expense (+/-)                                                                            0                    0
 22. Increase in exchange revenue receivable from
     the public (-)                                                                          0                     0
 23. Other (+/-)                                                                       210,736                     0
 24. Total components of Net Cost of Operations that
     will Require or Generate Resources in future
     periods                                                                  $        210,736    $                0

 Components not Requiring or Generating Resources:
 25. Depreciation and amortization                                            $        252,751    $       228,829
 26. Revaluation of assets or liabilities (+/-)                                      1,219,549          1,930,023
 27. Other (+/-)
     27a. Trust Fund Exchange Revenue                                                        0                  0
     27b. Cost of Goods Sold                                                       14,105,206         11,566,742
     27c. Operating Material and Supplies Used                                               0                  0
     27d. Other                                                                    (8,655,455)        (8,263,464)
 28. Total Components of Net Cost of Operations that
     will not Require or Generate Resources                                   $      6,922,051    $     5,462,130

 29. Total components of Net Cost of Operations
     that will not Require or Generate Resources in
     the current period                                                       $      7,132,787    $     5,462,130

 30. Net Cost of Operations                                                   $      3,072,028    $     1,324,613


Due to Navy Working Capital Fund (NWCF) financial system limitations, budgetary data is not in agreement
with proprietary expenses and assets capitalized. The difference between budgetary and proprietary data is a
previously identified deficiency. As a result of these system limitations, resources that finance the acquisition
of assets on the reconciliation of Net Cost of Operations to Budget was adjusted upward by $3.4 billion
(absolute amount) at the end of FY 2008 to bring it into balance with the Statement of Net Cost.

The following Reconciliation of Net Cost of Operations to Budget lines are represented as combined instead
of consolidated due to interagency budgetary transactions not being eliminated:

      n	   Obligations Incurred

      n	   Less: Spending Authority from Offsetting Collections and Recoveries

      n	   Obligations Net of Offsetting Collections and Recoveries


                                                             Department of the Navy 2008 Annual Financial Report       149
150                                                                                        Navy Working Capital Fund

            n	   Less: Offsetting Receipts

            n	   Net Obligations

            n	   Undelivered Orders

            n	   Unfilled Customer Orders


      Line 9 - Other Resources Used to Finance Activities consists of gains and losses associated with the financial
      closure of NWCF activities.

      Line 16b - Other Resources Used to Finance Items not Part of the Net Cost of Operations consists of transfers
      of assets out of NWCF.

      Line 23- Other Components Requiring or Generating Resources in Future Period consists of the Department
      of the Navy’s Federal Employees’ Compensation Act actuarial liability.

      Line 27d - Other Components not Requiring or Generating Resources consists of overhead costs distributed
      to work in process, as well as costs originally recorded into another expense account that are transferred
      to one of three accounts: inventory work in process, internal use software in development, or completed
      assets.


      Note 22.	 Disclosures Related to Incidental Custodial
      		        Collections
      Not applicable.


      Note 23.	 Earmarked Funds
      Not applicable.


      Note 24.	 Other Disclosures
      Not applicable.


      Note 25.	 Restatements
      For Fiscal Year 2008, the Navy Working Capital Fund does not have any restatements.
 Navy Working Capital Fund Required Supplementary Information




    2008
    2008
    Navy Working Capital Fund
Required Supplementary Information




    2008
                                   Department of the Navy 2008 Annual Financial Report   151
152                                                                                 Navy Working Capital Fund

                                          Navy Working Capital Fund
                                    General Property, Plant, and Equipment
                                     Real Property Deferred Maintenance
                                    For Fiscal Year Ended September 30, 2008

      The Navy Working Capital Fund real property deferred maintenance for fiscal year ended September 30,
      2008 is reported with the Department of the Navy General Fund real property deferred maintenance. See
      Department of the Navy General Fund Required Supplementary Information.
Navy Working Capital Fund Other Accompanying Information




   2008
   2008
   Navy Working Capital Fund
Other Accompanying Information




   2008
                               Department of the Navy 2008 Annual Financial Report   153
154                                                                                      Navy Working Capital Fund

      Appropriations, Funds, and Accounts Included in the
      Principal Statements
      Reporting Entity
      Navy Working Capital Fund (NWCF)

      Fund/Account Treasury Symbol and Title
      97X4930.002

      Navy Working Capital Fund Activity Group Treasury Symbol and Title
      97X4930.NA1* 	 Depot Maintenance-Shipyardsa
      97X4930.NA2* 	 Depot Maintenance-Aviation
      97X4930.NA4A*	 Depot Maintenance- Other, Marine Corps
      97X4930.NA3*	 Ordnanceb
      97X4930.ND*	   Transportation
      97X4930.NE*	   Base Support
      97X4930.NH*	   Research and Development
      97X4930.NC*	   Supply Management
      97X4930.NC2A*	 Supply Management, Marine Corps

      Notes
              *	   The “*” represents alpha or numeric characters which identify an activity or reporting segment
                   of the activity group.

              a	   Depot Maintenance, Shipyards became a part of the DON General Fund in FY 2007. The
                   Depot Maintenance, Shipyards information included in this report represents residual NWCF
                   accounting.

              b	   The Ordnance activity group became a part of the DON General Fund in FY 2000. The Ordnance
                   information included in this report represents residual NWCF accounting for this group.
   United States Marine Corps General Fund Principal Statements




       2008
       2008
United States Marine Corps General Fund
          Principal Statements




       2008
                                     Department of the Navy 2008 Annual Financial Report   155
156                                                      United States Marine Corps General Fund




      Limitations to the Financial
      Statements
      The principal financial statements have been prepared
      to report the financial position and results of operations
      of the entity, pursuant to the requirements of 31 United
      States Code 3515 (b). While the statements have been
      prepared from the books and records of the entity
      in accordance with Generally Accepted Accounting
      Principles for Federal entities and the formats prescribed
      by the Office of Management and Budget, the statements
      are in addition to the financial reports used to monitor
      and control budgetary resources which are prepared
      from the same books and records. The statements
      should be read with the realization that they are for a
      component of the U.S. Government, a sovereign entity.
In Fiscal Year (FY) 2006, the Office of the Under Secretary of Defense (Comptroller), with support from the
Department of the Navy, designated the U.S. Marine Corps a financial reporting entity. This designation
allowed the Marine Corps to prepare comprehensive subsidiary financial statements and related notes
beginning in FY 2006.

The Marine Corps shares appropriations with the U.S. Navy and in addition maintains accountability for
its own appropriations. The Marine Corps has specific funds and budget execution unto itself that are
managed by Marine Corps program sponsors. Given this fiduciary responsibility, the Marine Corps is able
to fully comply with Statement of Federal Financial Accounting Concepts Number 2, Entity and Display.


Principal Statements
The FY 2008 U.S. Marine Corps General Fund principal statements and related notes are subsidiary financial
statements and related notes of the Department of the Navy General Fund, and are presented in the format
prescribed by the Department of Defense Financial Management Regulation 7000.14, Volume 6B. The
statements and related notes summarize financial information for individual funds and accounts within
the U.S. Marine Corps General Fund for the fiscal year ending September 30, 2008, and are presented on a
comparative basis with information previously reported for the fiscal year ending September 30, 2007.

The following statements comprise the U.S. Marine Corps General Fund principal statements:

      n	   Consolidated Balance Sheet

      n	   Consolidated Statement of Net Cost

      n	   Consolidated Statement of Changes in Net Position

      n	   Combined Statement of Budgetary Resources


The principal statements and related notes have been prepared to report financial position pursuant to the
requirements of the Chief Financial Officers Act of 1990, as amended by the Government Management Reform
Act of 1994. The accompanying notes should be considered an integral part of the principal statements.




                                                          Department of the Navy 2008 Annual Financial Report   157
158                                                                                         United States Marine Corps General Fund



         Department of Defense
         United States Marine Corps General Fund
         CONSOLIDATED BALANCE SHEET
         As of September 30, 2008 and 2007
            ($ in Thousands)


                                                                                         2008 Consolidated      2007 Consolidated
            ASSETS (Note 2)
             Intragovernmental:
              Fund Balance with Treasury (Note 3)                                                17,809,687             17,271,821
              Accounts Receivable (Note 5)                                                           56,370                 57,516
              Other Assets (Note 6)                                                                     872                  3,083
                 Total Intragovernmental Assets                                                  17,866,929             17,332,420

             Cash and Other Monetary Assets (Note 7)                                                 52,645                 37,783
             Accounts Receivable, Net (Note 5)                                                        7,549                 32,735
             Inventory and Related Property, Net (Note 9)                                         6,439,109              5,694,867
             General Property, Plant and Equipment, Net (Note 10)                                12,028,288              9,209,256
             Other Assets (Note 6)                                                                  663,947                760,944
             Stewardship Property, Plant and Equipment (Note 10) *
            TOTAL ASSETS                                                                         37,058,467             33,068,005

            LIABILITIES (Note 11)
             Intragovernmental:
              Accounts Payable (Note 12)                                                            197,807                282,256
              Other Liabilities (Note 15 & Note 16)                                                  99,600                307,231
                 Total Intragovernmental Liabilities                                                297,407                589,487

             Accounts Payable (Note 12)                                                             853,096              1,302,211
             Military Retirement and Other Federal
              Employment Benefits (Note 17)                                                         219,057                216,869
             Environmental and Disposal Liabilities (Note 14)                                       262,455                224,645
             Other Liabilities (Note 15 & Note 16)                                                1,292,138              1,224,741
             Commitments and Contingencies (Note 16) *
            TOTAL LIABILITIES                                                                     2,924,153              3,557,953

            NET POSITION
             Unexpended Appropriations - Other Funds                                             16,929,956             15,749,077
             Cumulative Results of Operations - Earmarked Funds                                         576                    475
             Cumulative Results of Operations - Other Funds                                      17,203,782             13,760,500
            TOTAL NET POSITION                                                                   34,134,314             29,510,052

            TOTAL LIABILITIES AND NET POSITION                                       $           37,058,467 $           33,068,005



            * - Disclosure but no value required per Federal Accounting Standards.




      The accompanying notes are an integral part of these statements.


  The accompanying notes are an integral part of these statements.
     Department of Defense
     United States Marine Corps General Fund
      CONSOLIDATED STATEMENT OF NET COST
     For the Years Ended September 30, 2008 and 2007
         ($ in Thousands)


                                                                            2008 Consolidated       2007 Consolidated
         Program Costs
           Gross Costs                                                  $            26,840,010 $            24,859,117
           Less: Earned Revenue                                                       (799,394)               (647,068)
           Net Program Costs                                                        26,040,616              24,212,049
         Net Cost of Operations                                         $           26,040,616 $            24,212,049




The accompanying notes are an integral part of these statements.
                                                                   Department of the Navy 2008 Annual Financial Report    159
The accompanying notes are an integral part of these statements.
160                                                                               United States Marine Corps General Fund



        Department of Defense
        United States Marine Corps General Fund
        CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
        For the Years Ended September 30, 2008 and 2007
           ($ in Thousands)


                                                                             2008 Earmarked Funds       2008 All Other Funds
           CUMULATIVE RESULTS OF OPERATIONS
            Beginning Balances                                           $                   474    $            13,760,501
            Prior Period Adjustments
            Beginning Balances, as adjusted                                                  474                 13,760,501
            Budgetary Financing Sources:
             Appropriations used                                                               0                 29,240,578
             Transfers in/out without reimbursement (+/-)                                    153                          0
            Other Financing Sources:
             Transfers in/out without reimbursement (+/-)                                      0                          1
             Imputed financing from costs absorbed by others                                   0                     66,595
             Other (+/-)                                                                       1                    176,671
            Total Financing Sources                                                          154                 29,483,845
            Net Cost of Operations (+/-)                                                      51                 26,040,565
            Net Change                                                                       103                  3,443,280
            Cumulative Results of Operations                             $                   577    $            17,203,781

           UNEXPENDED APPROPRIATIONS
            Beginning Balances                                           $                      0   $            15,749,077
            Prior Period Adjustments (+/-)
            Beginning Balances, as adjusted                                                     0                15,749,077
            Budgetary Financing Sources:
             Appropriations received                                                           0                 29,317,905
             Appropriations transferred-in/out (+/-)                                           0                  1,503,458
             Other adjustments (rescissions, etc) (+/-)                                        0                   (399,906)
             Appropriations used                                                               0                (29,240,578)
            Total Budgetary Financing Sources                                                  0                  1,180,879
            Unexpended Appropriations                                                          0                 16,929,956
            Net Position                                                 $                   577    $            34,133,737




      The accompanying notes are an integral part of these statements.


 The accompanying notes are an integral part of these statements.
     Department of Defense
     United States Marine Corps General Fund
     CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
     For the Years Ended September 30, 2008 and 2007
        ($ in Thousands)


                                                                                2008 Consolidated       2007 Consolidated
        CUMULATIVE RESULTS OF OPERATIONS
         Beginning Balances                                                 $          13,760,975   $           12,457,189
         Prior Period Adjustments
         Beginning Balances, as adjusted                                               13,760,975               12,457,189
         Budgetary Financing Sources:
          Appropriations used                                                          29,240,578               25,400,443
          Transfers in/out without reimbursement (+/-)                                        153                      134
         Other Financing Sources:
          Transfers in/out without reimbursement (+/-)                                          1                    3,535
          Imputed financing from costs absorbed by others                                  66,595                   71,325
          Other (+/-)                                                                     176,672                   40,398
         Total Financing Sources                                                       29,483,999               25,515,835
         Net Cost of Operations (+/-)                                                  26,040,616               24,212,049
         Net Change                                                                     3,443,383                1,303,786
         Cumulative Results of Operations                                   $          17,204,358   $           13,760,975

        UNEXPENDED APPROPRIATIONS
         Beginning Balances                                                 $          15,749,077   $           12,443,304
         Prior Period Adjustments (+/-)
         Beginning Balances, as adjusted                                               15,749,077               12,443,304
         Budgetary Financing Sources:
          Appropriations received                                                       29,317,905              28,863,583
          Appropriations transferred-in/out (+/-)                                        1,503,458                 (86,118)
          Other adjustments (rescissions, etc) (+/-)                                      (399,906)                (71,249)
          Appropriations used                                                          (29,240,578)            (25,400,443)
         Total Budgetary Financing Sources                                               1,180,879               3,305,773
         Unexpended Appropriations                                                      16,929,956              15,749,077
         Net Position                                                       $           34,134,314 $            29,510,052




  The accompanying notes are an integral part of these statements.
                                                                     Department of the Navy 2008 Annual Financial Report      161
The accompanying notes are an integral part of these statements.
162                                                                              United States Marine Corps General Fund



       Department of Defense
       United States Marine Corps General Fund
       COMBINED STATEMENT OF BUDGETARY RESOURCES
       For the Years Ended September 30, 2008 and 2007
          ($ in Thousands)


                                                                             2008 Combined          2007 Combined
          BUDGETARY FINANCING ACCOUNTS
          Budgetary Resources:
            Unobligated balance, brought forward, October 1              $           3,400,875 $             2,582,128
            Recoveries of prior year unpaid obligations                              1,809,015               1,796,992
            Budget Authority:
               Appropriations received                                              29,318,058              28,863,717
               Contract authority                                                                                    0
            Spending authority from offsetting collections:
              Earned
                 Collected                                                            558,199                  617,575
                 Change in receivables from Federal sources                           (15,858)                  18,097
               Change in unfilled customer orders
                 Advances received                                                       2,384                       0
                 Without advance from Federal sources                                   52,551                (71,500)
              Subtotal                                                              29,915,334              29,427,889
            Nonexpenditure Transfers, net, anticipated and actual                    1,503,458                (86,118)
            Temporarily not available pursuant to Public Law                                 0                       0
            Permanently not available                                                (399,906)                (71,249)
            Total Budgetary Resources                                               36,228,776              33,649,642

          Status of Budgetary Resources:
            Obligations incurred:
               Direct                                                               30,413,211              29,635,288
               Reimbursable                                                            645,916                 613,479
               Subtotal                                                             31,059,127              30,248,767
            Unobligated balance:
               Apportioned                                                           4,657,091               2,953,053
               Exempt from apportionment                                                                             0
               Subtotal                                                              4,657,091               2,953,053
            Unobligated balances not available                                         512,558                 447,822
            Total Status of Budgetary Resources                          $          36,228,776 $            33,649,642




      The accompanying notes are an integral part of these statements.

The accompanying notes are an integral part of these statements.
     Department of Defense
     United States Marine Corps General Fund
     COMBINED STATEMENT OF BUDGETARY RESOURCES
     For the Years Ended September 30, 2008 and 2007
        ($ in Thousands)


                                                                                 2008 Combined          2007 Combined
        RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
        Change in Obligated Balance:
         Obligated balance, net
            Unpaid obligations, brought forward, October 1                  $            13,841,236 $           10,418,539
            Less: Uncollected customer payments from
               Federal sources, brought forward, October 1                                (154,247)               (207,650)
            Total Unpaid Obligated Balance                                               13,686,989              10,210,889
         Obligations incurred, net (+/-)                                                 31,059,127              30,248,767
         Less: Gross outlays                                                           (30,222,749)            (25,029,079)
         Less: Recoveries of prior year unpaid obligations, actual                      (1,809,015)             (1,796,992)
         Change in uncollected customer
            payments from Federal sources (+/-)                                            (36,693)                 53,403
         Obligated balance, net, end of period
            Unpaid obligations                                                           12,868,599             13,841,236
            Less: Uncollected customer payments from
               Federal sources                                                            (190,940)              (154,247)
            Total Unpaid Obligated Balance, net, end of period                           12,677,659             13,686,989

        Net Outlays:
         Gross Outlays                                                                   30,222,749             25,029,079
         Less: Offsetting collections                                                     (560,583)              (617,574)
         Less: Distributed Offsetting receipts                                              167,559                 20,195
        Net Outlays                                                         $            29,829,725 $           24,431,700




  The accompanying notes are an integral part of these statements.
                                                                     Department of the Navy 2008 Annual Financial Report      163
The accompanying notes are an integral part of these statements.
164   United States Marine Corps General Fund
United States Marine Corps General Fund Notes to the Principal Statements




          2008
          2008
United States Marine Corps General Fund
    Notes to the Principal Statements




          2008
                                        Department of the Navy 2008 Annual Financial Report   165
166                                                                              United States Marine Corps General Fund

      Note 1.	 Significant Accounting Policies
      1.A. 	 Basis of Presentation
      The United States Marine Corps (USMC), a component of the Department of the Navy (DON) has prepared
      these financial statements to report the financial position and results of operations, as required by the “Chief
      Financial Officers (CFO) Act of 1990,” Public Law 101-590, expanded by the “Government Management
      Reform Act of 1994,” Public Law 103-356, and other appropriate legislation. Though USMC produces General
      Fund (GF) financial statements as a stand-alone entity, USMC remains a subsidiary of the DON financial
      statements and reporting process. The financial statements have been prepared from the books and records
      of USMC GF in accordance with the Department of Defense (DoD), Financial Management Regulation (FMR),
      the Office of Management and Budget (OMB) Circular No. A-136, “Financial Reporting Requirements,”
      and to the extent possible, generally accepted accounting principles (GAAP). The accompanying financial
      statements account for all resources for which USMC GF is responsible unless otherwise noted.

      Information relative to classified assets, programs, and operations is aggregated and reported in such a
      manner that it is not discernable. In addition to the financial statements, and pursuant to OMB directives,
      USMC GF also prepares financial reports that are used to monitor and control the use of budgetary
      resources.

      The USMC GF is unable to fully implement all elements of GAAP and OMB Circular A-136, due to limitations
      of its financial and nonfinancial management processes and systems that feed into the financial statements.
      The USMC GF derives its reported values and information for major asset and liability categories largely
      from nonfinancial systems, such as inventory systems and logistic systems. These systems were designed
      to support reporting requirements for maintaining accountability over assets and reporting the status of
      federal appropriations rather than preparing financial statements in accordance with GAAP. The USMC GF
      continues to implement process and system improvements addressing these limitations.

      The DoD currently has several auditor identified financial material weaknesses. In designing the improved
      financial management and financial reporting structure, USMC GF management recognized the existence
      of several auditor identified financial statement material weaknesses at DoD. The USMC GF management
      has enabled a combined system of Standard Accounting, Budgeting, and Reporting System (SABRS) core
      financial system controls; standard process controls and internal audit monitoring process; extensive data
      quality reviews to mitigate risks. The USMC Financial Improvement Initiative (FII) program completed
      in-depth assessment that identified the existence of the following financial statement material weaknesses:
      (1) Financial Management Systems, (2) General Property, Plant, and Equipment (PP&E), (3) Accounts
      Payable, and (4) Environmental Liabilities. The USMC FII has designed efforts to improve and refine
      financial accounting and financial reporting processes to remediate and mitigate several remaining financial
      management issues including those identified as potential financial statement material weaknesses.

      1.B. 	 Mission of the Reporting Entity
      The USMC was created on November 10, 1775 by an act of the 2nd Continental Congress. The overall mission
      of USMC is to provide trained and equipped forces to Combatant Commanders in support of the President’s
      National Security Strategy. As set forth in the “National Security Act of 1947,” USMC missions are: to
      seize and defend advanced naval bases and to conduct such land operations as may be essential to the
      prosecution of a naval campaign; to provide detachments and organizations for service in armed vessels of
      the Navy or for protection of naval property on naval stations and bases; to develop, with the other Armed
Forces, the tactics, techniques, and equipment employed by landing forces in amphibious operations; to
train and equip, as required, Marine forces for airborne operations; to develop, with the other Armed Forces,
doctrine, procedures, and equipment of interest to USMC for airborne operations which are not provided
for by the Army; and to be able to expand from a peacetime posture to meet the needs of war in accordance
with mobilization plans.

1.C. 	 Appropriations and Funds
The USMC GF receives its appropriations and funds as general, special, and deposit funds. These
appropriations and funds may be either provided solely to USMC GF or shared with other DON activities.
The USMC GF uses these appropriations and funds to execute its mission and subsequently report on
resource usage.

General funds are used for financial transactions funded by congressional appropriations, including military
personnel, operation and maintenance, research and development, and procurement.

Special funds accounts are used to record government receipts reserved for a specific purpose. Certain special
funds may be designated as earmarked funds. Earmarked funds are financed by specifically identified
revenues, required by statute to be used for designated activities, benefits or purposes, and remain available
over time. Earmarked funds also have a requirement to account for and report on the receipt, use and
retention of revenues and other financing sources that distinguish them from general revenues.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or
public entity. The USMC GF is acting as an agent or a custodian for funds awaiting distribution.

1.D. 	 Basis of Accounting
For fiscal year (FY) 2008, USMC GF’s financial management systems are unable to meet all requirements
for full accrual accounting. Many of USMC GF’s financial and nonfinancial feeder systems and processes
were designed and implemented prior to the issuance of GAAP for federal agencies. These systems were
not designed to collect and record financial information on the full accrual accounting basis as required by
GAAP. Most of USMC GF’s (financial and nonfinancial) legacy systems were designed to record information
on a budgetary basis.

The DoD has undertaken efforts to determine the actions required to bring financial and nonfinancial
feeder systems and processes into compliance with GAAP. One such action is the current revision of its
accounting systems to record transactions based on the U.S. Standard General Ledger (USSGL). The USMC
GF accounting system, SABRS, is GAAP, USSGL, and Standard Financial Information Structure (SFIS)
compliant. The SABRS is a transaction driven general ledger accounting system that utilizes standardized
transactions for processing. The USMC GF management recognizes the existence of USMC GF dependencies
related to DoD financial and nonfinancial systems. The SABRS is interfaced with DoD approved business
enterprise systems, such as the Defense Travel System, Standard Procurement System, Defense Civilian
Personnel System, Defense Property Accountability System, and Wide Area Work Flow. These interfaces
improve financial reporting and eliminate manual recording by capturing data from the source systems.
Until all financial and nonfinancial feeder systems and processes are updated to collect and report financial
information as required by GAAP, USMC GF’s financial data will be derived from budgetary transactions
(obligations, disbursements, and collections), transactions from nonfinancial feeder systems, and accruals

                                                            Department of the Navy 2008 Annual Financial Report   167
168                                                                              United States Marine Corps General Fund

      made for major items such as payroll expenses, accounts payable, and environmental liabilities.

      1.E. 	 Revenues and Other Financing Sources
      The USMC GF receives congressional appropriations as financing sources for general funds on either an
      annual or a multi-year basis. When authorized by legislation, these appropriations are supplemented by
      revenues generated by sales of goods or services. The USMC GF recognizes revenue as a result of costs
      incurred or services provided to other federal agencies and the public. Full cost pricing is USMC GF’s
      standard policy for services provided as required by OMB Circular A-25, “Transmittal Memorandum #1,
      User Charges.” The USMC GF recognizes revenue when earned within the constraints of current system
      capabilities. In some instances, revenue is recognized when bills are issued.

      The USMC GF does not include nonmonetary support provided by U.S. allies for common defense and
      mutual security in the Statement of Net Cost and the Note 21, “Reconciliation of Net Cost of Operations to
      Budget.” The U.S. has cost sharing agreements with other countries. Examples include countries where
      there is a mutual or reciprocal defense agreement, where U.S. troops are stationed, or where the U.S. Fleet
      is in port.

      1.F. 	 Recognition of Expenses
      For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period
      incurred. However, because USMC GF’s financial and nonfinancial feeder systems were not designed to
      collect and record financial information on the full accrual accounting basis, accruals are made for major
      items such as payroll expenses, accounts payable, environmental liabilities, and unbilled revenue. In the
      case of Operating Materiel and Supplies (OM&S), operating expenses are generally recognized when the
      items are purchased; however, the USMC GF has implemented the consumption method for recognizing
      OM&S expenses for certain items. Operating expenses are adjusted as a result of the elimination of trading
      partner balances between DoD components.

      1.G. 	 Accounting for Intragovernmental Activities
      Preparation of reliable financial statements requires the elimination of transactions occurring among entities
      within DoD or between two or more federal agencies. The USMC GF accounts for all intragovernmental
      transactions at the transaction level. In an effort to more efficiently identify intragovernmental transactions
      by customer, USMC GF has implemented the DoD’s trading partner requirements in its accounting
      system to capture trading partner data. Generally, seller entities within DoD provide summary seller-
      side balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal DoD
      accounting offices. In most cases, the buyer-side records are adjusted to agree with DoD seller-side balances.
      IntraDoD intragovernmental balances are then eliminated. The DoD system limitations and the volume of
      intragovernmental transactions is so large that after-the-fact reconciliation cannot be accomplished effectively
      with existing or foreseeable resources. The DoD is developing long-term system improvements that will
      include sufficient up-front edits and controls eliminating the need for after-the-fact reconciliations.

      The U.S. Treasury Financial Management Service is responsible for eliminating transactions between
      DoD and other federal agencies. The Treasury Financial Manual, Part 2-Chapter 4700, “Agency Reporting
      Requirements for the Financial Report of the United States Government,” and the U.S. Treasury’s “Federal
      Intragovernmental Transactions Accounting Policy Guide” provide guidance for reporting and reconciling
      intragovernmental balances. While USMC GF is unable to fully reconcile intragovernmental transactions with
all federal partners, USMC GF is able to reconcile balances pertaining to “Federal Employees’ Compensation
Act” transactions with the Department of Labor, and benefit program transactions with Office of Personnel
Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not
included. The Federal Government does not apportion debt and its related costs to federal agencies. The
DoD’s financial statements, therefore, do not report any portion of the public debt or interest thereon, nor do
the statements report the source of public financing whether from issuance of debt or tax revenues.

Financing for the construction of DoD facilities is obtained through appropriations. To the extent this
financing ultimately may have been obtained through the issuance of public debt, interest costs have not
been capitalized since the U.S. Treasury does not allocate such interest costs to the benefiting agencies.

1.H. 	 Transactions with Foreign Governments and International Organizations
Each year, USMC GF sells defense articles and services to foreign governments and international organizations
under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act, DoD has
authority to sell defense articles and services to foreign countries and international organizations, generally
at no profit or loss to the U.S. Government. Payment in U.S. dollars is required in advance.

1.I. 	 Funds with the U.S. Treasury
The USMC GF monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of
Defense Finance and Accounting Service (DFAS), the Military Services, the U.S. Army Corps of Engineers
(USACE), and the Department of State’s financial service centers process the majority of USMC GF’s cash
collections, disbursements, and adjustments worldwide. Each disbursing station prepares monthly reports
to the U.S. Treasury on check issues, electronic fund transfers, interagency transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation
on interagency transfers, collections received, and disbursements issued. The U.S. Treasury records these
transactions to the applicable Fund Balance with Treasury (FBWT) account. The USMC GF’s recorded
balance in FBWT accounts and U.S. Treasury’s FBWT accounts must balance monthly.

1.J. 	 Foreign Currency
Cash is the total of cash resources under the control of DoD, which includes coin, paper currency, negotiable
instruments, and amounts held for deposits in banks and other financial institutions. Foreign currency
consists of the total U.S. dollar equivalent of both purchased and nonpurchased foreign currencies held in
foreign currency fund accounts.

The majority of cash and all foreign currency is classified as nonentity and is restricted. Amounts reported
consist primarily of cash and foreign currency held by disbursing officers to carry out their paying, collecting,
and foreign currency accommodation exchange missions.

The USMC GF conducts a significant portion of its operations overseas. The Congress established a special
account to handle the gains and losses from foreign currency transactions for five general fund appropriations:
operations and maintenance, military personnel, military construction, family housing operations and


                                                             Department of the Navy 2008 Annual Financial Report    169
170                                                                            United States Marine Corps General Fund

      maintenance, and family housing construction. The gains and losses are computed as the variance between
      the exchange rate current at the date of payment and a budget rate established at the beginning of each
      fiscal year. Foreign currency fluctuations related to other appropriations require adjustment to the original
      obligation amount at the time of payment. The USMC GF does not separately identify currency fluctuation
      transactions.

      1.K. 	 Accounts Receivable
      As presented in the Balance Sheet, accounts receivable includes three categories: accounts, claims, and
      refunds receivable from other federal entities or from the public. Allowances for uncollectible accounts due
      from the public are based upon analysis of collection history by fund type. The DoD does not recognize an
      allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal
      agencies are to be resolved between the agencies in accordance with dispute resolution procedures defined
      in the Intragovernmental Business Rules published in the Treasury Financial Manual.

      1.L. 	 Direct Loans and Loan Guarantees
      Not applicable.

      1.M. 	 Inventories and Related Property
      The USMC GF reports its inventory of repair parts, munitions, and ammunition in related property as OM&S.
      The USMC GF manages only military or government specific materiel under normal conditions. Materiel is
      a unique term that relates to military force management, and includes all items (including ships, tanks, self-
      propelled weapons, aircraft, etc., and related spares, repair parts, and support equipment, but excluding real
      property, installations, and utilities) necessary to equip, operate, maintain and support military activities
      without distinction as to its application for administrative or combat purposes. Items commonly used in
      and available from the commercial sector are not managed in USMC GF OM&S management activities. The
      USMC GF holds materiel based on military need and support for contingencies.

      The OM&S nonammunition inventories are valued at cost using the latest acquisition cost method and are
      comprised of high volume, high turnover, lower unit price supplies. The latest acquisition cost unit prices
      represent end of period contract prices. The USMC GF management has performed analysis to support that
      period end OM&S nonammunition account value is comparable to values of such inventories computed at
      the Lower of Cost or Market pricing method.

      Most of USMC GF’s OM&S ammunition inventories are currently reported using latest acquisition cost
      adjusted for holding gains and losses. The USMC GF uses the latest acquisition cost method because legacy
      OM&S inventory systems were designed for materiel management rather than accounting. Older OM&S
      munitions are reported at standard price. Although the legacy systems provide visibility and accountability
      over items, they do not maintain historical cost data necessary to comply with SFFAS No. 3, “Accounting for
      Inventory and Related Property.” Additionally, these systems cannot produce financial transactions using
      the USSGL, as required by the “Federal Financial Management Improvement Act of 1996” (P.L. 104-208).

      The USMC GF uses both the consumption method and the purchase method. Items that are centrally
      managed and stored inventories such as ammunition, tactical missiles, spare parts, and engines are expensed
      based on the consumption method. Noncentrally managed inventories are accounted for on a purchase
      method which expenses materiel and supplies as purchased. The GCSS system will serve to provide unit
accountability to account for all items on the consumption method of accounting. For FY 2008, OM&S
inventories are presented in accordance with GAAP.

The USMC GF determined that the recurring high dollar value of OM&S in need of repair is material to the
financial statements and requires a separate reporting category. Many high dollar items are categorized as
OM&S rather than military equipment.

The USMC GF recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.” The cost of
disposal is greater than the potential scrap value; therefore, the net value of condemned materiel is zero.
Potentially redistributed materiel, presented in previous years as “Excess, Obsolete, and Unserviceable,” is
included in the “Held for Use” or “Held for Repair” categories according to its condition.

1.N. 	 Investments in U.S. Treasury Securties
The USMC GF investments in U.S. Treasury securities are reported in the DON General Fund Financial
Statements.

1.O. 	 General Property, Plant and Equipment
The USMC GF uses the estimated historical cost for valuing military equipment. The DoD identified the
universe of military equipment by accumulating information relating to program funding and associated
military equipment, equipment useful life, and program acquisitions and disposals to create a baseline. The
military equipment baseline is updated using expenditure, acquisition and disposals information.

The USMC GF’s General Property Plant & Equipment (General PP&E) capitalization threshold is
$100 thousand except for real property which is $20 thousand. The USMC GF has not implemented the
threshold for real property. The USMC GF is currently using the capitalization threshold of $100 thousand
for all General PP&E.

General PP&E assets, exclusive of military equipment, are capitalized at historical acquisition cost
when an asset has a useful life of two or more years and when the acquisition cost equals or exceeds
the DoD capitalization threshold. The DoD also requires the capitalization of improvements to existing
General PP&E assets if the improvements equal or exceed DoD capitalization threshold and extend the
useful life or increase the size, efficiency, or capacity of the asset. The DoD depreciates all General PP&E,
other than land, on a straight-line basis.

General PP&E previously capitalized at amounts below $100 thousand were written off GF financial
statements in FY 1998.

When it is in the best interest of the government, the USMC GF provides government property to contractors
to complete contract work. The USMC GF either owns or leases such property, or it is purchased directly
by the contractor for the government based on the contract terms. When the value of contractor-procured
General PP&E exceeds the DoD capitalization threshold, federal accounting standards require that it be
reported on USMC GF’s Balance Sheet.

The DoD is developing new policies and a contractor reporting process for Government Furnished
Equipment that will provide appropriate General PP&E information for future financial statement reporting

                                                           Department of the Navy 2008 Annual Financial Report   171
172                                                                              United States Marine Corps General Fund

      purposes. Accordingly, USMC GF reports only government property in the possession of contractors that is
      maintained in USMC GF’s property systems. The DoD has issued new property accountability and reporting
      requirements that require USMC GF to maintain, in their property systems, information on all property
      furnished to contractors. This action and other DoD proposed actions are structured to capture and report
      the information necessary for compliance with federal accounting standards.

      1.P. 	 Advances and Prepayments
      When advances are permitted by law, legislative action, or presidential authorization, the DoD’s policy is to
      record advances and prepayments in accordance with GAAP. As such, payments in advance of the receipt
      of goods and services are reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or
      properly classify assets when the related goods and services are received. The USMC GF has implemented
      this policy.

      1.Q. 	 Leases
      Lease payments for the rental of operating facilities are classified as either capital or operating leases. When
      a lease is essentially equivalent to an installment purchase of property (a capital lease), USMC GF records
      the applicable asset and liability if the value equals or exceeds the current DoD capitalization threshold.
      The USMC GF records the amounts as the lesser of the present value of the rental and other lease payments
      during the lease term (excluding portions representing executory costs paid to the lessor) or the asset’s fair
      market value. The discount rate for the present value calculation is either the lessor’s implicit interest rate
      or the government’s incremental borrowing rate at the inception of the lease. The USMC GF as the lessee
      receives the use and possession of leased property, for example real estate, from a lessor in exchange for a
      payment of funds. An operating lease does not substantially transfer all benefits and risk of ownership.
      Payments for operating leases are charged to expense over the lease term as it becomes payable.

      Office space and leases entered into by USMC GF in support of contingency operations are the largest
      component operating leases. These costs were gathered from existing leases, General Services Administration
      (GSA) bills, and Interservice Support Agreements. Future year projections use the Consumer Price Index
      (CPI), rather than DoD inflation factor. The CPI impacts increases to the leases, especially those at commercial
      lease sites.

      1.R. 	 Other Assets
      Other assets includes those assets, such as military and civil service employee pay advances, travel advances,
      and certain contracting financing payments that are not reported elsewhere on USMC GF’s Balance Sheet.

      The USMC GF conducts business with commercial contractors under two primary types of contracts: fixed
      price and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term
      contracts can cause, USMC GF may provide financing payments. Contract financing payments are defined
      in the Federal Acquisition Regulations, Part 32, as authorized disbursements of monies to a contractor prior
      to acceptance of supplies or services by the Federal Government. Contract financing payment clauses are
      incorporated in the contract terms and conditions and may include advance payments, performance-based
      payments, commercial advance and interim payments, progress payments based on cost, and interim
      payments under certain cost-reimbursement contracts.
Contract financing payments do not include invoice payments, payments for partial deliveries, lease and
rental payments, or progress payments based on a percentage or stage of completion, which the Defense
Federal Acquisition Regulations Supplement authorizes only for construction of real property, shipbuilding,
and ship conversion, alteration, or repair. It is DoD policy to record contract financing payments as Other
Assets.

1.S. 	 Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12,
“Recognition of Contingent Liabilities Arising from Litigation,” defines a contingency as an existing condition,
situation, or set of circumstances that involves an uncertainty as to possible gain or loss. The uncertainty
will be resolved when one or more future events occur or fail to occur. The USMC GF recognizes contingent
liabilities when past events or exchange transactions occur, a future loss is probable, and the loss amount can
be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but
there is at least a reasonable possibility of incurring a loss or additional losses. Examples of loss contingencies
include the collectibility of receivables, pending or threatened litigation, possible claims and assessments.
The USMC GF’s risk of loss and resultant contingent liabilities arise from pending or threatened litigation
or claims and assessments due to events such as vehicle accidents, property or environmental damages, and
contract disputes.

Other liabilities arise as a result of anticipated disposal costs for USMC GF’s assets. This type of liability
has two components: nonenvironmental and environmental. Consistent with SFFAS No. 6, “Accounting
for Property, Plant, and Equipment,” recognition of an anticipated environmental disposal liability begins
when the asset is placed into service. Nonenvironmental disposal liabilities are recognized for assets when
management decides to dispose of the asset based upon DoD’s policy, which is consistent with SFFAS No. 5,
“Accounting for Liabilities of Federal Government.”

1.T. 	 Accrued Leave
The USMC GF reports as liabilities military leave and civilian earned leave, except sick leave, that has been
accrued and not used as of the Balance Sheet date. Sick leave is expensed as taken. The liability reported at
the end of the accounting period reflects the current pay rates.

1.U. 	 Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended appropriations represent the amounts of authority that are unobligated and have not been
rescinded or withdrawn. Unexpended appropriations also represent amounts obligated for which legal
liabilities for payments have not been incurred.

Cumulative results of operations represent the net difference, since inception of an activity, between expenses
and losses and financing sources (including appropriations, revenue, and gains). Beginning with FY 1998,
the cumulative results also include donations and transfers in and out of assets that were not reimbursed.



                                                               Department of the Navy 2008 Annual Financial Report    173
174                                                                               United States Marine Corps General Fund

      1.V. 	 Treaties for Use of Foreign Bases
      The DoD has the use of the land, buildings, and other overseas facilities that are obtained through various
      international treaties and agreements negotiated by the Department of State. The USMC GF purchases
      capital assets overseas with appropriated funds; however, the host country retains the title to land and
      improvements. Generally, treaty terms allow USMC GF continued use of these properties until the treaties
      expire. In the event treaties or other agreements are terminated, whereby use of the foreign bases is
      prohibited, losses are recorded for the value of any nonretrievable capital assets. The settlement due to the
      U.S. or host nation is negotiated and takes into account the value of capital investments and may be offset by
      the cost of environmental cleanup.

      1.W. 	 Comparative Data
      The USMC GF financial statements and notes are presented on a comparative basis.

      1.X. 	 Unexpended Obligations
      The USMC GF obligates funds to provide goods and services for outstanding orders not yet delivered.
      Unless the title has passed, the financial statements do not reflect a liability for payment for goods and
      services not yet delivered. Unexpended obligations included both obligations for which goods and services
      have been delivered (title passed) and a liability recognized, obligations for which no delivery has occurred
      and no liability recognized. The balance of unexpended obligations appears immediately before net outlays
      in the Statement of Budgetary Resources, and in referred to as “Total, unpaid obligated balances, net, end
      of period.”

      1.Y. 	 Undistributed Disbursements and Collections
      Undistributed disbursements and collections represent the difference between disbursements and collections
      matched at the transaction level to a specific obligation, payable, or receivable in the activity field records as
      opposed to those reported by the U.S. Treasury. These amounts should agree with undistributed amounts
      reported on the monthly accounting reports. In-transit payments are those payments that have been made,
      but have not been recorded in the fund holder’s accounting records. These payments are applied to the
      entities’ outstanding accounts payable balance. In-transit collections are those collections from other agencies
      or entities that have not been recorded in the accounting records. These collections are also applied to the
      entities’ accounts receivable balance.

      The DoD policy is to allocate supported undistributed disbursements and collections between federal and
      nonfederal categories based on the percentage of distributed federal and nonfederal accounts payable
      and accounts receivable. Unsupported undistributed disbursements are recorded in accounts payable.
      Unsupported undistributed collections are recorded in other liabilities.

      1.Z. 	 Significant Events
      Not applicable.
Note 2.	 Nonentity Assets
As of September 30                                           2008                            2007
(Amounts in thousands)

1. Intragovernmental Assets
   A. Fund Balance with Treasury                   $                 129,938     $                    204,152
   B. Accounts Receivable                                                  0                                0
   C. Total Intragovernmental Assets               $                 129,938     $                    204,152

2. Nonfederal Assets
   A. Cash and Other Monetary Assets               $                  52,645     $                     37,783
   B. Accounts Receivable                                                407                              278
   C. Other Assets                                                         0                                0
   D. Total Nonfederal Assets                      $                  53,052     $                     38,061


3. Total Nonentity Assets                          $                 182,990     $                    242,213

4. Total Entity Assets                             $              36,875,477     $                  32,825,792


5. Total Assets                                    $              37,058,467     $                  33,068,005



Nonentity assets are assets for which USMC GF maintains stewardship accountability and responsibility to
report, but are not available for USMC’s operations.

The nonentity fund balance with Treasury represents amounts in USMC GF deposit fund accounts. The deposit
fund accounts contain various withholdings from Marines’ pay such as taxes, allotments, and garnishments
held until the appropriate disbursement date. The USMC GF maintains stewardship accountability and
reporting responsibility for these assets, but the assets are not available for use in operations.

Nonentity cash and other monetary assets represent disbursing officers’ cash and foreign currency as
reported on the Statement of Accountability. These assets are held by USMC disbursing officers, as agents
of the U.S. Treasury, and are not available for use in USMC’s operations.

The nonentity nonfederal accounts receivable represents interest, fines, and penalties receivable on aged
delinquent debt. Once collected, nonentity receivables are deposited to the U.S. Treasury as miscellaneous
receipts.




                                                          Department of the Navy 2008 Annual Financial Report    175
176                                                                             United States Marine Corps General Fund

      Note 3.	 Fund Balance with Treasury
       As of September 30                                                2008                        2007
       (Amounts in thousands)


       1. Fund Balances
          A. Appropriated Funds                                $             17,679,140    $             17,067,169
          B. Revolving Funds                                                          0                           0
          C. Trust Funds                                                              0                           0
          D. Special Funds                                                          610                         500
          E. Other Fund Types                                                   129,937                     204,152
          F. Total Fund Balances                               $             17,809,687    $             17,271,821



       2. Fund Balances Per Treasury Versus Agency
          A. Fund Balance per Treasury                         $             15,793,969    $             15,543,476
          B. Fund Balance per USMC General Fund                              17,809,687                  17,271,821

       3. Reconciling Amount                                   $             (2,015,718)   $             (1,728,345)

      Explanation of Reconciliation Amount
                       (In thousands)
                       Shared Appropriations per USMC GF*                              $2,346,193
                       Suspense and Deposit Accounts per USMC GF**                      (166,231)
                       Cancelling Year Appropriations ***                               (164,244)
                       Total Reconciling Amount                                        $2,015,718

      *This amount is the fund balance with Treasury for USMC GF portion of appropriations shared with the
      Department of the Navy (DON): Research and Development, Test and Evaluation, Navy; Procurement of
      Ammunition, Navy and Marine Corps; Wildlife Conservation, Military Reservations, Navy; and Family
      Housing Operation and Maintenance, Navy and Marine Corps. The U.S. Treasury maintains and reports
      fund balances at the Treasury Index appropriation level. As a result, the U.S. Treasury does not separately
      identify USMC GF portion of fund balance with Treasury for the shared appropriations.

      **This amount is the fund balance with Treasury for suspense and deposit accounts shared with DON:
      Disbursing Officer Suspense Account; Lost or Cancelled Treasury Checks Suspense Account; Interfund/
      Intragovernmental Payment and Collection (IPAC) Suspense Account; and Small Escrow Amounts Deposit
      Account. The U.S. Treasury does not separately identify USMC GF portion of fund balance with Treasury
      for the shared suspense and deposit accounts.

      ***This amount is the total of fund balance with Treasury of the appropriations that are cancelling in FY 2008.
      This amount is not included in the final reports per applicable guidance.

      Other fund types represent USMC GF deposit fund accounts. The deposit fund accounts contain various
      withholdings from Marines’ pay such as taxes, allotments, and garnishments held until the appropriate
      disbursement date. The USMC GF maintains stewardship accountability and reporting responsibility for
      these assets, but the assets are not available for use in USMC GF operations.
Status of Fund Balance with Treasury
As of September 30                                             2008                            2007
(Amounts in thousands)
1. Unobligated Balance
   A. Available                                    $                   4,657,091    $                 2,953,053
   B. Unavailable                                                        512,559                        447,822

2. Obligated Balance not yet Disbursed             $                  12,868,599    $                13,841,236

3. Nonbudgetary FBWT                               $                     (37,622)   $                   183,957

4. NonFBWT Budgetary Accounts                      $                   (190,940)    $                 (154,247)

5. Total                                           $                  17,809,687    $                17,271,821



The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support the FBWT.

Unobligated balance represents the cumulative amount of budgetary authority that has not been set aside to
cover outstanding obligations. Unobligated balance is classified as available or unavailable and is associated
with appropriations expiring at fiscal year end that remain available only for obligation adjustments until
the account is closed.

Obligated balance not yet disbursed represents funds that have been obligated for goods that have not been
received, services that have not been performed, and goods and services that have been delivered/received
but not yet paid.

Nonbudgetary FBWT includes entity and nonentity FBWT accounts which represent adjustments that do
not have budgetary authority, such as unavailable receipt accounts or clearing accounts. Nonbudgetary
FBWT is comprised of the fund balance with Treasury for the Disbursing Officer Suspense Account, Lost or
Cancelled Treasury Checks Suspense Account, Interfund/IPAC Suspense Account, Small Escrow Accounts
Deposit Account, and the Pay of the Marine Corps Deposit Account.

NonFBWT budgetary accounts represent adjustments to budgetary accounts that do not affect FBWT.
NonFBWT budgetary accounts are comprised of unfilled customer orders without advance and
reimbursements and other income earned-receivable. This category reduces the Status of FBWT.

Unobligated balances are segregated to show available and unavailable amounts in the note schedule.
Certain unobligated balances may be restricted to future use and are not apportioned for current use. The
USMC GF has no restrictions on unavailable/unobligated balances.


Note 4.	 Investments and Related Interest
The USMC GF investments and related interest are reported under the Department of the Navy General
Fund.



                                                            Department of the Navy 2008 Annual Financial Report   177
178                                                                                   United States Marine Corps General Fund

      Note 5.	 Accounts Receivable
      As of September 30                                                     2008                                      2007
                                                                         Allowance For
                                                      Gross Amount                              Accounts           Accounts
                                                                          Estimated
                                                             Due                             Receivable, Net    Receivable, Net
                                                                         Uncollectibles
      (Amounts in thousands)

      1. Intragovernmental Receivables                $     56,370                  N/A      $        56,370    $       57,516
      2. Nonfederal Receivables (From the
         Public)                                      $     20,059   $        (12,510)       $          7,549   $       32,735


      3. Total Accounts Receivable                    $     76,429   $        (12,510)       $        63,919    $       90,251



      Note 6.	 Other Assets
      As of September 30                                                        2008                            2007
      (Amounts in thousands)

      1. Intragovernmental Other Assets
         A. Advances and Prepayments                                 $                       872    $                    3,083
         B. Other Assets                                                                       0                             0
         C. Total Intragovernmental Other Assets                     $                       872    $                    3,083

      2. Nonfederal Other Assets
         A. Outstanding Contract Financing Payments                  $                    635,080   $                  740,207
         B. Advances and Prepayments                                                       28,867                       20,737
         C. Other Assets (With the Public)                                                      0                            0
         D. Total Nonfederal Other Assets                            $                    663,947   $                  760,944


      3. Total Other Assets                                          $                    664,819   $                  764,027

      Other assets (with the public) is comprised of travel advances made to Marines and civilian personnel.

      Contract terms and conditions for certain types of contract financing payments convey certain rights to USMC
      GF that protect the contract work from state or local taxation, liens or attachment by the contractor’s creditors,
      transfer of property, or disposition in bankruptcy; however, these rights should not be misconstrued to mean
      that ownership of the contractor’s work has transferred to the Government. The Government does not have
      the right to take the work, except as provided in contract clauses related to termination or acceptance, and
      USMC GF is not obligated to make payment to the contractor until delivery and acceptance.

      The Contract Financing Payment balance of $635.1 million is comprised of $588.6 million in contract financing
      payments and an additional $46.4 million in estimated future payments that will be paid to the contractor
      upon future delivery and Government acceptance of a satisfactory product. (See additional discussion in
      Note 15, Other Liabilities).
Note 7.	 Cash and Other Monetary Assets
 As of September 30                                                          2008                 2007
 (Amounts in thousands)

 1. Cash                                                                $         52,645    $          37,768
 2. Foreign Currency                                                                   0                   15
 3. Other Monetary Assets                                                              0                    0

 4. Total Cash, Foreign Currency, & Other Monetary Assets               $         52,645    $          37,783



Cash and foreign currency are nonentity assets and, as such, are considered restricted assets that are held
by USMC GF but not available to use in its operations. Cash of $52.6 million is restricted. Cash is held by
USMC disbursing officers as agents of the U.S. Treasury.

The amounts reported as cash consist of cash held by disbursing officers to carry out their payment,
collection, and foreign currency accommodation exchange mission. The source of the amounts reported is
the Statement of Accountability, a DoD disbursing officer’s report.


Note 8.	 Direct Loan and Loan Guarantees
Not applicable.


Note 9.	 Inventory and Related Property
As of September 30                                     2008                                2007
(Amounts in thousands)

1. Inventory, Net                         $                             0    $                              0
2. Operating Materiel & Supplies, Net                           6,439,109                           5,694,867
3. Stockpile Materiel, Net                                              0                                   0

4. Total                                  $                     6,439,109    $                      5,694,867




Inventory, Net
Not applicable.




                                                          Department of the Navy 2008 Annual Financial Report   179
180                                                                                               United States Marine Corps General Fund

      Operating Materiel and Supplies, Net
      As of September 30                                                          2008                                     2007
                                                               OM&S             Revaluation                                               Valuation
                                                                                                      OM&S, Net           OM&S, Net
                                                             Gross Value        Allowance                                                  Method
      (Amounts in thousands)

      1. OM&S Categories
        A. Held for Use                                  $     5,928,868    $                 0   $    5,928,868      $    5,179,630      SP, LAC
        B. Held for Repair                                       510,241                      0          510,241             515,237      SP, LAC

        C. Excess, Obsolete, and Unserviceable                    88,964           (88,964)                       0                   0    NRV


        D. Total                                         $     6,528,073    $      (88,964)       $    6,439,109      $    5,694,867

      Legend for Valuation Methods:
      Adjusted LAC = Latest Acquisition Cost, adjusted for holding         NRV = Net Realizable Value
           gains and losses
      SP = Standard Price                                                  O = Other
      AC = Actual Cost                                                     MAC = Moving Average Cost



      General Composition of Operating Materiel and Supplies
      Operating materiel and supplies include (1) ammunition and munitions that consists of spare and repair
      parts and conventional missiles, and (2) Appropriation Purchase Account (APA) Secondary Inventory that
      consists of spare and repair parts, clothing and textiles, medical and dental supplies, and fuel.

      Restrictions on Operating Materiel and Supplies
      There are no restrictions on the use of operating materiel and supplies.

      Decision Criteria for Identifying the Category to which Operating Materiel and Supplies are Assigned
      The USMC GF determines reporting categories for operating materiel and supplies based on condition codes
      assigned to individual inventory items.

      Of the $6.4 billion operating materiel and supplies, $4.9 billion is valued using latest acquisition cost adjusted
      for gains and losses, the remaining $1.5 billion is valued at standard price.


      Stockpile Materiel, Net
      Not applicable.
Note 10.	 General PP&E, Net
As of September 30                                                      2008                                                        2007
                                 Depreciation/                                         (Accumulated
                                                  Service        Acquisition                                   Net Book           Prior FY Net
                                 Amortization                                          Depreciation/
                                                   Life            Value                                        Value             Book Value
                                   Method                                              Amortization)
(Amounts in thousands)

1. Major Asset Classes
   A. Land                           N/A           N/A       $       166,286                     N/A       $       166,286    $        164,118
   B. Buildings, Structures,
      and Facilities                  S/L        20 or 40          7,975,979       $     (4,264,255)             3,711,724          3,567,481
   C. Leasehold                                    lease
      Improvements                   S/L            term                   0                       0                     0                  0
   D. Software                       S/L         2-5 or 10                 0                       0                     0                  0
   E. General Equipment              S/L          5 or 10            507,536               (173,235)               334,301             42,754
   F. Military Equipment             S/L          Various         10,119,025             (2,303,048)             7,815,977          5,434,903
   G. Assets Under Capital                         lease
      Lease                           S/L           term                       0                       0                  0                      0
   H. Construction-in-
      Progress                       N/A           N/A                     0                     N/A                    0                   0
   I. Other                                                                0                       0                    0                   0
   J. Total General PP&E                                     $    18,768,826       $     (6,740,538)       $   12,028,288     $     9,209,256

1
 Note 15 for additional information on Capital Leases
Legend for Valuation Methods:
S/L = Straight Line      N/A = Not Applicable


Restrictions on the use or convertibility of General Property, Plant, and Equipment (PP&E), Net
Other than Global War on Terror (GWOT), USMC GF property is only at Japan. There is no restriction on
the use or convertibility. There is no information available regarding GWOT. For General PP&E within the
U.S., there are no known restrictions.

Heritage Assets
The processes used to define items as having heritage significance vary between categories and type of
assets being evaluated. Subject matter experts, including historians and curators, play a significant role in
the definition process. In all cases, a myriad of federal statutes, Department of Defense (DoD) Financial
Management Regulations, and other guidelines mandate heritage significance or provide guidance in its
determination. Heritage assets are reported in the following categories.

      	      Buildings and Structures: This includes buildings and structures listed on, or eligible for listing
             on, the National Register of Historic Places, which includes multi-use heritage assets. This also
             includes National Historic Landmarks; buildings or structures that are contributing elements to
             districts listed on or eligible for the National Register of Historic Places or a National Historic
             Landmark District; and buildings and structures designated eligible in the National Register of
             Historic Places for purposes of program alternatives.

      	      Archeological Sites: These are sites that have been identified, evaluated, and determined to be
             eligible for or are listed on the National Register of Historic Places.

      	      Museum Collection Items: This includes items which are unique for one or more of the following
             reasons: historical or natural significance; cultural, educational or artistic importance; or
             significant technical or architectural characteristics. Museum collection items are divided into


                                                                         Department of the Navy 2008 Annual Financial Report                         181
182                                                                          United States Marine Corps General Fund

                 two subcategories: fine art and objects. Fine art includes paintings, sculptures and other three
                 dimensional art. Objects are current use, excess, obsolete, or condemned material; war trophies;
                 personal property such as uniforms, medals or diaries, and military equipment.

            	    The methodology used to report the condition of the heritage assets was a combination of visual
                 assessment of the objects, historic value to USMC GF collection, and general display and storage
                 standards for historic collections. The overall condition of the collection objects is good.


      Stewardship Land
      The USMC GF follows DoD Financial Management Regulation definition of stewardship land to include
      public domain, land set aside, and donated land. Within the definition of stewardship land, land can be
      further categorized as improved, semi-improved or in the other category of land. Some of this land is used
      as a buffer around perimeter of Marine Corps installations but is not limited to, grazing land and forestry
      maintenance areas. The USMC GF strives to be a responsible steward of the land and maintain it in a way
      that protect human health and the environment and allows for training and support of force readiness.

      Any additional information regarding heritage assets, multi-use heritage assets, and stewardship land is
      reported in Required Supplementary Information.


      Assets Under Capital Lease
      Not applicable.


      Note 11.	 Liabilities Not Covered by Budgetary Resources
        As of September 30                                                          2008               2007

        (Amounts in thousands)

        1. Intragovernmental Liabilities
           A. Accounts Payable                                                $          1,693 $             606
           B. Debt                                                                           0                 0
           C. Other                                                                    129,868            79,885
           D. Total Intragovernmental Liabilities                             $        131,561 $          80,491

        2. Nonfederal Liabilities
           A. Accounts Payable                                                $         19,097 $           3,230
           B. Military Retirement and
              Other Federal Employment Benefits                                        219,057           215,229
           C. Environmental Liabilities                                                262,455           224,645
           D. Other Liabilities                                                        716,421           627,458
           E. Total Nonfederal Liabilities                                    $      1,217,030 $       1,070,562

        3. Total Liabilities Not Covered by Budgetary Resources               $      1,348,591 $       1,151,053


        4. Total Liabilities Covered by Budgetary Resources                   $      1,575,562 $       2,406,900

        5. Total Liabilities                                                  $      2,924,153 $       3,557,953
Liabilities not covered by budgetary resources are liabilities for which Congressional action is needed before
budgetary resources can be provided.

Material Amounts Not Covered by Budgetary Resources.
Unfunded military and civilian leave liability, $672.1 million is not covered by budgetary resources because
it is funded as leave is taken. Environmental Liabilities, $262.5 million, are estimates related to future events
that will be budgeted for when those assets are removed from service and cleaned up in future years. The
military retirement and other federal employment benefits, $219.1 million are future actuarial liabilities.
These liabilities are not covered by realized budgetary resources as of the Balance Sheet date. Budgetary
authority to satisfy these liabilities is expected to be provided in a future Defense Appropriations Act.
When that future budgetary authority is provided, these respective liabilities will be recorded as covered by
budgetary resources with an associated funded expense.

Intragovernmental liabilities – other (not covered by budgetary resources) includes liability for nonentity
assets (disbursing officer’s cash), $53.1 million, Federal Employees’ Compensation Act (FECA), $51.6 million,
and unemployment compensation, $25.2 million.

Nonfederal liabilities - other liabilities (not covered by budgetary resources) includes civilian and military
unfunded leave liability, $672.1 million and nonenvironmental disposal excess/obsolete structures liability,
$39.4 million.

Military retirement and other federal employment benefits not covered by budgetary resources is comprised
of various employee actuarial liabilities not due and payable during the current fiscal year. These liabilities
are primarily comprised of FECA actuarial, $219.1 million. Refer to Note 17, “Military Retirement and Other
Federal Employment Benefits,” for additional details and disclosures.


Note 12.	 Accounts Payable
 As of September 30                                                     2008                                  2007
                                                                   Interest, Penalties,
                                                Accounts Payable   and Administrative          Total           Total
                                                                          Fees

 (Amounts in thousands)


 1. Intragovernmental Payables                 $       197,807     $        N/A           $    197,807    $    282,256

 2. Nonfederal Payables (to the Public)                853,096                       0         853,096        1,302,211

 3. Total                                      $     1,050,903     $                 0    $   1,050,903   $   1,584,467

The USMC GF’s systems do not track intragovernmental transactions by customer at the transaction level.
Therefore, internal DoD buyer-side balances are adjusted to agree with internal seller-side balances for
revenue, accounts receivable, and unearned revenue. Accounts payable were adjusted by reclassifying
amounts between federal and nonfederal accounts payable.

In FY 2007, the Department recognized accounts payable balances of the Mechanization of Contract


                                                               Department of the Navy 2008 Annual Financial Report        183
184                                                                                              United States Marine Corps General Fund

      Service (MOCAS) system at gross value without reduction for partial, progress payments and nonaccounts
      payable records overstating accounting payable and expenses. These overstated balances for FY 2007 were
      undeterminable due to system limitations; therefore no corrections have been made. Balances at FY 2008 are
      properly reported net of nonaccounts payable records, partial and progress payments of $33.6 million.


      Note 13.	 Debt
      Not applicable.


      Note 14.	 Environmental Liabilities and Disposal Liabilities
      As of September 30                                                                          2008                                2007
                                                                             Current             Noncurrent
                                                                                                                      Total           Total
                                                                             Liability            Liability
      (Amounts in thousands)

      1. Environmental Liabilities--Nonfederal
       A. Accrued Environmental Restoration Liabilities
        1. Active Installations—Installation Restoration Program (IRP)
           and Building Demolition and Debris Removal (BD/DR)            $               0   $                0   $           0   $           0
        2. Active Installations—Military Munitions Response Program
           (MMRP)                                                                        0                    0               0               0
        3. Formerly Used Defense Sites—IRP and BD/DR                                     0                    0               0               0
        4. Formerly Used Defense Sites--MMRP                                             0                    0               0               0

       B. Other Accrued Environmental Liabilities—Non-BRAC
        1. Environmental Corrective Action                                        2,948              95,979            98,927          30,956
        2. Environmental Closure Requirements                                       400             126,307           126,707         193,689
        3. Environmental Response at Operational Ranges                               0                  22                22               0
        4. Asbestos                                                                   0                   0                 0               0
        5. Non-Military Equipment                                                     0              36,742            36,742               0
        6. Other                                                                      0                  57                57               0

       C. Base Realignment and Closure Installations
        1. Installation Restoration Program                                              0                    0               0               0
        2. Military Munitions Response Program                                           0                    0               0               0
        3. Environmental Corrective Action / Closure Requirements                        0                    0               0               0
        4. Asbestos                                                                      0                    0               0               0
        5. Non-Military Equipment                                                        0                    0               0               0
        6. Other                                                                         0                    0               0               0

       D. Environmental Disposal for Military Equipment / Weapons
          Programs
        1.   Nuclear Powered Military Equipment / Spent Nuclear Fuel                     0                    0               0               0
        2.   Non-Nuclear Powered Military Equipment                                      0                    0               0               0
        3.   Other National Defense Weapons Systems                                      0                    0               0               0
        4.   Other                                                                       0                    0               0               0

       E. Chemical Weapons Disposal Program
        1. Chemical Agents and Munitions Destruction (CAMD)                              0                    0               0               0
        2. CAMD Assembled Chemical Weapons Assessment (ACWA)                             0                    0               0               0
        3. Other                                                                         0                    0               0               0

      2. Total Environmental Liabilities                                 $        3,348      $      259,107       $   262,455     $   224,645



      Environmental Liabilities Nonfederal
      Other Accrued Environmental Liabilities – Active Installations
      In the 4th Quarter, FY 2008, USMC GF reported $98.9 million in environmental corrective action and $126.7
      million in environmental closure requirements. The USMC GF is continuing efforts to complete their
survey and estimations of USMC GF environmental liabilities of closure/decommissioning requirements for
ongoing operations.

Environmental Liabilities Nonfederal
Other Accrued Environmental Liabilities – Other
The USMC GF reported $57.4 thousand in other accrued environmental liabilities, other which is comprised
solely of noncurrent liability for transformers containing Polychlorinated Biphenyls (PCB). This is USMC
GF first time reporting this liability.

Applicable Laws and Regulations for Cleanup Requirements
The following is a summary of significant laws that affect USMC GF’s conduct of environmental policy and
regulations for cleanup requirements:

The Resource Conservation and Recovery Act (RCRA) of 1976 as amended by the Hazardous and Solid
Waste Amendments of 1984, was the first comprehensive federal effort to deal with safe disposal of all types
of hazardous wastes, and provides for “cradle to grave” tracking of hazardous wastes. The RCRA addresses
and requires permits for solid waste and hazardous waste closure and corrective action, including solid
waste landfill and hazardous waste permitted storage facility closures. Permits are required for treatment,
storage or disposal. Requirements for underground storage tanks are also contained in RCRA.

The Comprehensive Environmental Response, Compensation, and Liability Act of 1980 (CERCLA),
commonly referred to as the Superfund legislation, provided for Federal agencies authority to respond to the
release or the substantial threat of release of hazardous substances into the environment. The CERCLA was
amended several times; one of the amendments was the Superfund Amendment and Reauthorization Act
of 1986. This amendment established procedures to ensure that actual or threatened hazardous substance
releases have proper responses. The procedures address reporting, investigating, remedy selection, and
responsive provisions.

The Clean Water Act (CWA) of 1977, Section 405 Disposal of Sewage Sludge, amended the Federal Water
Pollution Control Act. The purpose of CWA is to restore and maintain the integrity of the nation’s waters.
Facilities may dispose of sewage sludge on site from the operation of a treatment works. The CWA
implementing regulations established closure and post closure requirements for sewage sludge disposal.
To help protect the nation’s drinking water supply, including underground injections through a permitting
scheme implemented by the states is the purpose of the Safe Drinking Water Act (SDWA) of 1974, amended
in 1986 to include Wellhead Protection Areas. The SDWA regulates the underground disposal of wastes
in deep wells and establishes a program to protect public water supply wells. One requirement to protect
public water supply wells addresses closure of Class I injection wells used for industrial hazardous, industrial
nonhazardous and municipal (nonhazardous) waste.

Method for Assigning Estimated Total Cleanup Costs to Current Operating Periods.
The USMC GF uses engineering estimates and independently validated models to estimate environmental
costs. The models are contained within the Remedial Action Cost Engineering Requirements and the
Normalization of Data System. The Department validates the models in accordance with DoD Instruction
5000.61 and primarily uses the models to estimate the liabilities based on data received during a preliminary
assessment and initial site investigation. The USMC GF primarily uses engineering estimates after obtaining
extensive data during the remedial investigation/feasibility phase of the environmental project.

                                                             Department of the Navy 2008 Annual Financial Report   185
186                                                                              United States Marine Corps General Fund

      Once the environmental cost estimates are complete, USMC GF complies with accounting standards to assign
      costs to current operating periods. The USMC GF has already expensed the costs for cleanup associated
      with General PP&E placed into service prior to October 1, 1997, unless the costs are intended to be recovered
      through user charges. If the costs are recovered through user charges, then USMC GF expensed that portion
      of the asset that has passed since General PP&E was placed into service and is systematically recognizing
      the remaining cost over the life of the assets.

      For General PP&E placed into service after September 30, 1997, the USMC GF expenses the associated
      environmental costs systematically over the life of the asset. The USMC GF expenses the full cost to clean
      up contamination for Stewardship PP&E at the time the asset is placed into service.

      The USMC GF uses two methods for systematic recognition: physical capacity for operating landfills and
      life expectancy in years for all other assets.

      Method for Estimating NonDefense Environmental Restoration Program (NonDERP) Environmental
      Liabilities
      The NonDERP environmental liability estimates are based on the following:

            n	   Execution/payment amounts,

            n	   Historical references (e.g., prior projects, investigations, monitoring),

            n	   Current projects of comparable scope (similar sites),

            n	   Estimates from vendors/contractors,

            n	   Estimates from Military Construction Data Project form,

            n	   Program Objectives Memorandum Guidebook, and

            n	   Professional experience.


      Description of the Types of Environmental Liabilities and Disposal Liabilities
      Other Accrued Environmental Costs (NonDERP funds), Cost, Base Realignment and Closure (BRAC), and
      Environmental Disposal for Weapons Systems Programs
      The USMC GF defines NonDERP environmental sites/units as those sites/units associated with on-going
      operations such as solid waste management unit cleanup, landfill closure, permitted facilities, removal,
      replacement, retro fill, and/or disposal of the PCB transformers, underground storage tank remedial
      investigation and closure. The USMC GF has reported NonDERP environmental liabilities for USMC GF
      installations totaled 225 projects and covered approximately 3,290 sites. The projects span the following
      nonDERP reporting categories: (1) closure for units or sites put into service prior to September 30, 1997,
      (2) closure for units or sites put into service after September 30, 1997, and (3) corrective actions. There are
      no projects that are categorized as NonDERP environmental liability for “response at active ranges” and
      other reporting categories. For units or sites put into service after September 30, 1997, the number of years
      of service was used to allocate the liability for the current fiscal year and the accumulated liability to date.

      Accrued Environmental Restoration Defense Environmental Restoration Program (DERP) Funded
      The U.S. Navy centrally manages and executes DERP and BRAC portions at Department of the Navy level.
Therefore, USMC GF does not report DERP and BRAC environmental liabilities.

Nature of Estimates and the Disclosure of Information Regarding Possible Changes due to Inflation,
Deflation, Technology, or Applicable Laws and Regulations
NonDERP environmental liabilities can change in the future because of changes in laws/regulations and
regulatory agencies agreements, and technology advances.

Description of the Level of Uncertainty Regarding the Accounting Estimates used to Calculate the
Reported Environmental Liabilities
The environmental liabilities for USMC GF are based on accounting estimates that require certain judgments
and assumptions that we believe are reasonable based upon information available to us at the time of
calculating the estimates. The actual results may vary materially from the accounting estimates if laws/
regulations change requiring a different closure method, or if agreements with regulatory agencies require
remediation to a different degree than anticipated when calculating the estimates. The liabilities can be
further impacted if further investigation of the environmental sites discloses contamination different than
known at the time of the estimates.


Environmental Disclosures
Not applicable.




                                                          Department of the Navy 2008 Annual Financial Report   187
188                                                                                United States Marine Corps General Fund

      Note 15.	 Other Liabilities
      As of September 30                                                    2008                                   2007
                                                        Current             Noncurrent
                                                                                                   Total           Total
                                                        Liability            Liability
      (Amounts in thousands)
      1. Intragovernmental
         A. Advances from Others                    $               0   $                0   $             0   $           0
         B. Deposit Funds and Suspense
             Account Liabilities                           (37,622)                      0        (37,622)          183,957
         C. Disbursing Officer Cash                          52,651                      0          52,651           37,783
         D. Judgment Fund Liabilities                             0                      0               0                0
         E. FECA Reimbursement to the
             Department of Labor                             22,036                29,555          51,591            50,958
         F. Custodial Liabilities                               401                     0             401               280
         G. Employer Contribution and Payroll
             Taxes Payable                                    7,291                      0          7,291             5,489
         H. Other Liabilities                                25,288                      0         25,288            28,764

         I.   Total Intragovernmental Other
              Liabilities                           $        70,045     $          29,555    $     99,600      $    307,231

      2. Nonfederal
         A. Accrued Funded Payroll and
            Benefits                                $       510,118     $           0        $    510,118      $    539,303
         B. Advances from Others                              2,384                 0               2,384                 0
         C. Deferred Credits                                      0                 0                   0                 0
         D. Deposit Funds and Suspense
            Accounts                                                0               0                      0               0
         E. Temporary Early Retirement
            Authority                                               0               0                      0               0
         F. Nonenvironmental Disposal
            Liabilities
            (1) Military Equipment (Nonnuclear)                     0               0                      0               0
            (2) Excess/Obsolete Structures                     5,282         34,110                39,392            39,392
            (3) Conventional Munitions Disposal                    0              0                     0                 0
         G. Accrued Unfunded Annual Leave                   672,100                 0             672,100           586,677

         H. Capital Lease Liability                                 0             0                     0                  0
          I. Contract Holdbacks                                     0        11,171                11,171              1,940
         J. Employer Contribution and Payroll
             Taxes Payable                                     5,598              0                 5,598             4,348
         K. Contingent Liabilities                                 0         51,375                51,375            53,080
         L. Other Liabilities                                      0              0                     0                 1

         M. Total Nonfederal Other Liabilities      $    1,195,482      $    96,656          $   1,292,138     $   1,224,741


      3. Total Other Liabilities                    $    1,265,527      $   126,211          $   1,391,738     $   1,531,972



      Intragovernmental other liabilities includes unemployment compensation and accrued education benefits
      for separated Marines.

      Contingent liabilities balance includes $46.4 million in estimated future contract financing payments that
      will be paid to the contractor upon delivery and Government acceptance. In accordance with contract terms,
specific rights to the contractor’s work vests with the Government when a specific type of contract financing
payments is made. This action protects taxpayer funds in the event of the contract nonperformance. These
rights should not be misconstrued as the right of ownership. The USMC GF is under no obligation to
pay the contractor for amounts greater than the amounts authorized in the contract until delivery and
Government acceptance. Because it is probable that the contractor will complete its efforts and deliver a
satisfactory product to USMC GF and the amount of potential future payments are estimable; USMC GF has
recognized a contingent liability for estimated future payments, which are conditional pending delivery and
Government acceptance.

Contingent liabilities balance, also, includes $4.9 million in estimated legal liabilities. The FY 2007,
Department of Navy/USMC GF began recognizing and disclosing an estimate for contingent legal liabilities.
The methodology to determine an estimate for contingent legal liabilities considers the likelihood of an
unfavorable outcome or potential liability is provided as an overall assessment of all cases currently pending
and not on an individual case basis. For more details, see Note 16, Commitments and Contingencies.


Capital Lease Liability
Not applicable.


Note 16.	 Commitments and Contingencies
Legal Contingencies
The USMC GF, a sub-entity of the Department of the Navy (DON) General Fund, is a party in various
administrative proceedings and legal actions, with claims including environmental damage claims, equal
opportunity matters, and contractual bid protests which may ultimately result in settlements or decisions
adverse to the Federal Government. These proceedings and actions arise in the normal course of operations
and their ultimate disposition is unknown.

The USMC GF has accrued contingent liabilities for legal actions where the Office of Navy General Counsel
considers an adverse decision probable and the amount of the loss is measurable. In the event of an adverse
judgment against the Government, some of the liabilities may be payable from the Judgment Fund. Others
may be payable from DON resources, either directly or by reimbursement to the Judgment Fund. The USMC
GF records Judgment Fund liabilities in Note 12, “Accounts Payable” or Note 15, “Other Liabilities.”

The Office of Navy General Counsel completed a review of litigation and claims threatened or asserted
involving the USMC GF to which attorneys devote substantial attention in the form of legal consultation or
representation. This review reflects a threshold of materiality of $3.9 million which applies to individual and
aggregate claims, litigation, assessments, or contingencies arising out of a single event or series of events,
and includes matters that existed on September 30, 2008.

The USMC GF has 3 cases that individually meet the existing FY 2008 USMC GF materiality threshold of
$3.9 million. The DON legal counsel was unable to express an opinion concerning the likely outcome of
these cases. Based on information contained in the FY 2008 Legal Representation Letters, management
does not have sufficient reason to believe that it is likely that the Government will be liable for the amounts
claimed in individual or aggregated cases.


                                                            Department of the Navy 2008 Annual Financial Report   189
190                                                                                           United States Marine Corps General Fund

      The DON developed a methodology to determine an estimate for contingent legal liabilities for aggregated
      cases not individually meeting the $3.9 million threshold. This average approximates the percentage that
      has historically been paid on claims. It is based entirely on historical data. The merits of each individual
      case have not been taken into consideration. Until sufficient historical data can be collected for the Navy
      Working Capital Fund—Marine Corps, this estimate will consider all USMC funding sources together. This
      estimate for contingencies that are considered both measurable and probable has been recognized and
      included in other liabilities in Note 15.

      The estimate for those aggregate of cases considered reasonably possible to result in an adverse judgment
      against USMC is $16.5 billion.

      The USMC GF is a party in numerous individual contracts that contain clauses, such as price escalation,
      award fee payments, or dispute resolution, that may or may not result in a future outflow of expenditures.
      Currently, USMC GF does not have a systemic process by which it captures or assesses these potential
      contingent liabilities; therefore, the amounts reported may not fairly present USMC GF’s contingent
      liabilities.

      The USMC GF recognizes contingent liabilities for obligations related to undelivered orders for open contracts
      citing canceled appropriations which remain unfilled or unreconciled in Note 15, Other Liabilities.


      Note 17.	 Military Retirement and Other Federal
      		        Employment Benefits
      As of September 30                                                           2008                                           2007
                                                                       Assumed       (Less: Assets
                                                                                                           Unfunded
                                                     Liabilities        Interest    Available to Pay                             Liabilities
                                                                                                           Liabilities
                                                                       Rate (%)        Benefits)

      (Amounts in thousands)


      1. Pension and Health Actuarial Benefits
        A. Military Retirement Pensions          $                 0                $              0   $                 0   $                 0
        B. Military Retirement Health Benefits                     0                               0                     0                     0
        C. Military Medicare-Eligible Retiree
           Benefits                                                0                               0                     0                     0
        D. Total Pension and Health Actuarial
           Benefits                              $                 0                $              0   $                 0   $                 0

      2. Other Actuarial Benefits
        A. FECA                                  $      219,057                     $              0   $      219,057        $        215,229
        B. Voluntary Separation Incentive
           Programs                                           0                                    0                0                       0
        C. DoD Education Benefits Fund                        0                                    0                0                       0
        D. Total Other Actuarial Benefits        $      219,057                     $              0   $      219,057        $        215,229

      3. Other Federal Employment Benefits       $                 0                $              0   $                 0   $           1,640

      4. Total Military Retirement and Other
         Federal Employment Benefits:            $      219,057                     $              0   $      219,057        $        216,869



      Military Retirement Pensions
      The portion of the military retirement benefits actuarial liability applicable to USMC GF is reported on the
      financial statements of the Military Retirement Fund.
Military Retirement Health Benefits
Health benefits are funded centrally at the Department of Defense (DoD) level. As such, the portion of the
health benefits actuarial liability that is applicable to USMC GF is reported only on the DoD Agency-wide
Financial Statements and the Medicare-Eligible Retiree Health Care Fund Financial Statements.

Federal Employees Compensation Act (FECA)
The USMC GF actuarial liability for workers’ compensation benefits is developed by Department of Labor
and provided to USMC GF at the end of each fiscal year. The future workers’ compensation benefits include
the expected liability for death, disability, medical, and miscellaneous costs for approved compensation
cases, plus a component for incurred but not reported claims. The liability is determined using a method
that utilizes historical benefit payment patterns related to a specific incurred period to predict the ultimate
payments related to that period. Consistent with past practice, these projected annual benefit payments have
been discounted to present value using the Office of Management and Budget’s economic assumptions for
10-year U.S. Treasury notes and bonds. Interest rate assumptions utilized for discounting were as follows:

	                Fiscal Year 2008
	                4.368% in Year 1
	                4.770% in Year 2 and thereafter

To provide more specifically for the effects of inflation on the liability for future workers’ compensation
benefits, wage inflation factors (cost of living adjustments or COLAs) and medical inflation factors (consumer
price index medical or CPIMs) were applied to the calculation of projected future benefits. The actual rates
for these factors for the charge back year (CBY) 2008 were also used to adjust the methodology’s historical
payments to current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBY were as follows:

	                CBY 	            COLA 	            CPIM
	                2008 	           3.03% 	           4.71%
	                2009	            3.87% 	           4.01%
	                2010 	           2.73%	            3.86%
	                2011	            2.20% 	           3.87%
	                2012 	           2.23%	            3.93%
	                2013 +	          2.30%	            3.93%

The model’s resulting projections were analyzed to ensure that the estimates were reliable. The analysis was
based on four tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of
the percentage change in the liability amount by agency to the percentage change in the actual incremental
payments, (3) a comparison of the incremental paid losses per case (a measure of case-severity) in CBY 2008
to the average pattern observed during the most current three charge back years, and (4) a comparison of the
estimated liability per case in the 2008 projection to the average pattern for the projections of the most recent
three years. The estimated actuarial liability is updated only at the end of each fiscal year. The change in
actuarial liability for fiscal year 2008 is an increase of $3.4 million.

The estimate was allocated between USMC GF General Fund and Navy Working Capital Fund-Marine
Corps based on the number of civilian employees taken from the Navy Budget Tracking System.

                                                             Department of the Navy 2008 Annual Financial Report    191
192                                                                            United States Marine Corps General Fund

      Note 18.	 General Disclosures Related to the Statement of
      		        Net Cost
      Intragovernmental Costs and Exchange Revenue

      As of September 30                                          2008                            2007

      (Amounts in thousands)


      1. Intragovernmental Costs                      $                   6,616,796   $                   6,192,075
      2. Public Costs                                                    20,223,214                      18,667,042
      3. Total Costs                                  $                  26,840,010   $                  24,859,117



      4. Intragovernmental Earned Revenue             $                   (381,558)   $                   (457,705)
      5. Public Earned Revenue                                            (417,836)                       (189,363)
      6. Total Earned Revenue                         $                   (799,394)   $                   (647,068)


      7. Net Cost of Operations                       $                  26,040,616   $                  24,212,049


      Intragovernmental costs and revenues are related to transactions made between two reporting entities
      within the Federal Government.

      Public costs and revenues are exchange transactions made between USMC GF and a nonfederal entity.

      Although the USMC GF accounting system tracks intragovernmental transactions by customer at the
      transaction level, many other Department systems do not. Therefore, internal DoD buyer-side balances are
      adjusted to agree with internal seller-side balances for revenue. Expenses were adjusted by reclassifying
      amounts between federal and nonfederal expenses.

      The USMC GF accounting system captures information relative to heritage assets separately and distinctly
      from normal operations. The USMC GF does not report any amounts for the costs of acquiring, constructing,
      improving, reconstructing, or renovating heritage assets (other than multi-use heritage assets); nor costs for
      acquiring stewardship land and preparing stewardship for its intended use.


      Note 19.	 Disclosures Related to the Statement of
      		        Changes in Net Position
      Other financing sources, other is comprised of the adjustments of $158.8 million to record year-to-date
      change in land, building and accumulated depreciation and $17.8 million to record year-to-date changes in
      operating material and supplies and ammunition.

      Budgetary financing source, other adjustments (rescissions, etc.) is comprised of $(399.9) million due to
      canceling year adjustments.

      Appropriations received on the Statement of Change of Net Position (SCNP) does not agree with
appropriation received on the Statement of Budgetary Resources (SBR). The difference of $153.2 thousand
between appropriations received on the SCNP and appropriations received on the SBR is the amount of
special receipts from USMC GF portion of the Wildlife Conservation on Military Reservations appropriation.
This amount is included as appropriations received on the SBR, but not on the SCNP. Refer to Note 20 for
additional details.


Note 20.	 Disclosures Related to the Statement of
		        Budgetary Resources
As of September 30                                                2008                         2007
(Amounts in thousands)

1. Net Amount of Budgetary Resources Obligated
   for Undelivered Orders at the End of the Period      $             11,921,573    $                12,430,461

2. Available Borrowing and Contract Authority at
   the End of the Period                                                        0                                 0


The USMC GF Report on Budget Execution accurately reflects $23.4 billion direct obligations in category A,
amounts apportioned quarterly; $7.0 billion direct obligations in category B, amounts apportioned on a basis
other than quarterly; and $645.9 million reimbursable obligations in category B.

The SBR includes intraentity transactions because the statements are presented as combined.

Appropriations Received on SBR does not agree with Appropriations Received on the Statement of Changes
in Net Position (SCNP) because of differences between proprietary and budgetary accounting concepts and
reporting concepts. The difference of $153.2 thousand is the amount of special receipts from USMC GF
portion of the Wildlife Conservation on Military Reservations appropriation. This amount is included on
the SBR, but not on SCNP.




                                                            Department of the Navy 2008 Annual Financial Report       193
194                                                                 United States Marine Corps General Fund

      Note 21.	 Reconciliation of Net Cost of Operations to
      		        Budget
      As of September 30                                                  2008               2007
      (Amounts in thousands)

      Resources Used to Finance Activities:
      Budgetary Resources Obligated:
      1. Obligations incurred                                       $     31,059,127    $    30,248,767
      2. Less: Spending authority from offsetting
         collections and recoveries (-)                                   (2,406,291)        (2,361,164)
      3. Obligations net of offsetting collections
          and recoveries                                            $     28,652,836    $    27,887,603
      4. Less: Offsetting receipts (-)                                       167,559             20,195
      5. Net obligations                                            $     28,820,395    $    27,907,798
      Other Resources:
      6. Donations and forfeitures of property                                     0                   0
      7. Transfers in/out without reimbursement (+/-)                              1               3,535
      8. Imputed financing from costs absorbed by others                      66,595              71,325
      9. Other (+/-)                                                         176,672              40,398
      10. Net other resources used to finance activities            $        243,268    $        115,258
      11. Total resources used to finance activities                $     29,063,663    $    28,023,056
      Resources Used to Finance Items not Part of the Net Cost of
      Operations:
      12. Change in budgetary resources obligated for
          goods, services and benefits ordered but not yet
          provided:
          12a. Undelivered Orders (-)                               $        508,888    $    (2,415,619)
          12b. Unfilled Customer Orders                                       54,935            (71,500)
      13. Resources that fund expenses recognized in prior
           Periods (-)                                                        (3,032)           (33,592)
      14. Budgetary offsetting collections and receipts that
           do not affect Net Cost of Operations                             (167,559)           (20,194)
      15. Resources that finance the acquisition of assets (-)            (4,152,785)        (2,068,268)
      16. Other resources or adjustments to net obligated
           resources that do not affect Net Cost of
           Operations:
           16a. Less: Trust or Special Fund Receipts
                  Related to exchange in the Entity’s Budget (-)                   0                   0
           16b. Other (+/-)                                                (176,673)            (43,934)
      17. Total resources used to finance items not part
           of the Net Cost of Operations                            $     (3,936,226)   $    (4,653,107)
      18. Total resources used to finance the Net Cost
           of Operations                                            $     25,127,437    $    23,369,949
As of September 30                                              2008                            2007
(Amounts in thousands)

Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:

Components Requiring or Generating Resources in Future Period:
19. Increase in annual leave liability                                  $         85,423    $            8,003
20. Increase in environmental and disposal liability                              37,809                     0
21. Upward/Downward reestimates of credit subsidy                                      0                     0
    expense (+/-)
22. Increase in exchange revenue receivable from                                        0                      0
    the public (-)
23. Other (+/-)                                                                   24,564                 2,345
24. Total components of Net Cost of Operations that                     $        147,796    $           10,348
    will Require or Generate Resources in future
    periods

Components not Requiring or Generating Resources:
25. Depreciation and amortization                                       $        878,531    $          770,514
26. Revaluation of assets or liabilities (+/-)                                 (112,348)                26,298
27. Other (+/-)
    27a. Trust Fund Exchange Revenue                                                    0                    0
    27b. Cost of Goods Sold                                                             0                    0
    27c. Operating Material and Supplies Used                                           0               28,429
    27d. Other                                                                      (800)                6,511
28. Total Components of Net Cost of Operations that                     $        765,383    $          831,752
    will not Require or Generate Resources

29. Total components of Net Cost of Operations                          $        913,179    $          842,100
    that will not Require or Generate Resources in
    the current period

30. Net Cost of Operations                                              $     26,040,616    $     24,212,049



The following note schedule lines are presented as combined instead of consolidated due to intraagency
budgetary transactions not being eliminated:

      Obligations Incurred
      Less: Spending Authority from Offsetting Collections and Recoveries
      Obligations Net of Offsetting Collections and Recoveries
      Less: Offsetting Receipts
      Net Obligations
      Undelivered Orders
      Unfilled Customer Orders

The note schedule line, “Budgetary Resources Obligated, Other” is primarily comprised of the year-to-date
changes in real property and ammunition.


                                                         Department of the Navy 2008 Annual Financial Report       195
196                                                                         United States Marine Corps General Fund

      The note schedule line, “Other, Resources or Adjustments to Net Obligated Resources That Do Not Affect
      Net Cost of Operations, Other” is comprised of the year-to-date changes in real property and ammunition.

      The note schedule line, “Components Requiring or Generating Resources Future Period, Other” is comprised
      of future funded expenses from closing canceled year receivables and payables, the year-to-date change in
      Federal Employees’ Compensation Act (FECA) actuarial liability, and contingent legal liability.

      The note schedule line, “Components Not Requiring or Generating Resources, Other, Other” is primarily
      comprised of adjustments made to refunds receivable and the bad debt expense for public accounts
      receivable.


      Note 22.	 Disclosures Related to Incidental Custodial
      		        Collections
      Not applicable.
Note 23.	 Earmarked Funds
                                                                                       2008
BALANCE SHEET
As of September 30                       Military Retirement
                                                                   Medicare Eligible     Other
                                                                    Retiree Health     Earmarked         Eliminations         Total
(Amounts in thousands)                           Fund
                                                                     Care Fund           Funds


ASSETS
Fund balance with Treasury               $                     0 $                 0 $        610 $                     0 $           610
Investments                                                    0                   0               0                    0               0
Accounts and Interest Receivable                               0                   0               0                    0               0
Other Assets                                                   0                   0               0                    0               0
Total Assets                             $                     0 $                 0 $        610 $                     0 $           610
LIABILITIES and NET POSITION
Military Retirement Benefits and Other
Federal Employment Benefits              $                     0 $                 0 $             0 $                  0 $             0
Other Liabilities                                              0                   0           34                       0              34
Total Liabilities                        $                     0 $                 0 $         34 $                     0 $            34


Unexpended Appropriations                                      0                   0               0                    0               0
Cumulative Results of Operations                               0                   0          576                       0             576


Total Liabilities and Net Position       $                     0 $                 0 $        610 $                     0 $           610



STATEMENT OF NET COST
For the year ended September 30

Program Costs                            $                     0 $                 0 $         51 $                     0 $            51
Less Earned Revenue                                            0                   0               0                    0               0
Net Program Costs                        $                     0 $                 0 $         51 $                     0 $            51
Less Earned Revenues Not Attributable
to Programs                                                    0                   0               0                    0               0
Net Cost of Operations                   $                     0 $                 0 $         51 $                     0 $            51


                                                                                       2008
STATEMENT OF CHANGES IN NET
POSITION                                                           Medicare Eligible     Other
                                         Military Retirement
For the year ended September 30                  Fund
                                                                    Retiree Health     Earmarked         Eliminations         Total
                                                                     Care Fund           Funds



Net Position Beginning of the Period     $                     0 $                 0 $        474 $                     0 $           474
Net Cost of Operations                                         0                   0           51                       0              51
Budgetary Financing Sources                                    0                   0          153                       0             153
Other Financing Sources                                        0                   0               0                    0               0
Change in Net Position                   $                     0 $                 0 $        102 $                     0 $           102


Net Position End of Period               $                     0 $                 0 $        576 $                     0 $           576




                                                                         Department of the Navy 2008 Annual Financial Report                197
198                                                                                              United States Marine Corps General Fund


                                                                                             2007

      BALANCE SHEET                                                      Medicare Eligible     Other
      As of September 30                       Military Retirement
                                                                          Retiree Health     Earmarked           Eliminations           Total
                                                       Fund
      (Amounts in thousands)                                               Care Fund           Funds



      ASSETS
      Fund balance with Treasury               $                     0    $              0   $      500      $                  0   $           500
      Investments                                                    0                   0               0                      0                 0
      Accounts and Interest Receivable                               0                   0               0                      0                 0
      Other Assets                                                   0                   0               0                      0                 0
      Total Assets                             $                     0    $              0   $      500      $                  0   $           500

      LIABILITIES and NET POSITION
      Military Retirement Benefits and Other
      Federal Employment Benefits              $                     0    $              0   $           0   $                  0   $             0
      Other Liabilities                                              0                   0           26                         0                26
      Total Liabilities                        $                     0    $              0   $       26      $                  0   $            26


      Unexpended Appropriations                                      0                   0               0                      0                 0
      Cumulative Results of Operations                               0                   0          474                         0               474


      Total Liabilities and Net Position       $                     0    $              0   $      500      $                  0   $           500



      STATEMENT OF NET COST
      For the year ended September 30

      Program Costs                            $                     0    $              0   $       42      $                  0   $            42
      Less Earned Revenue                                            0                   0               0                      0                 0
      Net Program Costs                        $                     0    $              0   $       42      $                  0   $            42
      Less Earned Revenues Not Attributable
      to Programs                                                    0                   0            0                         0                 0
      Net Cost of Operations                   $                     0    $              0   $       42      $                  0   $            42


                                                                                             2007
      STATEMENT OF CHANGES IN NET
      POSITION                                                           Medicare Eligible     Other
                                               Military Retirement
      For the year ended September 30                  Fund
                                                                          Retiree Health     Earmarked           Eliminations           Total
                                                                           Care Fund           Funds



      Net Position Beginning of the Period     $                     0    $              0   $      383      $                  0   $           383


      Net Cost of Operations                                         0                   0           42                         0                42
      Budgetary Financing Sources                                    0                   0          134                         0               134
      Other Financing Sources                                        0                   0               0                      0                 0
      Change in Net Position                   $                     0    $              0   $       92      $                  0   $            92


      Net Position End of Period               $                     0    $              0   $      475      $                  0   $           475
Wildlife Conservation, Military Reservations, 16 USC 670
This fund provides for the development and conservation of fish and wildlife and recreational facilities on
military installations. Proceeds from the sale of fishing and hunting permits are used for these programs
at Navy and Marine Corps installations charging such user fees. These programs are carried out through
cooperative plans agreed upon by the local representatives of the Secretary of Defense, the Secretary of the
Interior, and the appropriate agency of the state in which the installation is located. During this reporting
period, legislation regarding the purpose and use of the Wildlife Conservation, Military Reservation has not
changed.

The nonexchange revenue in the amount of $153.2 thousand for 4th Quarter, FY 2008 is from the proceeds of
the sale of fishing and hunting permits.


Note 24.	 Other Disclosures
Currently, USMC GF does not record or report operating leases; however, under its Financial Improvement
Initiative program, USMC GF has begun to implement a strategy to identify operating leases and to develop
a process to report operating leases in the USMC GF financial statements. The development of the process
is in its early stages, therefore, at this time, a completion date has not been established.


Note 25.	 Restatements
The USMC GF does not have any restatements.




                                                           Department of the Navy 2008 Annual Financial Report   199
200   United States Marine Corps General Fund
 United States Marine Corps General Fund Required Supplementary Stewardship Information




                 2008
                 2008
   United States Marine Corps General Fund
Required Supplementary Stewardship Information




                 2008
                                                Department of the Navy 2008 Annual Financial Report   201
202                                                                               United States Marine Corps General Fund

                                        Investments in Research and Development
                                      Yearly Investment in Research and Development
                                              For Fiscal Years 2006 through 2008
                                                         ($ in Millions)

       Categories                                                                FY08           FY07          FY06
           Development
           Advanced Technology Development                                              $3             $5            $ 36
           Advanced Component Development and Prototypes                                361            64            302
           System Development and Demonstration                                          22            18             13
           Research, Development, Test, and Evaluation Management Support                44            48             48
           Operational Systems Development                                              508            359           284
       Totals                                                                        $ 938          $ 494         $ 683


      Narrative Statement:
      Investments in Research and Development
      Fiscal Year (FY) 2008 is the third year that the United States Marine Corps (USMC) General Fund (GF) is
      reporting as a separate entity and therefore is reporting three comparative years for the Investment in Research
      and Development schedule. The USMC GF Research, Development, Test, and Evaluation investments are
      all in Development; there are no basic and applied research investments. The values included in the table
      above are based on Development outlays (expenditures). Outlays are used because current USMC GF
      systems are unable to fully capture and summarize costs in accordance with standards promulgated by the
      Federal Accounting Standards Advisory Board.

      Development
      Development takes what has been discovered or learned from basic and applied research and uses it to
      establish technological feasibility, assessment of operability, and production capability. Development is
      comprised of five stages, as defined below.

                1. 	 Advanced Technology Development is the systematic use of the knowledge or understanding
                     gained from research directed toward proof of technological feasibility and assessment of
                     operational and production rather than the development of hardware for service use. It employs
                     demonstration activities intended to prove or test a technology or method.

                2. 	 Advanced Component Development and Prototypes evaluates integrated technologies in
                     as realistic an operating environment as possible to assess the performance or cost reduction
                     potential of advanced technology. Programs in this phase are generally system specific. Major
                     outputs of Advanced Component Development and Prototypes are hardware and software
                     components or complete weapon systems ready for operational and developmental testing and
                     field use.

                3. 	 System Development and Demonstration concludes the program or project and prepares it for
                     production. It consists primarily of preproduction efforts, such as logistics and repair studies.
                     Major outputs are weapons systems finalized for complete operational and developmental
                     testing.

                4. 	 Research, Development, Test, and Evaluation Management Support is support for installations
           and operations for general research and development use. This category includes costs associated
           with test ranges, military construction maintenance support for laboratories, operation and
           maintenance of test aircraft and ships, and studies and analyses in support of the Research and
           Development program.

      5. 	 Operational Systems Development is concerned with development projects in support of
           programs or upgrades that are still in engineering and manufacturing development. These
           projects have received approval for production, for which production funds have been budgeted
           in subsequent fiscal years.


The following are two representative program examples for the Development category.

Marine Corps Will Field Next Generation of Assault Vehicles
The Expeditionary Fighting Vehicle (EFV) Program will field a successor to the Marine Corps’ current
amphibious vehicle, the Assault Amphibious Vehicle Model 7A1. The EFV will provide the principal means
of tactical surface mobility for the Marine Air Group Task Force during both ship-to-objective maneuvers
and sustained combat operations ashore.

The EFV program is an Acquisition Category-1D program managed by the Marine Corps. The EFV is the
next generation of Marine Corps Assault Vehicles being developed to satisfy the requirements of the 21st
Century Marine War Fighters. Along with the Landing Craft Air Cushion and the MV-22 Osprey, the EFV
will provide the Marine Corps with the tactical mobility assets required within the Expeditionary Maneuver
Warfare capstone. Acquisition of the EFV is critical to the Marine Corps.

During FY 2008, the EFV program continued engineering and logistics efforts to support design development,
manufacturing planning, and design enhancements of both the EFV Command and Personnel variants. The
program continued developmental and reliability test support as well as the design, integration and testing
of vehicle modifications that will support the Milestone C Operational Assessment. Developmental Testing
and Reliability/Availability/Maintainability (RAM) testing were conducted during FY 2008 that included a
water gunnery demo, direction stability demo, amphibious launch and recovery operations with USS New
Orleans (PLD-18), and system level shock testing. The Design for Reliability effort continued during this
period and followed the established systems engineering processes. Test spares were procured and the
System Development Demonstration (SDD) prototypes began to be manufactured.

The SDD-2 contract was awarded during FY 2008. This follow-on SDD Phase will include continued design,
development, and reliability upgrades; increased RAM testing; modification of existing SDD prototypes;
and manufacture and testing of up to seven additional SDD prototype vehicles.

Joint Light Tactical Vehicle Will Be Developed and Tested for the Army and Marine Corps
The Joint Light Tactical Vehicle (JLTV) capabilities represent a shift to adapt from a threat-based, Cold War
garrison force focused on containment to a capabilities-based expeditionary force focused on flexibility,
survivability, force protection, responsiveness, and agility. The JLTV Family of Vehicles must be capable of
operating across a broad spectrum of terrain and weather conditions. The Military Services and the U.S.
Special Operations Command require enhanced capabilities, greater than those provided by the existing
High Mobility Multipurpose Wheeled Vehicle (HMMWV) to support the Joint Functional Concepts of


                                                           Department of the Navy 2008 Annual Financial Report   203
204                                                                           United States Marine Corps General Fund

      Battlespace Awareness Force Application, and Focused Logistics. To that end, the approved JLTV Initial
      Capabilities Document, and the JLTV Capability Development Document identifies required capabilities
      for the next generation of JLTVs needed to support Joint Forces across the full Range of Military Operations
      and provide a vital force enabler, multiplier and extender. The initial production of JLTVs will provide
      the Marine Air Group Task Force commander a family of tactical wheeled vehicles capable of providing
      combat forces protected, sustained, and netted mobility in irregular warfare operations and enhancing its
      contribution to the integrated Joint Task Force.

      NON-FEDERAL PHYSICAL PROPERTY
      The USMC GF does not fund this type of Activity.
United States Marine Corps General Fund Required Supplementary Information




          2008
          2008
United States Marine Corps General Fund
  Required Supplementary Information




          2008
                                         Department of the Navy 2008 Annual Financial Report   205
206                                                                                                                     United States Marine Corps General Fund

                                                                 United States Marine Corps
                                                          General Property, Plant, and Equipment
                                                           Real Property Deferred Maintenance
                                                          For Fiscal Year Ended September 30, 2008
                                                                       ($ in Thousands)

                                                                                        1. Plant Replacement                2. Required Work
       Property Type                                                                            Value                    (Deferred Maintenance)              3. Percentage
       Category 1: Enduring Facilities                                                                 $38,040,907                          $1,070,560                     2.8%
       Category 2: Excess Facilities or Planned for Replacement                                         $1,050,183                                     $0                  0.0%
       Category 3: Heritage Assets                                                                      $3,133,442                              $88,182                    2.8%

      NOTE: The table above presents real property deferred maintenance data for both U.S. Marine Corps (USMC) General Fund and Navy Working Capital Fund-Marine Corps..



      Narrative Statement:
               1. 	 The method used to assess facilities conditions is a facilities inspection, which categorizes
                    buildings as Adequate, Substandard or Inadequate. Those ratings are converted to Quality
                    ratings (Q-ratings) of 100%-90% Q1; 90%-80% Q2; 80%-60% Q3; and less than 60% Q4 by assessing
                    facilities that are rated as Adequate and less than 25 years old as Q1; facilities that are over 25
                    years old and rated as Adequate as Q2; facilities rated as Substandard as Q3; and Inadequate
                    facilities as Q4.

               2. 	 There is no change since last year.

               3. 	 The USMC follows the Office of the Secretary of Defense installation strategic plan goal of having
                    facilities at a Q2 level on average as an acceptable rating. This represents an average level of 15%
                    of Plant Replacement Value (PRV) as an acceptable level of deferred maintenance. The table
                    above shows that deferred maintenance is valued at approximately 2.81% of PRV for categories 1
                    and 3. The percentage for category 1 and 3 facilities is the same because we cannot separate the
                    deferred maintenance between those categories at this time. Category 2 is zero because we do
                    not hold deferred maintenance backlogs on facilities to be demolished.


      Description of Property Type categories:
               n	       Category 1 – Buildings, Structures, and Utilities that are enduring and required to support an
                        ongoing mission, including multi-use Heritage Assets.

               n	       Category 2 – Buildings, Structures, and Utilities that are excess to requirements or planned for
                        replacement or disposal, including multi-use Heritage Assets.

               n	       Category 3 – Buildings, Structures, and Utilities that are Heritage Assets.
                                  Military Equipment Deferred Maintenance
                                   For Fiscal Year Ended September 30, 2008
                                                ($ in Thousands)

                   Major Category                                                         Amount
                       1. Aircraft                                                              $-
                       2. Automotive Equipment                                                 987
                       3. Combat Vehicles                                                    12,973
                       4. Construction Equipment                                              1,981
                       5. Electronics and Communications Systems                               204
                       6. Missiles                                                             320
                       7. Ships                                                                   -
                       8. Ordnance Weapons and Munitions                                       972
                       9. General Purpose Equipment                                               -
                       10. All Other Items Not Identified Above                                   -
                   Total                                                                   $ 17,437


Narrative Statement:
Combat Vehicles Deferred Maintenance
The combat vehicles category refers to deferred vehicle maintenance for the active and reserve Marine Corps
assets. The combat vehicle category consists of weapons systems such as the M1A1 Tank, the Amphibious
Assault Vehicle, the Hercules Recovery Vehicle, and the Light Armored Vehicle. The total requirement
is the planned quantity of combat vehicles that require depot level maintenance in a year as determined
by program managers and the operating forces with requirements validated by a modeling process. The
deferred maintenance is the difference between the validated requirements and funding received for that
fiscal year.

Missiles Deferred Maintenance
Four categories are used to determine missile maintenance: missiles, tactical missiles, software maintenance,
and other. Deferred maintenance is defined as the difference between the total weapon maintenance
requirement as determined by requirements modeling processes and the weapon maintenance that is funded
in accordance with the annual budget controls for the missile maintenance program. The maintenance
requirements model projects the quantity of missiles and missile components per weapon system that are
required to be maintained or reworked annually.

Ordnance Weapons and Munitions Deferred Maintenance
Ordnance weapons and munitions are part of a broader category, Other Weapons Systems. This category
is comprised of ordnance, end item maintenance for support equipment, camera equipment, landing aids,
calibration equipment, air traffic control equipment, target systems, expeditionary airfield equipment,
special weapons, target maintenance, and repair of repairable components. Three categories define
ordnance maintenance: ordnance maintenance, software maintenance, and other. Although the various
programs vary in the methodology in defining requirements, all programs define deferred maintenance as
the difference between validated requirements and funding.




                                                                  Department of the Navy 2008 Annual Financial Report   207
208                                                                                     United States Marine Corps General Fund

                                                         Heritage Assets
                                            For Fiscal Year Ended September 30, 2008

                         (a)                      (b)            (c)           (d)            (e)        (f)          (g)
                                              Measurement      As of      Adjustments                                As of
                     Categories                Quantity       10/01/07        (+/-)       Additions   Deletions     9/30/08
       Buildings and Structures                  Each             5             0             0           0            5
       Archeological Sites                       Each             0             0                                      0
       Museum Collection Items (Fine Art)        Each           9,104        (8,023)          95         102         1,074
       Museum Collection Items (Objects)     See table, “Museum Collection Items (Objects)”


      Narrative Statement:
      The USMC GF is required to report Heritage Assets in accordance with the following public laws and
      regulations:

             n	    Antiquities Act of 1906
             n	    Historic Sites Act of 1935
             n	    USC 470 National Historic Preservation Act of 1966
             n	    National Environmental Policy Act of 1969
             n	    American Indian Religious Freedom Act of 1978
             n	    Archeological Resources Protection Act of 1979
             n	    Native American Graves Protection & Repatriation Act of 1990
             n	    Presidential Memorandum for Heads of Executive Departments and Agencies: Government to
                   Government Relations with Native American Tribal Governments Act of 1994
             n	    36 CFR 79 – Curation of Federally Owned and Administered Archeological Collections
             n	    36 CFR 60.4 – National Register of Historic Places
             n	    Federal Accounting Standards Advisory Board (FASAB) Standard No. 29, “Heritage Assets and
                   Stewardship Land”
             n	    Executive Order 13287 – Preserve America – of 2003
             n	    Executive Order 13327 – Federal Real Property Asset Management – of 2004


      Heritage Assets are items of historical, natural, cultural, educational, or artistic significance; or items with
      significant architectural characteristics. Heritage Assets are expected to be preserved indefinitely. Monetary
      values are not required for Heritage Asset reporting; only physical units of measure are reported.

      Explanation for Adjustment
      The Marine Corps made a downward adjustment of 8,023 items to the balance of its Museum Collection
      Items (Fine Art) pursuant to a Naval Audit Service recommendation.

      Process Used to Define Assets as Heritage Assets
      The processes used to define items as having heritage significance vary among categories and type of assets
being evaluated. Subject matter experts, including historians and curators, play a significant role in the
definition process in addition to other criteria, such as a listing in the National Register of Historic Places. In
all cases, a myriad of federal statutes, service regulations, and other guidelines mandate heritage significance
or provide guidance in its determination.

Multi-Use Heritage Assets
Per Department of Defense (DoD) Financial Management Regulation Volume 6B, “Form and Content of the
Department of Defense Audited Financial Statements,” Multi-Use Heritage Assets are reported as Heritage
Assets in the Required Supplementary Information and on the Balance Sheet as General Property, Plant and
Equipment.

Information Pertaining to the Condition of USMC Heritage Assets
The methodology used to report the condition of the heritage assets was a combination of visual assessment
of the objects, historic value to the USMC collection, and general display and storage standards for historic
collections. The overall condition of the collection objects is good.

                                        Museum Collection Items (Objects)
                                      For Fiscal Year Ended September 30, 2008

             (a)                (b)             (c)             (d)               (e)             (f)             (g)
                           Measurement                      Adjustments
        Categories          Quantity       As of 10/01/07       (+/-)          Additions       Deletions     As of 9/30/08
 Archeological Artifacts      Cubic Ft          938             16                 2               0              956
 Archival                    Linear Ft        25,891             0                396             12            26,275
 Historic Artifacts            Item           54,190          (19,650)            819             161           35,198

Description of Heritage Assets Categories:
       n	     Buildings and Structures – Includes buildings and structures that are listed on, or eligible for
              listing on, the National Register of Historic Places, including Multi-use Heritage Assets.

       n	     Archeological Sites – Sites that have been identified, evaluated, and determined to be eligible for
              listing on, or are listed on, the National Register of Historic Places.

       n	     Museum Collection Items – Items that are unique for one or more of the following reasons:
              historical or natural significance; cultural, educational, or artistic importance; or significant
              technical or architectural characteristics. Museum collection items are divided into two
              subcategories: Objects and Fine Art. Objects are current use, excess, obsolete, or condemned
              material; war trophies; personal property, such as uniforms, medals, or diaries; and military
              equipment. Fine art includes paintings, sculptures, and other three-dimensional art.




                                                                     Department of the Navy 2008 Annual Financial Report     209
210                                                                                United States Marine Corps General Fund

                                                       Stewardship Land
                                           For Fiscal Year Ended September 30, 2008
                                                       (Acres in Thousands)

            (a)                              (b)                       (c)            (d)         (e)           (f)
       Facility Code                    Facility Title            As of 10/01/07   Additions   Deletions   As of 9/30/08
           9110        Government Owned Land                           680             0           0            680
           9111        State Owned Land                                 -              -           -             -
           9120        Withdrawn Public Land                            -              -           -             -
           9130        Licensed and Permitted Land                      -              -           -             -
           9140        Public Land                                      -              -           -             -
           9210        Land Easement                                    -              -           -             -
           9220        In-Leased Land                                   -              -           -             -
           9230        Foreign Land                                     -              -           -             -
                       Totals                                          680            0            0            680

      Narrative Statement:
      Stewardship Land comprises land and land rights owned by the Federal Government but not acquired for,
      or in connection with, items of General Property, Plant and Equipment.

      The USMC categorizes Stewardship Land pursuant to DoD Instruction 4165.14, Real Property Inventory and
      Forecasting.
United States Marine Corps General Fund Other Accompanying Information




         2008
         2008
United States Marine Corps General Fund
    Other Accompanying Information




         2008
                                      Department of the Navy 2008 Annual Financial Report   211
212                                                                       United States Marine Corps General Fund

      Appropriations, Funds, and Accounts Included in the
      Principal Statements
      Entity Accounts
      General Accounts
      17 1001 	 Medicare Eligible Retiree Health Care Fund, Military Personnel Marine Corps
      17 1003 	 Medicare Eligible Retiree Health Care Fund, Reserve Personnel Marine Corps
      17 1105 	 Military Personnel, Marine Corps
      17 1106 	 Operation and Maintenance, Marine Corps
      17 1107 	 Operation and Maintenance, Marine Corps Reserve
      17 1108 	 Reserve Personnel, Marine Corps
      17 1109 	 Procurement, Marine Corps

      Shared Appropriations (Appropriations from which U.S. Marine Corps receives allocations)
      17 0703 	 Family Housing, Navy and Marine Corps
      17 1319 	 Research and Development, Test and Evaluation, Navy
      17 1508 	 Procurement of Ammunition, Navy and Marine Corps

      Shared Earmarked Funds
      17X5095 	 Wildlife Conservation

      Non-Entity Accounts
      17X6026 	 Pay of the Marine Corps, Deposit Fund Receipts

      Shared Non-Entity Accounts
      17 3XXX 	 Receipt Accounts
      17X6XXX 	 Deposit Funds
   Navy Working Capital Fund – Marine Corps Principal Statements




       2008
       2008
Navy Working Capital Fund – Marine Corps
          Principal Statements




       2008
                                     Department of the Navy 2008 Annual Financial Report   213
214                                                    Navy Working Capital Fund – Marine Corps




      Limitations to the Financial
      Statements
      The principal financial statements have been prepared
      to report the financial position and results of operations
      of the entity, pursuant to the requirements of 31 United
      States Code 3515 (b). While the statements have been
      prepared from the books and records of the entity
      in accordance with Generally Accepted Accounting
      Principles for Federal entities and the formats prescribed
      by the Office of Management and Budget, the statements
      are in addition to the financial reports used to monitor
      and control budgetary resources which are prepared
      from the same books and records. The statements
      should be read with the realization that they are for a
      component of the U.S. Government, a sovereign entity.
In Fiscal Year (FY) 2006, the Office of the Under Secretary of Defense (Comptroller), with support from the
Department of the Navy, designated the U.S. Marine Corps a financial reporting entity. This designation
allowed the Marine Corps to prepare comprehensive subsidiary financial statements and related notes
beginning in FY 2006.

The Marine Corps shares appropriations with the U.S. Navy and in addition maintains accountability for
its own appropriations. The Marine Corps has specific funds and budget execution unto itself that are
managed by Marine Corps program sponsors, maintained in a single core integrated Working Capital Fund
accounting and budgeting reporting system, and supported by Marine Corps managerial accountants and
the Defense Finance and Accounting Service-Kansas City. Given this fiduciary responsibility, the Marine
Corps is able to fully comply with Statement of Federal Financial Accounting Concepts Number 2, Entity
and Display.


Principal Statements
The FY 2008 Navy Working Capital Fund-Marine Corps principal statements and related notes are subsidiary
financial statements and related notes of the Navy Working Capital Fund, and are presented in the format
prescribed by the Department of Defense Financial Management Regulation 7000.14, Volume 6B. The
statements and related notes summarize financial information for individual activity groups and activities
within the Navy Working Capital Fund-Marine Corps for the fiscal year ending September 30, 2008, and are
presented on a comparative basis with information previously reported for the fiscal year ending September
30, 2007.

The following statements comprise the Navy Working Capital Fund-Marine Corps principal statements:

      n	   Consolidated Balance Sheet

      n	   Consolidated Statement of Net Cost

      n	   Consolidated Statement of Changes in Net Position

      n	   Combined Statement of Budgetary Resources


The principal statements and related notes have been prepared to report financial position pursuant to the
requirements of the Chief Financial Officers Act of 1990, as amended by the Government Management Reform
Act of 1994. The accompanying notes should be considered an integral part of the principal statements.




                                                          Department of the Navy 2008 Annual Financial Report   215
216                                                                                       Navy Working Capital Fund – Marine Corps



         Department of Defense
         Navy Working Capital Fund - Marine Corps
         CONSOLIDATED BALANCE SHEET
         As of September 30, 2008 and 2007
            ($ in Thousands)


                                                                                         2008 Consolidated      2007 Consolidated
            ASSETS (Note 2)
             Intragovernmental:
              Fund Balance with Treasury (Note 3)                                    $               70,746 $               67,119
              Accounts Receivable (Note 5)                                                            5,826                 24,848
              Other Assets (Note 6)                                                                     295                    684
                 Total Intragovernmental Assets                                                      76,867                 92,651

             Accounts Receivable, Net (Note 5)                                                           81                     74
             Inventory and Related Property, Net (Note 9)                                           350,603                475,126
             General Property, Plant and Equipment, Net (Note 10)                                    45,972                 45,925
             Other Assets (Note 6)                                                                      509                    127
             Stewardship Property, Plant and Equipment (Note 10) *
            TOTAL ASSETS                                                                            474,032                613,903

            LIABILITIES (Note 11)
             Intragovernmental:
              Accounts Payable (Note 12)                                                             52,258                  5,768
              Other Liabilities (Note 15 & Note 16)                                                   1,130                    858
                 Total Intragovernmental Liabilities                                                 53,388                  6,626

             Accounts Payable (Note 12)                                                              24,291                 79,541
             Military Retirement and Other Federal
              Employment Benefits (Note 17)                                                          27,219                 27,624
             Other Liabilities (Note 15 & Note 16)                                                   11,296                  9,141
             Commitments and Contingencies (Note 16) *
            TOTAL LIABILITIES                                                                       116,194                122,932

            NET POSITION
             Unexpended Appropriations - Other Funds                                                 32,400                 32,400
             Cumulative Results of Operations - Other Funds                                         325,438                458,571
            TOTAL NET POSITION                                                                      357,838                490,971

            TOTAL LIABILITIES AND NET POSITION                                       $              474,032 $              613,903



            * - Disclosure but no value required per Federal Accounting Standards.




      The accompanying notes are an integral part of these statements.


  The accompanying notes are an integral part of these statements.
     Department of Defense
     Navy Working Capital Fund - Marine Corps
     CONSOLIDATED STATEMENT OF NET COST
     For the Years Ended September 30, 2008 and 2007
        ($ in Thousands)


                                                                           2008 Consolidated       2007 Consolidated
        Program Costs
          Gross Costs                                                  $               801,781 $                665,405
          Less: Earned Revenue                                                       (656,654)                (608,572)
          Net Program Costs                                                           145,127                   56,833
        Net Cost of Operations                                         $              145,127 $                 56,833




The accompanying notes are an integral part of these statements.
                                                                   Department of the Navy 2008 Annual Financial Report    217
The accompanying notes are an integral part of these statements.
218                                                                            Navy Working Capital Fund – Marine Corps



        Department of Defense
        Navy Working Capital Fund - Marine Corps
        CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
        For the Years Ended September 30, 2008 and 2007
           ($ in Thousands)


                                                                             2008 Consolidated       2007 Consolidated
           CUMULATIVE RESULTS OF OPERATIONS
            Beginning Balances                                           $             458,571   $             535,875
            Prior Period Adjustments
            Beginning Balances, as adjusted                                            458,571                 535,875
            Budgetary Financing Sources:
             Appropriations used                                                           798
             Transfers in/out without reimbursement (+/-)                                    0                  63,393
            Other Financing Sources:
             Imputed financing from costs absorbed by others                            11,197                  12,325
             Other (+/-)                                                                    (1)                (96,189)
            Total Financing Sources                                                     11,994                 (20,471)
            Net Cost of Operations (+/-)                                               145,127                  56,833
            Net Change                                                                (133,133)                (77,304)
            Cumulative Results of Operations                             $             325,438 $               458,571




      The accompanying notes are an integral part of these statements.


 The accompanying notes are an integral part of these statements.
     Department of Defense
     Navy Working Capital Fund - Marine Corps
     CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
     For the Years Ended September 30, 2008 and 2007
        ($ in Thousands)


                                                                                2008 Consolidated        2007 Consolidated
        UNEXPENDED APPROPRIATIONS
         Beginning Balances                                                 $               32,400   $                      0
         Prior Period Adjustments (+/-)
         Beginning Balances, as adjusted                                                    32,400                          0
         Budgetary Financing Sources:
          Appropriations received                                                              866                  32,400
          Other adjustments (rescissions, etc.)                                                (68)
          Appropriations Used                                                                 (798)
         Total Budgetary Financing Sources                                                       0                  32,400
         Unexpended Appropriations                                                          32,400                  32,400
         Net Position                                                       $              357,838 $               490,971




   The accompanying notes are an integral part of these statements.
                                                                      Department of the Navy 2008 Annual Financial Report       219
The accompanying notes are an integral part of these statements.
220                                                                            Navy Working Capital Fund – Marine Corps



       Department of Defense
       Navy Working Capital Fund - Marine Corps
       COMBINED STATEMENT OF BUDGETARY RESOURCES
       For the Years Ended September 30, 2008 and 2007
          ($ in Thousands)


                                                                             2008 Combined         2007 Combined
          BUDGETARY FINANCING ACCOUNTS
          Budgetary Resources:
            Unobligated balance, brought forward, October 1              $             179,815 $              177,371
            Budget Authority:
               Appropriations received                                                     866                  32,400
               Contract authority                                                       34,040                (49,945)
            Spending authority from offsetting collections:
               Earned
                 Collected                                                             676,609                626,041
                 Change in receivables from Federal sources                             (7,292)               (21,618)
               Change in unfilled customer orders
                 Advances received                                                       (186)                     520
                 Without advance from Federal sources                                   51,241                (20,741)
              Subtotal                                                                 755,278                566,657
            Nonexpenditure Transfers, net, anticipated and actual                            0                  63,393
            Permanently not available                                                   27,500                (32,400)
            Total Budgetary Resources                                                  962,593                775,021

          Status of Budgetary Resources:
            Obligations incurred:
               Direct                                                                      798
               Reimbursable                                                            671,492                595,206
               Subtotal                                                                672,290                595,206
            Unobligated balance:
               Apportioned                                                             194,510                116,422
               Exempt from apportionment                                                95,793                 63,393
               Subtotal                                                                290,303                179,815
            Total Status of Budgetary Resources                          $             962,593 $              775,021




      The accompanying notes are an integral part of these statements.

The accompanying notes are an integral part of these statements.
     Department of Defense
     Navy Working Capital Fund - Marine Corps
     COMBINED STATEMENT OF BUDGETARY RESOURCES
     For the Years Ended September 30, 2008 and 2007
        ($ in Thousands)


                                                                                  2008 Combined           2007 Combined
        RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
        Change in Obligated Balance:
         Obligated balance, net
            Unpaid obligations, brought forward, October 1                   $              243,475 $               333,699
            Less: Uncollected customer payments from
               Federal sources, brought forward, October 1                                 (297,712)               (340,071)
            Total Unpaid Obligated Balance                                                  (54,237)                  (6,372)
         Obligations incurred, net (+/-)                                                     672,290                 595,206
         Less: Gross outlays                                                               (673,593)               (685,430)
         Change in uncollected customer
            payments from Federal sources (+/-)                                             (43,949)                 42,360
         Obligated balance, net, end of period
            Unpaid obligations                                                              242,172                 243,475
            Less: Uncollected customer payments from
               Federal sources                                                             (341,661)               (297,712)
            Total Unpaid Obligated Balance, net, end of period                              (99,489)                (54,237)

        Net Outlays:
         Gross Outlays                                                                       673,593                 685,430
         Less: Offsetting collections                                                      (676,423)               (626,562)
        Net Outlays                                                          $                (2,830) $               58,868




   The accompanying notes are an integral part of these statements.
                                                                      Department of the Navy 2008 Annual Financial Report       221
The accompanying notes are an integral part of these statements.
222   Navy Working Capital Fund – Marine Corps
Navy Working Capital Fund – Marine Corps Notes to the Principal Statements




          2008
          2008
Navy Working Capital Fund – Marine Corps
    Notes to the Principal Statements




          2008
                                         Department of the Navy 2008 Annual Financial Report   223
224                                                                         Navy Working Capital Fund – Marine Corps

      Note 1.	 Significant Accounting Policies
      1.A. Basis of Presentation
      These financial statements have been prepared to report the financial position and results of operations of
      the Navy Working Capital Fund-Marine Corps (NWCF-MC), as required by the Chief Financial Officers Act
      of 1990, expanded by the Government Management Reform Act of 1994, and other appropriate legislation.
      The financial statements have been prepared from the books and records of NWCF-MC in accordance with
      the Department of Defense (DoD), Financial Management Regulation (FMR), the Office of Management
      and Budget (OMB) Circular A-136, Financial Reporting Requirements, and to the extent possible generally
      accepted accounting principles (GAAP). The accompanying financial statements account for all resources
      for which NWCF-MC is responsible unless otherwise noted.

      The NWCF-MC is unable to fully implement all elements of GAAP and OMB Circular A-136, due to
      limitations of its financial and nonfinancial management processes and systems that feed into the financial
      statements. The NWCF-MC derives its reported values and information for major asset and liability
      categories largely from nonfinancial systems, such as inventory and logistic systems. These systems were
      designed to support reporting requirements for maintaining accountability over assets and reporting the
      status of federal appropriations rather than preparing financial statements in accordance with GAAP. The
      NWCF-MC continues to implement process and system improvements addressing these limitations.

      The DoD currently has several auditor identified financial statement material weaknesses. Of these,
      NWCF-MC has the following material weaknesses: (1) Financial Management Systems, (2) Intragovernmental
      Eliminations, (3) Unsupported Accounting Entries, (4) Fund Balance with Treasury, (5) General Property,
      Plant, and Equipment, (6) Inventory, (7) Operating Materiel and Supplies, (8) Statement of Net Cost,
      (9) Reconciliation of Net Cost of Operations to Budget, (10) Accounts Payable, and (11) Accounts
      Receivable.

      1.B. 	 Mission of the Reporting Entity
      The United States Marine Corps (USMC) was created on November 10, 1775 as an act of the 2nd Continental
      Congress. The overall mission of USMC is to defend advanced naval bases and to conduct such land
      operations as may be essential to the prosecution of a naval campaign. The NWCF-MC provides goods
      and quality products, responsive maintenance support services required to support mobilization, surge
      and reconstitution requirements to the Department of the Navy (DON) and other DoD customers to ensure
      the operating forces are equipped for war in accordance with mobilization plans. In addition, NWCF-MC
      supports other governmental and nongovernmental customers.

      1.C. 	 Appropriations and Funds
      The NWCF-MC receives its appropriations and funds as working capital (revolving) funds. The NWCF-MC
      uses these appropriations and funds to execute its missions and subsequently report on resource usage.

      Working capital funds (WCF) received funding to establish an initial corpus through an appropriation or a
      transfer of resources from existing appropriations or funds. The corpus finances operations and transactions
      that flow through the fund. The WCF resources the goods and services sold to customers on a reimbursable
      basis and maintains the corpus. Reimbursable receipts fund future operations and generally are available in
      their entirety for use without further congressional action. At various times, Congress provides additional
      appropriations to supplement the WCF as an infusion of cash when revenues are inadequate to cover costs
      within the corpus.
1.D. 	 Basis of Accounting
For Fiscal Year (FY) 2008, NWCF-MC’s financial management systems are unable to meet all of the
requirements for full accrual accounting. Many of NWCF-MC’s financial and nonfinancial feeder systems
and processes were designed and implemented prior to the issuance of GAAP for federal agencies. These
systems were not designed to collect and record financial information on the full accrual accounting basis as
required by GAAP. The NWCF-MC and the Defense Finance and Accounting Service (DFAS) continue with
the implementation of new accounting systems designed to produce both proprietary and budgetary reports
and use the United States Standard General Ledger (USSGL). Until the implementation is completed, the
amounts recorded are primarily based upon proprietary data.

The DoD has undertaken efforts to determine the actions required to bring its financial and nonfinancial
feeder systems and processes into compliance with GAAP. One such action is the current revision of its
accounting systems to record transactions based on USSGL. Until all of NWCF-MC’s financial and nonfinancial
feeder systems and processes are updated to collect and report financial information as required by GAAP,
NWCF-MC’s financial data will be derived from transactions from nonfinancial feeder systems and accruals
made of major items such as payroll expenses and accounts payable.

1.E. 	 Revenues and Other Financing Sources
Depot Maintenance WCF activities recognize revenue according to the percentage of completion method.
Supply Management WCF activities recognize revenue from the sale of inventory items.

1.F. 	 Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period
incurred. However, because NWCF-MC’s financial and nonfinancial feeder systems were not designed to
collect and record financial information on the full accrual accounting basis, accruals are made for major
items such as payroll expenses, accounts payable, and unbilled revenue. In the case of Operating Materiel
and Supplies (OM&S), operating expenses are generally recognized when the items are issued for workload
consumption which is the “consumption method of accounting.” In certain cases, OM&S may be reported
as an operating expense at the time of purchase which is the “purchase method of accounting.” Some
examples of OM&S that would be expensed based on the purchase method are (1) when the customer’s
statement of work requires the purchase method to be utilized, (2) for unique nonrecurring workload as
required, and (3) for fast moving products that have minimal repair cycle times and require direct delivery
to the production shops.

1.G. 	 Accounting for Intragovernmental Activities
Preparation of reliable financial statements requires the elimination of transactions occurring among entities
within DoD or between two or more federal agencies. However, NWCF-MC cannot accurately eliminate
intragovernmental transactions by customer because NWCF-MC’s systems do not track at the transaction
level. Generally, seller entities within DoD provide summary seller-side balances for revenue, accounts
receivable, and unearned revenue to the buyer-side internal DoD accounting offices. In most cases, the
buyer-side records are adjusted to agree with DoD seller-side balances.

IntraDoD intragovernmental balances are then eliminated. The volume of intragovernmental transactions
is so large that after-the-fact reconciliation cannot be accomplished effectively with existing or foreseeable

                                                            Department of the Navy 2008 Annual Financial Report   225
226                                                                           Navy Working Capital Fund – Marine Corps

      resources. The DoD is developing long-term system improvements to ensure accurate intragovernmental
      information, to include sufficient up-front edits and controls eliminating the need for after-the-fact
      reconciliations.

      The U.S. Treasury Financial Management Service is responsible for eliminating transactions between DoD
      and other federal agencies. The U.S. Treasury Financial Manual, Part 2 – Chapter 4700, “Agency Reporting
      Requirements for the Financial Report of the United States Government,” and U.S. Treasury’s “Federal
      Intragovernmental Transactions Accounting Policy Guide” provide guidance for reporting and reconciling
      intragovernmental balances. While NWCF-MC is unable to fully reconcile intragovernmental transactions
      with all federal partners, NWCF-MC is able to reconcile balances pertaining to Federal Employees’
      Compensation Act transactions with the Department of Labor and benefit program transactions with the
      Office of Personnel Management.

      The DoD’s proportionate share of public debt and related expenses of the Federal Government is not
      included. The Federal Government does not apportion debt and its related costs to federal agencies. The
      DoD’s financial statements, therefore, do not report any portion of the public debt or interest thereon, nor do
      the statements report the source of public financing whether from issuance of debt or tax revenues.

      Financing for the construction of DoD facilities is obtained through appropriations. To the extent this
      financing ultimately may have been obtained through the issuance of public debt, interest costs have not
      been capitalized since U.S. Treasury does not allocate such interest costs to the benefiting agencies.

      1.H. 	 Transactions with Foreign Governments and International Organizations
      Each year, NWCF-MC sells defense articles and services to foreign governments and international
      organizations under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act,
      DoD has authority to sell defense articles and services to foreign countries and international organizations
      generally at no profit or loss to U.S. Government. Payment in U.S. dollars is required in advance.

      1.I. 	 Funds with the U.S. Treasury
      The NWCF-MC’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices
      of DFAS, the Military Departments, U.S. Army Corps of Engineers (USACE), and the Department of
      State’s financial service centers process the majority of NWCF-MC’s cash collections, disbursements, and
      adjustments worldwide. Each disbursing station prepares monthly reports to U.S. Treasury on check issues,
      electronic fund transfers, interagency transfers, and deposits.

      In addition, DFAS sites and USACE Finance Center submit reports to U.S. Treasury by appropriation on
      interagency transfers, collections received, and disbursements issued. The U.S. Treasury records these
      transactions to the applicable Fund Balance with Treasury (FBWT) account. The NWCF-MC’s recorded
      balance in FBWT accounts and U.S. Treasury’s FBWT accounts must balance monthly.

      1.J. 	 Foreign Currency
      Not applicable.

      1.K. 	 Accounts Receivable
      As presented in the Balance Sheet, accounts receivable includes three categories: accounts, claims, and
refunds receivable from other federal entities or from the public. Allowances for uncollectible accounts
due from the public are based upon an estimate of uncollectible accounts receivable. This estimate is a
percentage of the billed amount after the total project cost has been adjusted to reflect the advance deposit.
The NWCF-MC requires an advance deposit from all public entities prior to the commencement of work.
Therefore, an assumption is made that the amount of uncollectible accounts should be negligible. The DoD
does not recognize an allowance for estimated uncollectible amounts from other federal agencies. Claims
against other federal agencies are to be resolved between the agencies in accordance with dispute resolution
procedures defined in the Intragovernmental Business Rules published in the U.S. Treasury Financial
Manual.

1.L. 	 Direct Loans and Loan Guarantees
Not applicable.

1.M. 	 Inventories and Related Property
The NWCF-MC values and reports its resale inventories at an approximation of historical cost using latest
acquisition cost (LAC) adjusted for holding gains and losses. The LAC method is used because legacy
inventory systems were designed for materiel management rather than accounting. Although these
systems provide visibility and accountability over inventory items, they do not maintain historical cost data
necessary to comply with the SFFAS No. 3, “Accounting for Inventory and Related Property.” Additionally,
these systems cannot produce financial transactions using USSGL, as required by the Federal Financial
Management Improvement Act of 1996 (P.L. 104-208). A manual valuation process to comply has been
designed and is in the testing phase; it is expected to be completely evaluated by the end of March 2009.

The NWCF-MC manages only military or government specific materiel under normal conditions. Materiel is
a unique term that relates to military force management, and includes all items (such as tanks, self-propelled
weapons, etc., and related spares, repair parts, and support equipment, but excluding real property,
installations, and utilities) necessary to equip, operate, maintain, and support military activities without
distinction as to its application for administrative or combat purposes. Items commonly used in and available
from the commercial sector are not managed in NWCF-MC materiel management activities. Operational
cycles are irregular and the military risks associated with stock-out positions have no commercial parallel.
The NWCF-MC holds materiel based on military need and support for contingencies. Materiel held in
reserve for future sale is included in inventories and related property line item on the financial statements
with a separate disclosure in the footnotes based on SFFAS No. 3 definitions.

Related property includes OM&S and stockpile materiels. The OM&S, including munitions not held for sale,
are valued at standard purchase price. The NWCF-MC uses both the consumption method and the purchase
method of accounting for OM&S. Items that are centrally managed and stored, such as ammunition and
engines, are generally recorded using the consumption method and are reported as OM&S. The NWCF-
MC uses the purchase method only when special circumstances exist as identified under “recognition of
expenses.”

The NWCF-MC recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.” The cost of
disposal is greater than the potential scrap value; therefore, the net value of condemned materiel is zero.
Potentially redistributed materiel, presented in previous years as “Excess, Obsolete, and Unserviceable,” is
included in the “Held for Use” or “Held for Repair” categories according to its condition.

                                                            Department of the Navy 2008 Annual Financial Report   227
228                                                                           Navy Working Capital Fund – Marine Corps

      Inventory available and purchased for resale includes consumable spare and repair parts and repairable
      items owned and managed by NWCF-MC. This inventory is retained to support military or national
      contingencies. Inventory held for repair is damaged inventory that requires repair to make suitable for
      sale. Often, it is more economical to repair these inventory items rather than to procure these items. The
      NWCF-MC often relies on weapon systems and machinery no longer in production. As a result, NWCF-MC
      supports a process that encourages the repair and rebuilding of certain items. This repair cycle is essential to
      maintaining a ready, mobile, and armed military force. Work in process balances include costs related to the
      production or servicing of items, including direct material, direct labor, applied overhead, and other direct
      costs. Work in process also includes the value of finished products or completed services that are yet to be
      placed in service and transferred to an asset account. Work in process includes munitions in production
      and depot maintenance work with its associated labor, applied overhead, and supplies used in the delivery
      of maintenance services.

      1.N. 	 Investments in U.S. Treasury Securities
      Not applicable.

      1.O. 	 General Property, Plant and Equipment
      The NWCF-MC’s General Property, Plant, & Equipment (PP&E) capitalization threshold is $100 thousand
      except for real property which is $20 thousand. The NWCF-MC has not implemented the threshold for
      real property. The NWCF-MC is currently using the capitalization threshold of $100 thousand for all
      General PP&E.

      The WCF capitalizes all General PP&E used in the performance of their mission. These capitalized assets are
      categorized as General PP&E, whether or not it meets the definition of any other General PP&E categories.

      1.P. 	 Advances and Prepayments
      When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy is to
      record advances or prepayments in accordance with GAAP. As such, payments made in advance of the
      receipt of goods and services should be reported as an asset on the Balance Sheet. The DoD’s policy is to
      expense and/or properly classify assets when the related goods and services are received. The NWCF-MC
      has not implemented this policy primarily due to system limitations.

      1.Q. 	 Leases
      Not applicable.

      1.R. 	 Other Assets
      Other assets include those assets, such as military and civil service employee pay advances, travel advances,
      and certain contract financing payments that are not reported elsewhere on NWCF-MC’s Balance Sheet.

      The NWCF-MC conducts business with commercial contractors under two primary types of contracts: fixed
      price and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term
      contracts can cause, NWCF-MC may provide financing payments. Contract financing payments are defined
      in the Federal Acquisition Regulations, Part 32, as authorized disbursements of monies to a contractor prior to
      acceptance of supplies or services by the Government. Contract financing payments clauses are incorporated
      in the contract terms and conditions and may include advance payments, performance-based payments,
commercial advance and interim payments, progress payments based on cost, and interim payments under
certain cost-reimbursement contracts.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and
rental payments, or progress payments based on a percentage or stage of completion, which the Defense
Federal Acquisition Regulation Supplement authorizes only for construction of real property. Progress
payments for real property are reported as Construction in Progress. It is DoD policy to record certain
contract financing payments as Other Assets.

1.S. 	 Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12,
“Recognition of Contingent Liabilities Arising from Litigation,” defines a contingency as an existing condition,
situation, or set of circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will
be resolved when one or more future events occur or fail to occur. The NWCF-MC recognizes contingent
liabilities when past events or exchange transactions occur, a future loss is probable, and the loss amount
can be reasonably estimated.

The NWCF-MC is unable to identify specific legal contingencies primarily due to uncertainties of litigation
and difficulty identifying data and method of computation. These difficulties include, but are not limited
to unsupported comprehensive documentation that specifically identifies NWCF-MC as the liable source of
contingency. During 1st Quarter, FY 2007, DON worked with the Office of General Counsel and the Office
of the Under Secretary of Defense (Comptroller) to develop and implement a methodology to produce an
estimate for Contingent Legal Liabilities. This methodology was able to recognize contingent legal liabilities
at DON and corporate Marine Corps levels only, but not at NWCF-MC level.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not
exist but there is at least a reasonable possibility of incurring a loss or additional losses. Examples of loss
contingencies include the collectability of receivables, pending, or threatened litigation, and possible claims
and assessments. The NWCF-MC’s risk of loss and resultant contingent liabilities arise from pending or
threatened litigation or claims and assessments due to events such as vehicle accidents; property damages;
and contract disputes.

1.T. 	 Accrued Leave
The NWCF-MC reports as liabilities military leave and civilian earned leave, except sick leave, that has been
accrued and not used as of the Balance Sheet date. Sick leave is expensed as taken. The liability reported at
the end of the accounting period reflects the current pay rates.

1.U. 	 Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations represent the amounts of authority that are unobligated and have not been
rescinded or withdrawn. Unexpended appropriations also represent amounts obligated for which legal
liabilities for payments have not been incurred.



                                                             Department of the Navy 2008 Annual Financial Report    229
230                                                                             Navy Working Capital Fund – Marine Corps

      Cumulative Results of Operations represent the net difference, since inception of an activity, between
      expenses and losses and financing sources (including appropriations, revenue, and gains). Beginning with
      FY 1998, the cumulative results also include donations and transfers in and out of assets that were not
      reimbursed.

      1.V. 	 Treaties for Use of Foreign Bases
      Not applicable.

      1.W. 	 Comparative Data
      The NWCF-MC’s financial statements and notes are presented on a comparative basis.

      1.X. 	 Unexpended Obligations
      The NWCF-MC obligates funds to provide goods and services for outstanding orders not yet delivered.
      Unless the title has passed, the financial statements do not reflect a liability for payment for goods and
      services not yet delivered. Unexpended obligations includes both obligations for which goods and services
      have been delivered (title passed) and a liability recognized, and obligations for which no delivery has
      occurred and no liability recognized. The balance of unexpended obligations appears immediately before
      net outlays in the Statement of Budgetary Resources, and is referred to as “Total, Unpaid Obligated Balance,
      net, end of period.”

      1.Y. 	 Undistributed Disbursements and Collections
      Undistributed disbursements and collections represent the difference between disbursements and collections
      matched at the transaction level to a specific obligation, payable, or receivable in the activity field records as
      opposed to those reported by U.S. Treasury. These amounts should agree with the undistributed amounts
      reported on the monthly accounting reports. In-transit payments are those payments that have been made,
      but have not been recorded in the fund holder’s accounting records. These payments are applied to the
      entities’ outstanding accounts payable balance. In-transit collections are those collections from other agencies
      or entities that have not been recorded in the accounting records. These collections are also applied to the
      entities’ accounts receivable balance.

      The DoD policy is to allocate supported undistributed disbursements and collections between federal and
      nonfederal categories based on the percentage of distributed federal and nonfederal accounts payable
      and accounts receivable. Unsupported undistributed disbursements are recorded in accounts payable.
      Unsupported undistributed collections are recorded in other liabilities. The NWCF-MC does not follow
      DoD policy because financial feeder systems and accounting systems do not provide sufficient detail to
      identify federal and nonfederal, or supported/unsupported transactions. Further systems enhancements
      include providing the appropriate breakouts.

      The NWCF-MC identifies undistributed disbursements and collections to specific federal and nonfederal
      partners based on detailed transactions and apply them to accounts payable and accounts receivable
      appropriately. Disbursements and collections which remain unidentified are treated as unsupported.
      Unsupported undistributed disbursements are recorded in federal accounts payable since the majority of
      NWCF-MC business is with federal entities. Unsupported undistributed collections are zero.

      1.Z. 	 Significant Events
      Not applicable.
Note 2.	 Nonentity Assets
As of September 30                                        2008                                2007
(Amounts in thousands)

1. Intragovernmental Assets
   A. Fund Balance with Treasury                $                          0   $                              0
   B. Accounts Receivable                                                  0                                  0
   C. Total Intragovernmental Assets            $                          0   $                              0

2. Nonfederal Assets
   A. Cash and Other Monetary Assets            $                          0   $                              0
   B. Accounts Receivable                                                  1                                  0
   C. Other Assets                                                         0                                  0
   D. Total Nonfederal Assets                   $                          1   $                              0


3. Total Nonentity Assets                       $                          1   $                              0

4. Total Entity Assets                          $                  474,031     $                       613,903


5. Total Assets                                 $                  474,032     $                       613,903


Nonentity assets are assets for which the Navy Working Capital Fund-Marine Corps (NWCF-MC) maintains
stewardship accountability and responsibility to report, but are not available for NWCF-MC operations.

The amount reported in the NWCF-MC’s Nonentity Assets is accounts receivable for penalties and interest
related to a public receivable which has been submitted to the Debt Management Office for collection.


Note 3.	 Fund Balance with Treasury
As of September 30                                                      2008                         2007
(Amounts in thousands)


1. Fund Balances
   A. Appropriated Funds                                       $                     0    $                  0
   B. Revolving Funds                                                           70,746                  67,119
   C. Trust Funds                                                                    0                       0
   D. Special Funds                                                                  0                       0
   E. Other Fund Types                                                               0                       0
   F. Total Fund Balances                                      $                70,746    $             67,119


2. Fund Balances Per Treasury Versus Agency
   A. Fund Balance per Treasury                                $                70,746    $             67,119
   B. Fund Balance per United States Marine Corps                               70,746                  67,119

3. Reconciling Amount                                          $                     0    $                   0




                                                        Department of the Navy 2008 Annual Financial Report       231
232                                                                          Navy Working Capital Fund – Marine Corps

      The Navy Working Capital Fund-Marine Corps (NWCF-MC) has no reconciling amount to report this
      period.


      Status of Fund Balance with Treasury
       As of September 30                                             2008                         2007
       (Amounts in thousands)
       1. Unobligated Balance
          A. Available                                     $                  290,303     $                179,815
          B. Unavailable                                                            0                            0

       2. Obligated Balance not yet Disbursed              $                  242,172     $                243,475

       3. Nonbudgetary FBWT                                $                         0    $                      0

       4. NonFBWT Budgetary Accounts                       $                 (461,729)    $               (356,171)

       5. Total                                            $                   70,746     $                 67,119


      The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support FBWT.

      Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to
      cover outstanding obligations. Unobligated Balance is classified as available or unavailable and is associated
      with appropriations expiring at fiscal year end that remain available only for obligation adjustments until
      the account is closed.

      Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not been
      received, services that have not been performed, and goods and services that have been delivered/received
      but not yet paid.

      Nonbudgetary FBWT includes entity and nonentity FBWT accounts which represent adjustments that
      do not have budgetary authority, such as unavailable receipt accounts or clearing accounts. There is no
      Nonbudgetary FBWT reported this period.

      NonFBWT Budgetary Accounts represent adjustments to budgetary accounts that do not affect FBWT. For
      NWCF-MC, NonFBWT Budgetary accounts are comprised of contract authority for capital assets in depot
      maintenance and operating expenses in supply management, accounts receivable, and unfilled orders from
      customers. This category reduces the Status of FBWT.

      Unobligated balances are segregated to show available and unavailable amounts in the note schedule. For
      this reporting period, there are no unobligated unavailable balances for NWCF-MC. Unobligated available
      balances are not restricted to future use and are not apportioned for current use.


      Note 4.	 Investments and Related Interest
      The Navy Working Capital Fund-Marine Corps does not have Investments and Related Interest.
Note 5.	 Accounts Receivable
 As of September 30                                                       2008                                     2007
                                                                      Allowance For
                                               Gross Amount                                   Accounts           Accounts
                                                                        Estimated
                                                      Due                                  Receivable, Net    Receivable, Net
                                                                      Uncollectibles
 (Amounts in thousands)

1. Intragovernmental Receivables              $      5,826                        N/A      $         5,826    $       24,848
2. Nonfederal Receivables (From the
   Public)                                    $         81    $                        0   $             81   $            74


3. Total Accounts Receivable                  $      5,907    $                        0   $         5,907    $       24,922



Note 6.	 Other Assets
As of September 30                                                             2008                           2007
(Amounts in thousands)

1. Intragovernmental Other Assets
   A. Advances and Prepayments                                    $                            295   $                    684
   B. Other Assets                                                                               0                          0
   C. Total Intragovernmental Other Assets                        $                            295   $                    684

2. Nonfederal Other Assets
   A. Outstanding Contract Financing Payments                     $                             60   $                     81
   B. Advances and Prepayments                                                                 449                         46
   C. Other Assets (With the Public)                                                             0                          0
   D. Total Nonfederal Other Assets                               $                            509   $                    127


3. Total Other Assets                                             $                            804   $                    811


Contract terms and conditions for certain types of contract financing payments convey certain rights to the
Navy Working Capital Fund-Marine Corps (NWCF-MC) that protect the contract work from state or local
taxation, liens or attachment by the contractor’s creditors, transfer of property, or disposition in bankruptcy.
However, these rights should not be misconstrued to mean that ownership of the contractor’s work has
transferred to the Government. The Government does not have the right to take the work, except as provided
in contract clauses related to termination or acceptance, and NWCF-MC is not obligated to make payment to
the contractor until delivery and acceptance.

The Contract Financing Payment balance of $59.7 thousand is the estimated future payments that will be paid
to the contractor upon future delivery and Government acceptance of a satisfactory product. See additional
discussion in Note 15, “Other Liabilities.”


Note 7.	 Cash and Other Monetary Assets
The Navy Working Capital Fund-Marine Corps does not have Cash and Other Monetary Assets.

                                                              Department of the Navy 2008 Annual Financial Report               233
234                                                                                                    Navy Working Capital Fund – Marine Corps

      Note 8.	 Direct Loan and Loan Guarantees
      Not applicable.


      Note 9.	 Inventory and Related Property
       As of September 30                                                       2008                                              2007
       (Amounts in thousands)

       1. Inventory, Net                                 $                                    235,620          $                               318,682
       2. Operating Materiel & Supplies, Net                                                  114,983                                          156,444
       3. Stockpile Materiel, Net                                                                   0                                                0

       4. Total                                          $                                    350,603          $                               475,126




      Inventory, Net
      As of September 30                                                              2008                                  2007
                                                               Inventory,            Revaluation         Inventory,        Inventory,        Valuation
                                                             Gross Value             Allowance              Net               Net             Method


      (Amounts in thousands)
      1. Inventory Categories

          A. Available and Purchased for Resale              $   432,793         $     (434,318)           (1,525)     $      83,766         LAC,MAC
          B. Held for Repair                                     237,273                       0          237,273            234,792         LAC,MAC

          C. Excess, Obsolete, and Unserviceable                            0                      0               0                    0      NRV
          D. Raw Materiel                                                   0                      0               0                    0   MAC,SP,LAC
          E. Work in Process                                        (128)                          0          (128)               124          AC


          F. Total                                           $   669,938         $     (434,318)          235,620      $     318,682
      Legend for Valuation Methods:
      Legend for Valuation Methods:
      Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains         NRV = Net Realizable Value
      SP = Standard Price                                                        AC = Actual Cost
      MAC = Moving Average Cost



      Abnormal Balances in Available and Purchased for Resale
      The $1.5 million abnormal balance in Inventory and Purchased for Resale is the result of duplicate inventory
      adjustment errors, made in the calculation methodologies for 4th Quarter, FY 2008, in the inventory allowance
      account. This account is an offset to the inventory accounts, completed monthly, to revalue inventory from
      the Supply Management Activity Group (SMAG) accounts from standard to actual cost.

      During March 2008, Marine Corps (MC) Logistics managers conducted a physical evaluation of on hand
      inventories. As a result of conducting this evaluation, several consumable, spare and replenishment items
      were determined to be either excess, obsolete and/or damaged beyond economic repair. Primarily during the
      4th Quarter, FY 2008, these items, totaling $78.8 million were transferred to Defense Reutilization Marketing
      Office (DRMO) for disposal with associative inventory reduction transactions processing in the inventory
      financial management system. Examples of items transferred include the Homing All the Way Killer missile,
M60 Tank and other weapon systems that are no longer being utilized by MC SMAG customers.

Simultaneously, the monthly journal voucher to account for inventory allowance revaluation erroneously
duplicated the value of the inventory transferred to DRMO, thus reducing the gross value of inventory.
The MC will work with the Defense Finance and Accounting Service to correct this error, and process for
calculation of the inventory allowance account, by the end of 1st Quarter, FY 2009.

Generally, there are no restrictions with regard to the use, sale, or disposition of inventory to applicable
Department of Defense (DoD) activities and personnel. Other than specified safety and war reserve levels,
established as a result of DoD and MC regulatory operations, inventory may be sold to foreign countries,
state and local governments, private parties and contractors in accordance with DoD and MC policies and
guidance or at the direction of the President.

Inventory Categories
Inventory represents property that is held (a) for sale to customers, (b) in the process of supporting production
for eventual sale to customers, and (c) to be consumed in the production of goods for sale or in the provision
of providing services for a fee.

Inventory Available and Purchased for Resale includes consumable spare and repair parts and repairable
items owned and managed by Navy Working Capital Fund-Marine Corps (NWCF-MC) as well as consumable
and repairable items that are managed by other Military Services, such as the Defense Logistics Agency or
the General Services Administration, where MC has permission to stock, store, and sell. Materiel available
and purchased for resale includes material to support military or national contingencies, held based on
various managerial decisions.

Included in Inventory Available and Purchased for Resale, is an amount of $84.3 million for War Reserve
Material for Supply Management Activity Group, MC.

Federal Accounting Standards require disclosure of the amount of Inventory Held for “Future Sale.” The
NWCF-MC currently has no inventory included in this reporting period, which is being held for future
sale. All inventory, included in Inventory, Net through 4th Quarter, FY 2008 is currently planned for sale to
customers or retained for military or national contingencies. There is no management or valuation difference
between the two categories.

Inventory Held for Repair is inventory that is in less than “ready for issue/sale” condition and requires repair
to make suitable for sale. Some of the inventory items are more economical to repair than to procure. Since
many weapon systems and machinery for warfighting readiness are no longer in commercial production,
there are relatively no ready and economical sources of replenishment available via new purchase. The
MC supports its customers’ requests for purchase of certain items by repairing or rebuilding these items
vice new acquisitions. The repair/rebuild process is an essential part of the Marine Corps’ commitment as
a “Force in Readiness” as well as supporting our other DoD customers in maintaining a ready, mobile, and
armed military forces.

Work in Process balances include costs related to the production or servicing of items, including direct
material, direct labor, applied overhead and other direct costs. Work in Process also includes the value of
finished products or completed services pending billing to the customer. Work in Process designation may

                                                             Department of the Navy 2008 Annual Financial Report    235
236                                                                                             Navy Working Capital Fund – Marine Corps

      also be used to accumulate the amount paid to a contractor under cost reimbursable contracts, including the
      amount withheld from payment to ensure performance, and the amount paid to other Government plants
      for accrued costs of end items of material ordered but not delivered.


      Operating Materiel and Supplies, Net
      As of September 30                                                     2008                                    2007
                                                          OM&S            Revaluation                                                Valuation
                                                                                                OM&S, Net           OM&S, Net
                                                        Gross Value       Allowance                                                   Method
      (Amounts in thousands)

      1. OM&S Categories
                                                                                                                                    SP, LAC,
        A. Held for Use                                $   114,983    $                 0   $      114,983      $     156,444        MAC
                                                                                                                                    SP, LAC,
        B. Held for Repair                                        0                     0                   0                   0    MAC
        C. Excess, Obsolete, and Unserviceable                    0                     0                   0                   0    NRV


        D. Total                                       $   114,983    $                 0   $      114,983      $     156,444

      Legend for Valuation Methods:
      Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                 NRV = Net Realizable Value
      SP = Standard Price                                                                           MAC = Moving Average Cost



      Generally, there are no restrictions with regard to the use, sale, or disposition of Operating Materiel and
      Supplies (OM&S) applicable to DoD activities.

      OM&S Held for Use represents property that is consumed during normal operations and includes consumable
      spare and repair parts for use on customer work by various activities. The items are recorded using different
      methodologies including actual, weighted-average, and historical cost.

      Federal Accounting Standards require disclosure of the amount of OM&S Held for “Future Use.” The
      NWCF-MC reports that $115.0 million of OM&S is categorized as Held for Future Use. All OM&S categories
      shown in the table above apply to the Depot Maintenance Activity Group, MC only.

      Generally, the values of NWCF-MC’s Government Furnished Material are not included in OM&S values
      reported above. The DoD is presently reviewing its process for reporting these amounts in an effort to
      determine the appropriate accounting treatment and the best method to annually collect and report required
      information without duplicating information already in other existing logistics systems in accordance with
      Volume 6B, Chapter 10 of DoD Financial Management Regulation.


      Stockpile Materiel, Net
      Not applicable.
Note 10.	 General PP&E, Net
As of September 30                                                           2008                                                          2007
                                         Depreciation/                                          (Accumulated
                                                          Service         Acquisition                                   Net Book       Prior FY Net
                                         Amortization                                           Depreciation/
                                                           Life             Value                                        Value         Book Value
                                           Method                                               Amortization)
(Amounts in thousands)

1. Major Asset Classes
   A. Land                                   N/A            N/A       $                 0                 N/A       $              0   $          0
   B. Buildings, Structures, and
      Facilities                             S/L           20 or 40           73,328        $        (44,226)              29,102           30,073
   C. Leasehold Improvements                 S/L         lease term                0                        0                   0                0
   D. Software                               S/L          2-5 or 10                0                        0                   0                0
   E. General Equipment                      S/L           5 or 10            70,053                 (59,613)              10,440           11,693
   F. Military Equipment                     S/L           Various                 0                        0                   0                0
   G. Assets Under Capital Lease
                                             S/L         lease term                     0                       0                  0              0
     H. Construction-in- Progress
                                             N/A            N/A                6,430                     N/A                6,430            4,159
     I. Other                                                                      0                       0                    0                0
     J. Total General PP&E                                            $      149,811        $      (103,839)        $      45,972      $    45,925

 1
  Note 15 for additional information on Capital Leases
 Legend for Valuation Methods:
 S/L = Straight Line      N/A = Not Applicable



Generally, for Navy Working Capital Fund-Marine Corps (NWCF-MC), there are no restrictions on General
Property, Plant, and Equipment.

Heritage Assets and Stewardship Land are reported on the financial statements of U.S. Marine Corps General
Fund.


Assets Under Capital Lease
Not applicable.




                                                                          Department of the Navy 2008 Annual Financial Report                         237
238                                                                         Navy Working Capital Fund – Marine Corps

      Note 11.	 Liabilities Not Covered by Budgetary Resources
       As of September 30                                           2008                         2007
       (Amounts in thousands)

       1. Intragovernmental Liabilities
          A. Accounts Payable                            $                         0   $                         0
          B. Debt                                                                  0                             0
          C. Other                                                                 1                             0
          D. Total Intragovernmental Liabilities         $                         1   $                         0

       2. Nonfederal Liabilities
          A. Accounts Payable                            $                         0   $                         0
          B. Military Retirement and
             Other Federal Employment Benefits                                27,219                       27,624
          C. Environmental Liabilities                                             0                            0
          D. Other Liabilities                                                     0                            0
          E. Total Nonfederal Liabilities                $                    27,219   $                   27,624

       3. Total Liabilities Not Covered by
          Budgetary Resources                            $                    27,220   $                   27,624

       4. Total Liabilities Covered by Budgetary
          Resources                                      $                    88,974   $                   95,308

       5. Total Liabilities                              $                   116,194   $                  122,932


      Liabilities Not Covered by Budgetary Resources are liabilities for which congressional action is needed
      before budgetary resources can be provided.

      Intragovernmental Other Liabilities is made up of interest, and penalties owed to U.S. Treasury for services
      of the Debt Management Office to handle and recover delinquent accounts receivable from public customers.
      Refer to Note 2, “Nonentity Assets,” for additional details and disclosures.

      The $27.2 million includes Military Retirement Benefits and Other Federal Employment Benefits that are
      related to the Department of Labor’s Office of Inspector General estimated liability for future Navy Working
      Capital Fund-Marine Corps workers’ compensation benefits. This liability is recorded as actuarial since it is
      based on guidelines issued by the Office of Management and Budget and represents estimated values which
      may or may not materialize.

      These actuarial benefits will be funded in future years. Refer to Note 17, “Military Retirement and Other
      Federal Employment Benefits,” for additional details and disclosures.
Note 12.	 Accounts Payable
As of September 30                                                        2008                                 2007
                                                                          Interest,
                                                       Accounts         Penalties, and
                                                                                                 Total         Total
                                                       Payable          Administrative
                                                                            Fees

(Amounts in thousands)


1. Intragovernmental Payables                      $       52,258   $         N/A            $    52,258   $     5,768

2. Nonfederal Payables (to the Public)                     24,291                        0        24,291       79,541

3. Total                                           $       76,549   $                    0   $    76,549   $   85,309


The NWCF-MC’s systems do not track intragovernmental transactions by customer at the transaction
level. Therefore, internal Department of Defense buyer-side balances are adjusted to agree with internal
seller-side balances for revenue, accounts receivable, and unearned revenue. Accounts payable were adjusted
by reclassifying amounts between federal and nonfederal accounts payable.


Note 13.	 Debt
Not applicable.


Note 14.	 Environmental Liabilities and Disposal Liabilities
Not applicable.


Environmental Disclosures
Environmental Liabilities are reported on the financial statements of the U.S. Marine Corps General Fund.




                                                           Department of the Navy 2008 Annual Financial Report           239
240                                                                                        Navy Working Capital Fund – Marine Corps

      Note 15.	 Other Liabilities
      As of September 30                                                    2008                                   2007
                                                      Current             Noncurrent
                                                                                                 Total              Total
                                                      Liability            Liability
      (Amounts in thousands)

      1. Intragovernmental
         A. Advances from Others                  $               0   $                0    $             0   $                0
         B. Deposit Funds and Suspense
            Account Liabilities                                   0                    0                  0                    0
         C. Disbursing Officer Cash                               0                    0                  0                    0
         D. Judgment Fund Liabilities                             0                    0                  0                    0
         E. FECA Reimbursement to the
            Department of Labor                                   0                    0                  0                    0
         F. Custodial Liabilities                                 1                    0                  1                    0
        G. Employer Contribution and
            Payroll Taxes Payable                           1,129                      0             1,129                   858
        H. Other Liabilities                                    0                      0                 0                     0

         I. Total Intragovernmental Other
            Liabilities                           $         1,130     $                0    $        1,130    $              858
      (Amounts in thousands)
      2. Nonfederal
         A. Accrued Funded Payroll and
            Benefits                              $       10,868      $                0    $       10,868    $             8,720
         B. Advances from Others                             368                       0               368                    555
         C. Deferred Credits                                   0                       0                 0                      0
         D. Deposit Funds and Suspense
            Accounts                                              0                    0                  0                     0
         E. Temporary Early Retirement
            Authority                                             0                    0                  0                     0
         F. Nonenvironmental Disposal
            Liabilities
             (1) Military Equipment
             (Nonnuclear)                                         0                    0                  0                     0
             (2) Excess/Obsolete Structures                       0                    0                  0                     0
             (3) Conventional Munitions
             Disposal                                             0                    0                  0                     0
         G. Accrued Unfunded Annual Leave                         0                    0                  0                     0

         H. Capital Lease Liability                               0                    0                  0                     0
          I. Contract Holdbacks                                   0                    0                  0                 (215)
         J. Employer Contribution and
             Payroll Taxes Payable                                0                 0                     0                    0
         K. Contingent Liabilities                                0                60                    60                   81
         L. Other Liabilities                                     0                 0                     0                    0

         M. Total Nonfederal Other Liabilities    $       11,236      $            60       $       11,296    $             9,141


      3. Total Other Liabilities                  $       12,366      $            60       $       12,426    $             9,999



      Contingent Liabilities includes $59.7 thousand in estimated future contract financing payments that will
      be paid to the contractors upon delivery and Government acceptance. In accordance with contract terms,
      specific rights to the contractor’s work vests with the Government when a specific type of contract financing
payment is made. This action protects taxpayer funds in the event of contract nonperformance. These
rights should not be misconstrued as the rights of ownership. The NWCF-MC is under no obligation to
pay the contractor for amounts greater than the amounts authorized in the contract until delivery and
Government acceptance. Because it is probable that the contractor will complete its efforts and deliver a
satisfactory product to NWCF-MC and the amount of potential future payments is estimable, NWCF-MC
has recognized a contingent liability for estimated future payments, which are conditional pending delivery
and Government acceptance.


Capital Lease Liability
Not applicable.


Note 16.	 Commitments and Contingencies
The NWCF-MC is a party in various administrative proceedings and legal actions, with claims including
equal opportunity matters and contractual bid protests. While the results of these legal actions may
ultimately result in settlements or decisions adverse to the Federal Government, due to uncertainties of
litigation, difficulty in identifying data, historical information, and methods of computation, estimates of
contingent liability are not available for NWCF-MC.

Due to the identified difficulties, it was not until July 2008, when the legal actions were determined to be
related to NWCF-MC. During 1st Quarter, FY 2007, DON began working with the Office of General Counsel
and the Office of the Under Secretary of Defense (Comptroller) to develop and implement methodologies to
identify applicable actions and produce estimates for probable Contingent Legal Liabilities at the NWCF-
MC level.

The results of this process were indentified in the July 2008 DON Office of General Counsel FY 2008 Interim
Legal Representation letter to the Inspector General of the Department of Defense. This letter identified
eight litigation cases that met the materiality threshold of $130.3 thousand and includes matters that existed
on July 1, 2007 through September 30, 2008 specifically related to NWCF-MC. As with the Interim Legal
Representation letter, the Final Legal Representation Letter, received in October, 2008, provided supporting
information that the Office of General Counsel could not express an opinion as to the outcome, including
estimating contingent liability amounts for the eight cases against NWCF-MC.

Due to insufficient historical data at the NWCF-MC level, the developed methodology employed by the
DON Office of General Counsel and Comptroller to identify appropriate litigants, was not sufficient to
determine estimated contingent liabilities at the NWCF-MC level. Until such time as this can be determined,
contingent liabilities will continue to be reported for the Marine Corps, at the aggregate level and included in
the USMC General Fund reporting. The estimates are based on total legal cases, not individual claims. The
MC management will continue to work with DON Office of General Counsel and Comptroller to identify
estimated contingencies and other related disclosures, at NWCF-MC level, by the end of FY 2009.

The NWCF-MC does not have obligations related to cancelled appropriations for which a contractual
commitment for payment exists.



                                                             Department of the Navy 2008 Annual Financial Report   241
242                                                                                          Navy Working Capital Fund – Marine Corps

      The NWCF-MC has contractual arrangements (i.e. undelivered orders) which may require financial
      obligations based on contractor claims under the “disputes” clause contained in contracts. As of the end of
      4th Quarter, FY 2008, undelivered orders are estimated at $154.3 million.

      The NWCF-MC has contingencies that are considered both measurable and probable and have been
      recognized as liabilities. Refer to Note 15 for further details.

      The NWCF-MC is a party in numerous individual contracts that contain clauses, such as price escalation,
      award fee payments of dispute resolution, that may or may not result in a future outflow of expenditures.
      Currently, NWCF-MC does not have a systemic process by which it captures or assesses these potential
      contingent liabilities; therefore, the amounts reported may not fairly present NWCF-MC contingent
      liabilities.


      Note 17.	 Military Retirement and Other Federal
      		        Employment Benefits
      As of September 30                                                                 2008                                           2007
                                                                                 Assumed     (Less: Assets
                                                                                                                 Unfunded
                                                               Liabilities        Interest    Available to                             Liabilities
                                                                                                                 Liabilities
                                                                                 Rate (%)    Pay Benefits)

      (Amounts in thousands)


      1. Pension and Health Actuarial Benefits
        A. Military Retirement Pensions                    $                 0               $          0    $                 0   $                 0
        B. Military Retirement Health Benefits                               0                          0                      0                     0
        C. Military Medicare-Eligible Retiree Benefits                       0                          0                      0                     0
        D. Total Pension and Health Actuarial
           Benefits                                        $                 0               $          0    $                 0   $                 0

      2. Other Actuarial Benefits
        A. FECA                                            $       27,219                    $          0    $      27,219         $       27,624
        B. Voluntary Separation Incentive Programs                      0                               0                0                      0
        C. DoD Education Benefits Fund                                  0                               0                0                      0
        D. Total Other Actuarial Benefits                  $       27,219                    $          0    $      27,219         $       27,624

      3. Other Federal Employment Benefits                 $                 0               $          0    $                 0   $                 0

      4. Total Military Retirement and Other
         Federal Employment Benefits:                      $       27,219                    $          0    $      27,219         $       27,624

          Actuarial Cost Method Used:
          Assumptions:
          Market Value of Investments in Market-based and Marketable Securities:

      The DON actuarial liability for workers’ compensation benefits is developed by the Department of Labor and
      provided to DON at the end of each fiscal year. The liability is distributed between the Navy Working Capital
      Fund and General Fund for DON and the Marine Corps (MC) which is based upon the number of civilian
      employees funded in each entity as reported in the Navy Budget Tracking System. The liability includes the
      expected liability for death, disability, medical, and miscellaneous costs for approved compensation cases.
      The liability is determined using a method that utilizes historical benefit payment patterns to predict the
      ultimate payments.
The NWCF-MC’s estimated actuarial liability is updated only at the end of each fiscal year. The change in
actuarial liability for FY 2008 is an increase of $3.4 million.

The projected annual benefit payments are discounted to the present value using Office of Management
and Budget’s economic assumptions for ten year U.S. Treasury notes and bonds. Cost of living adjustments
(COLAs) and medical inflation factors are also applied to the calculation of projected future benefits. The
interest rate assumptions used in the discount calculations are as follows for September 30, 2008:

	                2008
	                4.368% in Year 1
	                4.770% in Year 2 and thereafter

To provide more specifically for the effects of inflation on the liability for future workers’ compensations
benefits, wage inflation factors COLAs and medical inflation factors (consumer price index medical or
CPIMs) were applied to the calculation of projected future benefits. The actual rates for these factors for the
charge back year (CBY) 2008 were also used to adjust the methodology’s historical payments to current year
constant dollars.

The compensation COLAs and CPIMs used in the projections for various charge back years were as
follows:

	                CBY	             COLA	            CPIM
	                2008	             3.03%	          4.71%
	                2009	             3.87%	          4.01%
	                2010	             2.73%	          3.86%
	                2011	             2.20%	          3.87%
	                2012	             2.23%	          3.93%
	                2013+	            2.30%	          3.93%

The model’s resulting projections were analyzed to ensure that the estimates were reliable. The analysis was
based on four tests:

      (1) 	 A sensitivity analysis of the model to economic assumptions,

      (2) 	 A comparison of the percentage change in the liability amount by agency to the percentage
            change in the actual incremental payments,

      (3) 	 A comparison of the incremental paid losses per case (a measure of case severity) in CBY 2008 to
            the average pattern observed during the most current three charge back years, and

      (4) 	 A comparison of the estimated liability per case in the 2008 projection to the average pattern for
            the projections of the most recent three years.




                                                            Department of the Navy 2008 Annual Financial Report   243
244                                                                        Navy Working Capital Fund – Marine Corps

      Note 18.	 General Disclosures Related to the Statement of
      		        Net Cost
      As of September 30                                        2008                           2007

      (Amounts in thousands)


      1. Intragovernmental Costs                     $                    382,207    $                   264,758
      2. Public Costs                                                     419,574                        400,647
      3. Total Costs                                 $                    801,781    $                   665,405



      4. Intragovernmental Earned Revenue            $                   (656,410)   $                 (595,965)
      5. Public Earned Revenue                                               (244)                      (12,607)
      6. Total Earned Revenue                        $                   (656,654)   $                 (608,572)


      7. Net Cost of Operations                      $                    145,127    $                    56,833


      Intragovernmental costs and revenues are related to transactions made between two reporting entities
      within the Federal Government.

      Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal
      entity.

      The NWCF-MC generally records transactions on an accrual basis as required by federal generally accepted
      accounting principles (GAAP). The NWCF-MC’s systems do not track intragovernmental transactions by
      customer at the transaction level. Therefore, to facilitate the preparation of the Department of Defense’s
      consolidated financial statements, NWCF-MC’s buyer-side balances were adjusted to agree with internal
      seller-side balances for revenue. Expenses were adjusted by reclassifying accounts between federal and
      nonfederal expense.

      The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal
      Government supported by appropriations or other means. The intent of SNC is to provide gross and net cost
      information related to the amount of output or outcome for a given program or organization administered
      by a responsible reporting entity. The Department’s current processes and systems do not capture and report
      accumulated costs for major programs based upon the performance measures as required by the Government
      Performance and Results Act. The Department is in the process of reviewing available data and developing
      a cost reporting methodology as required by the Statement of Federal Financial Accounting Standards
      (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government.”

      The NWCF-MC does not report any heritage assets or stewardship land, as these entities are reported on the
      financial statements of the USMC-GF.
Note 19.	 Disclosures Related to the Statement of
		        Changes in Net Position
The Navy Working Capital Fund-Marine Corps does not have Disclosures Related to the Statement of
Changes in Net Position.


Note 20.	 Disclosures Related to the Statement of
		        Budgetary Resources
As of September 30                                            2008                            2007
(Amounts in thousands)

1. Net Amount of Budgetary Resources
   Obligated for Undelivered Orders at the End
   of the Period                                   $                   154,257    $                   161,145

2. Available Borrowing and Contract Authority
   at the End of the Period                                                   0                                 0


The Statement of Budgetary Resources (SBR) includes intraentity transactions because the statements are
presented as combined.

The Office of Management and Budget Circular A-136 requires disclosure of the amount of direct and
reimbursable obligations incurred against amounts apportioned under categories A, B, and exempt from
apportionment. The NWCF-MC has a total $672.3 million in direct and reimbursable obligations incurred.
Category A has $798 thousand in direct and Category B has $671.5 million in reimbursable.

The NWCF-MC does not have any legal arrangements affecting the use of unobligated balances of budget
authority such as time limits, purpose, and obligation limitations.

The NWCF-MC received $798 thousand in July 2008 due to a transfer-in of cash to finance increased fuel
costs.

The NWCF-MC has a $33.5 million difference between amounts reported on SBR and SF 133, Monthly Report
on Budget Execution and Budgetary Resources. This is due to an adjustment for $32.4 million processed
in order to correct a posting error. The original adjustment was posted to an incorrect general account in
June 2007 for a supplemental direct appropriation received to finance the cost of War Reserves Materiel
replenishment. In addition, an adjustment for $1.1 million posted in Employee Benefits. These adjustments
processed in the quarterly financial statement compilation that were not included in the monthly budgetary
reports.




                                                          Department of the Navy 2008 Annual Financial Report       245
246                                                                 Navy Working Capital Fund – Marine Corps

      Note 21.	 Reconciliation of Net Cost of Operations to
      		        Budget
      As of September 30                                                        2008             2007
      (Amounts in thousands)

      Resources Used to Finance Activities:
      Budgetary Resources Obligated:
      1. Obligations incurred                                               $    672,290     $    595,206
      2. Less: Spending authority from offsetting
         collections and recoveries (-)                                         (720,372)        (584,202)
      3. Obligations net of offsetting collections
          and recoveries                                                    $    (48,082)    $     11,004
      4. Less: Offsetting receipts (-)                                                  0               0
      5. Net obligations                                                    $    (48,082)    $     11,004
      Other Resources:
      6. Donations and forfeitures of property                                           0               0
      7. Transfers in/out without reimbursement (+/-)                                    0               0
      8. Imputed financing from costs absorbed by others                           11,197           12,325
      9. Other (+/-)                                                                   (0)        (96,189)
      10. Net other resources used to finance activities                    $      11,197    $    (83,864)
      11. Total resources used to finance activities                        $    (36,885)    $    (72,860)
      Resources Used to Finance Items not Part of the Net Cost of
           Operations:
      12. Change in budgetary resources obligated for
          goods, services and benefits ordered but not yet
          provided:
          12a. Undelivered Orders (-)                                       $       6,889    $      66,595
          12b. Unfilled Customer Orders                                            51,054         (20,222)
      13. Resources that fund expenses recognized in prior
           Periods (-)                                                              (405)          (1,972)
      14. Budgetary offsetting collections and receipts that
           do not affect Net Cost of Operations                                         0                0
      15. Resources that finance the acquisition of assets (-)                   (92,507)        (164,323)
      16. Other resources or adjustments to net obligated
           resources that do not affect Net Cost of
           Operations:
           16a. Less: Trust or Special Fund Receipts
                  Related to exchange in the Entity’s Budget (-)                        0               0
           16b. Other (+/-)                                                             0          96,189
      17. Total resources used to finance items not part
           of the Net Cost of Operations                                    $    (34,969)    $    (23,733)
      18. Total resources used to finance the Net Cost
           of Operations                                                    $    (71,854)    $    (96,593)
As of September 30                                                                     2008             2007
(Amounts in thousands)

Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:

Components Requiring or Generating Resources in Future Period:
19. Increase in annual leave liability                                             $            0   $               0
20. Increase in environmental and disposal liability                                            0                   0
21. Upward/Downward re-estimates of credit subsidy
    expense (+/-)                                                                               0                   0
22. Increase in exchange revenue receivable from
    the public (-)                                                                              0                   0
23. Other (+/-)                                                                                 0                   0
24. Total components of Net Cost of Operations that
    will Require or Generate Resources in future
    periods                                                                        $            0   $               0

Components not Requiring or Generating Resources:
25. Depreciation and amortization                                                  $      4,974     $       5,461
26. Revaluation of assets or liabilities (+/-)                                          151,228            67,449
27. Other (+/-)
    27a. Trust Fund Exchange Revenue                                                           0                0
    27b. Cost of Goods Sold                                                               60,779           80,516
    27c. Operating Material and Supplies Used                                                  0                0
    27d. Other                                                                                 0                0
28. Total Components of Net Cost of Operations that
    will not Require or Generate Resources                                         $    216,981     $     153,426

29. Total components of Net Cost of Operations
    that will not Require or Generate Resources in
    the current period                                                             $    216,981     $     153,426

30. Net Cost of Operations                                                         $    145,127     $      56,833


The Reconciliation of Net Cost of Operations to Budget is designed to provide information about the total
resources used by an entity to explain how those resources were used to finance orders for goods and
services not yet delivered, to acquire assets and liabilities, and to fund the entity’s net cost of operations. It
is designed to report the differences and facilitate the reconciliation of accrual based amounts used in the
Statement of Net Cost (SNC) and obligation-based amounts used in the Statement of Budgetary Resources.
The computations and presentation of items in the Reconciliation of Net Cost of Operations to Budget
demonstrate that the budgetary and proprietary information in an entity’s financial management system
are in agreement.

Due to the NWCF-MC financial system limitations, budgetary data is not in agreement with proprietary
expenses and assets capitalized. The difference between budgetary and proprietary data has been previously
identified as a system deficiency. To bring the Reconciliation of Net Cost of Operations to Budget into
balance with SNC, the following adjustment (absolute value) was made:

Resources That Finance the Acquisition of Assets:	           $166.2 million

                                                              Department of the Navy 2008 Annual Financial Report       247
248                                                                         Navy Working Capital Fund – Marine Corps

      The following Reconciliation of Net Cost of Operations to Budget lines are presented as combined instead of
      consolidated due to intraagency budgetary transactions not being eliminated:

            n	   Obligations Incurred
            n	   Less: Spending Authority from Offsetting Collections and Recoveries
            n	   Obligations Net of Offsetting Collections and Recoveries
            n	   Net Obligations
            n	   Undelivered Orders
            n	   Unfilled Customer Orders


      Note 22.	 Disclosures Related to Incidental Custodial
      		        Collections
      Not applicable.


      Note 23.	 Earmarked Funds
      The NWCF-MC has no Earmarked Funds.


      Note 24.	 Other Disclosures
      The NWCF-MC has no Other Disclosures.


      Note 25.	 Restatements
      For FY 2008, the NWCF-MC has no Restatements.
Navy Working Capital Fund – Marine Corps Required Supplementary Information




           2008
           2008
Navy Working Capital Fund – Marine Corps
  Required Supplementary Information




           2008
                                         Department of the Navy 2008 Annual Financial Report   249
250                                                                        Navy Working Capital Fund – Marine Corps

                                     Navy Working Capital Fund-Marine Corps
                                      General Property, Plant, and Equipment
                                       Real Property Deferred Maintenance
                                      For Fiscal Year Ended September 30, 2008

      The Navy Working Capital Fund-Marine Corps real property deferred maintenance for fiscal year ended
      September 30, 2008 is reported with the U.S. Marine Corps General Fund real property deferred maintenance.
      See United States Marine Corps General Fund Required Supplementary Information.
Navy Working Capital Fund – Marine Corps Other Accompanying Information




          2008
          2008
Navy Working Capital Fund – Marine Corps
    Other Accompanying Information




          2008
                                       Department of the Navy 2008 Annual Financial Report   251
252                                                                  Navy Working Capital Fund – Marine Corps

      Appropriations, Funds, and Accounts Included in the
      Principal Statements
      Reporting Entity
      Navy Working Capital Fund (NWCF)

      Fund/Account Treasury Symbol and Title:
      97X4930.002

      Navy Working Capital Fund Activity Group Treasury Symbol and Title:
      97X4930.NA4A 	 Depot Maintenance - Other, Marine Corps
      97X4930.NC2A 	 Supply Management, Marine Corps
   Audit Opinions




2008
2008
Audit Opinions




2008
             Department of the Navy 2008 Annual Financial Report   253
254
255
256
257
258
259
260
261
262
263
264
265
266
267
268
269
270
271
272
273
274
275
276
277
278
279
280
281
282
283
284
285
286
287
288                                                                              Today’s Achievements Assure Tomorrow’s Success

                                             Photo Cover Credits




                                                              B
                                                                           C               D
                                              A




                                                    Images from left to right:

             A	    The Ohio-class guided missile submarine USS Florida (SSGN 728) makes her way through Cumberland
                   Sound to Naval Submarine Base Kings Bay. U.S. Navy photo by Photographer’s Mate 2nd Class Lynn
                   Friant (Released)

             B	    The future USS Freedom (LCS 1), the first ship in the Navy’s new Littoral Combat Ship (LCS) class, is
                   underway to begin Builder’s Trials in Lake Michigan. (Released)

             C	    Marines assigned to 3rd Battalion, 1st Marines, offload from a Landing Craft Air Cushion (LCAC) after
                   disembarking USS Bonhomme Richard (LHD 6).   U.S. Navy photo by Seaman Omar A. Dominquez
                   (Released)

             D	    An F/A-18C Hornet assigned to the “Stingers” on Strike Fighter Squadron (VFA) 113 gets ready to launch
                   off the flight deck of the Nimitz-class aircraft carrier USS Ronald Reagan (CVN 76).  U.S. Navy photo by
                   Mass Communication Specialist 3rd Class Gary Prill (Released)



      Special thanks to Rear Admiral Frank Thorp IV, Chief of Naval Information; Mr. Christopher Madden, Director of the Navy
      Visual News Service; Lieutenant Christopher Bishop, Deputy Director of the Navy Visual News Service; and the staff of the
      Office of the Chief of Naval Information for providing the Department of the Navy photographs.

      Many thanks also to the Financial Operations Team at the Department of the Navy (DON) Office of Financial Operations,
      the extended financial community at the DON major commands, and our accounting partners at the Defense Finance and
      Accounting Service for their dedicated time and effort in producing the Fiscal Year 2008 Department of the Navy Annual
      Financial Report. We dedicate the Fiscal Year 2008 Department of the Navy Annual Financial Report once again to the men and
      women of our Navy and Marine Corps warfighting team.
                              For More Information
                                 Assistant Secretary of the Navy
                             Financial Management and Comptroller
                                  http://www.finance.hq.navy.mil


                                              Navy
                                        http://www.navy.mil

                                         Marine Corps
                                        http://www.usmc.mil




                                          Contact Us
               An electronic copy of this report is available at http://www.fmo.navy.mil
Comments or requests for printed copies of this report may be sent to DON_Financial_Report@navy.mil
